<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA
                             ANNUAL REPORT

                                  2005

=======================================================================

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-753                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON SMITH, Oregon                 FRANK WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  SANDER LEVIN, Michigan
CARL LEVIN, Michigan                 MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         SHERROD BROWN, Ohio
BYRON DORGAN, North Dakota           MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary and List of Recommendations.................     1

II. Introduction: Growing Social Unrest and the Chinese 
  Leadership's Counterproductive Response........................    10

III. Monitoring Compliance With Human Rights.....................    13
    (a) Special Focus for 2005: China's Minorities and Government 
      Implementation of the Regional Ethnic Autonomy Law.........    13
    (b) Rights of Criminal Suspects and Defendants...............    23
    (c) Protection of Internationally Recognized Labor Rights....    36
    (d) Freedom of Religion......................................    43
    (e) Freedom of Expression....................................    55
    (f) Status of Women..........................................    67
    (g) The Environment..........................................    70
    (h) Public Health............................................    72
    (i) Population Planning......................................    75
    (j) Freedom of Residence and Travel..........................    78

IV. Political Prisoner Database..................................    80

V. Development of Rule of Law and the Institutions of Democratic 
  Governance.....................................................    81
    (a) The Development of Civil Society.........................    81
    (b) Legal Restraints on State Power..........................    83
    (c) China's Judicial System..................................    87
    (d) Democratic Governance and Legislative Reform.............    89
    (e) Access to Justice........................................    95
    (f) Commercial Rule of Law and the Impact of the WTO.........    98

VI. Tibet........................................................   105

VII. North Korean Refugees in China..............................   113

VIII. Developments in Hong Kong During 2005......................   115

IX. Appendix: Commission Activities in 2004 and 2005.............   117

X. Endnotes......................................................   120


          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2005 ANNUAL REPORT

            I. Executive Summary and List of Recommendations

    The Commission finds no improvement overall in human rights 
conditions in China over the past year, and increased 
government restrictions on Chinese citizens who worship in 
state-controlled venues or write for state-controlled 
publications. Citizens who challenge state controls on 
religion, speech, or assembly continue to face severe 
government repression. The Commission notes that the Chinese 
government continued to pursue certain judicial and criminal 
justice reforms that could result in improved protection of the 
rights of China's citizens. Yet these positive steps were 
clouded by new detentions and government policies designed to 
protect the Communist Party's rule and tighten control over 
society. These detentions and policies violated not only 
China's Constitution and laws, but also internationally 
recognized human rights standards.
    The Chinese government engaged the international human 
rights community over the past year, hosting visits by the UN 
Working Group on Arbitrary Detention, the UN High Commissioner 
for Human Rights, and the U.S. Commission on International 
Religious Freedom, permitting the International Committee of 
the Red Cross to open a regional office in Beijing, and 
committing to a visit by the UN Special Rapporteur on Torture 
in November 2005. During her recent visit to China, the UN High 
Commissioner for Human Rights Louise Arbour said, ``China has 
declared its commitment to human rights and has raised 
expectations for the country to match its growing prosperity 
with a firm commitment to advancing human rights.'' Arbour also 
expressed concern over China's commitment to human rights and 
raised several political prisoners of concern with government 
officials.
    China has an authoritarian political system controlled by 
the Communist Party. Party organizations formulate all major 
state policies before the government implements them. The Party 
dominates Chinese legislative bodies such as the National 
People's Congress and fills important government positions at 
all levels by an internal selection process. Chinese 
authorities have introduced limited elements of political 
participation at the lowest levels of government to enhance 
their ability to govern. These elements include direct 
elections for village and residents committees, local people's 
congress elections, and some popular input into the selection 
of low-level government and Party officials. The Party controls 
these selection and electoral processes by screening, and often 
selecting, the candidates. Chinese citizens are attempting to 
use the limited political space created by official reforms to 
protect their rights and interests, but Party officials and 
local governments often suppress these efforts, leading to 
social unrest.
    After several wrongful conviction scandals this year, the 
central government permitted a broad public critique of the 
criminal judicial system. This discourse confirmed the extent 
to which coerced confessions, police incompetence, pervasive 
presumptions of guilt, extrajudicial influences on the courts, 
restrictions on defense attorneys, and other problems undermine 
the fairness of the criminal process. Domestic reaction to the 
wrongful conviction scandals created new momentum for some 
criminal justice reforms. Many Chinese scholars and officials 
continue to push for reforms within the boundaries set by the 
Communist Party and Chinese legal culture and seek to engage 
foreign counterparts in this process. The Chinese government 
continues to use administrative procedures and vaguely worded 
criminal laws to detain Chinese citizens arbitrarily for 
exercising their rights to freedom of religion, speech, and 
assembly. The United Nations Working Group on Arbitrary 
Detention noted in December 2004 that the Chinese government 
has not adequately reformed these practices.
    The Chinese government does not recognize the core labor 
rights of freedom of association and collective bargaining. The 
government prohibits independent labor unions and punishes 
workers who attempt to establish them. Wage and pension arrears 
are among the most important problems that Chinese workers 
face. The government issued new regulations seeking to address 
the problem of unpaid wages and pensions, but in many cases Chinese 
workers continue to struggle to collect wages and benefits because 
the relevant agencies do not enforce the regulations. Workplace 
health and safety conditions are poor for millions of Chinese 
workers. China's state-run news media have reported, with some 
exceptions, workplace accidents more openly and promptly than 
in previous years, even when workers have been killed or 
injured. Forced labor is an integral part of the Chinese 
administrative detention system, and child labor remains a 
significant problem in China, despite being prohibited by law.
    The Chinese government continues to harass, abuse, and 
detain religious believers who seek to practice their faith 
outside state-controlled religious venues. Religious believers 
who worship within state-controlled channels are subject to 
government regulation of all aspects of their faith. In 2005, 
the government and Party launched a large-scale implementation 
campaign for the new Regulation on Religious Affairs to 
strengthen control over religious practice, particularly in 
ethnic and rural areas, violating the guarantee of freedom of 
religious belief found in the new Regulation.
    The religious environment for Tibetan Buddhism has not 
improved in the past year. The Party demands that Tibetan 
Buddhists promote patriotism toward China and repudiate the 
Dalai Lama, the religion's spiritual leader. The intensity of 
religious repression against Tibetans varies across regions, 
with officials in Sichuan province and the Tibet Autonomous 
Region currently implementing Party policy in a more aggressive 
manner than officials elsewhere. Sichuan authorities sometimes 
impute terrorist motives to Tibetan monks who travel to India 
without permission.
    The Chinese government continues to repress Catholics. 
Chinese authorities are currently detaining over 40 
unregistered clergy and have taken measures this year to 
tighten control of registered clergy and seminaries. Despite 
assurances of its desire to establish diplomatic relations with 
the Holy See, the Chinese government has not altered its long-
standing position that, as a precondition to negotiations, the 
Holy See must renounce a papal role in the selection of bishops 
and break relations with Taiwan.
    The government continues to strictly regulate Muslim 
practices, particularly among members of the Uighur minority. 
All mosques in China must register with the state-run China 
Islamic Association. Imams must be licensed by the state before 
they can practice, and must regularly attend patriotic 
education sessions. Religious repression in Xinjiang is severe, 
driven by Party policies that equate peaceful Uighur religious 
practices with terrorism and extremism.
    In the past year, the Chinese government continued a 
campaign begun in 2002 that focused on harassing and repressing 
unregistered Protestant groups and consolidating control of 
registered Protestants. Hundreds of unregistered Protestants 
associated with house churches have been intimidated, beaten, 
or imprisoned. The Chinese government opposes the relationships 
that many unregistered Protestant house churches have developed 
with co-religionists outside China.
    Chinese non-profit associations and organizations are 
growing in number and engaging in valuable educational work and 
issue advocacy. While some ministries and local governments 
support these groups, some high-level leaders consider the 
emergence of an independent civil society a threat to 
government and Party control. Central authorities use 
regulations to limit and control the development of civil 
society in China, forcing many groups to remain unregistered or 
operate underground. In 2005, Chinese authorities moved to 
curtail the activities of international and domestic civil 
society organizations, particularly environmental groups that 
challenged government policies.
    Chinese judicial officials announced ambitious reform goals 
in 2005 that would address structural problems affecting the 
Chinese judiciary. These include changes to court adjudication 
committees, the system of people's assessors, and judicial 
review of death penalty cases. Party authorities and local 
governments, however, 
continue to limit the independence of China's courts. Internal 
administrative practices of Chinese courts also compromise 
judicial efficacy and independence. The Chinese judiciary has 
improved the educational level of Chinese judges and the 
quality of their judicial opinions. Rural courts, however, are 
rapidly losing judges to urban areas.
    The Chinese government does not respect the freedom of 
speech and freedom of the press guaranteed in China's 
Constitution. Chinese authorities allow government-sponsored 
publications to report selectively on information that, in 
previous decades, officials would have deemed embarrassing or 
threatening. But in the past year, officials have become less 
tolerant of public discussion that questions central government 
policies. Chinese authorities have tightened restrictions on 
journalists, editors, and Web sites, and continue to impose 
strict licensing requirements on publishing, prevent citizens 
from accessing foreign news sources, and intimidate and 
imprison journalists, editors, and writers.
    Constitutional enforcement remains a politically sensitive 
topic in China, and the near-term prospects for the 
establishment of a more robust constitutional enforcement 
mechanism are remote. The Chinese government has ruled out 
establishing a constitutional court or giving people's courts 
the power to review the constitutionality of laws and 
regulations, but has affirmed the right of 
citizens to petition the National People's Congress Standing 
Committee for review of regulations that violate the 
Constitution or national law. The effect of this right remains 
limited, however, since Chinese citizens have no right to 
compel such review or to challenge the constitutionality of 
government actions. The Chinese 
government has enacted laws to curb administrative abuses, but 
Chinese officials retain significant administrative discretion. 
Existing legal mechanisms provide only limited checks on 
arbitrary or unlawful government actions.
    Minorities that are willing to accept state controls and 
the official depiction of their ethnic groups and histories 
have been able to preserve their cultures while joining Party 
and government ranks. Minorities that demand greater effective 
autonomy and control over their cultural identities, however, 
regularly confront government policies that violate the 
Constitution and the Regional Ethnic Autonomy Law. Government 
policy in Tibetan areas and in Xinjiang most often contravenes 
the Chinese Constitution and law. The government grants 
minorities in southwest China that have accepted central 
authority, like the Zhuang, Yao, and Yi, more freedom to 
exercise their lawful rights. Since 2000, China's autonomous 
regions have experienced increased economic output and 
improved transportation and communication networks, but central 
control over development policy and financial resources has 
weakened economic autonomy in minority areas and 
disproportionately favored Han Chinese in Tibetan, Uighur, and 
other border areas. Central government investment has expanded 
educational access for minorities since 1949, though minority 
literacy rates and levels of educational attainment remain 
below those of the Han. Government-sponsored Han migration to 
minority areas has exacerbated ethnic tensions, particularly in 
Tibetan areas, Xinjiang, and Inner Mongolia.
    The Chinese government promotes conservation, recycling, 
and the use of renewable energy sources to address 
environmental degradation and the depletion of natural 
resources. Weak environmental laws, poor enforcement, and small 
government budgets for environmental protection hamper these 
efforts. The Chinese government promotes international 
cooperation on environmental matters and is receiving foreign 
technical assistance for environmental projects in China.
    The Chinese Constitution and laws provide for the equal 
rights of women, and a network of women's groups advocate to 
protect women's rights. But Chinese women have fewer employment 
opportunities than men, and their educational levels fall below 
those of men. The government has acknowledged these gender 
discrepancies and is taking steps to promote women's interests. 
Chinese women face increasing risks from HIV/AIDS as the 
disease moves from high-risk groups dominated by men into the 
general population.
    Trafficking of women and children in China remains 
pervasive despite government efforts to build a body of 
domestic law to address the problem. China's population control 
policies exacerbate the trafficking problem. China's poorest 
families, who often cannot afford to pay the coercive fines 
that the government assesses when it discovers an extra child, 
often sell or give infants, particularly female infants, to 
traffickers.
    The two greatest public health challenges facing China 
today are infectious diseases and rural poverty. The central 
government is taking steps to improve the public health 
infrastructure in rural areas, but China's poor lack preventive 
healthcare, and weak implementation of laws that provide for 
free vaccinations leave many adults and children unprotected. 
Central government efforts to address China's HIV/AIDS epidemic 
continue to expand and deepen, but local governments often 
harass Chinese activists who work on HIV/AIDS issues. 
Government controls inhibit the flow of health-related 
information to the public, potentially affecting public health 
in China as well as international disease monitoring and 
response efforts.
    The Chinese government continues its population control 
policy, which is scheduled to continue through the mid-21st 
century. Coercive fines are the main enforcement mechanism, 
although reports of local officials using physical coercion to 
ensure compliance continue, even though this practice violates 
Chinese law. The severe gender imbalance resulting from the 
population control policy has grown worse over the past two 
decades. The Chinese government has established a commission to 
draft legislation to criminalize sex-selective abortion.
    National and local authorities are gradually reforming 
China's household registration (hukou) system. In 2005, central 
authorities took some steps toward removing work restrictions 
on migrants in urban areas, but hukou discrimination in public 
services remains prevalent. Hukou reforms are enhancing the 
ability of wealthy and educated citizens to choose their place 
of permanent residence, but strict economic criteria often 
exclude poor rural migrants living in urban areas, preventing 
some of China's most vulnerable citizens from receiving public 
services.
    Chinese citizens resort to thousands of ``letters and 
visits'' (xinfang) offices for redress of their grievances 
because of deficiencies in the legal system and the absence of 
alternative channels for political participation, but only a 
small fraction of their appeals are resolved. Citizen 
frustration is finding an outlet in collective petitions that 
take the form of mass demonstrations or strikes. Because 
Chinese authorities punish local officials more severely for 
large protests, citizens think that collective petitioning is 
more likely to gain results. The government passed new 
regulations in 2005 designed to make the xinfang system more 
responsive to citizen complaints, but these regulations also 
expand the role of xinfang offices and the incentive for 
citizens to resort to collective petitioning.
    The Dalai Lama has said that he does not seek independence 
and aims for a solution based on Tibetan autonomy within China. 
But China's leaders do not seem to recognize the benefits of 
moving forward in the dialogue with the Dalai Lama or his 
envoys. Chinese laws on regional ethnic autonomy contain 
provisions that could benefit Tibetans and their culture, but 
poor government implementation of these laws largely negates 
their potential value. Chinese government statistics suggest 
that Tibetans are not yet prepared to compete in the economic 
and ethnic environment created by central government policies. 
The Tibetan rate of illiteracy is five times higher than 
China's national average. Most Tibetans do not have access to a 
bilingual education system that can impart skills to help them 
compete for employment and other economic benefits. Chinese 
laws and official statements lend credibility to Tibetan 
concerns that programs such as Great Western Development and 
projects such as the Qinghai-Tibet railroad will lead to large 
increases in Han migration. The rights of Tibetans to their 
constitutionally guaranteed freedoms of religion, speech, and 
assembly are subject to strict constraint. Government officials 
persecute prominent Tibetans, especially religious leaders, 
believed to have links to the Dalai Lama.
    The Chinese government forcibly repatriates North Koreans 
seeking refuge in China from starvation and political 
persecution, contravening its obligations to handle refugees as 
required by the 1951 Convention Related to the Status of 
Refugees and its 1967 Protocol. The Chinese government 
classifies all North Koreans in China as ``illegal economic 
migrants'' and denies the United Nations High Commission for 
Refugees (UNHCR) access to this vulnerable population. Living 
conditions of North Koreans in China are harsh, and women and 
children are particularly vulnerable to trafficking and 
prostitution. There is a compelling case for the 
Chinese government to recognize the North Koreans in China as 
refugees and allow the UNHCR access to them: the North Korean 
government regularly denies food to particular groups on 
political grounds, and refugees returned to North Korea face 
long prison terms, torture, or execution.
    The Hong Kong people continue to enjoy an open society in 
which the freedoms of religion, speech, and assembly are 
respected, but the Commission is troubled by a continuing 
pattern of central government interference in Hong Kong local 
governance through interpretations of the Basic Law. The 
Commission emphasizes its belief in the importance of the 
central government's obligation to give Hong Kong the ``high 
degree of autonomy'' promised in the Basic Law and strongly 
supports the provisions of the Basic Law that provide for the 
chief executive and the entire legislature to be elected 
through universal sufferage. The Hong Kong judiciary 
demonstrated its continued independence by protecting the right 
of citizens to demonstrate in a case overturning the 
convictions of eight Falun Gong practitioners, despite the 
central leadership's ongoing campaign to eliminate the Falun 
Gong movement.
    The Chinese government tolerates intellectual property 
infringement rates that are among the highest in the world, and 
has not introduced criminal penalties sufficient to deter 
intellectual property infringement. Steps taken by Chinese 
agencies in the past 12 months to improve the protection of 
foreign intellectual property have not produced any significant 
decrease in infringement activity. The Chinese government has 
made progress in bringing its laws into compliance with its WTO 
commitments. Although significant flaws remain, the new body of 
commercial laws has improved the business climate for foreign 
companies in China. With new, more transparent rules, the 
Chinese trade bureaucracy has reduced regulatory and licensing 
delays. The government has not fully implemented the key WTO 
principles of national treatment, non-discrimination, and 
transparency in such areas as distribution and agriculture. To 
address these problems, the Chinese government must continue 
economic reforms, establish a more transparent and consistent 
regulatory and licensing system, implement and enforce 
distribution rights for foreign companies, and strengthen 
enforcement of intellectual property laws.

                            Recommendations

    The Commission is working to implement the recommendations 
made in the 2002, 2003, and 2004 Annual Reports until they are 
achieved. Based on the findings presented in this report and 
the Commission's belief that the United States must continue to 
pursue a dual policy of high-level advocacy on human rights 
issues and support for legal reform efforts, the Commission 
makes the following additional recommendations to the President 
and the Congress for 2005:

Human Rights for China's Citizens
        <bullet> The Commission's Political Prisoner Database 
        is a unique resource for promoting human rights in 
        China. Members of Congress should use the Database to 
        support their own advocacy of political and religious 
        prisoners in China, and should ask official and private 
        delegations traveling to China to present officials 
        there with lists of political and religious prisoners 
        derived from the Database. Members should also urge 
        state and local officials and private citizens involved 
        in sister-state and sister-city relationships with 
        China to use the Database to build new advocacy efforts 
        for the release of political and religious prisoners.
        <bullet> Recent Chinese government regulations on 
        implementing the Regional Ethnic Autonomy Law require 
        all local governments to draft and implement measures 
        to protect minority rights and to teach citizens about 
        their rights under this law. The President should 
        propose, and the Congress should appropriate, funds for 
        U.S.-based NGOs to provide legal and technical training 
        to assist in these efforts. The President and the 
        Congress should continue to urge Chinese officials not 
        to use the global war against terrorism as a pretext to 
        suppress minorities' legitimate, peaceful aspirations 
        to exercise their rights protected by the Chinese 
        Constitution and the Regional Ethnic Autonomy Law.
        <bullet> Trafficking of women and children in and 
        through China remains pervasive despite government 
        efforts to address the problem. The Chinese government 
        is collaborating with UN agencies and has adopted 
        national measures to control human trafficking, 
        principally by passing criminal laws to punish 
        traffickers and giving public security bureaus the 
        chief responsibility for the elimination of 
        trafficking. The President and the Congress should 
        continue to support international programs to build law 
        enforcement capacity to prevent trafficking in and 
        through China, and should develop and fund additional 
        programs led by U.S.-based NGOs that focus on the 
        protection and rehabilitation of victims, especially 
        legal and educational assistance programs.
        <bullet> China's leaders rank social stability as a key 
        priority and have taken some top-down measures to 
        address abusive official behavior that contributes to 
        social unrest. The President and the Congress should 
        encourage the Chinese government to 
        continue these positive steps, but should also press 
        the Chinese leadership for the kinds of bottom-up 
        changes that will ensure a stable future for China, 
        including (1) expanding popular participation in 
        politics by curbing the discretion of election 
        committees; (2) lifting current restrictions on civil 
        society by 
        removing the sponsor organization requirement; (3) 
        removing restrictions on the news media; (4) giving 
        Chinese citizens the power to enforce constitutional 
        protections; (5) and taking decisive steps to make the 
        judiciary independent.
        <bullet> The future of Tibetans and their religion, 
        language, and culture depends on fair and equitable 
        decisions about future policies that can only be 
        achieved through dialogue. The Dalai Lama is essential 
        to this dialogue. To help the parties build on visits 
        and dialogue held in 2003, 2004, and 2005, the 
        President and the Congress should urge the Chinese 
        government to move the current dialogue toward deeper, 
        substantive discussions with the Dalai Lama or his 
        representatives, and encourage direct contact between 
        the Dalai Lama and the Chinese leadership.

Religious Freedom for China's Faithful
        <bullet> The freedom to believe and to practice one's 
        religious faith is a universal and essential right, and 
        the Chinese leadership should allow true freedom of 
        religion for all Chinese citizens. The President and 
        the Congress should foster and support the development 
        of the freedom of religion in China by continuing 
        longstanding U.S. diplomacy on the importance of 
        religious freedom, and urging Chinese government 
        engagement with the UN Special Rapporteur on Religious 
        Intolerance and a continuing dialogue with the U.S. 
        Commission on International Religious Freedom.
        <bullet> The new Regulation on Religious Affairs 
        adopted in 2005 permits religious organizations to run 
        social welfare enterprises and religious believers and 
        organizations to challenge official violations of their 
        rights. The President should propose, and the Congress 
        should appropriate, funds to permit U.S. NGOs to help 
        develop voluntary, independent social welfare projects 
        and educational initiatives run by religious 
        organizations. The President should also propose, and 
        the Congress should fund, appropriate U.S. legal 
        advocacy organizations to help Chinese believers 
        understand their rights and seek redress for official 
        violations of these rights.

Labor Rights for China's Workers
        <bullet> U.S. law prohibits imports into the United 
        States of forced labor products and the Commission is 
        concerned that products resulting from forced labor in 
        China may be reaching the United States. The President 
        should direct the China Prison Labor Task Force created 
        under Title V of Public Law 106-286 to establish an 
        electronic database of sites in China known to be 
        forced labor camps or production facilities. Imports 
        into the United States of products manufactured in 
        whole or part in facilities listed in this database 
        should be presumptively considered to be the products 
        of forced labor as defined in Section 307 of the Tariff 
        Act of 1930, until an inspection by U.S. customs 
        officials determines otherwise.
        <bullet> Wage and pension arrears are growing problems 
        in China and cause labor unrest. The President and the 
        Congress should support exchange and training programs 
        with Chinese organizations on orderly systems of wage 
        and pension payments, including the collection and 
        payment of outstanding wages and pensions.

Free Flow of Information for China's Citizens
        <bullet> The rights to freedom of speech and freedom of 
        the press are internationally recognized and are 
        guaranteed in the Chinese Constitution, but Chinese 
        citizens generally do not know that they have these 
        rights. The President should propose, and the Congress 
        should appropriate, funds to support U.S. programs to 
        develop technologies that would help Chinese citizens 
        access Internet-based information currently unavailable 
        to them, as well as educational materials about their 
        rights under international law to freedom of speech and 
        freedom of the press.
        <bullet> The Chinese government uses technology, prior 
        restraints, intimidation, detention, imprisonment, and 
        vague and arbitrarily applied censorship regulations to 
        suppress free expression and control China's media. The 
        President and the Congress should urge the Chinese 
        government to eliminate prior restraints on publishing, 
        cease detaining journalists and writers, stop blocking 
        foreign news broadcasts and Web sites, and specify 
        precisely what kind of political content is illegal to 
        publish.

Rule of Law and Civil Society
        <bullet> The Chinese government forcibly repatriates 
        North Koreans seeking refuge in China and denies the 
        Office of the United Nations High Commissioner for 
        Refugees (UNHCR) access to this vulnerable population, 
        contravening its obligations under the 1951 Convention 
        Related to the Status of Refugees and its 1967 
        Protocol, as well its 1995 Agreement with the United 
        Nations. The President and the Congress should press 
        the Chinese government to uphold its international 
        agreements and grant the UNHCR unimpeded access to 
        screen North Koreans' refugee petitions.
        <bullet> The Resident Legal Advisor at the U.S. Embassy 
        in Beijing has provided important analysis of legal 
        reform developments in China and coordination for legal 
        exchanges between the United States and China. Despite 
        this important role, the Advisor position has no 
        permanent funding source. The President and the 
        Congress should work to create a permanent Resident 
        Legal Advisor position at the U.S. Embassy in Beijing.
        <bullet> The Chinese government has developed a new 
        body of commercial law since acceding to the WTO in 
        2001, but many Chinese officials, judges, and lawyers 
        have not been trained on the new laws and do not 
        understand the legal principles. The President should 
        propose, and Congress should fund, a technical 
        assistance program for Chinese officials conducted by 
        the Commercial Law Development Program at the U.S. 
        Department of Commerce. The program should emphasize 
        effective methods of criminal enforcement of 
        intellectual property rights given the persistently 
        high levels of piracy and counterfeiting; the 
        consistent application of trade-related measures at 
        different levels of government; techniques to improve 
        transparent procedures in governance; and the 
        implementation of the key WTO principles of national 
        treatment, non-discrimination, and transparency.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. The views and recommendations 
expressed in this report, however, do not necessarily reflect 
the views of individual Executive Branch members or the 
Administration.
    This report was approved by a vote of 18 to 1, with 1 
answering ``present.''<dagger>

 II. Introduction: Growing Social Unrest and the Chinese Leadership's 
                       Counterproductive Response

Growing Social Unrest and the Roots of Instability
    Social unrest in China is growing. According to official 
Chinese statistics, the number of public protests in China 
increased every year between 1993 and 2004. In 2003, public 
security authorities reported 58,000 public protests involving 
more than 3 million people. In 2004, public security 
authorities reported 74,000 public protests involving more than 
3.5 million people, and a seven-fold rise from the 10,000 
protests recorded in 1994. In October 2004 alone, more than 2 
million farmers reportedly took part in more than 700 protests.
    Many problems fuel China's social unrest. Unlawful land 
seizures and embezzled compensation payments led to numerous 
land disputes, with one Chinese social scientist warning of 
``turbulence'' if the government does not solve these problems. 
Laid off workers and pensioners protested unpaid wages, poor 
labor conditions, and unemployment, with some incidents 
involving tens of thousands of protestors. Abusive police 
behavior sparked large-scale protests in Chongqing, Gansu, 
Guangdong, Sichuan, and Yunnan last year. Environmental 
degradation is also a growing cause of citizen protests. The 
number of collective petitioning efforts, involving hundreds or 
thousands of protestors trying to present their grievances to 
officials at successively higher levels of government, is 
growing. Public anger also manifests itself on the Internet, 
where reports on law enforcement abuse sometimes generate waves 
of media criticism and individual commentary.
    Most demonstrations begin peacefully, but some turn 
violent, often in response to government crackdowns. Last fall 
in Chongqing, for example, an official's alleged abuse of a 
vendor during a minor street scuffle led to a riot involving 
more than 10,000 citizens. In November 2004, authorities in 
Sichuan province dispatched more than 10,000 troops and police 
to control a demonstration involving nearly 100,000 farmers 
angry over a hydroelectric project and related land 
confiscations. In June 2005, hundreds of armed thugs linked to 
a local development project reportedly killed 10 villagers and 
seriously wounded more than 100 while trying to evict the 
villagers from their land in Henan province.
    The inability of government institutions and legal 
mechanisms to address corruption and social conflicts magnifies 
public anger. Official statistics indicate that the number of 
citizen petitions to 
government offices is growing rapidly, but according to Chinese 
scholars, government agencies address only about 0.2 percent of 
them. Chinese citizens may sue government officials under the 
Administrative Litigation Law, but they face a number of 
obstacles in successfully bringing such claims. These obstacles 
include a lack of legal representation, weak judicial capacity, 
Party and government interference in the courts, judicial 
corruption, and the prospect of official resistance or even 
retribution. In some cases, authorities specifically instruct 
courts not to accept too many administrative claims. Chinese 
law prohibits citizens from forming independent civil society 
organizations to support citizen complaints, and the Party 
limits political participation to channels that it designates, 
monitors, and controls. Without effective administrative, 
legal, and political channels through which to redress their 
grievances, citizens often have little choice but to protest.
The Leadership's Counterproductive Response
    China's leaders rank social stability as a key priority, 
and officials are attempting to address some of the immediate 
causes of 
social unrest. In the past year, the government passed laws and 
initiated campaigns with the stated goals of combating 
corruption, curbing law enforcement abuse, limiting 
administrative discretion, and resolving such problems as 
unlawful land seizures and unpaid wages. In an effort to defuse 
resentment of law enforcement agencies, for example, the 
Ministry of Public Security and the Supreme People's 
Procuratorate initiated campaigns to address corruption, 
unlawful detention, and torture. The government has also 
undertaken efforts to ensure that employers pay migrant 
laborers.
    While taking some steps to address public anger, the 
leadership has also imposed new controls that intensify the 
underlying causes of social unrest. Over the past year, the 
Chinese government launched a campaign to increase restrictions 
on the free flow of information. As part of this campaign, 
officials banned hundreds of ``illegal'' political 
publications, established a licensing system for reporters, and 
imposed new registration requirements for Web sites. Officials 
also prosecuted journalists and editors who reported too 
aggressively on local abuses and prohibited the use of text 
messaging and other media to circulate ``rumors'' and other 
``harmful'' information. The Central Propaganda Department 
prohibited reporting on political and social topics the Party 
deemed sensitive or embarrassing. In May 2005, for example, the 
Department issued a new directive limiting the ability of news 
media to publish exposes on corruption and abuse in other 
locales. In late 2004, censors banned reports on land seizures, 
warning news media against ``inducing and intensifying 
contradictions.'' Authorities also restricted public reporting 
on demonstrations and disturbances. These controls undermine 
the press, one of the few existing checks on local abuse, and 
leave officials and powerful private interests free to engage 
in the corrupt practices that are generating unrest across 
China.
    The government also launched a new crackdown on 
intellectuals, social critics, and public activists. In the 
fall of 2004, the Liberation Daily published a critique of 
``public intellectuals,'' declaring that ``the concept of 
public intellectuals had been introduced to drive wedges 
between intellectuals and the Party and between intellectuals 
and the general public.'' Since then, authorities have 
harassed, detained, and imprisoned many intellectuals and 
activists, including some who were working to address social 
and economic problems that the central leadership had 
acknowledged. For example, police arrested Li Boguang, who had 
been helping farmers 
petition the central government over local land abuses in 
Fujian province; Yang Tianshui, an advocate for migrant 
laborers; and Chen Guangcheng, a blind lawyer who had been 
campaigning against forced sterilizations and abortions in 
Shandong province. Police also detained Ye Guozhu and Ni Yulan, 
two Beijing housing activists, after they attempted to follow 
legal procedures and applied for a permit to protest forced 
evictions in Beijing.
    Similarly, the Chinese government has increased controls 
over civil society and autonomous social organizations. The 
government continues to subordinate China's state-run union to 
the interests of the Party and prohibit the formation of 
independent labor unions that could address worker grievances. 
Early in 2005, authorities took steps to curb the growing 
activism of environmental groups that had challenged government 
development decisions by pressuring them to join a government-
controlled umbrella organization. Officials also began a 
crackdown on social groups registered as business organizations 
and continued to enforce restrictive registration and 
sponsorship requirements for civil society organizations. 
Government and Party officials have acknowledged the 
important role that voluntary social organizations play in 
helping to address China's social problems. Instead of 
supporting the development of civil society organizations that 
could help resolve social and economic issues, however, the 
Chinese leadership has imposed new restrictions on these groups 
that undermine their ability to provide assistance, forcing 
many to operate underground.
    Government repression of unregistered religious believers 
and ethnic minorities also contributes to instability. In 2005, 
the Chinese leadership refocused government attention on the 
traditional Party fear that religion and ethnicity are being 
used by ``hostile outside forces'' to infiltrate and 
destabilize Chinese society. As a result, instead of 
implementing China's new Regulation on Religious Affairs in a 
way that offers new redress to believers against errors and 
abuses by the state's religious bureaucracy and encourages 
faith-based social organizations, the Party directed local 
officials to ``control'' believers. Such tactics force 
religious expression underground and push otherwise law-abiding 
believers into conflict with the government.
    The Chinese government relies on a combination of top-down 
rectification campaigns, political controls, and repression to 
achieve its version of social stability. These measures have 
failed to control corruption, local abuses, and social unrest, 
fueling additional resentment on the part of China's citizens. 
Citizen efforts to address government abuses are driven 
underground, while local officials enjoy even greater 
discretion to violate rights. Without full transparency, free 
information flow, independent political participation, a 
vibrant civil society, genuine autonomy for ethnic minorities 
and religious believers, enforceable constitutional and legal 
rights, and effective checks on administrative discretion, 
China's leaders will not achieve the goal of maintaining a 
stable internal environment as the foundation for continued 
national development.

              III. Monitoring Compliance With Human Rights


   III(a) Special Focus for 2005: China's Minorities and Government 
           Implementation of the Regional Ethnic Autonomy Law


                                FINDINGS

        <bullet> Minorities that are willing to accept state 
        controls and the official depiction of their ethnic 
        groups and histories have been able to preserve their 
        cultures while joining Party and government ranks. 
        Minorities that demand greater effective autonomy and 
        control over their cultural identities, however, 
        regularly confront government policies that violate the 
        Constitution and the Regional Ethnic Autonomy Law. 
        Government policy in Tibetan areas and in Xinjiang most 
        often contravenes the Chinese Constitution and law. The 
        government grants minorities in southwest China that 
        have accepted central authority, like the Zhuang, Yao, 
        and Yi, more freedom to exercise their lawful rights.
        <bullet> Since 2000, China's autonomous regions have 
        experienced 
        increased economic output and improved transportation 
        and communication networks, but central control over 
        development policy and financial resources has weakened 
        economic autonomy in minority areas and 
        disproportionately favored Han Chinese in Tibetan, 
        Uighur, and other border areas. Central government 
        investment has expanded educational access for 
        minorities since 1949, though minority literacy rates 
        and levels of educational attainment remain below those 
        of the Han. Government-sponsored Han migration to 
        minority areas has exacerbated ethnic tensions, 
        particularly in Tibetan areas, Xinjiang, and Inner 
        Mongolia.

China's Ethnic Minorities and Minority Policy

    China's ethnic makeup is complex.\1\ Fifty-five minority 
groups speak more than 60 languages\2\ and practice a variety 
of religions. Though they constitute less than 9 percent of the 
total population, minorities are spread across almost two-
thirds of the Chinese landmass, chiefly along international 
borders. More than 30 minority groups have ethnic counterparts 
in neighboring countries,\3\ and Communist Party policies in 
minority areas stress loyalty to China. Government concerns 
over the loyalty of minorities have increased with the growth 
of popular movements in neighboring Central Asian states.\4\
     Minorities are typically much poorer than members of the 
Han majority.\5\ Chinese authorities argue that tensions 
between the Han and minorities result primarily from uneven 
levels of economic development. Officials stress that ``all 
minority problems'' can be resolved by promoting socialist 
development and increasing propaganda on the interdependence of 
the country's nationalities and on the ``correct interpretation 
of ethnic histories.'' \6\ Not all minorities support the 
central government's development approach, contending that 
economic advancements disproportionately favor Han Chinese.\7\ 
Nevertheless, central authorities report marked improvements in 
social and economic development within the autonomous areas. 
When the Party assumed power in 1949, less than 20 
percent of the minority population had even limited Mandarin 
language competency, illiteracy rates were high,\8\ poverty was 
widespread, and transportation and communication infrastructure 
was nearly non-existent. Discrepancies in wealth between 
minorities and Han Chinese have increased since market reforms 
began in 1978,\9\ and literacy rates in many minority areas 
remain far below the national average.\10\ Central government 
investment in minority regions has, however, raised overall 
educational levels,\11\ improved transportation and 
communication networks, and trained a corps of minority cadres 
willing to work in government.
    The Chinese Constitution, the 1984 Regional Ethnic Autonomy 
Law (REAL),\12\ and a number of related laws and regulations 
define minority rights. The Constitution entitles minorities to 
establish autonomous governments in territories where they are 
concentrated, but like all Chinese citizens, minorities must 
accept the leadership of the Party,\13\ ``safeguard the 
security, honor, and interests of the motherland,'' and place 
the interests of the state ``above anything else.'' \14\ The 
REAL grants autonomous governments the authority to formulate 
regulations reflecting local minority culture as long as they 
do not directly contravene central policy.\15\ The law allows 
autonomous governments to alter, postpone, or annul national 
legislation that conflicts with local minority practices, but 
the next higher level of government must approve such changes 
and they may not contradict the basic spirit of national 
policies.\16\
    Implementation of the REAL varies greatly by region and by 
minority group.\17\ The Chinese government prohibits all 
Chinese citizens from expressing sentiments that ``incite 
splittism'' or ``divide nationality unity,'' but monitors 
minorities more closely than Han Chinese.\18\ The government 
grants a degree of local autonomy to ethnic groups that accept 
the central government's authority, but silences those who 
attempt peacefully to advocate their rights under Chinese law. 
Mongol activist Hada, for example, is serving a 15 year prison 
sentence for organizing peaceful demonstrations for rights 
provided in the REAL. Minorities in the southwest have had more 
freedom to exercise their autonomy because they rarely 
challenge central authority.\19\ The government tightly 
restricts religious practices and expressions of cultural 
identity in Xinjiang, 
Tibetan areas, and Inner Mongolia, however. In contrast to 
southwestern minorities, the Tibetans, Uighurs, and Mongols 
live in cohesive communities largely separated from Han 
Chinese, practice major world religions, have their own written 
scripts, and have supporters outside of China. Relations 
between these minorities and Han Chinese have been strained for 
centuries.
    The government continued to violate minority rights in 
Tibetan areas and Xinjiang throughout the year, but elsewhere 
Chinese authorities took some steps to improve the treatment of 
minorities. In May 2005, the State Council announced new 
Regulations on Implementing the Regional Ethnic Autonomy Law 
(REAL Implementing Regulations). The Regulations include 
provisions increasing compensation requirements for central 
government extraction of 
natural resources from autonomous regions,\20\ strengthening 
the monitoring and reporting mechanisms on REAL 
implementation,\21\ and developing guidelines for penalizing 
government officials who violate minority rights.\22\ The REAL 
Implementing Regulations also require local governments to 
educate minorities about their rights and to draft specific 
measures to protect their rights and interests.\23\ A 
university and several governments in autonomous areas 
announced new legal aid and social services centers throughout 
the year.\24\ In March, a group of Darhad Mongols successfully 
invoked rights provided in the REAL, United Nations 
regulations, and the national Land Administration Law to bar 
the construction of a Han Chinese-owned Genghis Khan theme park 
on a site overseen by Mongols since 1696.\25\
    Despite these positive steps, the REAL Implementing 
Regulations also increase the role of the central government in 
autonomous areas, reflecting a broader national campaign to 
increase Party controls over society. All of the new State 
Council measures are binding on autonomous governments, 
including specific economic development projects, language 
policies, and migration policies that the autonomous 
governments previously had the authority to determine 
themselves.\26\ Central authorities also tightened controls 
over minority cultural representation and launched an extensive 
propaganda campaign on the role of China's minorities in 
building a united, multi-ethnic nation.\27\ The same campaign 
stresses that future prospects for minorities depend on 
cooperating with the Han majority.

Legal Framework For Minority Rights

    Minority rights protected under Chinese law may be roughly 
divided into seven categories: self-governance and 
representation, economic autonomy, educational autonomy, 
religious freedom, cultural expression, language use, and 
freedom from discrimination. Although the laws themselves 
contain provisions ensuring central control over minority 
areas,\28\ much of the discontent among minorities with central 
authority stems from uneven and incomplete implementation of 
the law rather than flaws in the legal framework itself.

            Self-governance and minority representation

    The Constitution entitles minorities living in concentrated 
communities to establish autonomous governments,\29\ though 
their autonomy remains limited in practice. The 1984 REAL grants 
autonomous governments all of the powers awarded other local 
governments and the right to formulate three additional types 
of regulations: self-governing regulations, separate 
regulations,\30\ and separate alterations to national laws. 
None of these regulations may contradict the ``basic 
principles'' of national laws or policies, though the local 
regulations may adapt national laws, regulations, and policies 
to suit local minority customs.\31\ Self-governing regulations 
establish each autonomous government's organizational structure 
and local economic, cultural, and public service development 
plans. Self-governing regulations must be approved by the next 
higher-level government before final submission to the National 
People's Congress Standing Committee (NPCSC). To date, the 
NPCSC has not approved any self-governing regulations of the 
five provincial-level autonomous regions,\32\ although 133 of 
the country's 30 autonomous prefectures and 120 autonomous 
counties have issued local self-governing regulations.\33\ Most 
of these self-governing regulations were passed between 1984 
and 1992, and a number of their provisions have not kept pace 
with continuing changes in central government political, 
economic, and social policies.\34\
    Autonomous governments have passed 383 separate regulations 
and 68 alterations to national laws, but they are vaguely 
worded and address only a limited set of state-approved 
topics.\35\ Most of these rules lower the legal marriage age 
for minorities, and only a few give greater fiscal autonomy or 
control over local natural resources to the local 
governments.\36\ Several Chinese scholars argue that autonomous 
regulations fail to reflect local minority conditions, 
rendering the concept of regional autonomy ``purely 
cosmetic.'' \37\ The inability of autonomous governments to 
pass effective local regulations, combined with the poor 
implementation of such regulations and a lack of trained 
minority legal personnel, undermines the development of the 
rule of law in minority areas.\38\
    Chinese legal analysts note that minorities would better 
accept the formal legal system if autonomous regulations 
accurately reflected minority customs.\39\ One minority scholar 
laments that minorities ``often simply give up on litigation and 
handle matters privately, through customary minority practice'' 
because the courts ``ignore the existence of minority customs'' 
and lack financial and political independence.\40\ Autonomous 
governments in Muslim areas, for example, have yet to pass 
legislation to legalize Islamic inheritance customs that 
directly conflict with the National Inheritance Law.\41\
    The Chinese government has passed a number of laws and 
policies designed to increase minority representation within 
the government and state-owned enterprises, but minorities 
remain underrepresented and fill a disproportionate number of 
low-level positions in the government.\42\ The REAL requires 
that the head of each autonomous government be drawn from the 
titular minority and that state personnel be drawn equitably 
from local minority groups. The government has funded 13 
institutes of higher education to train minority students and 
mid-level officials, and promotes minorities with ``solid 
political viewpoints'' that match state policies.\43\ But the 
educational level of minority government employees remains 
lower than their Han counterparts,\44\ and minorities are 
inadequately represented within economic agencies.\45\ Although 
minorities are well represented in the National People's 
Congress,\46\ the legislature remains subordinate to the Party 
and individual deputies wield little power.
    Chinese law makes no provision for minority representation 
within the Party apparatus, where minorities constitute only 
6.3 percent of the total membership and rarely hold high-level 
positions.\47\ In 2000, each of the 125 regional, prefectural, 
municipal, and county-level Party first secretaries in Xinjiang 
was Han, as were the first secretaries of all five provincial-
level autonomous regions.\48\ Reflecting the sensitivity of the 
subject, neither the press nor scholarly journals discuss 
minority representation in the Party.\49\ The Party's official 
atheism, reflected in a rule prohibiting Party members from 
practicing religion, also undermines minority participation in 
Party affairs.\50\
    The central government continues to place Han Chinese 
``from the interior'' into key technical and political posts in 
autonomous areas and to encourage Han laborers and farmers to 
move into these regions.\51\ The government contends that this 
is necessary to ``lead'' economic development in these areas 
and combat efforts to undermine ethnic unity by ``hostile 
domestic and foreign forces.'' \52\ The policy has undermined 
minority autonomy and increased ethnic tensions, most 
dramatically in Xinjiang and Tibetan areas. Central and local 
directives emphasize that Han leadership is needed to spur 
development in autonomous areas due to the dearth of educated 
minorities,\53\ but the government encourages technically 
trained minorities to leave the autonomous areas while 
supporting the influx of both skilled and unskilled Han 
workers.\54\ The REAL Implementing Regulations require 
autonomous governments to ``guide and organize'' local 
residents to go to ``other areas'' in search of jobs and 
business opportunities.\55\ By government decree, officials 
that have been relocated to autonomous areas are better 
compensated than local administrators. The REAL Implementing 
Regulations increase the central government's commitment to 
transferring Han personnel ``from all fields and all levels'' 
to minority areas, extending a policy that the State Ethnic 
Affairs Commission boasts has already sent ``tens of thousands 
of cadres to the border areas since 1982.'' \56\

            Economic autonomy
    Although the economies of the minority regions have grown 
substantially since 1949, central authorities often determine 
development strategies with little input from minority 
residents. Central authorities provide autonomous governments 
additional funds and financing options beyond those provided 
non-autonomous governments.\57\ At the same time, autonomous 
areas have become in-
creasingly dependent on central subsidies to support their 
local 
operating budgets, particularly since the launch of the Great 
Western Development program in 2000.\58\ More than 60 percent 
of Xinjiang's economy is state-owned, for example, and 
centrally funded infrastructure projects and major natural 
resource extraction projects since 2000 have increased the 
central government's share of the Xinjiang economy. Minorities 
often complain that they are not benefiting from the central 
economic development programs,\59\ though such allegations are 
difficult to confirm given tight controls over reporting on 
certain types of economic information.
    Chinese law grants autonomous regions the right to manage 
and protect their natural resources,\60\ but state policies 
often ignore such provisions. The Chinese Constitution states 
that all natural resources are owned by ``the state, that is, 
by the whole people,'' but the REAL grants autonomous 
governments the right to assign ownership of the pastures and 
forests within these areas and requires the state to give 
minorities some compensation for all natural resources 
extracted from their territories.\61\ Human rights groups and 
Western analysts note that central government grasslands 
policies threaten to destroy the nomadic lifestyle of many 
Mongols and Tibetans. These analysts also say that the 
minorities have been denied a voice in grasslands 
management.\62\ Increased Han immigration into Xinjiang has 
increased pressure on scarce water resources and contributed to 
rapid desertification.\63\ Many minorities complain privately 
that Han developers are stripping away their natural resources 
and that Han Chinese monopolize high paying jobs in resource 
extraction projects. The REAL Implementing Regulations require 
that all natural resource extraction projects in autonomous 
areas benefit local economic development and employment, though 
it is too early to tell if the Regulations will result in 
policy changes. The Regulations also mandate new compliance 
monitoring and reporting mechanisms and impose 
administrative and criminal penalties on those violating the 
Regulations,\64\ which may encourage greater compliance with 
the Regulations by developers.

            Educational autonomy
    Although the REAL grants autonomous governments the right 
to control their educational systems,\65\ the central 
government retains tight control over the curricula and 
promotes the use of Mandarin Chinese in the classroom. 
Autonomous governments and the central government have 
developed an array of special schools and programs for 
minorities, increasing the total number of ethnic students 
enrolled in classes more than 17-fold since 1949.\66\ 
Minorities accounted for only 1.4 percent of the total student 
population in institutes of higher learning in 1949, but the 
figure rose to 6 percent by 1999.\67\ Minorities are allowed to 
enter universities with lower test scores than Han and are 
eligible for special scholarships. The government has 
established special year-long preparatory classes for 
minorities requiring remedial assistance before they enter 
universities. More than 9,000 students attended such classes in 
2001.\68\ The government has also set up special mobile classes 
catering to nomadic minority communities.
    Minorities are entitled by law to set their own curricula, 
but in practice the central government strictly controls the 
content of teaching materials in minority classes to ensure 
``the proper understanding of nationality relations and 
advanced socialist thinking.'' \69\ Educators in autonomous 
areas report that the government controls the content of 
history textbooks strictly. They complain that textbooks 
written in the local minority script are translations of the 
standard Chinese texts.\70\ One Western study found that 
minority students have difficulty relating to the material in 
the standard Chinese curriculum and thus lose interest in 
learning.\71\

            Religious freedom
    The Constitution entitles minorities, like all citizens of 
China, to freedom of religious belief, though Uighurs and 
Tibetans have been effectively stripped of this right. Religion 
is the central marker of ethnic identity for many minorities, 
and the government often equates the religious activities of 
these groups with ``ethnic chauvinism'' and ``local 
splittism.'' \72\ The government represses Uighur and Tibetan 
religious practices [see Section III(d)--Freedom of Religion 
and Section VI--Tibet], though official policy concedes that 
minority religious beliefs are a ``long-term issue'' and 
``cannot be forcibly resolved in the short-term.''\73\ 
Minorities outside of Xinjiang and Tibetan areas who belong to 
one of the five officially recognized religions are generally 
allowed to practice their religions in registered religious 
venues managed by state-licensed clergy. Many minorities 
practice religions unique to their ethnic groups (and not one 
of the five state-recognized religions), which the government 
tacitly allows as a ``minority custom'' rather than as a 
religion per se.\74\ Autonomous governments are required to 
teach ``scientific thinking,'' a Party catchphrase for atheism, 
in the public school system and must prevent religion from 
``infiltrating'' the educational system.

            Cultural expression
    The central government has tightened controls over 
political expression during the past 12 months throughout the 
country [see Section III(e)--Freedom of Expression], including 
in minority areas. The government increased already strict 
controls over how minority cultural traits, histories, and 
religions are depicted in popular media and schools as well as 
in academic circles. Officials also tightened controls on 
cultural expressions about minority relations with Han Chinese 
and increased propaganda in 2005 highlighting both the 
achievements of Party minority policy and the official view of 
minority relations.\75\ In May, Central Chinese Television 
broadcasted a series of documentaries on the accomplishments of 
the regional autonomy system and a feature film set in Tibetan 
areas and Yunnan depicting ``the great melding of nationalities 
into a single whole, bound by blood and affection.'' \76\ Since 
1949, the Party has monitored all forms of expression in 
autonomous areas to assure that minorities accept official 
Party historiography.\77\ As recently as 2002, authorities held 
public book burnings of minority-authored works that conflict 
with official histories depicting relations among the 
minorities as harmonious.\78\ To co-opt the histories of 
minority groups, the central government has invested in ethnic 
``cultural enterprise centers'' where minorities conduct 
officially sanctioned research and attend approved cultural 
festivities and performances.\79\ The State Council's February 
2005 White Paper on Regional Autonomy hails the expansion of 
minority language publications and broadcasts, artistic 
troupes, museums, libraries, and histories,\80\ but also 
stresses the role of the central government in each of these 
cultural enterprises.\81\

            Language policy
    The REAL entitles minorities to use and develop their own 
spoken and written languages,\82\ though in practice language 
policy varies by region and ethnic group.\83\ The law says that 
minorities should use textbooks written in their own languages 
``whenever possible'' and use these languages as the medium of 
instruction. Though many minorities continued to use their 
native languages in primary and some middle schools,\84\ the 
central government increased its efforts this year to promote 
universal competency in Mandarin Chinese throughout the 
country.\85\ In some minority areas, local groups reported 
decreased government support for minority language use, but few 
overt restrictions.\86\ In Xinjiang the policy appeared more 
coercive, as discussed later in this section [for more on 
language policy in Tibetan areas, see Section VI--Tibet]. 
Upward social, economic, and political mobility is increasingly 
dependent upon one's ability to use Mandarin Chinese. Many 
minority groups welcome the opportunity to develop their 
Mandarin skills, while emphasizing the importance of promoting 
their own minority languages.
    The Inner Mongolia Autonomous Region government passed a 
new regulation in May which, if properly implemented, promises 
to expand the use of the Mongol language. The regulation calls 
for increased use of Mongolian in regional colleges, economic 
incentives for students in Mongolian language schools, merit 
increases for bilingual government workers, and increased 
Mongolian media broadcasts. It also mandates greater regional 
funding for minority language publications and broadcasts.\87\ 
The regulation contains more specific provisions for promoting 
the Mongol language and elevating the status of Mongolian 
speakers than found in national laws or other local 
regulations.\88\ The new regulation also contains enforcement 
clauses, making it more likely to be implemented than earlier 
official statements supporting minority language use.

            Freedom from discrimination
    The Chinese Constitution states that all minorities are 
equal and prohibits all acts that discriminate against or 
oppress nationalities. Nevertheless, ethnic discrimination 
continues to exist throughout China, in both the government's 
controls over cultural and religious expression and in private 
and governmental hiring practices. Many Han Chinese 
entrepreneurs with businesses in autonomous areas intentionally 
recruit Han workers from neighboring provinces rather than work 
with local minorities.\89\ Employers favor those with fluent 
Mandarin language skills and, in some areas, certain job 
listings bar specific minorities from applying.\90\ In the 
Tibetan Autonomous Region, the highest paying jobs are largely 
staffed by Han Chinese.\91\ The central and Xinjiang 
governments announced personnel decisions in 2005 that 
explicitly favored Han Chinese over minorities. In April 2005, 
for example, the government specified that 500 of 700 new civil 
service positions in southern Xinjiang, where over 95 percent 
of the population is Uighur, would be reserved for Han 
Chinese.\92\ The government actively recruited Chinese from 
outside of Xinjiang to assume key posts in the autonomous 
region, while providing insufficient incentives to stem the 
flow since 1979 of more than 200,000 trained personnel from 
Xinjiang to the east coast.\93\ Han Chinese now constitute over 
40 percent of the population in Xinjiang, compared to less than 
6 percent in 1949. In April 2005, 9,000 workers from Han-
populated poor counties in Gansu accepted ``long-term 
contracts'' to work on Production and Construction Corps farms 
in Xinjiang, despite high levels of unemployment among 
minorities living nearby.\94\

Rights Violations in Xinjiang\95\

    Since the Soviet Union dissolved in 1991 and independent 
states were established in Central Asia, the Chinese government 
has tightened controls over Uighur expressions of ethnic 
identity.\96\ Since the 9/11 terrorist attacks in the United 
States, the Chinese government has equated peaceful expressions 
of Uighur identity with ``subversive terrorist plots.'' \97\ 
The Xinjiang government has increased surveillance and arrests 
of Uighurs suspected of ``harboring separatist sentiments'' 
since popular movements ousted Soviet-era leaders in Ukraine, 
Georgia, and Kyrgyzstan.\98\ In May 2005, the Xinjiang 
government intensified its ``strike hard'' campaign against 
activities it characterizes as ethnic separatism, religious 
extremism, or international terrorism.\99\ In September 2005, 
Chinese authorities declared the ``East Turkestan forces'' the 
primary terrorist threat in China, and acknowledged that 
Xinjiang authorities have increased police surveillance and 
political controls throughout the region this year.\100\
     Recent government policies only exacerbate ethnic tensions 
in Xinjiang. The government's promotion of rapid economic 
development in the region disproportionately benefits Han 
Chinese and, together with restrictions on religious, 
linguistic, and cultural freedoms, and government-supported, 
large-scale Han migration into the area, has increased Uighur 
resentment and fears of coercive cultural assimilation.\101\ 
Although the extensive security apparatus in Xinjiang\102\ 
appears for the present to have crushed Uighur calls for 
greater autonomy, scholars report that ``the majority of 
Uighurs are unhappy with the system of autonomy and the course 
of politics.'' \103\ One prominent Western scholar notes that 
``repression on this scale may temporarily succeed in subduing 
the expression of ethnic identity but in the long-term it can 
only increase the resentment that Uighurs feel . . . and fuel 
deeper conflict in the future.'' \104\
    Many of the rights granted by the REAL are given to 
autonomous area governments rather than to individual citizens, 
and the government carefully controls the appointment and 
training of all Uighur officials. According to one U.S. 
scholar, ``in the estimation of ordinary Uighurs, those Uighurs 
who have risen to top leadership positions have been selected 
not for their responsiveness to popular concerns but because of 
their tractability.'' \105\ Uighur officials, like ethnic 
officials in Tibetan areas, are subject to rigorous political 
indoctrination. As part of the ongoing national ``Advanced 
Culture'' campaign, the Xinjiang government insists that all 
Party members, who must be atheists, carefully study the 
``correct relationship between religion and advanced socialist 
culture.'' \106\ A 2004 article in the Party's main theoretical 
journal reported that Xinjiang is intensifying political 
education for all government workers, particularly for those 
with ``paralyzed thinking . . . who fail to clearly distinguish 
between legitimate and illegal religious activities.'' \107\
    The government continued its campaign to restrict the use 
of the Uighur language in favor of Mandarin Chinese, despite 
provisions in the REAL protecting the right of minorities to 
use and promote their own languages. Government efforts to 
limit Uighur language use began in the 1980s, but have 
intensified since 2001 and throughout the past year.\108\ In 
May 2002, the Xinjiang government announced that Xinjiang 
University would change the medium of its instruction to 
Mandarin Chinese. A March 2004 directive ordered ethnic 
minority schools to merge with Chinese-language schools and 
offer classes in Mandarin.\109\ Despite a severe shortage of 
teachers in Xinjiang,\110\ the government is forcing teachers 
with inadequate Mandarin Chinese out of the classroom.\111\ 
Party Secretary Wang Lequan noted in April 2005 that Xinjiang 
authorities are ``resolutely determined'' to promote Mandarin 
language use, which he found ``an extremely serious political 
issue.'' \112\ The government favored Mandarin speakers when 
setting school admission requirements and in hiring government 
personnel.\113\
    Uighurs have not been able to determine their own school 
curricula as provided by the REAL. The government demands that 
teachers place primary emphasis on political instruction over 
other subjects.\114\ Any mention of religion in the public 
schools is strictly prohibited. Primary and middle schools are 
barred from offering Arabic language instruction because 
according to the government ``Arabic has never been a language 
used by any of our minorities and has only been used as a 
religious language by a small number of people.'' \115\ In 
January 2005, Wang urged the Party to rewrite textbooks and 
``increase the regulation of classroom instruction, academic 
forums, seminars, and community activities.'' \116\ He 
emphasized the importance of ``politicians managing education 
and politicians operating schools.'' Throughout the province, 
schools became the ``battlefront for strengthening the Party.'' 
\117\ The Yili Kazakh Autonomous Prefecture Educational 
Department criticized teachers for ``putting too much emphasis 
on teaching and not enough on politics.'' \118\ In April 2005, 
Wang announced that more than 1,700 college teachers had 
completed 20-day training classes on increasing political 
controls in schools.\119\
    Government controls over expression increased in 2005 as 
the Xinjiang and central authorities ``waged war'' against what 
they called ``new plots'' to divide the country by those 
``raising the banner of `human rights,' `nationalities,' and 
`religion.' '' \120\ A Xinjiang prefectural Party secretary 
alleged that splittists were using DVDs, popular music, movies, 
and literature to promote separatism. He also claimed it was 
necessary to intensify controls over all forms of media and 
art, increase Party propaganda, use loudspeakers and banners in 
every village, and remain diligent so that the Party can 
maintain national unity.\121\
    The government continues to arrest Uighur journalists and 
authors who write news articles or literary pieces that the 
government charges ``incite separatism'' or ``disclose state 
secrets.'' The Xinjiang authorities define any discussion of 
``important'' ethnic policies as a state secret.\122\ In 
February 2005, the Kashgar Intermediate People's Court 
sentenced Uighur author Nurmemet Yasin to 10 years imprisonment 
for publishing a short story in the Kashgar Literature Journal 
allegedly containing allegories ``inciting splittism.'' \123\ 
Doctoral candidate Tohti Tunyaz continues to serve an 11 year 
sentence imposed in 1999 for ``revealing state secrets'' in 
Japanese publications on Uighur history.\124\
    The government has sentenced many Uighurs to long prison 
terms for peacefully expressing discontent with government 
policies. In August 1999, a Xinjiang court sentenced a group of 
18 Uighurs to prison terms of up to 15 years for alleged 
separatist activities, none of which involved violence.\125\ 
The alleged leader of the group, Shirmemhemet Abdurishit, is 
serving a 15 year sentence.\126\ Although in March 2005 the 
government released Uighur businesswoman Rebiya Kadeer several 
months before the end of her eight year sentence for ``leaking 
state secrets,'' hundreds of Uighur prisoners of conscience 
remain in prison.\127\ Authorities began harassing Kadeer's 
relatives in Xinjiang after she publicly discussed the plight 
of the Uighurs from her new home in the United States.\128\

           III(b) Rights of Criminal Suspects and Defendants


                                FINDINGS

        <bullet> China's criminal justice system experienced 
        continued upheaval over the past year. After several 
        wrongful conviction scandals, the central government 
        permitted a broad public critique of the criminal 
        justice system. This discourse confirmed the extent to 
        which coerced confessions, police incompetence, 
        pervasive presumptions of guilt, extrajudicial 
        influences on the courts, restrictions on defense 
        attorneys, and other problems undermine the fairness of 
        the criminal process.
        <bullet> The Chinese government continues to use 
        administrative procedures and vaguely worded criminal 
        laws to detain Chinese citizens arbitrarily for 
        exercising their rights to freedom of religion, speech, 
        and assembly. The UN Working Group on Arbitrary 
        Detention noted in December 2004 that the Chinese 
        government has not adequately reformed these practices.
        <bullet> Many Chinese scholars and officials continue 
        to push for reforms within the boundaries set by the 
        Communist Party and Chinese legal culture and to engage 
        foreign counterparts in this process. Domestic reaction 
        to recent wrongful conviction scandals has created new 
        momentum for some criminal justice reforms.

China's ``Strike Hard'' Campaign and New Scrutiny of the Criminal 
        Justice System

    The Chinese government's ``strike hard'' anti-crime 
campaigns are evolving from periodic and intense national 
crackdowns into a lower-intensity but permanent feature of the 
law enforcement landscape. This trend continued over the past 
year. While stressing the need to maintain ``strike hard'' 
efforts, key Chinese law enforcement officials emphasized that 
``strike hard'' must become a ``regularized'' and ``long-term'' 
policy.\1\ Some Chinese sources suggest the government is 
transforming ``strike hard'' in part because leaders recognize 
that many criminals simply wait for the periodic campaigns to 
end and then resume their activities.\2\ One Chinese source 
also noted that the intense, short-term campaigns of the past 
resulted in rights abuses and injustice.\3\ Within this 
evolving ``strike hard'' framework, public security agencies 
continued to launch frequent, small-scale anti-crime campaigns 
targeting particular regions or crimes.\4\
    Overall crime rates continued to rise in China in 2004, 
according to official statistics and regional reports. Public 
security agencies filed a total of 4.7 million criminal cases 
and prosecutors approved the arrest of 811,102 people in 2004, 
both increases of more than 7 percent over the prior year.\5\ 
Courts handled 644,248 criminal cases, an increase of 1.5 
percent over 2003.\6\ Juvenile crime increased 19.1 percent 
over 2003 and is one of the fastest growing categories of crime 
in China.\7\ While officials published a few statistics 
reflecting positive trends, such as a drop in some violent 
crimes in 2004, leadership statements, public surveys ranking 
security as a major concern and regional complaints about 
increases in petty crime all point to a growing crime 
problem.\8\
    In early 2005, Chinese reports on two wrongful murder 
convictions focused national attention on abuses in the 
criminal justice system.\9\ The first case involved Nie Shubin, 
who was executed in 1994 for rape and murder. In January 2005, 
a suspect detained in another case confessed to the murder and 
provided police with a detailed account of the crime scene. The 
second case involved She Xianglin, who was convicted of 
murdering his wife in 1994 after she disappeared. In March 
2005, his wife suddenly returned to their village. Both cases 
reportedly involved coerced confessions, questionable 
investigative work, and interference by Party officials. In Mr. 
She's case, an appeals court rejected the trial verdict four 
times because of questionable evidence but eventually allowed 
the conviction to stand after the trial court changed his death 
sentence to 15 years imprisonment. As news of these cases 
spread, reports of other wrongful convictions emerged.\10\
    Together, the Nie and She cases elicited a strong reaction 
in the Chinese news media and prompted public scrutiny of the 
criminal justice system. Although the Chinese government 
generally tightened information controls over the past year 
[see Section III(e)--Freedom of Expression], it permitted and 
in some cases encouraged public critiques of the criminal 
justice system as the scandals unfolded. Xinhua and the 
People's Daily noted that Mr. She's case had ``exposed some 
holes in the judicial system'' and prompted a ``rethinking'' of 
human rights protections.\11\ Chinese scholars and journalists, 
invoking these and other wrongful conviction cases, published 
detailed critiques on many problems in the criminal justice 
system.\12\ As one commentator observed, ``as one case of 
wrongful death sentence after another is exposed, we see 
cursory, rushed investigations, confessions extorted by 
torture, unreliable polygraph reports, maliciously manufactured 
perjury and false evidence, suppression of evidence helpful to 
the accused, and so on.'' \13\ The two cases, news of which 
broke as senior officials were discussing death penalty reform, 
also intensified public discussion of capital punishment. These 
discussions offered new insights into China's criminal justice 
system and shaped debate over criminal justice reforms.
    Law enforcement officials continued to stress the need for 
both greater efficiency and more accountability. Responding to 
criticism that the wrongful conviction cases were in part the 
product of poor investigative work, the Ministry of Public 
Security (MPS) reportedly launched a nationwide campaign to 
improve investigative capacity.\14\ China has significantly 
fewer police officers per capita than the international 
average,\15\ and some law enforcement agencies focused on 
hiring personnel and deploying more officers on the street.\16\ 
Beijing established blacklists of underperforming districts to 
encourage better policing.\17\ Senior Chinese officials also 
publicized efforts to crack down on corruption and abuses in 
the criminal justice system and stressed the need to balance 
``strike hard'' efforts and the protection of suspect 
rights.\18\ In December 2004, the UN Working Group on Arbitrary 
Detention (UNWGAD) noted that official statements on the 
importance of human rights represented a positive 
development.\19\

Political Crimes

    The Chinese government continues to imprison, detain, or 
otherwise harass intellectuals, reporters, dissidents, 
believers engaged in ``illegal'' religious activities, 
unauthorized Internet publishers, and others for the peaceful 
exercise of fundamental rights guaranteed under China's 
Constitution and the Universal Declaration of Human Rights. 
Although the Chinese government released a small number of 
political prisoners, including Rebiya Kadeer, Huang Qi, and Xu 
Guang, many Chinese citizens, including Yao Fuxin, Xiao 
Yunliang, Su Zhimin, Gong Shengliang and other members of the 
South China Church, Yang Jianli, Jigme Gyatso, Ngawang 
Phuljung, Choeying Khedrub, Tohti Tunyaz, Jin Haike, Xu Wei, 
Yang Zili, Zheng Houhai, Mao Hengfeng, and thousands of others 
continued to serve long prison or re-education through labor 
sentences for political offenses.\20\ In June 2005, the Chinese 
government rejected a U.S. appeal for an accounting of 
prisoners still detained for activities related to the Tiananmen 
Square democracy protests.\21\ The government also launched a new 
crackdown on dissent that resulted in a wave of political detentions 
and prosecutions [see Section III(d)--Freedom of Religion and 
Section III(e)--Freedom of Expression].\22\ In many cases, 
police detained these and other individuals without formal 
charge or judicial review. Arbitrary detentions intensified 
during politically sensitive periods, such as the period 
following the death of former Chinese Premier Zhao Ziyang in 
January 2005, the annual meeting of the National People's 
Congress (NPC) in March 2005, the anniversary of the June 4th 
Tiananmen democracy protests, and the visit of UN High 
Commissioner for Human Rights Louise Arbour in September 
2005.\23\
    Chinese authorities continue to apply vague criminal and 
administrative provisions to detain citizens for political 
offenses. In some cases, the government charges political 
activists with ``endangering national security,'' 
``subversion,'' or ``inciting splittism.'' \24\ In other cases, 
public security agencies sentence political offenders to re-
education through labor (RETL) or other forms of administrative 
detention without trial.\25\ After its 2004 visit to China, the 
UNWGAD noted that the Chinese government had made no 
significant progress in reforming these mechanisms:

          None of the recommendations that the working group 
        formulated in its earlier report have been followed. No 
        definition of the term ``endangering national 
        security'' in criminal law was adopted, no legislative 
        measures have been taken to make a clear-cut exemption 
        from criminal responsibility of those who peacefully 
        exercise their rights guaranteed in the Universal 
        Declaration of Human Rights, and no real judicial 
        control has been created over the procedure to commit 
        someone to re-education through labor.\26\

    The Chinese government took a few positive steps on issues 
related to political crimes. Late in 2004, the Chinese Foreign 
Ministry announced that the government had formed a ``special 
task force'' on ratification of the International Covenant on 
Civil and Political Rights (ICCPR).\27\ In addition to the 
prisoner releases noted above, in January 2005, the Chinese 
government provided new information on paroles, sentence 
reductions, and potential sentence reductions for a number of 
Chinese political prisoners.\28\ In April 2005, the U.S. State 
Department announced a Chinese government clarification that 
there is not a stricter standard for evaluating sentence 
reductions and parole for ``security'' crimes. Chinese 
authorities also pledged to conduct a national review of cases 
involving political acts that are no longer crimes under Chinese 
law.\29\ China announced the last two steps shortly before the UN 
Human Rights Commission met in Geneva in March 2005.

Arbitrary Detention\30\ in the Formal Criminal Process

    Despite government statements on the importance of ending 
unlawful extended detentions, law enforcement authorities 
continue to hold criminal suspects for long periods without 
formal charge or trial. Following a two-year campaign, courts 
and law enforcement agencies claimed in early 2005 that they 
had cleared all cases of ``illegal extended detention.'' \31\ 
Such claims are impossible to verify. Even if many such cases 
have been cleared, Chinese authorities continue to manipulate 
legal rules and loopholes to ``lawfully'' hold criminal 
suspects for long periods without formal charge and trial.\32\ 
In one recent example, after investigating New York Times 
researcher Zhao Yan for seven months on charges of leaking 
``state secrets,'' police suddenly claimed to have found 
``evidence'' of fraud against him. Law enforcement officials 
had already invoked several legal exceptions to extend Zhao's 
pretrial detention, and the legally permitted detention period 
was about to expire.\33\ Under Chinese law, the new charge 
permitted police to reset the pretrial detention clock to zero 
and investigate Zhao for up to another seven months.\34\ In 
practice, with no limit on the number of ``new crimes'' that 
police can assert, suspects can be held in pretrial detention 
for years. Chinese criminal law experts suggest that such 
provisions are often abused and that abuses are not limited to 
``sensitive'' cases.\35\
    Chinese law does not meet minimal international standards 
for prompt judicial review of criminal detention and arrest. 
Under the ICCPR, anyone arrested or detained on a criminal 
charge must be brought before a judge or judicial officer 
promptly for review of the lawfulness of his detention or 
arrest.\36\ In December 2004, the UNWGAD found that China's 
Criminal Procedure Law (CPL) and related regulations on 
pretrial detention fail to meet this basic standard because (1) 
Chinese suspects continue to be held for too long without 
judicial review; (2) procurators, who review arrest decisions, 
only examine case files and do not hold a hearing; and (3) a 
procurator cannot be considered an independent judicial officer 
under applicable international standards.\37\

Administrative Detention

    The Chinese government continues to punish large numbers of 
offenses administratively without effective judicial review. 
Public security agencies reported that they punished 5.3 
million ``public order'' offenses in 2004, nearly eight times 
the number of criminal cases handled by courts.\38\ ``Public 
order'' offenses include traffic offenses, public disturbances, 
prostitution, drug use, and other ``minor crimes'' that the 
Chinese government typically sanctions with administrative 
penalties rather than formal criminal sentences.\39\ In some 
instances, public security agencies handle cases 
administratively because they do not have enough evidence for a 
formal prosecution,\40\ or because it is a convenient method 
for detaining political offenders.\41\ Administrative penalties 
can range from a disciplinary warning or fine to detention in a 
RETL center for up to three years, with the possibility of a 
one-year extension.\42\ Forms of administrative detention 
include short-term detention under China's Public Order 
Administration Punishment Regulations, RETL, forced psychiatric 
commitment, ``custody and education'' of prostitutes and their 
clients, forced drug detoxification, work study schools, and 
detention imposed on corrupt officials under Party rules.\43\ 
Although many public order cases probably do not result in a 
detention, at least 250,000 to 300,000 individuals are 
currently detained in approximately 300 centers in the RETL 
system alone.\44\
    Public security agencies administer RETL and other forms of 
administrative punishment without effective judicial review or 
the minimal protections offered defendants in China's formal 
criminal justice system.\45\ The Chinese government argues that 
administrative detention decisions are subject to judicial 
review under China's Administrative Litigation Law (ALL), but 
the UNWGAD concluded that ALL review is ``in light of what 
happens in reality, of very 
little value'' and that ``no real judicial control has been 
created over the procedure to commit someone to re-education 
through labor.'' \46\ In its December 2004 report, the UNWGAD 
found RETL to be a violation of the ICCPR and applicable 
international standards that require prompt judicial review of 
the lawfulness of detentions. The UNWGAD report concluded that 
the Chinese government had made no significant progress in 
reforming the system over the past seven years.\47\ It also 
noted that RETL violates China's own domestic law, which 
requires that all deprivations of freedom be authorized by 
national law, not administrative regulations.\48\
    Although the Chinese government is in the process of 
reforming the administrative punishment system, it is unlikely 
to be abolished. In August 2005, the NPC Standing Committee 
(NPCSC) passed a new Public Order Administration Punishment Law 
to replace a corresponding set of regulations.\49\ The new law, 
which becomes effective in March 2006, contains specific 
statements on the protection of human rights concerns on paper, 
establishes a limit of 20 days detention for multiple public 
order offenses (as opposed to the 30 days public security 
officials reportedly requested), and prohibits torture and the 
collection of evidence through illegal means.\50\ The final 
version of the law, however, maintains public security as the 
entity that adjudicates and administers punishments for public 
order violations within its scope, sets a maximum interrogation 
period of 24 hours (rather than the 12 hours proposed in an 
earlier draft), does not provide the accused with the right to 
a hearing in detention cases or the right to legal 
representation, and creates new categories of offenses 
including ``inciting or plotting illegal assemblies, marches, 
or demonstrations.''
    Pressure to reform the RETL system is also building, 
particularly in the NPC.\51\ In the fall of 2004, China's 
Justice Minister described government efforts to make RETL more 
humane, but emphasized that the foundations of the current 
system would remain in place.\52\ The government is also 
reportedly considering a new ``Law on the Correction of 
Unlawful Acts'' that would provide a basis in national law for 
RETL.\53\ The draft law reportedly enhances the rights of RETL 
detainees by setting a maximum sentence of 18 months; 
permitting defendants to hire a lawyer, request a hearing, and 
appeal sentences handed down by public security in RETL cases; 
and making detention centers more open and humane.\54\ While 
the reforms could be a positive step, some observers have noted 
that the MPS is resisting reform efforts, and that given the 
rise in crime and the government's reliance on RETL to maintain 
public order and punish political offenders, the reforms may 
have little impact on RETL in practice.\55\
    In addition to RETL and short-term detention under the 
public order administration provisions, law enforcement 
officials have the power to forcibly commit individuals to 
psychiatric facilities.\56\ The MPS manages a network of at 
least 30 ankang, or special psychiatric institutions, and in 
some cases uses these institutions to hold repeat petitioners 
or political offenders, such as human rights activist Wang 
Wanxing, along with genuine mental patients.\57\ In 2004, the 
UNWGAD found that the government's system of confining mentally 
ill persons is a ``form of deprivation of liberty and lacks the 
necessary safeguards against arbitrariness and abuse.'' \58\ 
Treatment in these institutions is sometimes brutal.\59\
    Under administrative regulations, police may also forcibly 
commit drug users to rehabilitation centers for up to one 
year.\60\ Repeat offenders may be sentenced to RETL terms.\61\ 
As of 2003, China maintained a network of at least 583 forced 
rehabilitation centers and 151 detention centers for drug 
users.\62\ Chinese sources report that in 2004, 273,000 addicts 
received treatment at forced rehabilitation centers, while 
68,000 were ``treated'' at RETL centers.\63\ Drug 
rehabilitation centers have been associated with numerous 
problems and abuses, including a relapse rate of over 90 
percent, excessive fee collection from detainees, understaffing 
due to a lack of funding, and violence against detainees.\64\ 
In June 2005, for example, a man was allegedly beaten to death 
in a Guangdong detoxification center.\65\ According to a former 
detainee, the center had a reputation for irregular fatalities 
and had been told to improve its record. Human rights activists 
allege that such abuses are common.\66\
    Before 2003, civil affairs and public security agencies 
also had the power to administratively detain and repatriate 
indigents, migrants, and other individuals without proper 
residence permits under China's custody and repatriation 
system.\67\ After a detainee died in custody in 2003, the State 
Council abolished this system and replaced it with a system of 
voluntary aid centers.\68\ A surge of indigents and beggars on 
the streets of some large Chinese cities suggests that the new 
system has been implemented in some areas,\69\ but a recent 
scandal in Jiangxi province indicates that some smaller cities 
still practice custody and repatriation.\70\ In the Jiangxi 
case, county officials rounded up indigents and left them in a 
remote area in the middle of winter. The officials told a 
reporter that they had not established an aid center as 
required because they lacked funds and were continuing to 
detain and repatriate vagrants, a practice they claimed was 
common in many counties.\71\

Torture and Abuse in Custody

    Although torture is illegal in China, law enforcement 
torture and abuse remains common. Over the past year, Western 
news media and NGOs continued to report the widespread use of 
torture to coerce confessions and to punish detainees.\72\ 
Prompted in part by public outrage over the Nie Shubin and She 
Xianglin wrongful conviction cases, Chinese news media also 
published reports indicating that torture and coerced 
confessions remain widespread,\73\ highlighting individual 
cases of torture and abuse,\74\ and examining the roots of the 
torture problem.\75\ Forms of torture and abuse cited in 
Western and Chinese reports include beating, electric shock, 
and painful shackling of the limbs.
    Chinese analysts blame the torture problem on a number of 
social, institutional, and legal factors. Social and 
institutional factors include a lack of legal consciousness, 
poor training, and weak forensic skills on the part of 
investigative personnel (problems that lead to an over-reliance 
on confessions). Prevailing social attitudes towards criminal 
suspects, a presumption of guilt at all stages of the criminal 
process, pressure from leaders and society to demonstrate 
progress in fighting crime and secure convictions in major 
cases, and the practice of tying law enforcement salaries and 
promotions in part to case-breaking rates are other factors 
that contribute to the problem.\76\ Among the legal factors 
cited are the absence of lawyers at interrogations, a general 
failure to prosecute torture cases, the lack of a legal 
presumption of innocence and right to remain silent, and the 
lack of a rule requiring the exclusion of illegally gathered 
evidence.\77\
    Law enforcement agencies claim to be addressing the torture 
issue through well-publicized crackdowns, enhanced 
investigative training, and better procuratorial 
supervision.\78\ Procuratorates nationwide reported the 
prosecution of 1,924 officials for torture, illegal detention, 
and other violations of human rights between July 2004 and July 
2005.\79\ In Jiangxi province, an experimental program that 
requires prosecutors to conduct face-to-face interviews of 
criminal suspects during the arrest review process reportedly 
uncovered several torture cases.\80\ In May 2005, the Supreme 
People's Procuratorate (SPP) publicly claimed that it would 
make ending torture and coerced confessions a priority in 2005 
and announced a new policy of encouraging more vigorous 
investigation of torture allegations and prohibiting the use of 
illegally obtained 
evidence.\81\ The MPS announced a requirement that police 
chiefs personally hear petitions on law enforcement abuse.\82\ 
Finally, in August 2005, UN Special Rapporteur on Torture 
Manfred Nowak announced that he had reached agreement with the 
Chinese government for a visit to China in November 2005.\83\
    Recent reports suggest that the controversy surrounding the 
Nie and She cases may also be creating momentum for modest 
legal 
reforms. In April 2005, Sichuan province prohibited the use of 
evidence acquired through illegal means and introduced a 
requirement that interrogations in ``major cases'' be taped. 
Under the new rule, courts must exclude coerced statements and 
confessions unless police provide a reasonable explanation for 
the alleged coercion or agree to investigate allegations of 
abuse.\84\ In May 2005, Chinese news media reported that three 
district public security bureaus were taking part in an 
experimental program under which criminal suspects may request 
either the presence of a lawyer during interrogation or the 
taping of the interrogation.\85\
    The wrongful conviction cases have also helped forge a 
consensus among scholars and officials for making the 
prevention of torture a priority in upcoming amendments to 
China's CPL.\86\ The NPC Legislative Affairs Commission is 
currently researching CPL amendment issues.\87\ Consideration 
of a draft amendment proposal is tentatively scheduled for 
2006, with final passage slated for 2007.\88\ Several of the 
local experiments described above correspond to proposed 
amendments to the CPL, suggesting that the government is 
testing reforms at a local level before implementing them 
nationwide.\89\ Some Chinese legal experts stress that to 
prevent abuse in practice, reforms should include enhanced 
rights for defense lawyers, a right to remain silent, an 
evidence exclusion rule that would bar all illegally obtained 
evidence (including evidence derived from coerced confessions) 
from criminal trials, and more vigorous prosecution of 
officials who resort to torture.\90\ Reports of some public 
security resistance to the local experiments on lawyer access 
during interrogations and comments in the media indicating that 
scholarly expectations are too ``idealistic'' suggest that law 
enforcement agencies may resist broad rights enhancement for 
suspects and defendants.\91\

Access to Counsel and Right to Present a Defense

    Most Chinese defendants go to trial without a lawyer. 
Chinese law grants criminal defendants the right to hire an 
attorney, but guarantees pro bono legal defense only if the 
defendant is a minor, faces a possible death sentence, or is 
blind, deaf, or mute.\92\ In other cases in which defendants 
cannot afford legal representation, courts may appoint defense 
counsel or the defendant may apply for legal aid, but the law 
does not guarantee free legal representation.\93\ Legal aid 
resources for all types of cases expanded in 2004.\94\ Lawyers 
represent criminal defendants in at most about 30 percent of 
cases, however, and the rate of representation continues to 
drop.\95\ Domestic sources cite fear of law enforcement 
retribution and the lack of legal protections for lawyers 
(along with low fees) as major factors in the low rate of 
representation.\96\
    Even when criminal defendants are able to find lawyers, 
they often have difficulty meeting with them. Under Chinese 
law, 
suspects have a right to meet with their lawyers after police 
interrogate them or from the first day of their formal 
detention.\97\ Nevertheless, even after the first 
interrogation, police often manipulate legal exceptions to deny 
lawyers access to their clients or otherwise obstruct or 
encumber such access.\98\ For example, Sichuan public security 
officials on several occasions denied requests by detained 
American businessman David Ji to meet with his attorneys, 
arguing that such meetings were ``inappropriate'' or 
``inconsistent with Chinese law.'' \99\ Only about 14.5 percent 
of criminal suspects in Beijing, one of China's most legally 
advanced locales, met with an attorney during the first 48 
hours of detention.\100\ Although public security officials 
attribute the small number of lawyer meetings to low legal 
consciousness and economic difficulties on the part of 
suspects, a Beijing Youth Daily article cited police suspicion 
of lawyers as the major reason.\101\
    Other obstacles make it difficult for lawyers to build and 
present an adequate defense. Legal aid organizations, which are 
publicly funded and supply defense lawyers in a significant 
portion of criminal cases, risk jeopardizing their funding if 
they offend local officials.\102\ In practice, defense lawyers 
cannot start building a case until the official investigation 
ends and a case is transferred to the procuratorate.\103\ Even 
then, police and procuratorates often deny lawyers access to 
government case files and information, despite provisions in 
the CPL that are intended to guarantee access to those 
materials.\104\ Defense lawyers must obtain permission from 
procurators and courts to interview witnesses and crime 
victims.\105\ In addition, fewer than 5 percent of witnesses in 
criminal cases appear in court.\106\ One source discussed in 
detail how law enforcement officials often intimidate or detain 
defense witnesses or witnesses who change their testimony at 
trial to the detriment of law enforcement.\107\ The inability 
of defense lawyers to cross-examine witnesses undermines their 
ability to represent their clients.\108\ One Chinese scholar 
involved in the discussion of upcoming amendments to the CPL 
suggests that a provision requiring witnesses to appear in 
court may be written into the law.\109\
    Finally, local authorities sometimes harass and even 
prosecute defense lawyers who work on sensitive cases or defend 
their clients too vigorously. In February 2005, for example, 
Shanghai authorities suspended the law license of defense 
lawyer Guo Guoting and later placed him under temporary house 
arrest.\110\ As a result, Guo was unable to appear in court on 
behalf of imprisoned journalist Shi Tao in late April. Law 
enforcement officials sometimes intimidate defense lawyers by 
charging or threatening to charge them with ``evidence 
fabrication'' and other crimes.\111\ Most such charges prove to 
be groundless. According to one prominent Beijing lawyer, over 
90 percent of the more than 100 lawyers accused of violating 
Article 306 of the PRC Criminal Law, a provision on evidence 
fabrication, have been cleared of wrongdoing.\112\ Other 
statistics indicate that nearly 80 percent of the 500 lawyers 
detained, accused, or punished for all reasons between 1997 and 
2002 were eventually found innocent of any wrongdoing.\113\ 
Such groundless charges put attorneys on the defensive and have 
a chilling effect on criminal defense work.\114\
    Lawyers in China indicate that their work environment has 
not improved significantly. In August 2004, one Chinese 
publication reported that the Beijing Justice Bureau canceled a 
multi-year study on the work environment for Chinese defense 
attorneys in 2002 after results from the initial 600 responses 
revealed major problems.\115\ Lawyers interviewed for the 
article expressed doubt that the environment for defense 
attorneys would improve much in the near future. Chinese legal 
experts complain that the relative power of the prosecution and 
defense is too unbalanced, and that criminal courts rarely give 
much consideration to defense arguments.\116\
    Some Chinese authorities are experimenting with local 
reforms to improve lawyer access to their clients and allow 
them to be present during interrogations.\117\ Enhanced lawyer 
involvement at the pre-trial stage could serve as a meaningful 
check on torture. More lawyer involvement could also improve an 
innocent suspect's chance of exoneration, since statistics 
suggest that Chinese suspects have a better chance of avoiding 
criminal sanction during the investigation stage than during 
the trial stage of the criminal process.\118\ The All-China 
Lawyers Association (ACLA) has made several recommendations to 
strengthen defense investigation rights and provide remedies 
for defense lawyers who encounter official obstacles. ACLA also 
recommended creating judicial checks on prosecutorial 
discretion in charging lawyers with evidence fabrication and 
other crimes, providing lawyers with limited immunity from 
prosecution, and delegating the responsibility for disciplining 
lawyers to lawyers associations.\119\ Some of these 
recommendations are reportedly under consideration in upcoming 
amendments to the Lawyers Law and CPL.\120\

Fairness of Criminal Trials and Appeals

    Trials in China nearly always result in convictions. The 
conviction rate for first-instance criminal cases was over 99 
percent in 2004.\121\ Chinese defendants exercised their right 
to appeal convictions in only about 15 percent of criminal 
cases, and those who did appeal faced limited prospects for 
reversal.\122\ In total, appeals courts changed judgments in 
about 13.2 percent of cases they reviewed (roughly 2.1 percent 
of all criminal cases adjudicated in 2004).\123\ Because many 
changed judgments probably involve sentence reductions, the 
percentage of convictions actually overturned on appeal is 
likely even lower.\124\ In addition, under Chinese law 
prosecutors have the right to appeal acquittals or request 
``adjudication supervision'' from higher courts until they 
obtain a guilty verdict.\125\ In practice, prosecutors have an 
incentive to do so, since acquittals may result in official 
liability for wrongful detention.\126\ Prosecutors may request 
such ``adjudication supervision'' as a matter of right. 
Defendants may only do so with the consent of the court, 
however, as imprisoned American businessman Jude Shao found 
when the Supreme People's Court (SPC) denied a petition for 
review of new evidence in his case.\127\
    Appeals courts are reluctant to overturn convictions, even 
when they have misgivings about evidence of guilt. In some 
cases, appeals courts decide instead to give relatively light 
sentences or, in the case of a capital crime, suspend a death 
sentence to ``leave room for unforeseen circumstances.'' \128\ 
In other questionable cases, appeals courts abuse a procedural 
provision that allows them to send cases back to first instance 
courts for retrial.\129\ In part because they face potential 
liability and professional sanction for incorrect decisions, 
however, trial courts have built-in incentives not to change 
verdicts.\130\ As a result, some cases based on questionable or 
incomplete evidence bounce back and forth between courts, 
sometimes for years, until prosecutors can dig up more 
evidence, the appeals court relents, or courts and prosecutors 
reach some compromise such as a reduced sentence.\131\ Chinese 
commentators have noted that multiple retrials can lead to 
wrongful convictions and advocate restricting the number of 
times a case can be retried or the number of times either 
prosecutors or defendants can request ``adjudication 
supervision.'' \132\ Court sources indicate that reform of the 
retrial system is currently under consideration.\133\
    Senior court officials and Party political-legal committees 
continue to influence judicial decision-making, particularly in 
sensitive or important criminal cases. In the Nie Shubin 
wrongful execution case, for example, the original trial judge 
tried to deflect responsibility for the apparent wrongful 
conviction by telling Chinese 
reporters he just follows orders.\134\ Domestic accounts of 
other wrongful convictions and sensitive cases highlight 
continuing Party interference.\135\

Capital Punishment

    Chinese criminal law includes approximately 68 capital 
offenses, the majority of which are non-violent crimes such as 
bribery and embezzlement.\136\ The Chinese government has 
reportedly established an ``execute fewer, execute cautiously'' 
policy, and at least one Chinese source suggests that the 
number of executions has dropped in recent years.\137\ The 
government, however, publishes no official statistics on the 
number of executions, which it considers a state secret.\138\ 
Several Chinese sources have hinted that the annual number of 
executions in China is in the thousands.\139\
    The Chinese government appears willing to reform death 
penalty practices gradually. An ongoing domestic debate over 
the death penalty and its scope intensified over the past year, 
particularly after Chinese news media publicized accounts of 
wrongful conviction cases.\140\ Scholars and commentators 
expressed concern about wrongful executions and focused on how 
to prevent them.\141\ Chinese sources cite broad popular 
support for the death penalty and the need for a deterrent 
against crime as justifications for maintaining it.\142\ The 
government has indicated that while it will maintain capital 
punishment for the foreseeable future, it will work to ensure 
fair application of the death penalty by refining death penalty 
review procedures and gradually reducing application of the 
death penalty in favor of long-term imprisonment.\143\ Some 
reform advocates suggest that the government could start this 
process by eliminating capital punishment for economic crimes, 
or by eliminating the immediate execution of death sentences in 
favor of suspended death sentences.\144\
    In March 2005, SPC President Xiao Yang declared that the 
SPC will take back the power of reviewing all death penalty 
decisions next year.\145\ Central authorities have called for a 
review of the necessary legislative changes in October 2005, 
with implementation of the reform tentatively set for sometime 
in 2006.\146\ The SPC is in the process of establishing three 
new criminal tribunals and transferring hundreds of judges to 
Beijing to handle the increased caseload that will result from 
the reform.\147\ Emboldened by public outrage over the Nie and 
She cases, commentators have called for accelerated 
implementation of the reform, open hearings during death 
penalty reviews, and a moratorium on implementation of current 
death sentences until the SPC can review all current 
cases.\148\ Chinese experts view the return of this power to 
the SPC as an important step in preventing wrongful executions. 
While the SPC changed judgments in nearly one-third of the 300 
death sentences it reviewed in 2003, provincial high courts 
changed judgments in only one percent of the death sentences 
they reviewed.\149\
    Several new reports on the use of organs removed from 
executed prisoners emerged over the past year. One U.S.-based 
NGO reported that hospitals in Guangzhou, Xucheng, and 
Zhengzhou continue to harvest organs from executed prisoners 
and sell them for profit.\150\ Several articles in China's 
domestic news media noted the demand for transplants and 
highlighted a domestic debate over whether or not condemned 
prisoners should be permitted to donate their organs, 
suggesting that the use of prisoner organs is an issue of 
concern to some Chinese.\151\ One legal expert argued that 
organ donations by prisoners, even if voluntary on their face, 
should be prohibited because there is no way to rule out 
coercion by criminal justice officials and because the practice 
could encourage more executions.\152\ In June 2005, the Chinese 
government announced that it would issue a national regulation 
on organ transplants that would ban trading in human organs and 
limit the number of hospitals that are authorized to perform 
transplants.\153\ The government did not make clear whether the 
new regulations would 
address the use of organs removed from executed prisoners.

Additional Reform Initiatives and Criminal Justice Exchanges

    In addition to the reforms noted above, the Chinese 
government reported several criminal justice reform initiatives 
over the past year. In response to the rise in juvenile crime, 
many reports focused on reform of the juvenile justice 
system.\154\ Ministry of Justice officials claimed to be 
engaged in an ongoing effort to improve prison management and 
conditions.\155\ A new directive from the NPCSC requires expert 
witnesses to be independent agents, not employees of courts or 
other government departments.\156\ The SPP continued a 
rectification campaign aimed at exposing corruption in the 
sentencing and parole process.\157\ Finally, in addition to 
draft amendments to the Criminal Procedure Law, scholars and 
officials discussed amendments to several laws that affect the 
criminal process, including the Lawyers Law, the State 
Compensation Law, and the Organic Law of the People's 
Courts.\158\
    Prosecutors and courts also experimented with new citizen 
supervision mechanisms. Procuratorates nationwide reported 
imple-
menting a new system of citizen ombudsmen, or people's 
supervisors. Under applicable regulations passed in 2004, 
people's supervisors review cases when procuratorates dismiss a 
case or decide not to prosecute, or when criminal suspects 
disagree with a procurator's formal arrest decision. People's 
supervisors may appeal to higher-level procuratorates when they 
disagree with a procuratorial decision.\159\ According to the 
SPP, by the end of 2004, procuratorates had more than 18,962 
supervisors on staff. The supervisors have reportedly reviewed 
a total of 3,341 cases, appealing prosecutor decisions in 152 
cases.\160\ In addition, new regulations to re-establish a 
system of people's assessors in the courts became effective on 
May 1, 2005.\161\ People's assessors are lay judges who sit on 
a collegial panel of three judges and in theory have an equal 
vote in deciding the outcome of selected criminal, civil, and 
administrative cases.\162\ As of April 2005, a total of 2,900 
courts across China reportedly had selected a pool of 26,917 
people's assessors.\163\
    Chinese scholars and officials continued to engage foreign 
governments and legal experts on a range of criminal justice 
issues over the past year. Chinese law enforcement agencies 
expressed a growing interest in cooperating with other 
countries to combat transnational crime and expanded 
cooperation with U.S. law enforcement agencies on money 
laundering, drug trafficking, and other issues.\164\ Numerous 
international conferences and legal exchanges with Western 
NGOs, judges, and legal experts took place, including programs 
on pre-trial discovery, defense attorneys, evidence exclusion, 
criminal trials and procedure, pleas and simplified prosecution 
procedures, bail, sentencing, parole, capital punishment, 
prison reform, and other subjects.\165\ Participants in these 
programs encouraged more such exchanges.\166\
    Finally, the Chinese government continued to engage the 
international human rights community on issues related to the 
criminal justice system. In addition to permitting a visit by 
representatives of the UN Working Group on Arbitrary Detention 
in September 2004, the Chinese government agreed to host the UN 
Special Rapporteur on Torture in November 2005.\167\ In July 
2005, the International Committee of the Red Cross established 
a regional office in Beijing after signing an agreement with 
the Chinese government.\168\ In August 2005, China hosted a 
visit by the UN High Commissioner on Human Rights.\169\ During 
the visit, the High Commissioner and the Chinese government 
signed a Memorandum of Understanding aimed at facilitating 
China's implementation of the ICCPR,\170\ although that 
achievement was overshadowed by a contemporaneous spate of 
detentions.\171\ Before the UN Human Rights Commission met in 
Geneva in March 2005, the U.S. government noted China's 
commitment to open the ICRC office and receive these 
delegations as signs of progress in its human rights 
policies.\172\

      III(c) Protection of Internationally Recognized Labor Rights


                                FINDINGS

        <bullet> The Chinese government does not recognize the 
        core labor rights of freedom of association and 
        collective bargaining. The government prohibits 
        independent labor unions and punishes workers who 
        attempt to establish them.
        <bullet> Wage and pension arrears are among the most 
        important problems that Chinese workers face. Despite 
        new government regulations seeking to address the 
        problem of unpaid wages and pensions, Chinese workers 
        continue to struggle to collect wages and benefits 
        because the relevant agencies do not enforce the 
        regulations.
        <bullet> Workplace health and safety conditions are 
        poor for millions of Chinese workers, especially those 
        in the coal mining industry. China's state-run news 
        media have reported, with some exceptions, workplace 
        accidents more openly and promptly than in previous 
        years, even when workers have been killed or 
        injured.
        <bullet> Forced labor is an integral part of the 
        Chinese administrative detention system, and child 
        labor remains a significant problem in China, despite 
        being prohibited by law.

Conditions for China's Workers

    The growing number of labor protests during 2004 and 2005 
is one indication that many Chinese workers are frustrated by 
the lack of government action to enforce labor regulations and 
rules.\1\ Some workers protested because they did not receive 
the wages owed them, others because corrupt officials stole 
their pension funds.\2\ The government often arrests workers 
who lead peaceful labor protests and detains them without 
permitting access to a lawyer.\3\
    Chinese central, provincial, and local governments adopted 
regulations during the past year to address the growing 
problems of wage arrears and unsafe working conditions.\4\ 
These new regulations lack enforcement mechanisms, and most 
workers lack the money and legal resources to enforce their 
rights to a minimum wage, overtime pay, or safe working 
conditions.\5\ According to the Procuratorate Daily, workers 
are vulnerable because they are not aware of their rights.\6\ 
The All-China Federation of Trade Unions (ACFTU), China's sole 
legal union, with few exceptions, rarely helps workers resolve 
workplace problems.\7\ Chinese news media, however, have 
reported on the problems that workers have in enforcing their 
rights.\8\
    Some Chinese legislators, academic experts, and labor 
leaders advocate labor law reform in China. For example, a 
National People's Congress delegate called for a major 
revamping of outdated labor laws that he argued are still tied 
to an economy dominated by state-owned enterprises and no 
longer relevant in China's developing market economy.\9\ A 
similar opinion piece in the China Daily, also advocating labor 
law reform, stated the case for more protections for workers, 
particularly migrants:

          There are more than 100 million migrant workers in 
        China's cities. Scattered throughout various sectors, 
        they work long hours and earn poor salaries. Some of 
        them, such as construction workers, live in shabby 
        temporary housing. Worse, their interests are not 
        adequately cared for. Defaults on their payment are 
        common.\10\

    Deaths from accidents in Chinese coal mines have compelled 
central, provincial, and local government officials to make 
public statements in support of coal miners.\11\ In practice, 
however, the government has been ineffective in their efforts 
to improve unsafe working conditions in most mines.\12\ Chinese 
labor laws and regulations do not grant miners the right to 
refuse to work when conditions are dangerous. For example, 
before a 2005 mine disaster in Shaanxi province, managers told 
the miners to return to work after they tried to leave the mine 
because of dangerous conditions. The miners faced a fine of 100 
yuan if they refused to return to work.\13\

Internationally Recognized Labor Standards

    The Chinese government has ratified the International Labor 
Organization's (ILO) Declaration on Fundamental Principles and 
Rights at Work (the ``1998 Declaration'') but has not fulfilled 
commitments under the Declaration. The ILO's Fundamental 
Principles apply to all members and are a basic set of rights 
that 
require governments to allow workers to associate, to bargain 
collectively, to be free from forced labor, to be free from 
discrimination in employment, and to take steps to eliminate 
the worst forms of child labor.\14\ China has ratified three of 
the eight ILO core conventions, which provide guidance on the 
full scope of the rights and principles in the 1998 
Declaration, including two on child labor and one on equal 
remuneration for men and women.\15\ A member of the ILO since 
its founding,\16\ China has been a member of the ILO Governing 
Board since June 2002.\17\
    The Chinese government has adopted a number of regulations 
that protect such worker rights as the right to receive a wage 
for work performed but rejects the basic internationally 
recognized rights of Chinese workers to form independent unions 
and bargain collectively. The International Covenant on 
Economic, Social, and Cultural Rights (ICESCR), which China 
ratified in 2002, guarantees the rights of workers to organize 
independent trade unions. At the time of ratification, the 
Chinese government took a reservation to ICESCR provisions that 
conflict with the Chinese Constitution and domestic labor 
laws.\18\
    Despite being a member of the ILO's Governing Board, the 
Chinese government has avoided discussions with the 
international labor community on Chinese workers' rights. For 
example, in December 2004, government officials cancelled a 
conference involving representatives of the Organization for 
Economic Cooperation and Development (OECD) that sought to 
review socially responsible investment in China and the role of 
longstanding OECD investment guidelines for multinational 
companies. International trade unionists criticized the 
cancellation and noted that it reflected the Chinese 
government's lack of interest in discussing the application of 
international labor standards to Chinese workers.\19\

Freedom of Association and Collective Bargaining

    The Chinese government recognizes the All-China Federation 
of Trade Unions (ACFTU) as the sole representative of Chinese 
workers.\20\ The ACFTU claims 120 million members, but ACFTU 
members cannot exercise internationally recognized labor 
rights. The Communist Party controls the ACFTU; Wang Zhaoguo, 
the Federation's chairman, is a member of the Party 
Politburo.\21\ The Party's influence prevents the ACFTU from 
assisting workers in any way that violates Party 
guidelines.\22\ Moreover, Chinese workers are not allowed to 
freely elect their ACFTU representatives. \23\
    The National People's Congress eliminated the right to 
strike in 1982 when it revised the Chinese Constitution,\24\ 
yet strikes and labor protests continue in China. Strike 
leaders are subject to arrest by local public security 
authorities.\25\ Local governments usually tolerate small-scale 
demonstrations and sit-ins, but commonly arrest and imprison 
the leaders of large protest marches.\26\ ACFTU representatives 
generally do not assist workers during demonstrations or 
strikes. In one case, a group of migrant workers, who were 
fired after a conflict with an automobile manufacturer over 
wages and benefits, sued in court to force ACFTU action. The 
case was referred to an arbitration committee and is still 
pending.\27\
    Faced with declining membership, the ACFTU has begun to 
look for new sources of income. By 1999, the union's large 
bureaucracy was dependent on dues from approximately 87 million 
members, a decline of some 100 million workers from its 
membership peak.\28\ The ACFTU has recently begun looking to 
workers in foreign-owned enterprises as a new source of dues, 
portraying itself as an organization that wants to assist 
workers employed in foreign-owned facilities.\29\ Faced with 
pressure from the ACFTU and other government officials, one 
foreign-owned enterprise agreed to permit the ACFTU to 
represent its workers in one city.\30\ In another case, a 
foreign-owned enterprise initially resisted ACFTU demands, 
offering instead to recognize the union if the workers 
requested it.\31\
    Some local ACFTU branches are attempting to help workers, 
within the confines of Party and government policy. For 
example, the Tianjin Trade Union Council has developed a system 
to aid workers who have employment problems, to monitor safety 
problems and accidents, and to deal with employee-employer 
disputes. The union uses computers to track accidents and 
conduct prompt investigations to preserve evidence and witness 
testimony. The union also offers legal aid, represents unpaid 
workers, and provides low cost clothing, food, and cash 
subsidies for impoverished workers. The Shenzhen Federation of 
Trade Unions also offers legal aid for workers in cases of 
unlawful discharge, occupational injuries, and compensation 
arrears.\32\

Wages and Working Hours

    Several provinces raised the minimum wage over the past 
year. For example, in December 2004, Guangdong province 
increased the minimum wage in seven categories by an average of 
8.6 percent. Each region within the province sets its own wage 
category rates, which range from 352 yuan ($42.60) to 684 yuan 
($82.64) per week.\33\ But Chinese employees now have to pay 
the social security fee, which the employer once paid. With the 
social security fee subtracted, the average raise is only 3.73 
percent.\34\
    One important cause of the increase in labor disputes and 
protests in China in recent years is underpayment of wages.\35\ 

Despite the minimum wage regulations, many employers ignore 
mandated wage rates.\36\ Auditors hired by foreign purchasers 
often find that factory managers in China falsify time cards 
and payroll records to avoid paying the legal minimums. 
Auditors have also concluded that factory managers are becoming 
more sophisticated in disguising such misrepresentations. Some 
company auditors estimate that managers at more than half the 
factories they visit in China alter at least some of their 
payroll records.\37\
    Chinese law mandates time and a half for work over 40 hours 
per week and limits overtime to 36 hours per month.\38\ 
According to a trade union official in Jiangsu province, 
companies should negotiate with the union about overtime, but 
few companies follow the relevant regulations.\39\ A recent 
China Social Security Center survey showed that, of 1,218 
workers surveyed in Beijing, 65.6 percent worked more than 
eight hours per day, and 20 percent worked more than 10 hours 
per day. Although many workers think that working long hours 
has a negative effect on their health, their base pay is so low 
that most are willing to work overtime for extra pay.\40\

Wage and Pension Arrears

    Unpaid wages and pensions remain serious problems for 
Chinese workers, and the resulting labor unrest is generating 
government concern.\41\ When the State Council issued a 
regulation in late 2004 to resolve the wage arrears problem, 
Cao Kangtai, the Director of the Legal Affairs Office, said 
that ``the regulation was designed to maintain social 
stability. . . .'' \42\ A march by 1,000 workers in Shenzhen 
against the loss of severance pay resulted in blocked roads, 
traffic jams, and violence when security personnel were 
deployed to disperse the workers.\43\
    Other workers have taken more drastic action. In November 
2004 in Shenzhen, factory workers who had not been paid in over 
two months took the owners hostage.\44\ In February 2005, 
Shenyang construction workers climbed to the top of a building 
and threatened to jump if the company did not pay their back 
wages.\45\ Government response to such worker action was swift 
and severe: the workers were arrested, and some received prison 
sentences.\46\
    Some senior government officials have taken action to 
resolve unpaid wages to workers. In mid-2004, for example, a 
member of the Chinese People's Political Consultative 
Conference (CPPCC) informed Premier Wen Jiabao that the Jixi 
city government in Heilongjiang province had failed to pay 
millions of yuan to a local construction company. The arrears 
caused the company to default on wages owed to hundreds of 
migrant workers. Premier Wen ordered a State Council 
investigation that ultimately resolved the case. Premier Wen 
has intervened in similar cases elsewhere to restore unpaid 
wages.\47\
    The construction industry has one of the worst records on 
unpaid wages of all Chinese industries and has received the 
most attention from the government.\48\ According to the 
Ministry of Construction, construction firms owed workers some 
175.588 billion yuan ($21.214 billion) at the end of 2003. In 
November 2003, the State Council General Office issued 
guidelines to settle delayed payments for construction 
workers.\49\ In August 2004, Vice Premier Zeng Peiyan raised 
the issue of unpaid wages in the construction sector, and 
called for strengthened enforcement of measures that would 
protect the rights of workers.\50\
    Central, provincial, and local governments sign contracts 
for construction projects, but frequently fail to pay 
contractors promptly upon completion of work. As a result, 
contractors often cannot pay their workers. As of August 2004, 
Chinese government entities owed over 64.28 billion yuan ($7.76 
billion) for construction projects.\51\ Vice Premier Zeng 
criticized some local governments for building lavish projects 
to enhance their status and pressed these governments to pay 
their debts.\52\
    Central and local governments took steps in 2004 and 2005 
to help migrant workers obtain unpaid wages. In late 2004 in 
Guizhou province, for example, the local federation of trade 
unions established a hotline for migrants and helped them 
recover unpaid wages.\53\ The central government also claimed 
that it had helped migrant workers recover more than 33 billion 
yuan ($3.99 billion), some 99 percent of wages owed to migrant 
workers.\54\ Some observers viewed this claim with skepticism, 
given ACFTU estimates that migrant workers are owed unpaid back 
wages totaling 100 billion yuan.\55\ Some private attorneys in 
China have begun to accept unpaid wage cases. Such cases are 
often costly, however, because the courts and the labor 
arbitration boards may charge 1,000 yuan ($120) or more to 
investigate and adjudicate cases. Few workers can afford such 
fees, but legal aid organizations, NGOs, and in some cases the 
attorneys themselves pay part of the costs.\56\

Workplace Health and Safety

    The Chinese government has begun to pay attention to the 
country's poor national safety record, especially in the 
construction industry, where 1,144 accidents with 1,342 deaths 
occurred in 2004, down 11.46 percent and 13.12 percent, 
respectively, from 2003.\57\ Despite this positive trend in one 
sector, China has averaged 1 million industrial accidents per 
year since 2001, according to the State Administration of Work 
Safety (SAWS). About 140,000 workers died from industrial 
accidents in 2004, compared with 79,422 deaths in 1991. One 
Chinese scholar blamed the increase in industrial accidents on 
China's booming economy and a weak foundation in safety and 
health programs.\58\
    An encouraging change in workplace health and safety in 
China is the swiftness with which Chinese news media report 
serious workplace accidents, particularly coal mine disasters. 
In the past, local officials and mine owners commonly concealed 
news of coal mine explosions.\59\ The increased use of the 
Internet has made it difficult to hide these disasters from the 
public.\60\ A public outcry over two coal mine disasters in 
2004 and 2005, one at the Chenjiashan mine in Shaanxi province 
that killed 166 miners and a second at the Sunjiawan coal mine 
in Liaoning province that claimed 214 lives, compelled the 
central government to take a direct interest in improving 
safety conditions.\61\
    Chinese government officials are considering several 
measures to improve workplace safety. One project to be jointly 
implemented by ACFTU and SAWS involves appointing 100,000 
senior coal miners as safety supervisors. These supervisors 
would have the power to stop work if they felt that workers' 
lives were at risk.\62\ A British coal mine expert stressed 
during a Commission roundtable that safety supervisors and 
inspectors are vital to coal mine safety. He also pointed out 
that training mine inspectors is relatively inexpensive. 
Another British expert who has served on numerous coal mine 
safety boards said that mine safety supervisors must have 
statutory authority to take charge of mine safety.\63\
    Li Yizhong, the new Director of General Administration of 
SAWS, suggested a different approach to violations of safety 
laws and regulation: tough criminal penalties for public 
servants who are negligent or corrupt. Local officials have 
said that the criminal law is too lenient because punishment 
for major accidents is limited to seven years in prison and a 
fine of 200,000 yuan ($24,390).\64\ Some safety experts suggest 
that compulsory insurance would increase safety for workers, 
since companies would have to strengthen safety standards to 
keep premiums affordable. But one manager from a Chongqing city 
insurance company explained that operations at coal mines are 
frequently chaotic, and workers might not be able to prove 
claims for compensation due to inconsistent records. In 
addition, with the government failing to supervise work safety 
in Chinese mines, insurance companies might not underwrite 
policies for mining companies.\65\

U.S.-China Bilateral Programs

    Bilateral exchange and cooperation on labor issues between 
the U.S. Department of Labor (DOL) and Chinese government 
agencies during the past year has been constructive. DOL and 
its Chinese counterparts are discussing ways to implement 
letters of understanding signed in June 2004. These agreements 
contemplate U.S.-China cooperation in the administration of 
wage and hour laws, mine safety programs, pension program 
oversight, and occupational safety and health issues.\66\ Other 
bilateral program activities are also underway. For example, 
the United States and China are collaborating on a rule of law 
project aimed at developing better laws and regulations 
governing labor inspections and employment contracts, and 
providing legal education and services to workers and 
employers. Staff of the mine safety project began to train 
Chinese miners and safety managers during 2005. The DOL also 
funded an ``HIV/AIDS in the workplace'' program in September 
2004 that is currently in the design phase.\67\

Forced Labor

    Forced labor is an integral part of the Chinese 
administrative detention system. A recent International Labor 
Organization report discusses prison labor without due process 
in Chinese re-education through labor (RETL) camps.\68\ At 
least 250,000 to 300,000 individuals are currently detained in 
approximately 300 centers in the RETL system.\69\ Although the 
Chinese government is in the process of reforming this system, 
it is unlikely to be abolished [see Section III(b)--Rights of 
Criminal Suspects and Defendants--for a 
detailed discussion of China's administrative detention 
system]. In response to the Chinese government's 2005 progress 
report on this issue, the United Nations Committee on Economic, 
Social, and Cultural Rights recommended that the Chinese 
government ``abolish the use of forced labor as a corrective 
measure.'' \70\
    In the past, laogai (reform through labor) camps were the 
source of many forced labor-related human rights abuses. The 
executive director of a U.S. human rights NGO told a Commission 
roundtable that, although Chinese officials no longer use the 
term laogai, forced labor continues in substantially the same 
form in laojiao (RETL) camps. Laojiao has since developed into 
one of the most commonly used tools for punishing and 
suppressing political and religious dissent, and is currently 
being used to suppress the Falun Gong movement.\71\
    An August 2005 news report described interviews with guards 
at a laojiao facility and employees at a wig factory who 
alleged that a Chinese hair products company used forced labor 
from the laojiao camp for products exported to the United 
States.\72\ A U.S.-based Falun Gong practitioner told a 
Commission Roundtable in June that the same Chinese company 
used forced labor from Falun Gong practitioners to make 
products for export to the United States and other 
countries.\73\
    Chinese regulations bar the export of goods made with 
prison labor, and Section 307 of the Tariff Act of 1930 
prohibits the import of goods made by prisoners into the United 
States. The United States and China signed a Memorandum of 
Understanding in 1992 to prevent the import into the United 
States of prison labor products. A subsequent agreement in 1994 
permits U.S. officials, with Chinese government permission, to 
visit facilities suspected of producing prison products for 
export to the United States. Three visits to prison-related 
facilities were made in 2004, leading to these three cases 
being closed. However, at the end of 2004, the backlog of cases 
remained substantial, and the Chinese government continued to 
explicitly exclude from the agreements re-education through 
labor facilities.\74\
    Chinese authorities have identified commercialization of 
the Chinese prison system as a source of official corruption. 
Minister of Justice Zhang Fusen expressed concern about the 
commercial use of prison labor in China in an August 2004 
speech on prison reform. Zhang emphasized that ``administrators 
of prisons mixed goods from outside enterprises with those made 
using prison labor. Such practices are the source of 
allegations of corruption and abuse in the Chinese prison 
system.'' \75\

Child Labor

    Child labor remains a significant problem in China, despite 
being prohibited by law.\76\ Some manufacturers prefer to 
employ child workers illegally for their low cost, docility, 
and dexterity.\77\ In addition, low wages and poor working 
conditions have driven many adult workers away from southern 
manufacturing zones such as Shenzhen, heightening demand for 
child labor in these areas.\78\
    Statistics on child labor are considered a state secret, a 
policy that prevents accurate reporting on the extent of the 
problem.\79\ Nevertheless, provincial labor inspection units 
report having freed hundreds of child laborers during labor 
investigations in 2004.\80\ Employment of child laborers 
apparently is concentrated in light, labor-intensive industries 
requiring low skill. Employers often subject children in such 
industries to labor abuses such as forced overtime and exposure 
to hazardous chemicals.\81\ In July 2005, the Southern Daily 
reported that about 300 children were working under abusive 
conditions at a toy factory in Guangdong province.\82\ The 
factory owner said the shortage of adult workers forced him to 
ignore the minimum age for hiring. Many rural children work in 
cottage or family enterprises involving dangerous manufacturing 
practices, such as assembling fireworks.\83\
    The rural educational system in China exacerbates the 
problem of child labor. A high dropout rate in rural areas 
creates a stream of underage laborers.\84\ In addition, Chinese 
labor law and policy fails to distinguish between the illegal 
use of ``child labor'' and permissible ``work-study'' 
programs,\85\ allowing unscrupulous public school 
administrators to use students as low-wage labor.\86\ Private 
schools are also complicit in using child labor.\87\ In 2004, 
authorities discovered that a private middle school in Jiangxi 
province was sending students to an electronics factory in 
Shenzhen, where managers forced them to work overtime under 
harsh conditions.\88\

                       III(d) Freedom of Religion


                                FINDINGS

        <bullet> The Chinese government continues to harass, 
        abuse, and detain religious believers who seek to 
        practice their faith outside state-controlled religious 
        venues. In 2005, the government and Party launched a 
        large-scale implementation campaign for the new 
        Regulation on Religious Affairs to strengthen control 
        over religious practice, particularly in ethnic and 
        rural areas, violating the guarantee of freedom of 
        religious belief found in the new regulation.
        <bullet> The religious environment for Tibetan Buddhism 
        has not improved in the past year. The Party demands 
        that Tibetan Buddhists promote patriotism toward China 
        and repudiate the Dalai Lama, the religion's spiritual 
        leader. The intensity of religious repression against 
        Tibetans varies across regions, with officials in 
        Sichuan province and the Tibet Autonomous Region 
        currently implementing Party policy in a more 
        aggressive manner than officials elsewhere. Sichuan 
        authorities sometimes impute terrorist motives to 
        Tibetan monks who travel to India without permission.
        <bullet> The Chinese government continues to repress 
        Catholics. Chinese authorities are currently detaining 
        over 40 unregistered clergy and have taken measures 
        this year to tighten control of registered clergy and 
        seminaries. Despite assurances of its desire to 
        establish diplomatic relations with the Holy See, the 
        Chinese government has not altered its long-standing 
        position that, as a precondition to negotiations, the 
        Holy See must renounce a papal role in the selection of 
        bishops and break relations with Taiwan.
        <bullet> The government continues to strictly regulate 
        Muslim practices, particularly among members of the 
        Uighur minority. All mosques in China must register 
        with the state-run China Islamic Association. Imams 
        must be licensed by the state before they can practice, 
        and must regularly attend patriotic education sessions. 
        Religious repression in Xinjiang is severe, driven by 
        Party policies that equate peaceful Uighur religious 
        practices with terrorism and religious extremism.
        <bullet> In the past year, the Chinese government 
        continued a campaign begun in 2002 focused on harassing 
        and repressing unregistered Protestant groups and 
        consolidating control over registered Protestants. 
        Hundreds of unregistered Protestants associated with 
        house churches have been intimidated, beaten, or 
        imprisoned. The Chinese government opposes the 
        relationships that many unregistered Protestant house 
        churches have developed with co-religionists outside 
        China.

Introduction

    Religious believers in China practice their faith in the 
shadow of government and Party propaganda, control, and 
harassment. Believers who choose to worship outside state-
controlled venues face detention or arrest, and in some cases 
police abuse. Such repression, while not uniform across China, 
has created an atmosphere of anxiety and unpredictability for 
most Chinese believers. The new Regulation on Religious Affairs 
(RRA),\1\ which took effect in 2005, requires local religious 
affairs officials to ``standardize'' the management of 
religion. As a result, local officials measure their success in 
terms of the number of unauthorized religious venues that they 
merge, correct, or shut down, or the number of unregistered 
believers detained and arrested.\2\

New Regulation on Religious Affairs

    Government officials initially emphasized that the RRA 
would liberalize state management of religious affairs, but 
they subsequently stressed the aspects that strengthen state 
control. At an international conference in 2004 that took place 
before the RRA was implemented, Zhang Xunmou, head of the 
policy and legal department of the State Administration of 
Religious Affairs (SARA), said the new regulation would bring 
about a ``paradigm shift'' in the control of religion in 
China.\3\ He also predicted that the RRA would set clear limits 
on official power over religion, safeguard religious freedom, 
and move from a system of direct bureaucratic control over 
religion to a system of self-government by religious groups.\4\ 
But as the March 1 implementation date drew closer, other 
senior SARA officials emphasized that the goal of the RRA is to 
manage religious affairs, and that officials working on 
religious issues could be held accountable for failing to 
follow the relevant laws and procedures.\5\
    Central government officials also stressed the importance 
of using the RRA as a shield against foreign religious 
influence in meetings held throughout China in early 2005. The 
Tibet Autonomous Region (TAR) government was among the first to 
hold such meetings. TAR Vice Chairman Gyara Lobsang Tenzin 
(Jiare Luosang Danzeng) introduced the RRA in a January 2005 
speech in which he emphasized ``preventing outside powers from 
using religion to infiltrate China,'' and giving religious 
affairs officials ``a lawful method to deal with more 
complicated religious issues.'' \6\ He mentioned protection of 
religious freedom only briefly.\7\ 
Officials also called for using the RRA to guard against 
``foreign infiltration'' at meetings in Yunnan and Jiangsu 
provinces in February.\8\ And in an April meeting in Henan 
province, Zhi Shuping, the Henan Deputy Party Secretary, 
focused on foreign threats and the danger that religion can 
destabilize society.\9\ Zhu also said that, ``For those 
comrades engaged in religious work, the study and 
implementation of the RRA is a major event; even more, it is a 
powerful weapon, a one-time favorable opportunity.'' \10\
    Although the language of the RRA showed early promise, the 
government implementation campaign this year has emphasized 
increased control over religion, and reports from U.S. NGOs 
that monitor religious freedom in China show increased 
restrictions on registered Christian groups since the RRA was 
implemented.\11\ Before the RRA, Chinese law already contained 
many of the rights and protections for believers found in the 
new regulations, such as the protection of ``normal'' religious 
activities,\12\ safeguards for religious properties,\13\ and 
the right to a democratic election of management organizations 
for religious venues.\14\ Such provisions have been largely 
ineffective in protecting religious organizations from state 
interference.\15\
    Observers outside China have been divided on the impact of 
the RRA on religious freedom in China. One U.S. GO 
representative told a Commission roundtable that the RRA 
further codifies ``the rules restraining religious practice in 
China and the bureaucratic mechanism used to reinforce those 
rules.'' \16\ An American professor was somewhat less 
pessimistic, but concluded that ``the purpose [of the RRA] is 
to reduce arbitrariness, but for the purpose of better state 
control.'' \17\ Another U.S. academic expert had a more 
positive assessment, saying that the RRA shows ``an intent to 
treat religious organizations equally with other social 
organizations as a normal part of Chinese society and 
culture.'' \18\ A Catholic scholar in Hong Kong saw some 
benefit in the RRA provisions on religious property and redress 
against abusive officials.\19\ Another Catholic analyst noted a 
few improvements, such as the requirement in Article 15 for 
officials to respond promptly to applications for registration, 
protections for religious properties in Articles 30 to 33, and 
the authorization in Article 34 for organizations to establish 
social service groups. The analyst expressed concern, however, 
about the punishments that Articles 43 and 45 imposed against 
believers and organizations that break RRA rules.\20\ Other 
outside observers said the regulation does nothing new.\21\
    Important questions about the RRA remain to be answered. 
Such issues as whether the government will invoke Article 14 to 
prevent Protestant churches located close to each other from 
registering, and whether Articles 8 and 9 permit religious 
groups to establish religious schools, are of particular 
concern.\22\ Since the RRA went into effect, some unregistered 
Protestants report that authorities have increased harassment 
of house churches, but registered Protestants report little 
change.\23\ For the first time, the RRA authorizes churches and 
other religious entities to offer social services and raise 
funds to support them, requiring that the religious entity use 
any proceeds for ``activities commensurate with the aims of the 
religious organization as well as the relevant social 
services.'' \24\ Article 35 allows religious entities to accept 
foreign donations to support ``activities commensurate'' with 
the entity's goals. The RRA also provides for religious 
organizations to be governed by the ``Regulations on the 
Management of Registration of Social Organizations'' (RSO).\25\ 
These regulations impose restrictive and burdensome 
requirements on social organizations, and do not guarantee 
organizational autonomy. A Ministry of Civil Affairs official 
said, however, that the RSO requirement to register with a 
government sponsor would be loosened in the case of religious 
organizations.\26\
    The RRA does not clearly restrict either religious 
organizations or venues for religious activities to the ``five 
categories of religion''--Buddhism, Catholicism, Daoism, Islam, 
and Protestantism--permitted by law since 1949.\27\ Some 
scholars have 
interpreted this lack of specificity as a decision to allow new 
categories of religious practice.\28\ A senior Chinese academic 
expert commented that an important current issue is the 
ambiguous status of the fast-growing ``folk'' belief systems 
not included in the five official categories.\29\ Another 
Chinese religion expert who advised the drafters of the RRA 
said the absence of a definition of ``religious belief'' in the 
final product shows continuing government caution about 
expanding the number of recognized religions. The Orthodox 
Church hopes that the government will permit it to operate in 
China under the RRA.\30\ Believers in traditional forms of 
Chinese ``folk'' religion, which the Party has long disdained 
as feudal superstitions, also hope that a category for popular 
religion may be added to the official five.\31\

Government Persecution of Falun Gong

    Chinese authorities continue to persecute practitioners of 
Falun Gong and other qigong disciplines that the government has 
designated ``cults.'' A Party-led anti-cult campaign that 
targeted religious and spiritual activities in rural areas, 
including Falun Gong practitioners, continued through late 
2004.\32\ In 2005, the Party continued to campaign across 
China,\33\ seeking to persuade the public that the groups 
labeled as ``cults'' claim to be religious or spiritual, but in 
fact are ``anti-social.'' Documents of the ``610'' offices, 
which are local government offices that keep track of such 
groups, reveal an organized bureaucratic scheme for rewarding 
local officials who uncover, re-educate, and detain 
practitioners. Officials who fail to perform these tasks 
receive demerits on their periodic work evaluations. In June 
2005, diplomat Chen Yonglin, assigned to the Chinese Consulate 
General in Sydney, Australia, requested asylum in Australia on 
the grounds that he would be persecuted for having failed to 
report and follow up on Falun Gong and dissident activity in 
Australia.\34\ Government repression has not succeeded in 
eliminating Falun Gong in China. Rather, according to a U.S. 
scholar, it has ``shifted the struggle to virtual reality,'' as 
repressed groups rely on the Internet to organize and 
communicate with each other.\35\

Religious Freedom for Tibetan Buddhists

    The environment for the practice of Tibetan Buddhism has 
not improved in the past year. The Party does not allow Tibetan 
Buddhists the freedom to practice their religion in a 
meaningful way, and instead tolerates religious activity only 
within the strict limitations imposed under the Chinese 
government's interpretation of the Constitution, laws, 
regulations, and policies. The Chinese leadership refuses to 
acknowledge the Dalai Lama's role as the spiritual leader of 
Tibetan Buddhists.
    China's new RRA may lead to more administrative intrusion 
into Tibetan Buddhist affairs by underscoring the state's right 
to supervise the effects of religion on society.\36\ If the RRA 
leads to further restrictions on teaching and assembly in 
Tibetan monasteries, on association between the Tibetan clergy 
and laity, and on small prayer gatherings of the Tibetan laity, 
the result will further erode the traditionally close ties 
between the Tibetan monastic and secular communities. Tibetan 
Buddhism forms the core of self-identity for most Tibetans and 
is integrated throughout the activities of daily life. Official 
regulations that interfere with the practice of Tibetan 
Buddhism harm the Tibetan common identity.
    Each Tibetan monastery and nunnery has a Democratic 
Management Committee (DMC)\37\ that functions as its 
administrative interface with the state. Authorities expect 
DMCs to ensure that monks and nuns obey laws and regulations 
governing religion, and uphold national and ethnic unity.\38\ A 
group of DMC leaders from TAR monasteries completed a training 
course on the new religious affairs regulations in May 2005. At 
the closing ceremony, each one pledged individually, ``When we 
go back, we will use the knowledge we have gained in our 
practical work, further improve the democratic management of 
our local temples, lead the masses of monks and nuns to love 
the nation and love the religion, and make more contributions 
to building a harmonious Tibet.'' \39\
    The attitudes of DMC members toward religion vary within 
each monastery and across regions.\40\ Some DMC members try to 
facilitate the religious purpose of a monastery by working to 
maintain a disciplined program of scriptural study, but a 
shortage of qualified teachers and state control undercut 
Tibetan monastic study.\41\ Party and government pressure most 
heavily affects monasteries and nunneries that follow the 
Tibetan Buddhist tradition most directly associated with the 
Dalai Lama, the Gelug.\42\ Monasteries associated with other 
traditions, such as the Kargyu, Sakya, and Nyingma, may 
encounter less official interference in their monastic 
affairs.\43\
    The intensity of religious repression varies across 
regions, with officials in Sichuan province and the TAR 
currently implementing policy in a more aggressive manner than 
elsewhere.\44\ According to data available in the CECC 
Political Prisoner Database (PPD) in June 2005,\45\ the TAR, 
the location of the majority of Tibetan political protests from 
the late 1980s to mid-1990s, holds more than half of the 
Tibetan political prisoners known to be currently imprisoned. 
About 60 percent of them are monks. But in recent years, 
Sichuan province authorities have detained more than three 
times as many Tibetans for political reasons than either the 
TAR or Qinghai province. About two-thirds of the Tibetan 
political prisoners detained from 2002 onward are in Sichuan 
province, according to the PPD. Half of them are monks. In 
Qinghai province, there are fewer Tibetan political prisoners 
than in the TAR or Sichuan province, but all except one of them 
are monks.
    Authorities wary of devotion to the Dalai Lama sometimes 
accuse monks who travel to India for pilgrimage or religious 
study without obtaining official permission\46\ of splittist or 
terrorist motives. A Chinese public security journal, Policing 
Studies, reported in 2004 that `` `pro-Tibetan independence' 
extremists pose the greatest threat to Sichuan province's anti-
terrorism work.'' \47\ The article focuses on ``the Dalai Lama 
separatist gang'' and estimates that since 1980, over 6,000 
Tibetans from Sichuan province have traveled illegally ``to 
undergo training and then returned to engage in separatist 
sabotage.'' The risk of terrorist attacks by ``believers in 
religion in the Tibetan autonomous prefectures in Sichuan'' can 
be eliminated only by ``long-term arduous efforts to eliminate 
the Dalai Lama's religious influence in these prefectures,'' 
according to the analysis.
    The same article exploits the security concerns of the 
post-September 11th era by depicting religious devotion to the 
Dalai Lama as a terrorist menace to China's national security. 
Tenzin Deleg (A'an Zhaxi),\48\ a Buddhist teacher, is named as 
the head of a ``violent terrorist gang'' who used his status to 
``hoodwink and instigate others'' into setting off bombs. The 
article emphasizes that Tenzin Deleg traveled illegally to 
India, where the Dalai Lama recognized him as a reincarnated 
lama. The article warns that Tibetan Buddhists who ``returned 
to these regions illegally,'' or who have been punished for 
taking part in political demonstrations, or who have been 
``dismissed after the reorganization of monasteries,'' \49\ 
will ``very easily become violent terrorists under the 
instigation and organization of the Dalai Lama's separatist 
group.''
    Sichuan province authorities released Sonam Phuntsog, a 
popular Tibetan Buddhist teacher, from prison in October 2004 
when his sentence was complete. He was imprisoned after being 
convicted on charges of splittism after he led prayers for the 
Dalai Lama's well-being. Sonam Phuntsog's official sentencing 
document states that police detained him ``on suspicion of 
taking part in a bombing incident,'' but the court found him 
guilty because he urged ``crowds of people to believe in the 
Dalai Lama and recite long life prayers'' for him.\50\ The 
document describes as evidence against Sonam Phuntsog a trip he 
made to India, where he met the Dalai Lama.
    The Chinese government asserts the right to ``[safeguard] 
the normal order of Tibetan Buddhism'' by supervising the 
selection of reincarnations of important Tibetan lamas.\51\ 
State-run political education sessions require that monks and 
nuns denounce the Dalai Lama's recognition in 1995 of Gedun 
Choekyi Nyima as the reincarnation of the Panchen Lama, the 
second-ranking Tibetan spiritual leader. Officials promptly 
took Gedun Choekyi Nyima, then age six, and his parents into 
custody and have held them incommunicado since that time. 
Chinese authorities installed another boy, Gyalsten Norbu, 
several months later and demanded that secular and monastic 
communities accept his legitimacy. President Hu Jintao met with 
Gyaltsen Norbu in February 2005 and called on him to be ``a 
model of loving the country and loving religion,'' \52\ the 
same patriotic formula impressed upon all Tibetans. Gyaltsen 
Norbu's appointment continues to stir widespread resentment 
among Tibetans.\53\ The U.S. government has repeatedly urged 
China's government to end restrictions on Gedun Choekyi Nyima 
and his family and to allow international representatives to 
visit them.

Religious Freedom for China's Catholics and China-Holy See Relations

    China's new RRA has not brought greater government respect 
for the religious freedom of Chinese Catholics.\54\ Since the 
new regulations went into force in March, harassment and 
detention of unregistered Catholics has increased, and even 
registered priests are now obliged to report weekly to their 
local SARA office on all of their activities.\55\ The RRA 
permits foreign professors to teach in registered Chinese 
seminaries, which have for years relied on the professors' 
expertise. In the past year, however, officials have prevented 
foreign professors from teaching at almost all registered 
seminaries, and students lacking graduate degrees must teach 
many seminary courses.\56\
    The Chinese government continues to detain unregistered 
Catholic clerics. According to a U.S. NGO that monitors the 
unregistered Catholic community in China, 41 unregistered 
bishops and priests are in prison, labor camps, or under house 
arrest or surveillance.\57\ Many of the detentions reported 
over the past 12 months were for short periods. Some were 
accompanied by attempts to pressure the cleric to register with 
the Catholic Patriotic Association. Other detentions probably 
were intended as warnings against public gatherings, such as 
the 10 detentions during the two-month period of the papal 
transition. Jia Zhiguo, unregistered bishop of Zhengding 
diocese in Hebei province and a leading figure among 
unregistered Catholic bishops, has been detained five times in 
the past 12 months.\58\ The condition and whereabouts of Su 
Zhimin, the unregistered Catholic bishop of Baoding diocese in 
Hebei, remain 
unknown.\59\
    The Chinese government continues to interfere in the life 
of the registered Catholic community. The government seeks to 
interfere in the process of selecting bishops, promoting 
clerics who acquiesce in government control of the registered 
Catholic community.\60\ But other registered bishops and 
priests have resisted this interference, and in recent years 
many candidates to become bishops have privately sought and 
received the approval of the Holy See before their ordination. 
The Chinese government has acquiesced in the ordination of 
candidates approved by the Holy See.\61\ Twice in the past 12 
months, in Shanghai and Xi'an, the registered bishop ordained 
an auxiliary bishop with right of succession. In both cases the 
Chinese government and the Catholic Patriotic Association 
officially denied the role of the Holy See. Although the Holy 
See did not comment, Catholic bishops abroad and Catholic news 
agencies confirmed its role in the ordination.\62\ According to 
informed sources and analysts, the Chinese government and the 
Holy See cooperated to prepare the unification of the 
registered and unregistered Catholic communities in the 
Shanghai diocese: after the death of the current registered and 
unregistered bishops of Shanghai (both men are 90 years old and 
ill), no replacement will be appointed, so that the registered 
bishop's new auxiliary bishop will become the ``single point of 
reference'' for both communities.\63\the process of mutual 
adaptation has been accompanied by considerable tension between 
the government and the Church. A generation of elderly bishops 
is rapidly passing, and, due to the loss of a generation of 
priests during the Cultural Revolution, the candidates to 
replace them are often in their thirties or early forties. 
These men could well lead the Church in China for 50 years.\64\ 
In the past year, 14 registered bishops have died and only two 
have been replaced.\65\ The Chinese government monitors and 
inspects the registered seminaries, where it is forbidden to 
teach anything contrary to Party policy, including Catholic 
moral teaching on abortion, euthanasia, contraception, and 
divorce.\66\
    Some forms of Chinese government interference are 
relatively mild. Having declared that the Catholic Church needs 
to improve the ``quality'' of its clergy, the government has 
permitted and 
promoted the expansion of educational opportunities for 
religious congregations of women and programs to improve 
priestly formation.\67\ As part of its larger policy to 
encourage private initiatives in social welfare, the Chinese 
government has continued to permit the registered Catholic 
community to expand its social service programs.\68\
    The most important recent developments in the life of the 
Catholic Church in China are the restoration of communion 
between many members of the registered clergy and the Holy See, 
and the growing reconciliation of unregistered with registered 
Catholics. But in the past year registered clerics have rarely 
manifested their fidelity to the Holy See publicly, leading 
observers to ask whether progress has slowed. Some analysts 
speculate that Church leaders have decided to maintain a lower 
profile, to allow the Chinese government to ``save face.'' \69\ 
A letter written by a Holy See diplomat to all the unregistered 
bishops, and released by one of the latter to a U.S.-based NGO, 
surprised many by saying that ``obviously, the Patriotic 
Association has the characteristic of being in schism'' and 
detailing the reconciliation procedures demanded of priests 
registered with the Patriotic Association.\70\ Most observers 
report that the reconciliation between unregistered and 
registered Catholics continues. Although most unregistered 
Catholics continue to refuse to worship with the registered 
Catholic community, some do so with registered bishops and 
priests privately in communion with the Holy See.
    Despite assurances of its ``sincere'' desire to establish 
diplomatic relations with the Holy See, the Chinese government 
has not altered its long-standing position that the Holy See 
must break relations with Taiwan and renounce a papal role in 
the selection of bishops. In late March 2005, senior Chinese 
leaders reportedly held substantive discussions with a senior 
European Catholic prelate in Beijing. The government generally 
responded to the papal transition with perfunctory recognition 
by granting the events minimal media coverage, but public 
security officials also increased harassment of Catholics, 
detaining 13 clerics. Chinese authorities also blocked 
discussion of the transition on domestic and international Web 
sites. Since May 2005, the Chinese government has made some 
conciliatory public statements. Since April 3, the Holy See has 
not publicly protested the detention of Catholic clergy, and 
Pope Benedict XVI has also made conciliatory public 
statements.\71\ The U.S. government has repeatedly encouraged 
the Chinese government to establish diplomatic relations with 
the Holy See.

Religious Freedom for China's Muslims

    The Chinese government strictly controls the practice of 
Islam, and severely represses Islamic worship among members of 
the Uighur minority population in Xinjiang [see Section 
III(a)--Special Focus for 2005: China's Minorities and 
Government Implementation of the Regional Ethnic Autonomy Law]. 
All public mosques throughout the country must register with 
the state-run China Islamic Association. The government bans 
all private mosques, as it does private religious venues of any 
faith. Before they can practice, imams must be licensed by the 
Chinese government, and afterward must attend patriotic 
education sessions regularly. The China Islamic Association's 
Islamic Affairs Steering Committee, established by the central 
government in March 2001, continues to author suggested sermons 
and to censor Islamic religious texts to ensure that all 
published interpretations properly reflect ``socialist 
development and advanced culture.'' \72\
    Several provinces are running Ethnic Unity and Advancement 
Campaigns demanding that religious organizations decrease their 
financial dependence on the state while also accepting fewer 
contributions from their practitioners.\73\ The government 
continues to subsidize religious personnel who ``ardently love 
their country,'' \74\ but several mosques have been forced to 
charge visitors admission fees or lease out portions of their 
facilities.\75\ To fund its growing debts last summer, the 
Religious Management Committee of the Guangyuan mosque in 
Sichuan province reportedly allowed private investors to 
convert two stories of the mosque into an ``Arabian Nights Bar 
and Discotheque.'' \76\ The new RRA provisions that allow 
foreign and domestic donations to religious organizations may 
ease some financial pressures, but all of their revenue and 
expenditures must be reported to SARA.\77\
    Outside of the Xinjiang Uighur Autonomous Region, the 
government allows some Muslim groups to run private schools for 
minors in poor areas and to engage in other social welfare 
programs.\78\ A government-run Web site highlighted in 2005 the 
achievements of a privately run Islamic school in Gansu 
province,\79\ for example, and the Qinghai press praised the 
Dongguan mosque's contributions of food and shelter to the 
needy.\80\ Outside of Xinjiang, the government allows some 
mosques\81\ registered with the China Islamic Association to 
manage religious schools for those 18 years and older.\82\ As 
the government notes the positive contributions of Islamic 
groups, officials may allow them to assume greater 
responsibility for the nation's growing social welfare needs.
    Within Xinjiang, the Chinese government conflates private 
Uighur Islamic practices with ``religious extremism'' and 
``ethnic splittism.'' \83\ Islam is a key component of Uighur 
ethnic identity, and the government is concerned it may be used 
to build support for greater effective autonomy. Uighurs face 
more restrictions on their religious life than other Muslims, 
including non-Uighurs living in Xinjiang.\84\ According to a 
member of Xinjiang's Academy of Social Sciences, Xinjiang has 
more religious regulations than any other province, providing 
the government a ``powerful legal weapon'' to control 
religion.\85\ In a major policy statement in January, Xinjiang 
General Secretary Wang Lequan declared that the Party ``must 
unremittingly make education in atheism part of the effort to 
transform social customs, guide the masses to develop a 
scientific, civilized, and healthy way of life, and promote 
nationality development and progress.'' \86\ Xinjiang leaders 
hail China's new RRA as a ``prime opportunity'' to increase 
religious management in the struggle against religious 
extremism and splittism.\87\
    The current crackdown on Uighur Islamic practices began 
with the collapse of the Soviet Union in 1991 and has increased 
in intensity in the post-September 11 era.\88\ Central and 
provincial authorities developed a set of religious regulations 
in the early 1990s that impose restrictions in Xinjiang not 
found elsewhere in China.\89\ These restrictions continue to 
determine policy today. The Party Central Committee imposed 
``severe controls on the building of new mosques'' \90\ in 
1996, the same year that Xinjiang authorities targeted 
``religious extremists and ethnic separatists'' for arrest\91\ 
during a national ``strike hard'' campaign against general 
crime.\92\ New regulations in October 1998 required all imams 
in Xinjiang to attend mandatory ``patriotic education'' courses 
each year to renew their accreditations.\93\ In 2001, the 
Xinjiang local people's congress amended the central 
government's 1994 Regulations on the Management of Religious 
Affairs restricting religious observances to those who 
``safeguard the unification of the motherland and national 
solidarity, and oppose national splittism and illegal religious 
activities.'' \94\
    The government arrested more than 200 Muslims in July and 
August 2005 for possessing ``illegal religious texts.''\95\ The 
Xinjiang government prohibits state-sanctioned religious groups 
below the provincial level from publishing religious materials 
without receiving prior approval from the Xinjiang State 
Administration of Religious Affairs.\96\ Individuals and groups 
are strictly prohibited from publishing or disseminating any 
material with ``religious content'' without government 
permission.
    Central government officials assured the foreign press in 
March 2005 that minors are allowed to worship freely in 
China,\97\ but the Xinjiang government prohibits children under 
18 years of age from entering mosques or receiving religious 
instruction even in their own homes.\98\ Students may not 
observe religious holidays, fast during Ramadan, or wear 
religious clothing in public schools. The government requires 
teachers to report students who pray or observe Ramadan.\99\ 
The government regulates the construction of mosques and has 
closed hundreds of them since the mid-1990s.\100\ The 
government outlaws all private religious classes (madrassas) 
and mosques in Xinjiang.
    Government controls on religious belief and practice in 
Xinjiang not only violate the freedom of religion of Xinjiang's 
minority people, but also their freedom of expression and the 
right of each minority to protect and develop its own culture 
that is conferred by the 1984 Regional Ethnic Autonomy 
Law.\101\ Government policies also contravene several 
international conventions to which China is a signatory.\102\ 
The government's refusal to recognize the Uighurs' 
constitutionally guaranteed right to practice their religion 
freely has exacerbated tensions in the region [see Section 
III(a)--Special Focus for 2005: China's Minorities and 
Government Implementation of the Regional Ethnic Autonomy Law]. 
A recent Human Rights Watch report warns that unless the 
government eases controls on Uighur religious activities, the 
policy ``will likely alienate Uighurs, drive religious 
expression further underground, and encourage the development 
of more radicalized and oppositional forms of religious 
identity.'' \103\

Religious Freedom for China's Orthodox Christians

    Orthodox Christian life is slowly reawakening in China, 
although the community is small and has no priests to conduct 
divine liturgy.\104\ The central government has refused to 
grant Orthodoxy the same status as the five ``official'' 
religions, but local authorities have registered Orthodox 
communities in Ghulja, Harbin, Labdarin, and Urumqi.\105\ Many 
observers think that the absence of a provision in the new RRA 
restricting official recognition of religions to a list of five 
was meant to ease the path of Orthodoxy to recognized 
status.\106\ The government has held talks with representatives 
of the Russian Orthodox Church, which is urging Chinese 
officials to permit Chinese seminarians studying for the 
priesthood in Russia to exercise their ministry in China.\107\

Religious Freedom for China's Protestants

    The new RRA has not improved religious freedom for Chinese 
Protestants, with those worshipping in unregistered house 
churches continuing to be targeted for official repression. The 
government has continued a campaign begun in 2002 focused on 
harassing and repressing unregistered Protestant groups and 
consolidating control of registered Protestants.\108\
     Although the RRA applies equally to all religions, some of 
its provisions address issues of primary concern to 
Protestants. Article 6 appears to permit Protestant house 
churches to register with the Ministry of Civil Affairs without 
also registering with the SARA or the Three Self Patriotic 
Movement (TSPM), the official national Protestant organization. 
Some Western analysts believe that the new registration system 
was designed to address complaints by unregistered Protestant 
groups that local SARA offices ignore their applications. 
Whatever its purpose, the new system has resulted in a 
difference of opinion among house church leaders.\109\ Some 
house churches want the security of legal recognition and the 
opportunity to establish approved kindergartens and health 
clinics, as well as to run seminaries and exchanges with 
foreign countries. Other house church leaders fear that their 
churches will not be able to maintain independence from the 
TSPM if they register, or that the government will tighten 
repression against those churches that refuse to register.\110\
    Government authorities committed human rights abuses 
against unregistered Protestants during the past year. Hundreds 
of unregistered Protestants associated with the house church 
movement have been intimidated, beaten, or detained. A US-based 
NGO that monitors the persecution of Chinese Protestants 
reported mass detentions of house church leaders and members in 
February, May, June, July and August of 2005. These detentions 
included American missionary workers and often involved the 
physical abuse of detainees.\111\ Cai Zhuohua, a house church 
pastor in Beijing, and several of his relatives were detained 
in September 2004 when the government discovered a large stock 
of religious literature in their possession. The government 
tried them in July 2005 for ``illegal business practices,'' but 
the court has not yet issued a judgment.\112\ Zhang Rongliang, 
leader of the Fangcheng Fellowship of house churches and co-
author of the 1999 ``House Churches of China's Confession of 
Faith and Declaration,'' has been detained since December 
2004.\113\ Tong Qimiao, a Christian businessman, was beaten by 
public security officials in Xinjiang and later visited by 
officials who threatened to ruin his business if he did not 
sign an affidavit stating that he had not been beaten.\114\ 
Several cases from previous years continued to develop. The 
United Nations Working Group on Arbitrary Detention (UNWGAD) 
took up the case of Zhang Yinan, a house church historian 
sentenced to re-education through labor, and in December 2004 
the UNWGAD found that government deprivation of Zhang's liberty 
was arbitrary and contravened the Universal Declaration of 
Human Rights (UDHR).\115\ Gong Shengliang, pastor of the South 
China Church, continues to serve a life sentence; nine of the 
state's witnesses against Pastor Gong now say that their 
testimony was extracted from them under torture.\116\
    Recent government directives on religion have responded to 
the growth of Protestantism by re-emphasizing longstanding 
policies that require subservience to the state. In August 
2004, the government reiterated that Party members may not 
believe in any religion, prohibited religious activity at 
universities, and clarified what is not permitted when dealing 
with foreign religious organizations.\117\ A particularly 
insistent part of the campaign to make registered Protestants 
conform to state policies has been the TSPM's imposition of a 
``theological construction'' that will, in the words of TSPM 
Chairman Ding Guangxun, ``weaken those aspects within Christian 
faith that do not conform with the socialist society.'' \118\ 
Such aspects include justification by faith, Christ as the sole 
path to salvation and the inerrancy of Scripture, which are 
fundamental beliefs of most Chinese Protestants. Some 
professors and students who have challenged this imposed 
theology have been removed from seminaries.\119\
    The Chinese government opposes the relationships that many 
unregistered Protestant house churches have developed with co-
religionists outside China. Many house churches are organized 
into networks that receive overseas support, especially from 
evangelical groups in the United States.\120\ Many detentions 
of house church worshipers follow contacts with foreigners, and 
the government frequently charges house church leaders with 
maintaining illicit connections abroad.\121\ House churches 
generally do not pursue these overseas connections for 
political reasons, but rather to obtain financial support and 
training. These relationships also help house church leaders 
publicize abuses against unregistered Christians.\122\ At the 
same time, the Chinese government permits the leadership of the 
TSPM to maintain extensive relations abroad with 
interdenominational ``mainline'' Protestant organizations. In 
May 2005, a TSPM delegation attended the World Council of 
Churches Conference on World Mission and Evangelism for the 
first time.\123\
    Protestantism is becoming an important influence on Chinese 
society and culture. Estimates of the total number of 
Protestants in China range from 30 to 100 million.\124\ Despite 
their relatively small number compared to China's total 
population, Protestants are a growing presence in many eastern 
provinces and cities and at many universities. Most Protestants 
in these areas are young people, and the majority of them are 
women.\125\ Unregistered and registered Protestants generally 
respect the authority of the 
Chinese government and most house church leaders hope for 
evolutionary rather than revolutionary changes in China. Both 
unregistered and registered Chinese Protestants hope to play a 
role in shaping China's future.\126\
    The Chinese government seeks to blunt many of the effects 
and influences of Protestantism, but it welcomes others. The 
Chinese government sees threats to social ``harmony'' and Party 
control over religion in certain ideas spreading in house 
church circles, particularly the reintroduction of Protestant 
denominational distinctions and Protestant evangelicalism and 
Pentecostalism.\127\ But the government welcomes the social 
service projects undertaken by the Amity Foundation, a well-
established Protestant foundation that in the past has 
sponsored projects in rural development, leadership training, 
public health, AIDS clinics, care for the elderly, and 
orphanages.\128\ The Chinese government has also permitted 
several Protestant schools to open and supported the plans of a 
U.S.-based NGO to open China's first post-1945 privately-run 
university with an openly Christian mission.\129\ Some 
officials at the local level have recognized the stabilizing 
influence of religion on Chinese 
society.\130\

                      III(e) Freedom of Expression


                                FINDINGS

        <bullet> Chinese authorities allow government-sponsored 
        publications to report selectively on information that, 
        in previous decades, officials would have deemed 
        embarrassing or threatening. Nevertheless, the Chinese 
        government does not respect the freedom of speech and 
        freedom of the press guaranteed in China's 
        Constitution.
        <bullet> In the past year officials have become less 
        tolerant of public discussion that questions central 
        government policies and have tightened restrictions on 
        journalists, editors, and Web sites.
        <bullet> Chinese authorities impose strict licensing 
        requirements on publishing, prevent citizens from 
        accessing foreign news sources, and intimidate and 
        imprison journalists, editors, and writers.

Increased Government Control of Political Speech

    Chinese citizens face increased government regulation and 
suppression of their freedom of speech and freedom of the 
press, which are guaranteed in China's Constitution.\1\ Over 
the past year public security authorities have detained or 
imprisoned over two dozen journalists, editors, and writers, 
including Zhao Yan, a researcher for the New York Times, and 
Ching Cheong, a reporter with the Singapore Straits Times. 
Officials have confiscated hundreds of thousands of 
publications for having illegal political content, banned 
hundreds of newspapers and magazines for publishing without 
government authorization, and shut down one quarter of the 
private Web sites in China for failing to register with the 
government.
    In May 2005, the United Nations Educational, Scientific, 
and Cultural Organization (UNESCO) awarded Chinese newspaper 
editor Cheng Yizhong the Guillermo Cano World Press Freedom 
Prize. The Chinese government prohibited Cheng from attending 
the award ceremony (in the previous year, government and Party 
officials detained Cheng, had him dismissed from his job, and 
expelled him from the Party). In an acceptance speech, read in 
his absence at the ceremony, Cheng said:

          Terror is everywhere. Lies are everywhere. We have 
        been deceiving ourselves further and further down this 
        path. I believe that in the near future, we will look 
        back and find this insane and absurd episode to be 
        absolutely unthinkable. If we accept the prevalent evil 
        as normal, we will be co-conspirators in our own 
        oppression.\2\

    China's leaders hope to generate economic growth by 
harnessing domestic consumer demand for information and 
entertainment, but at the same time they expend significant 
human, legal, technical, and financial resources to ensure that 
commercialization of China's media does not diminish the 
government's ability to manipulate public opinion. Government 
agencies have consolidated control over all forums of political 
discourse by censoring newspapers, magazines, television news 
broadcasts, radio, Web sites carrying news and information, 
and, most recently, personal Web pages. When unable to block 
opinions with which they disagree, Chinese authorities have 
employed government and Party personnel to channel and direct 
public opinion surreptitiously.

Government and Party Use of the Media to Control Public Opinion

    The Communist Party uses ``political techniques to 
effectively regulate and control all types of mass media,'' 
according to a report published by Xinhua and the State Council 
Information Office.\3\ These techniques include allowing only 
state-sponsored media to publish or broadcast news, 
criminalizing unlicensed journalism, and requiring news editors 
to provide politically sensitive news stories to Party and 
government censors for vetting.\4\ According to the same 
report, the Party uses its authority over the news media to 
``steer public opinion'' and ``create conformity among the 
increasingly diverse thoughts and perspectives'' in China's 
society. The Party achieves this goal by requiring news media 
to publish stories that praise central Party and government 
policies and portray central Party and government officials as 
working for the best interests of ordinary citizens.\5\ For 
example, when Chinese authorities issued regulations in March 
2005 that restricted who may engage in journalism, media 
outlets such as Xinhua (which is controlled by the State 
Council) and the People's Daily (which is owned and operated by 
the Communist Party) began a propaganda campaign to deflect 
claims that the regulations interfered with freedom of 
expression. Xinhua, the People's Daily, and other state run 
media claimed that the regulations were needed to stop 
unethical journalists and allow ethical journalists to protect 
the public.\6\ The same campaign portrayed Western news media, 
particularly U.S. news media, as corrupt and government-
controlled.\7\
    The Party considers journalists to be its agents, and uses 
them to investigate provincial and local officials.\8\ If a 
journalist writes an article about corruption or a natural or 
man-made disaster, an editor may publish it, provided it shows 
that the situation has been resolved in a manner that reflects 
well on the Party, or that otherwise conforms to a particular 
official's agenda.\9\ The government and the Party, acting 
through the General Administration of Press and Publication 
(GAPP) and the Central Propaganda Department, respectively, 
prohibit editors from publishing stories that would tarnish the 
image of the central government, the top leadership, the Party, 
or their policies.\10\ Instead, editors must treat such 
politically sensitive stories as internal intelligence reports, 
and forward them to relevant officials.\11\
    There is some variation among local news media as to what 
censors deem ``politically sensitive,'' \12\ but central 
authorities move quickly to silence anyone they perceive as 
threatening their control over political discourse. For 
example, in early September 2004, a publication of the Southern 
Group (whose editors are known, and have been imprisoned, for 
testing government and Party censors) published a story that 
listed 50 Chinese citizens who were ``activists who advise 
society and participate in public affairs.'' \13\ After the 
Liberation Daily (a publication of Shanghai's Communist Party 
Committee) criticized the concept of ``public intellectuals'' 
as 
intended to ``drive a wedge between the intellectuals and the 
Party,'' \14\ officials moved against Chinese intellectuals who 
had disagreed in public with the government or the Party. The 
campaign against public intellectuals resulted in at least 
seven detentions, censorship of the term ``public 
intellectuals,'' and the blacklisting of several prominent 
social commentators.\15\
    In another example of Chinese authorities silencing 
``public intellectuals,'' in May 2005 the government abruptly 
and without explanation ordered the cancellation of an academic 
conference 
organized by Fordham University and the China University of 
Political Science and Law.\16\ Participants at the conference, 
entitled ``Constitutionalism and Political Democratization in 
China--an International Conference,'' had planned to discuss 
sensitive topics such as ``The Different Meanings of 
Democracy,'' ``Democratization and Constitutionalism: China in 
Comparative Perspective,'' ``Law and Development of 
Constitutional Democracy: Is China a Problem Case? '' and 
``Which Path Should We Choose Toward Chinese Democracy? '' 
Scheduled speakers included Western and Chinese experts well-
known in China for doing work in sensitive areas, such as 
migrant labor and criminal defense.\17\ A People's Daily 
editorial published during the government crackdown on public 
intellectuals illustrates the attitude of Chinese authorities 
that likely contributed to their cancellation of the 
conference:

          [W]hat has not changed is that Western hostile forces 
        are trying to carry out their planned conspiracy to 
        westernize and divide us, what has not weakened is the 
        influence of various types of anti-Marxist trends of 
        thought, and what has not stopped is the corrosive 
        effect of corrupt capitalist thinking and feudalism's 
        vestigial ideology.\18\

    The government and the Party are concerned that Chinese 
citizens have increased access to foreign news sources through 
satellite broadcasts, the Internet, and cellular phones, which 
may 
dilute the Party's control over public opinion.\19\ Senior 
officials portray the Internet as ``a battlefield for the 
Communist Party's propaganda ideology work'' that must either 
be occupied or lost to ``Western countries, headed by the 
United States.'' \20\ The Party has said it must win the battle 
for Internet propaganda supremacy, otherwise ``not only will it 
influence China's image and investment environment, but more 
importantly, it will influence the image of the Party and the 
government.'' \21\
    In the past year the Party has improved its ability to 
silence and control political discussion on the Internet. Until 
recently, authorities have focused on blocking information from 
outside China and silencing critical Web sites inside China. 
While their efforts have been effective, the government 
recognizes that it cannot silence all politically sensitive 
information that it finds objectionable. For 
example, Chinese citizens wishing to express themselves without 
submitting to government censorship resort to posting articles 
on foreign Web sites and issuing ``open letters'' in the hope 
they will be published outside China. Internet users in China 
then circulate these materials. Authorities call this practice 
``re-infiltration,'' and have said it threatens their control 
over public opinion.\22\ Among their reactions has been to 
train and employ ``Internet propagandists'' to pose as ordinary 
Internet users and post opinions and information on the 
Internet to ``guide'' public opinion in the direction the 
government desires.\23\
    Government use of the news media to control public opinion 
was particularly evident during periods of heightened political 
sensitivity in late 2004 and during 2005:

        <bullet> Before the Fourth Plenary Session of the 16th 
        Central Committee of the Communist Party in September 
        2004, officials shut down the popular ``Big Mess'' 
        (yitahutu) Internet chat room, and the Central 
        Propaganda Department ordered media outlets to publish 
        certain stories, and censor others, to create an 
        atmosphere beneficial to the fourth plenum.\24\
        <bullet> When officials announced the death of former 
        Party General Secretary Zhao Ziyang in January 2005, 
        censors blacked out foreign satellite TV broadcasts 
        whenever Zhao's name was mentioned.\25\
        <bullet> In March 2005, authorities announced that they 
        would enforce 24-hour monitoring over the Internet 
        during the annual plenary meeting of the National 
        People's Congress.\26\
        <bullet> In April 2005, Chinese authorities used their 
        control of newspapers, Web sites, Internet forums, and 
        cell phones to stop anti-Japanese protests in several 
        cities.\27\
        <bullet> Just before the International Labor Day 
        holiday on May 1, Guangdong province's Communication 
        Administration Office, Government News Department, and 
        Public Security Office issued a joint notice that 
        required Internet content providers to monitor user 
        identities, and limit users to a number that would 
        allow them to be managed.\28\

    Chinese authorities are encouraging China's television and 
Internet news outlets, all of which are government sponsored, 
to increase their ability to influence public opinion abroad 
regarding China.\29\ Chinese authorities are also trying to 
increase their influence over bodies responsible for setting 
policies for Internet governance.\30\ For example, in March 
2005, Zhao Houlin, a former telecommunications official in the 
Chinese government, and currently director of the International 
Telecommunication Union's Telecommunication Standardization 
Bureau, said: ``Today the management by the Internet 
Corporation for Assigned Names and Numbers (ICANN) [is 
something that] people consider to be management by the United 
States, by one government. People definitely want to see some 
changes.'' \31\ In June 2005, an article in China's state-run 
press rationalizing that country's crackdown on private Web 
sites cited a Chinese delegate to the United Nation's Working 
Group on Internet Governance, Hu Qiheng, as saying she hopes 
China's Internet governance experience can act as a lesson for 
global Internet governance.\32\

Government Censorship

    No one may legally publish a book, newspaper, magazine, 
news Web site, or Internet publication in China without 
significant registered capital, a government sponsor, and 
government authorization.\33\ The government has the authority 
to revoke any publisher's license and force it to cease 
publishing.\34\ Those who 
violate Chinese publishing regulations are subject to heavy 
fines and long prison terms.\35\ Senior officials at the GAPP 
advocate this ``rule by law'' approach as a means to control 
public opinion.\36\
    The Party and the government are increasingly using the law 
as a weapon to silence political speech that they believe may 
``provoke trouble,'' or ``confuse public opinion.'' \37\ Three 
events in the past year highlight that Chinese authorities 
value control of political discourse over the freedom of the 
press guaranteed in China's Constitution. First, the Chinese 
government cracked down on Internet expression. According to 
state-run media, China's government has ``put together the 
world's most extensive and comprehensive regulatory system for 
Internet administration,'' \38\ and has ``perfected a 24-hour, 
real-time situational censorship mechanism for Internet 
publishing content.'' \39\ Throughout 2005, authorities shut 
down private Web sites because of their political content.\40\ 
In March 2005, government agencies began enforcing a four-year-
old regulation requiring all private Web sites to register with 
the Ministry of Information Industry and disclose whether their 
sites include restricted content such as news and cultural 
information.\41\ Some localities also began enforcing a 1997 
regulation requiring private Web sites to register with public 
security bureaus.\42\ As part of these new enforcement 
procedures, the Ministry of Information Industry and public 
security bureaus have deployed software to locate and block Web 
sites that failed to register,\43\ and so far have censored 
tens of thousands of private Web sites.\44\
    Second, in the past year Chinese government agencies 
promulgated several regulations to ensure that the government 
and the Party retain their control over journalists and 
editors. While the government claims these regulations are 
necessary to address problems caused by a ``minority of news 
gatherers and editors,'' \45\ in fact, the new regulations 
allow the government to determine who may engage in journalism, 
what their political orientation must be, and when they must 
submit to government and Party censorship:

        <bullet> In December 2004, the State Administration of 
        Radio, Film, and Television (SARFT) issued two notices 
        that regulate the political ideology of television 
        editors, reporters, and hosts.\46\ A week later, SARFT 
        announced that it would require television stations in 
        China to increase control over what television 
        interview program hosts say on the air, and only air 
        programs that ``comply with propaganda discipline'' 
        produced by government-licensed production companies 
        and screened by relevant officials.\47\
        <bullet> In January 2005, the GAPP issued two new 
        regulations limiting ``lawful'' news gathering and 
        editorial activities to those holding a government-
        issued journalist accreditation card.\48\
        <bullet> In March 2005, the Central Propaganda 
        Department, GAPP, and SARFT jointly issued a set of 
        regulations requiring news reporting and editing 
        personnel to support the leadership of the Party, focus 
        on ``correct propaganda'' as their guiding principle, 
        and have a firm grasp of ``correct guidance of public 
        opinion.'' \49\
        <bullet> In April 2005, SARFT issued rules requiring 
        radio and television reporters and editors to ``put 
        forth an effort to safeguard the interests and the 
        image of the nation,'' ``give priority to positive 
        propaganda,'' and ``carry out China's foreign 
        policies.'' \50\

    Finally, in June 2005, the Hong Kong press reported that 
Party propaganda officials had issued a directive restricting 
``extra-territorial reporting,'' \51\ a practice in which a 
domestic newspaper publishes a critical investigative report on 
events in another area of China that local news media have been 
prevented from reporting. A Chinese media professor called 
extra-territorial reporting ``the best hope for liberalizing 
the news media,'' and one report cited unnamed Chinese editors 
and analysts as saying the ban had dealt a serious blow to 
investigative reporting.\52\
    In addition to cracking down on Web sites, journalists, and 
extra-territorial reporting, Chinese authorities continue to 
enforce and enact laws that impose extensive administrative 
licensing requirements on all news media. As the number of news 
publications in China has grown, so has the scope of government 
regulation and repression:

        <bullet> Between January and September 2004, Chinese 
        authorities had closed down and rescinded the 
        registrations of 642 news bureaus, deferred the 
        registration of 176 others, and prosecuted 73 
        illegally-established news bureaus.\53\
        <bullet> In 2004, officials seized over 200 million 
        ``illegal publications.'' \54\ A Commission review of 
        official Chinese reports shows that authorities seized 
        hundreds of thousands of these publications solely 
        because of their political content.\55\ The government 
        also sanctioned 73 organizations for illegally 
        ``engaging in news activities,'' punished 213 
        publishers for ``violating regulations,'' and banned 
        170 publications because they had ``problematic topic 
        selections.'' \56\ Authorities also sanctioned 91 work 
        units as part of ``investigatory activities into map 
        propaganda products and imported map products.'' \57\
        <bullet> In 2004 and 2005, Chinese authorities 
        undertook four campaigns to ban unauthorized newspapers 
        and magazines, shutting down 169 publications,\58\ and 
        formed a special working group to ensure that banned 
        newspapers did not reopen.\59\ A senior GAPP official 
        referred to the banned publications, which had titles 
        such as ``Prosperous China'' and ``Chinese and Foreign 
        Legal Systems,'' as ``the garbage of the cultural 
        industry.'' \60\
        <bullet> In 2005, the GAPP issued a notice reminding 
        Chinese citizens that ``newspapers and magazines may 
        only be published by publishing work units approved by 
        publishing administration agencies,'' and informing 
        them that ``in order to safeguard China's periodical 
        publishing order, illegal foreign language publications 
        shall be banned in accordance with the law.'' \61\

     China's leaders also strictly control who may publish 
books and impose harsh regulatory and criminal penalties to 
deter individuals from attempting to engage in private 
publishing. The government requires that all books published in 
China have serial numbers and that officials regulate who may 
publish by exercising exclusive control of the distribution of 
these numbers.\62\ In March 2005, new regulations became 
effective that prohibit the publication, and allow the 
confiscation, of any book that ``harms the honor of China,'' 
``propagates superstition,'' or ``disturbs social order.'' The 
regulations also empower the GAPP to strip violators of their 
authorization to publish.\63\ While these provisions are less 
vague than those of the regulations they supersede, the new 
language echoes provisions in China's national security laws 
that is used to imprison journalists and authors.
    Chinese authorities restrict the activities of foreign 
journalists\64\ and try to prevent foreign news media from 
investigating stories that might harm the image of the 
government and the Party.\65\ These restrictions are designed 
in part to protect the Party's image abroad, but the primary 
concern is that Chinese citizens will learn information from 
foreign news sources that is censored in China. According to 
one GAPP official ``various enemy forces strongly coordinate 
with each other, and take those things that cannot be published 
domestically abroad to be published, and then these once again 
infiltrate domestically.'' \66\ Recent examples of Chinese 
authorities attempting to discourage the free flow of 
information to and from China include:

        <bullet> In September 2004, public security officials 
        detained Zhao Yan, a researcher for the New York Times, 
        for ``illegally providing state secrets to 
        foreigners.'' Sources said the ``state secret'' in 
        question was information that former President Jiang 
        Zemin had offered to resign from the Central Military 
        Commission. This fact was later reported in the 
        official press.\67\
        <bullet> In October 2004, SARFT promulgated regulations 
        that allow the government to forbid the rebroadcasting 
        into China of information that has been previously 
        broadcast outside China by designating the broadcast's 
        content a state secret.\68\
        <bullet> In April 2005, a Chinese court sentenced 
        journalist Shi Tao to 10 years imprisonment and two 
        years deprivation of political rights for ``illegally 
        providing top state secrets to overseas 
        organizations.'' According to Xinhua, the state secrets 
        consisted of information he learned at a meeting of the 
        editorial board of the newspaper at which he 
        worked.\69\
        <bullet> Between April and August 2005, the Central 
        Propaganda Department and government media regulators 
        issued six opinions and regulations designed to 
        restrict foreign participation in China's media 
        market.\70\

    The Chinese government continues to implement measures it 
claims will allow citizens increased access to government 
information. Officials say that initiatives such as requiring 
government spokespersons to respond to press inquiries and 
legal safeguards of journalists' right to investigate officials 
prove that the government respects freedom of expression.\71\ 
The state-run media's discussion of the advantages of open 
government is a positive development, but the measures adopted 
by the government do not protect freedom of expression for 
ordinary citizens. Instead, they impose a duty on a group that 
speaks on behalf of the government (spokespersons) to be more 
forthcoming with a group whose work may be censored by the 
government (journalists). As noted above, the Party requires 
editors to treat politically sensitive reporting as internal 
(neibu) information and forward it to relevant officials rather 
than publish it. Therefore, unless the government lifts current 
restrictions on news reporting, the Party will be the primary 
beneficiary of these measures, since the increased 
responsiveness of spokespersons will allow Party officials to 
better use journalists to monitor provincial and local 
governments.
    In 2004, the Commission noted that some news media in China 
are being operated as commercial enterprises, and that the 
government is allowing limited private and foreign 
participation in some aspects of periodical and book production 
and distribution. This trend continues,\72\ but Chinese 
authorities say that these reforms are limited to ``cultural'' 
publications,\73\ and have moved to close loopholes that 
foreign businesses had been using to provide radio, television, 
film, periodical, and book content to China's citizens.\74\ 
Moreover, the Party will continue to have a leadership role in 
enterprises with private investment,\75\ and Party officials 
have no plans to relax editorial control over publishers\76\ 
and journalists.\77\
    Although the Chinese government generally tightened 
restrictions on expression and dissent over the past year, 
officials continued to allow Chinese publications to report 
selectively on corruption and other information that in 
previous decades would have been deemed too embarrassing or 
threatening to government or Party 
officials. For example, during the Nie Shubin and She Xianglin 
controversies [see Section III(b)--Rights of Criminal Suspects 
and Defendants], Chinese news media published articles 
criticizing problems in the criminal process and recommending 
reforms to the criminal justice system as a whole. In another 
example, the China Youth Daily published a strongly worded 
report and editorial criticizing local officials in a Jiangxi 
town for rounding up local indigents in violation of national 
regulations and leaving them in a remote area in the middle of 
winter.
    China has a thriving underground publishing industry, and 
banned books, such as the ``Survey of the Chinese Peasantry,'' 
are easily purchased from unlicensed publishers and 
retailers.\78\ By forcing unlicensed publishers to become 
criminals, however, the government is eroding respect for 
intellectual property and rule of law, as these illegal 
publishers are also de facto copyright violators (the illegal 
works are ``pirated,'' since authors cannot collect royalties 
on them) and must bribe corrupt officials in order to keep 
operating.

Self-Censorship

    Some of the government's restrictions on freedom of 
expression, such as the prohibition on publishing news without 
prior government authorization, are stated explicitly in laws. 
Relevant laws and regulations, however, do not provide clear 
guidance about what kind of political or religious expression 
is illegal. For example, regulations prohibit publishing or 
disseminating anything that ``harms the honor of China,'' but 
no legislative or judicial guidance exists to guide publishers 
as to what constitutes a violation of this prohibition. 
Instead, Chinese authorities rely upon detaining writers, 
indoctrinating publishers, and banning publications to 
encourage companies, institutions, and individuals to 
``choose'' not to use certain words or publicize certain views 
that a government official might deem politically unacceptable. 
According to the editor of a major Chinese magazine noted for 
publishing critical articles without being shut down, ``[w]e go 
up to the line--we might even push it. But we never cross it.'' 
\79\ Chinese citizens who cross the line and fail to censor 
themselves are detained by public security officials or 
dismissed from their jobs:

        <bullet> Chinese authorities closed the prominent bi-
        monthly diplomacy journal Strategy and Management in 
        September 2004 after it published an article strongly 
        criticizing the North Korean government and urging a 
        revised strategy in China-North Korea relations.\80\
        <bullet> Also in September, authorities fired magazine 
        editor Xiao Weibin for publishing an interview with 
        former Guangdong Party leader Ren Zhongyi, wherein Ren 
        criticized the Chinese government for suppressing 
        freedom of expression.\81\
        <bullet> After then-professor Jiao Guobiao published an 
        article on the Internet criticizing the Party Central 
        Propaganda Department's control over China's media, 
        Beijing University officials refused to allow him to 
        teach. They subsequently dismissed him after he went to 
        the United States ``without permission'' at the 
        invitation of the U.S. National Endowment for 
        Democracy.\82\
        <bullet> After editor Cheng Yizhong's newspaper 
        published articles on SARS and government abuses of 
        people's civil rights, authorities detained Cheng for 
        five months without charges, dismissed him from his 
        job, expelled him from the Communist Party, and 
        prevented him from traveling abroad to receive the 2005 
        UNESCO/Guillermo Cano World Press Freedom Prize.\83\
        <bullet> Government authorities suspended lawyer Guo 
        Guoting's license to practice law after he published 
        articles on the Internet advocating on behalf of his 
        clients, including Zheng Enchong, Shi Tao, Zhang Lin, 
        and Huang Jinqiu, whom Chinese authorities had 
        prosecuted for exercising their freedom of 
        expression.\84\
        <bullet> Officials dismissed journalist Wang Guangze 
        from the 21st Century Business Herald after he returned 
        to China from the United States, where he gave a speech 
        at Trinity College entitled ``The Development and 
        Possible Trends of China's Political Ecology in Cyber 
        Times.'' \85\

    Chinese journalists seem to be increasingly chafing at 
government restrictions on press freedom. As an editor of one 
of China's largest newspapers put it: ``Although one must 
submit to controls, one must nevertheless try to achieve 
something meaningful.'' \86\ In order to do so, however, 
journalists and editors must adopt techniques to circumvent 
government and Party censors. The aforementioned editor went on 
to say:

          When something cannot be criticized, the reporter 
        approaches it from a complimentary angle. They don't 
        write about accidents, they write about rescuing 
        people. They don't write about thieves running rampant, 
        they write about police heroism in capturing criminals. 
        When they cannot write news, they write editorials. If 
        they cannot discuss an issue in their locale, then they 
        approach the issue in the context of another place. In 
        the end, if they fail completely, they can always pass 
        on the story (or the actual report) to another media 
        [outlet], wait for them to publish it, and reprint the 
        story.\87\

    Universities in China also censor themselves.\88\ In April 
2005, the Shanghai Evening Post reported how Internet forums at 
several universities ``used relatively strict supervision, 
[and] set up specific screening mechanisms for harmful 
information'' when anti-Japanese demonstrations were taking 
place in several cities in China:

        <bullet> Fudan University's ``Sun Moon Brilliance'' 
        Internet forum was closed between midnight and 8 a.m., 
        which, according to forum managers, made it more 
        difficult for ``harmful information'' to be posted on 
        the forum from outside the university.
        <bullet> Shanghai Jiaotong University implemented 24-
        hour monitoring and used ``technical means'' to 
        implement keyword filtering of its e-mail and Internet 
        forum systems.
        <bullet> Shanghai Normal University's ``Lakeside 
        Contemplations'' Internet forum managers undertook 24-
        hour monitoring, and took turns inspecting and 
        controlling the ``expression situation'' on the entire 
        Internet forum between April 15 and 17.\89\

    Internet and software companies must either employ 
censorship technologies in their products or risk a government 
order to close. For example, although no Chinese law or 
regulation forbids specific words, companies such as Tencent 
and MSN embed a list of banned words and phrases, including 
``freedom'' and ``democracy,'' in their Internet 
applications.\90\ The China-based search engines of Yahoo! and 
MSN filter results for searches relating to the Voice of 
America, Radio Free Asia, and human rights. Google designed its 
Chinese-language news aggregation service so that users in 
China cannot view materials from dissident news Web sites that 
Chinese authorities have blocked.

Monitoring, Jamming, and Blocking of Information

    The government continues to restrict Chinese citizens' 
access to political information from sources outside of China 
that the government cannot control, influence, or censor. The 
central government attempts to block radio broadcasts by Voice 
of America, Radio Free Asia, and the BBC. China's laws restrict 
satellite dish ownership,\91\ and regulations require foreign 
news broadcasters to send all their satellite feeds through 
government-controlled channels. Foreign newspapers may be 
distributed only at foreign hotels and to ``authorized 
subscribers.'' \92\ In October 2004, SARFT issued regulations 
prohibiting joint ventures from producing programs on 
``political news.'' \93\ In March 2005, SARFT issued an 
interpretive notice on these regulations limiting foreign 
companies to investing in a single joint venture, saying:

          [W]e must control the contents of all products of 
        joint ventures in a practical manner, understand the 
        political inclinations and background of foreign joint 
        venture parties, and in this way prevent harmful 
        foreign ideology and culture from entering the realm of 
        our television program production through joint 
        investment and cooperation.\94\

    Chinese officials seem especially concerned that Chinese 
citizens may gain increased access to information on the 
Internet that the Party and government cannot censor. In 
January 2005, the official journal of the Party Central 
Committee published an article calling on authorities to 
``strengthen supervision of international Internet gateways; 
filter out foreign, external Web sites that provide harmful 
information that threatens state security, disrupts social 
stability, and spreads obscene content; and adopt diplomatic 
and legal measures to attack these Web sites.'' \95\ Chinese 
agencies block the Web sites of many human rights, educational, 
political, and news-gathering institutions without providing 
public notice, explanation, or opportunity for appeal. 
According to a study by researchers at Harvard University, 
Cambridge University, and the University of Toronto, Chinese 
authorities operate ``the most extensive, technologically 
sophisticated, and broad-reaching system of Internet 
filtering in the world'' to prevent access to ``sensitive'' 
religious or political material on the Internet. The report 
also stated that 
authorities utilize ``a complex series of laws and regulations 
that control the access to and publication of material 
online.'' \96\
    Government monitoring is highly visible in its regulation 
of Internet cafes:

        <bullet> In January 2005, the city government of Jinan, 
        the capital of Shandong province, deployed a system 
        that allows monitors to view the information running on 
        any computer in the city's Internet cafes at any time. 
        The system is part of a ``cultural monitoring 
        platform'' established to monitor the online activity 
        of Internet cafe customers, which is capable of 
        monitoring the identity of the person registered to use 
        the computer and of filtering ``illegal Web sites.'' 
        \97\
        <bullet> In February 2005, the Ministry of Education 
        issued a notice requiring Internet forums at 
        universities around China to prohibit anonymous logins 
        from IP addresses outside the schools.\98\
        <bullet> In March 2005, Xinhua reported that the Anhui 
        provincial government intended to implement a 
        ``fingerprint recognition system'' in Internet 
        cafes.\99\
        <bullet> In April 2005, Xinhua reported that 15 
        software companies in China had begun to develop 
        Internet monitoring platforms that would allow 
        government employees at remote locations to stop 
        Internet cafe customers from accessing specific Web 
        sites and determine precisely from which computer in 
        which Internet cafe the access attempt is being 
        made.\100\

    In September 2005, a human rights NGO that focuses on 
freedom of expression reported that Yahoo!'s Hong Kong 
subsidiary had complied with a request from Chinese authorities 
to furnish account information for the journalist Shi Tao.\101\ 
A Chinese court cited that information as one piece of evidence 
used to convict Shi of disclosing state secrets to a 
foreigner.\102\ Yahoo! responded that its local country sites 
must operate within the laws, regulations and customs of the 
country in which they are based.\103\

Political Detentions, Harassment, and Selectively Enforced National 
        Security Laws

    Chinese officials continue to detain Chinese citizens who 
criticize them and their policies, and the Committee to Protect 
Journalists has dubbed China ``the world's leading jailer of 
journalists.'' \104\ The Commission welcomes the release over 
the past year of several political prisoners, but regrets that 
during the same period Chinese security and judicial 
authorities detained or imprisoned dozens of individuals for 
exercising their right to peacefully express their political 
beliefs.
    The following list names some individuals that Chinese 
authorities have detained and imprisoned during the past year 
for exercising their constitutionally guaranteed freedom of 
expression:

        <bullet> Detained: Chen Min, Ching Cheong, Hu Jia, Li 
        Boguang, Li Guotao, Li Guozhu, Li Jinping, Liang 
        Yuling, Liu Xiaobo, Qi Zhiyong, Shen Yongmei, Wang 
        Qiaojuan, Wang Tingjin, Xu Zhengqing, Yan Zhengxue, 
        Yang Weiming, Yang Zheng, Yu Jie, Zhang Zuhua, Zhao 
        Yan, Zheng Peipei, Zheng Yichun.
        <bullet> Imprisoned: Huang Jinqiu (aka Qing Shuijun), 
        Kong Youping, Ning Xianhua, Nurmemet Yasin, Shi Tao, 
        Zhang Lin, Zhang Ruquan, Zhang Zhengyao, Zheng Yichun.

    Additional information on these cases and others is 
available on the Commission's Political Prisoner Database [see 
Section IV--Political Prisoner Database].
    In addition to detaining and imprisoning those who speak 
out against them, Chinese authorities continue to monitor 
activists and order them not to speak to the press.\105\ An 
illustrative case is the government's treatment of Dr. Jiang 
Yanyong. Authorities detained Jiang in June 2004, and although 
they released him the following month, for several months 
afterward officials prohibited him from speaking with 
reporters, traveling overseas, and attending activities at the 
invitation of foreign groups or individuals.\106\ During the 
visit of United Nations High Commissioner for Human Rights and 
the eighth European Union-China Summit in late August and early 
September 2005, Chinese authorities placed human rights 
activists Liu Xiaobo, Zhang Zuhua, Liu Di, and Hu Jia under 24-
hour police surveillance\107\ and raided the offices of Chinese 
Rights Defenders, an informal grouping of activists and 
dissidents.\108\

                         III(f) Status of Women


                                FINDINGS

        <bullet> The Chinese Constitution and laws provide for 
        the equal rights of women, and a network of women's 
        groups advocate to protect women's rights. Such groups 
        focus on providing education, protection, and legal 
        assistance to women.
        <bullet> Chinese women have fewer employment 
        opportunities than men, and their educational levels 
        fall below those of men, but the government has 
        acknowledged these gender discrepancies and is taking 
        steps to promote women's interests. Chinese women face 
        increasing risks from HIV/AIDS as the disease moves 
        from high-risk groups dominated by men into the general 
        population.
        <bullet> Trafficking of women and children in China 
        remains pervasive despite government efforts to build a 
        body of domestic law to address the problem. China's 
        population control policies exacerbate the trafficking 
        problem. China's poorest families, who often cannot 
        afford to pay the coercive fines that the government 
        assesses when it discovers an extra child, often sell 
        or give infants, particularly female infants, to 
        traffickers.

Laws and Institutions

    The Chinese Constitution and laws provide for the equal 
rights of women. Article 48 of the Constitution declares that 
women are equal to men, and names women as a ``vulnerable 
social group'' requiring special protection. As a result, the 
government has passed a substantial body of protective 
legislation, particularly in the area of labor law and 
regulation. A U.S. scholar of women's issues in China argues 
that protective regulations can work against women's interests, 
however, since they may make employing women more expensive for 
employers and give managers an incentive to lay off women 
first.\1\ The Labor Insurance Regulations provide for the 
retirement of women at a younger age than men. Some women in 
China have urged that the retirement ages of men and women 
should be made the same because the regulations put women at a 
disadvantage by reducing women's effective working lives for 
the purposes of wages and seniority.\2\
    The National People's Congress (NPC) enacted the Law on the 
Protection of Women's Rights and Interests (LPWRI) in 1992 to 
``protect women's lawful rights and interests, and promote 
equality between men and women.'' \3\ The 1992 law provided for 
government action to protect women but did not permit women to 
assert their own rights.\4\ In August 2005, the NPC Standing 
Committee passed amendments to the LPWRI, including stronger 
provisions requiring government entities at all levels to take 
action against abuse of women's rights and giving women 
assistance to assert their rights in court.\5\ The amended law, 
to take effect in December 2005, also outlaws sexual 
harassment, giving the victim the right to complain to her 
employer, seek punishment by the police under administrative 
punishment regulations, and bring a civil suit for damages.\6\ 
Passage of the amendments capped a month of high-level 
attention to women, including the release of a white paper on 
gender equality,\7\ an exhibition on women's progress,\8\ and a 
conference commemorating the 1995 Fourth World Conference on 
Women.\9\
    Central government institutions that focus on women and 
children, such as the State Council Working Committee on Women 
and Children\10\ and the All-China Women's Federation 
(ACWF),\11\ have been advocates for legal reform in the areas 
of domestic violence, sexual harassment, and women's 
education.\12\ The Working Committee recently developed the 
State Council's Ten-Year Program for the Development of Chinese 
Women (2001-2010), which focuses government attention on eight 
areas, including women's education, health, and participation 
in political and economic life.\13\ As a Party organization, 
however, the ACWF is not able to effectively promote women's 
interests when countervailing Party interests intervene. For 
example, the ACWF has been silent about the abuses of Chinese 
government population control policies and remains complicit in 
coercive enforcement of birth limits.\14\
    A number of independent women's NGOs have existed since the 
early 1990s and a new women's movement seems to be growing. 
Several Chinese women's organizations were founded in 
conjunction with the 1995 World Conference on Women in Beijing, 
including the Center for Women's Law Studies and Legal Services 
at Beijing University, and the Maple Women's Psychological 
Consulting Center. In April 2005, several Chinese women leaders 
jointly founded the advocacy project Women's Watch--China.\15\

Trafficking of Women and Girls

    Trafficking of women and children in China remains 
pervasive. Traffickers are often linked to organized crime and 
specialize in abducting infants and young children for adoption 
and household service. They also abduct girls and women both 
for the bridal market in China's poorest areas and for sale as 
prostitutes. This is caused, in part, by the skewed sex ratios 
growing out of China's population control policy [see Section 
III(i)--Population Planning]. One Chinese scholar noted that 
China's gender imbalance has created a flow of women from 
ethnic areas into Han areas to meet the demand for women.\16\
    Other aspects of China's population control policies 
exacerbate the trafficking problem. China's poorest families, 
who often cannot afford to pay the coercive ``social 
compensation'' fine that the government assesses when it 
discovers an extra child, often sell or give infants, 
particularly female infants, to traffickers.\17\ When police 
rescue them, many families do not come forward to claim their 
children because they are afraid of both the police and local 
family and population planning officials.\18\ Authorities place 
some of these children in foster care, but many are eventually 
assigned to government-run orphanages. In 2004, police 
searching a bus found 28 newborn female infants who had been 
acquired by hospital staff in Guangxi province and then taken 
by middlemen to be sold in Henan and Anhui provinces.\19\
    China has supported some international initiatives against 
trafficking and built up a framework of domestic law to address 
the problem.\20\ Chinese experts and officials have cooperated 
with the Mekong Sub-Regional Project to Combat Trafficking in 
Children and Women, founded by the International Labor 
Organization, to reinforce the anti-trafficking provisions of 
the ILO Worst Forms of Forced Labor Convention.\21\ In domestic 
law, the 1997 revision of the Criminal Law abolished an older 
provision on ``Trafficking in People'' and inserted one on 
``Trafficking in Women and Children.'' \22\
    Despite these government efforts, some 250,000 victims were 
sold in China during 2003, according to UNICEF.\23\ Statistics 
reported from the Fourth National Meeting on Women's and 
Children's Work, held in August 2005, reveal that over 50,000 
women and children were rescued by police in four years. 
Together, these figures suggest that only about 5 percent of 
victims are rescued by the police.\24\ Zhu Yantao, a Ministry 
of Public Security official, 
recently noted that ``with its huge population, China is likely 
to 
become the center of international human trafficking.'' \25\ 
Zhu explained that the prevalence of the crime in China is the 
result of economic disparities between men and women that force 
young rural women looking for work to move to the cities, where 
they fall into the hands of traffickers.\26\

Gender Disparities

    Chinese women have fewer employment opportunities than 
men.\27\ Although women have a generally high rate of 
participation in the work force, fewer women than men seek 
opportunity and advancement in China's growing private 
sector.\28\ To change this dynamic, the State Council's Women's 
Development Program has proposed that women without jobs be 
encouraged to work by offering them access to loans, land, 
skills training, information, and equality of access to village 
land contracts.\29\
    The educational levels of Chinese women fall well below 
those of men, according to a statistics cited by the State 
Council.\30\ Although 99 percent of girls attend elementary 
school and 95 percent enter lower middle school, according to 
thise statistics, only 75 percent go on to higher middle 
school. The UN Common Country Assessment for China 2004 reports 
figures of 89.0, 88.3, and 80.2 for the ratio of girls to every 
100 boys in primary, secondary, and tertiary education.\31\ 
Women comprise 70 percent of China's 85 million illiterates. 
Improving equal access to education is one of the goals laid 
out in the Ten-Year Program for the Development of Chinese 
Women.\32\
    Chinese women face increasing risks from HIV/AIDS. As HIV/
AIDS moves from high-risk groups dominated by men into the 
general population, a larger percentage of those infected are 
women. A U.S. study published in December 2004 predicted that 
the proportion of HIV positive women in China would rise,\33\ a 
prediction that official Chinese government news media 
confirmed in 2005.\34\ Women's lack of access to education, 
vulnerability to violence (especially in trafficking for the 
sex trade), increasing participation in the migrant work force, 
and increasing intravenous drug use all exacerbate this 
trend.\35\

                         III(g) The Environment


                                FINDINGS

        <bullet> The Chinese government promotes conservation, 
        recycling, and the use of renewable energy sources to 
        address environmental degradation and the depletion of 
        natural resources. Weak environmental laws, poor 
        enforcement, and small government budgets for 
        environmental protection hamper these efforts.
        <bullet> The Chinese government promotes international 
        cooperation on environmental matters, and is receiving 
        foreign technical assistance for environmental projects 
        in China.

State of the Chinese Environment

    Rapid development without effective environmental 
safeguards has resulted in severe environmental degradation. 
Poor soil and water conservation practices and government 
inattention to polluting industries exacerbates these problems. 
Many Chinese citizens suffer from respiratory diseases caused 
by air pollution.\1\ Acid rain affects about one-third of the 
country.\2\ Deforestation and erosion leading to loss of arable 
land, landslides, and sedimentation of waterways are 
widespread.\3\ Water pollution and poor conservation practices 
have led to water shortages in many areas, leaving millions in 
urban areas and one-third of the rural population without 
access to clean drinking water.\4\

Government Response to Environmental Degradation

    The Chinese government is pursuing sustainable development 
domestically by encouraging recycling, conservation, and the 
use of renewable energy resources.\5\ Externally, Chinese 
officials favor international technology transfers and seek 
cooperation with international environmental protection 
agencies and groups.\6\ These are positive measures, but 
Chinese authorities continue to overlook environmental 
protection provisions already present in national development 
plans,\7\ compounding problems with China's weak and poorly 
enforced environmental laws.\8\ In June 2005, the State 
Environmental Protection Administration (SEPA) identified a 
number of continuing barriers to environmental protection in 
China, including gaps in environmental legislation, the absence 
of time limits for compliance, delays in issuing laws and 
regulations governing administrative permits and environmental 
inspections; a lack of provisions governing legal 
responsibility for environmental violations, a single category 
of administrative punishment for polluters specifying a 
relatively small fine, and a lack of enforcement authority 
among environmental protection departments.\9\
    Despite these problems, SEPA has demonstrated an 
inclination to enforce laws that may pit the agency against the 
central government and Party leadership. In January 2005, SEPA 
officials halted 30 construction projects for violating the 
Environmental Impact Assessment (EIA) Law and ordered 46 
polluting power plants to install desulphurization 
equipment.\10\ Three of the 30 projects are managed by the 
Three Gorges Development Corporation and are part of national 
development plans promoted by the central leadership. The 
projects were only halted for a short time, but SEPA's efforts 
to enforce the EIA Law have continued.\11\
    SEPA has taken other steps to improve China's environmental 
legislation and environmental policymaking. SEPA has called for 
revisions to China's environmental laws, including some 
provisions that would increase the accountability of polluters 
and government officials for environmental degradation\12\ and 
would establish an environmental public interest prosecution 
system.\13\ Some of these efforts have generated support within 
the National People's Congress.\14\ In February 2005, SEPA 
called for an environmental protection fund in the national 
budget, citing insufficient investment as a hindrance to its 
work.\15\ SEPA also announced that the 
Chinese government will encourage foreign investment in 
environmental protection.\16\ Finally, SEPA suggested 
incorporating environmental issues into the evaluation of local 
officials, and began a trial ``Green GDP'' program to include 
the cost of environmental degradation in the calculation of 
local GDP.\17\

Public Participation in Environmental Protection

    SEPA has sought public support in environmental protection 
work and has encouraged and supported environmental NGO 
activism.\18\ In 2005, SEPA held a public hearing to encourage 
citizen interest and NGO activism.\19\ Although the hearing 
participants were pre-selected and pre-screened,\20\ the 
promotion of citizen 
involvement in government decisionmaking is an uncommon 
phenomenon in China.\21\ The National People's Congress has 
taken steps to consider expert opinion in drafting 
environmental legislation.\22\ NGOs have provided expert 
opinions on the drafting and revision of laws such as the 
Renewable Resources Law.\23\
    Chinese environmental NGOs are broadening their focus 
beyond initial efforts at public education and awareness.\24\ 
In recent years, Chinese environmental groups have assisted 
pollution 
victims in pursuing redress through the legal system, lobbied 
businesses to adopt energy efficiency codes, and mobilized 
public participation in and support for environmental 
protection.\25\
    Official efforts during 2005 to impose greater control over 
environmental NGOs is threatening to stifle environmental 
activism. In May 2005, the Chinese government created the All-
China Environment Federation, a national federation of Chinese 
environmental NGOs,\26\ asserting that the new organization 
would ensure better cooperation on environmental matters 
between government agencies. But the government compelling SEPA 
and domestic NGOs to operate within a larger, state-controlled 
organization may limit their ability to challenge central 
government environmental or development policies [see Section 
V(a)--The Development of Civil Society, for a discussion of the 
role of mass organizations in Chinese society].

                          III(h) Public Health


                                FINDINGS

        <bullet> The two greatest public health challenges 
        facing China today are infectious diseases and rural 
        poverty. The central government is taking steps to 
        improve the public health infrastructure in rural 
        areas, but China's poorest citizens lack preventive 
        healthcare, and weak implementation of laws that 
        provide for free vaccinations leave many adults and 
        children unprotected.
        <bullet> Central government efforts to address China's 
        HIV/AIDS epidemic continue to expand and deepen, but 
        local governments often harass Chinese activists who 
        work on HIV/AIDS issues.
        <bullet> Government controls inhibit the flow of 
        health-related information to the public, potentially 
        affecting public health in China as well as 
        international disease monitoring and response efforts.

Rural Poverty and Public Health

    The central government is taking steps to address public 
health issues associated with a crumbling rural health 
infrastructure and rural poverty. During the 1980s, the 
government abolished its previous rural healthcare system, 
which was based on village clinics staffed by ``barefoot 
doctors'' and financed by cooperative insurance. Central 
government authorities, however, did not establish a substitute 
system to replace the old healthcare regime. As a result, most 
Chinese farmers could not afford the high cost of treatment.\1\ 
By 2002, the central government was encouraging the 
formation of rural healthcare cooperatives,\2\ which receive 
local government subsidies and cover the medical expenses of 
any farmer who can pay a modest annual premium.\3\ The central 
government established 12 rural medical cooperatives in 
Liaoning province in early 2005,\4\ and provincial governments 
announced similar programs at the same time in other areas of 
China,\5\ including pilot programs in five cities and counties 
in Sichuan province. By April, about 1.04 million farmers in 
Sichuan had received reimbursement for medical expenses.\6\ The 
success of this program has stimulated local government efforts 
to build township medical centers that would provide a higher 
level of healthcare after citizens exhaust the resources 
available from local medical cooperatives.\7\
    While these efforts at reconstructing the rural healthcare 
system are promising, senior Chinese officials have 
acknowledged that serious challenges remain. Critical 
evaluations of China's healthcare system began to cascade into 
the public view beginning in late July 2005, when Ge Yanfeng, a 
senior State Council researcher, questioned the fairness and 
efficiency of the medical and health system.\8\ The poorest 
residents in rural areas frequently do not 
enroll in the cooperatives because they cannot afford the 
required fee. For participants, the cooperative plan covers 
only between 30 and 40 percent of hospitalization costs,\9\ 
leaving many farming families in debt after serious illness. As 
many as 50 percent of farmers who fall ill do not seek 
healthcare for economic reasons, according to a number of 
reports,\10\ and half of all children who die in rural areas 
have not received medical treatment.\11\ Malnourishment among 
rural children also remains a serious problem. As many as 29.3 
percent of children in China's poorest areas may be 
malnourished, according to one news account.\12\

Infectious Disease and Public Health

    Among the results of underinvestment in healthcare has been 
the persistence of diseases that require a coordinated and 
long-term investment of funds and organization to control. One 
such disease, tuberculosis (TB), is one of China's worst health 
problems, with 4.5 million patients with active TB, 1.45 
million newly diagnosed cases, and 130,000 deaths each 
year.\13\ Some provinces have registered sharply rising rates 
of TB, with the incidence in Zhejiang province, for example, 
rising 30 percent in 2004 compared to 2003.\14\ A few provinces 
have responded by instituting ``directly observed treatment 
methods'' to fight the development of drug-
resistant disease when patients fail to pursue a full course of 
treatment.\15\
    Naturally occurring infectious diseases are a serious 
threat in China, according to senior Chinese healthcare 
experts.\16\ Despite strong reported immunization statistics 
and the 2005 regulation on state-funded immunizations,\17\ the 
child vaccination program as implemented has not been 
effective, since several outbreaks of preventable diseases 
occurred in 2005.\18\ The Ministry of Health (MOH) reported a 
sharp rise in both cases and deaths from measles in the first 
quarter of 2005.\19\ The Ministry concluded that the outbreak 
resulted from the government's failure to address the health 
problems of the migrant population and failure to vaccinate 
with effective vaccines.\20\ Anhui statistics for the first 
quarter of 2005 showed that one of the top five diseases 
causing death was infant tetanus; routine postnatal and 
pediatric vaccination can prevent this disease.\21\
    China continues to have a high rate of Hepatitis B 
infection, with one-third of the world's total reported 385 
million chronic Hepatitis B carriers. Notwithstanding these 
figures, only 70 percent of the population has been vaccinated 
for the disease, according to a Chinese expert.\22\ At the same 
time, the Chinese government has made progress since 2004 on 
eliminating discrimination against Hepatitis B carriers in 
government employment.\23\ The new Law on the Prevention and 
Control of Infectious Diseases also prohibits discrimination 
against carriers of infectious diseases.\24\

HIV/AIDS

    The central government has become more active on HIV/AIDS 
issues during the past year.\25\ In June 2005, Premier Wen 
Jiabao chaired a State Council meeting on anti-AIDS work that 
reinforced earlier decisions promising free antivirals to HIV 
carriers, free anonymous testing, free medicine for pregnant 
women, free schooling for the orphans of AIDS victims, and help 
for families afflicted with AIDS.\26\ Premier Wen also 
reiterated the need to ``protect the legitimate rights and 
interests of HIV carriers and oppose discrimination against 
them,'' as well as to educate them about their responsibility 
to prevent further spread of the disease.\27\ Since late 2003, 
the Central Party School in Beijing, which provides leadership 
training for senior Communist Party cadres, has offered a 
course on responding to HIV/AIDS. In September 2004, the State 
Council HIV/AIDS Prevention Work Committee issued guidelines 
making AIDS education mandatory for secondary and university 
students in 2005.\28\
    Several provinces and localities undertook new programs in 
2005 to address HIV/AIDS-related public health problems. Hubei 
province began a program in May 2005 to prevent accidental 
occupational exposure to HIV.\29\ Programs to educate mid-
career officials about HIV/AIDS are growing after the Central 
Party School held similar seminars for future Party 
leaders.\30\ Yunnan province joined with two prestigious 
universities to train senior provincial officials about drug 
control and AIDS prevention,\31\ and Jiangxi province launched 
an education campaign in May 2005 on AIDS and venereal disease 
prevention.\32\ The Guangzhou city education department 
released a regulation in January 2005 that promised free 
education for all children affected by HIV, and guaranteed such 
children confidentiality and protection against 
discrimination.\33\ The central government has also taken steps 
to support these local and provincial efforts. The MOH, for 
example, began a program to disseminate AIDS prevention 
information to high-risk groups such as intravenous drug users, 
homosexuals, and prostitutes.\34\ In addition, in August 2004 
the MOH and the National Development and Reform Commission 
invested 230 million yuan in 1,004 mobile hospitals to reach 
victims of HIV and other diseases in remote parts of China.\35\
    Some local anti-AIDS initiatives, however, still show an 
official tendency to address the problem by using coercive 
measures.\36\ In Yunnan province, new rules require mandatory 
annual HIV tests for people working in the entertainment 
industry.\37\ The head of the provincial health department said 
that such testing in 2004 had led to the detection of 13,000 
HIV positive individuals, but the China coordinator for the UN 
anti-AIDS program warned that mandatory testing can lead to 
discrimination against those infected.\38\
    Local government harassment of Chinese NGOs dealing with 
HIV/AIDS has undermined efforts to combat the disease. A U.S. 
NGO report described the violent closure of a privately-run 
orphanage for children with AIDS in Henan province, and also 
reported other incidents in which Henan officials and police 
detained, beat, or otherwise obstructed Chinese activists 
working on HIV issues.\39\ Another U.S. group reports that 
local authorities in Henan province have organized militias to 
prevent journalists and NGO observers from visiting AIDS 
victims.\40\ Li Xiang, the Director of the Mangrove Support 
Group, notes that cumbersome government regulations complicate 
the work of Chinese NGOs working on AIDS.\41\

State Control of Information Relating to Health

    The State Secrets Law and related regulations\42\ hinder 
the free flow of information on public health matters both 
within China and to the outside world. Some government agencies 
have worked to improve the internal flow of information from 
local governments to the center. In Jiangxi province, for 
example, authorities built a system for county, town, and 
township medical entities to make direct online reports to 
higher authorities about health issues.\43\ Delayed and 
inaccurate reporting by provincial authorities continues, 
however, reflecting an official tendency to cover up health 
problems and the outbreak of disease. Many local officials fear 
that such news will discourage investment and affect local 
economic growth, which remains the most important factor in the 
annual performance evaluations of officials.\44\
    Government control over the flow of information has 
hampered an international effort to combat the spread of a new 
strain of avian flu virus. In May, the Ministry of Agriculture 
confirmed the first evidence of deaths of migratory birds in 
Qinghai province, apparently from an avian flu virus, more than 
two weeks after the initial deaths. In June, a U.S. newspaper 
reported that Chinese officials were encouraging farmers to 
protect their flocks by using amantadine, an antiviral drug 
meant only for use in humans.\45\ Foreign scientists criticized 
the Chinese government, saying that such use of antivirals 
leads to resistant strains of the disease.\46\ A spokesman for 
the Ministry of Agriculture denied encouraging the misuse of 
amantadine,\47\ but he also announced that the Ministry would 
send out inspection teams to check on the possibility that it 
had been misused.\48\ The most recent assessments of dead birds 
in Qinghai and Xinjiang reveal that the strains that killed the 
birds are not yet resistant to the amantadine.\49\
    In July 2005, the WHO and other international health 
organizations complained that Chinese authorities had not 
shared key 
details about three outbreaks of avian flu in western China. 
The information sought by these international bodies included 
virus samples, genetic analysis, and information about the 
extent of the outbreaks and Chinese government efforts to 
contain them.\50\

                       III(i) Population Planning


                                FINDINGS

        <bullet> The Chinese government continues its 
        population control policy, which is scheduled to 
        continue through the mid-21st century. Coercive fines 
        are the main enforcement mechanism, although reports of 
        local officials using physical coercion to ensure 
        compliance continue, even though this practice violates 
        Chinese law.
        <bullet> The severe gender imbalance resulting from the 
        population control policy has grown worse over the past 
        two decades. The Chinese government has established a 
        commission to draft legislation to criminalize sex-
        selective abortion.

    The Chinese government continues to maintain a coercive 
population control policy that violates internationally 
recognized human rights standards in three ways. First, the 
Population and Family Planning Law limits the number of 
children that women may bear.\1\ Second, this law coerces 
compliance by penalizing women who illegally bear a child with 
a ``social compensation fee,'' a fine that often exceeds an 
average family's annual income.\2\ Third, 
although physical coercion to ensure compliance with population 
control requirements is illegal in China, reports persist of 
local officials using physical coercion to ensure compliance, 
and in one case Chinese officials attempted to physically 
coerce a visiting Hong Kong woman to have an abortion.\3\ In 
December 2004, the International Relations Committee of the 
U.S. House of Representatives heard credible testimony that 
compliance with the Chinese government's population control 
policy continues to be enforced through coercive fines and loss 
of employment, as well as physical coercion including forced 
abortion, forced sterilization, forced implants of 
contraceptive devices, and other violent abuses against 
pregnant women or their families.\4\ These abuses create an 
atmosphere of fear in which most women feel they have little 
choice but to comply.\5\
    Local officials who fail to meet provincial and central 
government birth rate targets face loss of bonuses and denial 
of promotions. These practices implicate China's central and 
provincial government in the abuse that occurs at the local 
level. Physical coercion against women by local officials 
seeking to meet population planning goals has continued over 
the past year, according to credible reports.\6\ For example, 
credible sources reported in August and September that 
population planning officials in Linyi city, Shandong province, 
administered forced abortions, sterilizations, prison 
sentences, and beatings during the spring of 2005. A September 
19 statement from a National Population and Family Planning 
Commission official acknowledged that a preliminary 
investigation had disclosed that ``some persons did commit 
practices that violated law and infringed upon legitimate 
rights and interests of citizens while conducting family 
planning work. Currently the responsible persons have been 
removed from their posts.\7\
    Chinese citizens who publicly oppose the Chinese 
government's population control policies also face possible 
detention and abuse. Linyi officials abducted Chen Guangcheng, 
who brought news media attention to the abuses there, in 
Beijing and returned him forcibly to Linyi, where he allegedly 
has been beaten and remains under house arrest.\8\ Mao 
Hengfeng, who opposed the government's population control 
policy and protested against it, was sentenced to 18 months of 
re-education through labor in April 2004. Mao has been 
protesting on her own behalf as well as for others since she 
was dismissed from her job in Shanghai in 1988 for becoming 
pregnant in contravention of the population control policy. She 
reportedly was tortured in October and November 2004, and her 
sentence was increased by three months in December 2004.\9\

Changes to Population Control Policy

    Since its inception in the early 1980s, China's population 
control policy has been adjusted periodically, as population 
planners fine-tune local rules and quotas.\10\ Couples living 
in cities have almost always been limited to one child, but 
provincial officials have permitted exceptions in various 
circumstances, such as for rural couples whose first child is 
female.\11\ In the past year, the population control policy has 
been under discussion again. Although some officials have 
recommended moving toward a ``two-child policy,'' this proposal 
seems unlikely to be adopted soon. Chinese officials have 
emphasized that the government will continue to decide how many 
children its citizens may have and when they may have them.\12\
    At the same time, the government's population control 
policy is already changing, chiefly as a result of impending 
social crises caused by the policy itself. Since the early 
1990s, ultrasound testing has been widely available in China, 
and many parents determined to have sons have used it to 
establish the sex of the fetus and to abort female fetuses. As 
a result of this sex selection, the ratio of male to female 
newborns is about 120:100 in China, and in many rural areas of 
China the ratio is 130:100 or even 140:100.\13\ Experts 
consider a ratio of about 105:100 to be normal. In addition, 
since the introduction of the one child policy, the rate of 
female infanticide and death of female infants due to neglect 
appears to have risen sharply.\14\ The government has belatedly 
attempted to address these problems in various ways. The 2002 
Law on Population and Family Planning forbids prenatal sex 
identification and sex-selective abortion, but imposes no 
criminal penalties on parents or doctors and is widely 
ignored.\15\ In January 2005 the government established a 
commission to draft changes to the criminal law that will make 
selective abortion a criminal offense.\16\ In a legislative 
experiment intended to prevent sex-selective abortion, the city 
of Guiyang banned all abortions after the 14th week of 
pregnancy--before the point when ultrasound technology can 
detect the sex of a fetus.
    Second, the Chinese government has begun to move toward a 
population control system that will financially reward 
compliance, while continuing to punish non-compliance.\17\ In 
2004, the government launched a pilot project granting a small 
sum of money to rural couples over 60 years old who have only 
one son or two daughters.\18\ Introduced in five provinces in 
2004, the project is expected to be extended to 23 provinces by 
the end of 2005 and to the entire country in 2006. Similarly, 
in an ethnic Hui region of Ningxia province, the government 
began a program to persuade Hui couples to have contraceptive 
surgery after the birth of their first child, in exchange for a 
financial reward.\19\ These changes 
respond to the rapid aging of the Chinese population, another 
consequence of the one-child policy. The Chinese government 
estimates that the number of people 60 years and older in China 
will grow from 7 percent of the population in 2005 to 11.8 
percent in 2020, and that by the mid-21st century China will 
have over 400 million people 65 years and older and more than 
100 million people 80 years and older.\20\ Many of China's 
elderly do not have a family member that can care for them and 
few of them have pensions. The government has assured elderly 
people that they will be cared for, but does not currently have 
a system of social security and public services adequate to 
this task and has not undertaken financial commitments on a 
national level.\21\
    Third, provinces and cities have been given the authority 
to 
authorize more second children, and many have used this 
authority.\22\ Reacting to birthrates below the replacement 
level, Shanghai and some other cities with particularly low 
birth rates have permitted new categories of couples to have 
second children and ended mandatory waiting periods between 
children.\23\ Other cities, including Beijing, have maintained 
the one-child policy.\24\ The Ministry of Education has lifted 
the ban on marriage and childbearing for university 
students.\25\

                 III(j) Freedom of Residence and Travel


                                FINDINGS

        <bullet> National and local authorities are gradually 
        reforming China's household registration (hukou) 
        system. In 2005, central authorities took some steps 
        towards removing work restrictions on migrants in urban 
        areas, but hukou discrimination in public services 
        remains prevalent.
        <bullet> Hukou reforms are enhancing the ability of 
        wealthy and educated citizens to choose their place of 
        permanent residence, but strict economic criteria often 
        exclude poor rural migrants living in urban areas, 
        preventing some of China's most vulnerable citizens 
        from receiving public services.

Hukou Reforms and Continuing Barriers to Migrants

    Since the late 1990s, Chinese authorities have deepened and 
expanded prior reforms to the hukou system, which since the 
1950s has limited ordinary Chinese citizens' ability to change 
their 
permanent place of residence.\1\ These efforts have occurred 
sporadically, most recently in 2001 and 2003-2004, and have 
been followed by central directives to slow the pace of 
change.\2\ Recent 
reforms include relaxing previous limits on migration to small 
towns and cities and streamlining hukou registration in some 
provinces and large cities. Since late 2004, central 
authorities have also taken steps to eliminate discriminatory 
local regulations that limit urban employment prospects for 
migrants.\3\
    Reforms generally provide preferential hukou treatment for 
the wealthy and educated, while maintaining significant 
barriers against poor migrant workers. State Council directives 
issued in 1997 and 2001 allow rural migrants to obtain local 
hukou in small towns and cities, but require them to have a 
``stable job or source of income'' and a ``fixed place of 
residence.'' \4\ Provincial and municipal regulations enacted 
since 2001 also contain these requirements.\5\ The definitions 
of these terms often exclude low-income rural migrants. For 
instance, Nanjing municipal regulations define ``stable place 
of residence'' as private ownership of a house or residence.\6\ 
Hebei provincial regulations bar migrants who live in rented 
apartments from receiving local hukou.\7\ Many local 
regulations exclude poor workers with incomes under set 
limits.\8\
    Many provincial and municipal regulations grant local hukou 
in urban areas based on educational or financial criteria. 
Zhejiang province directs large and medium-size towns to grant 
local hukou to individuals able to purchase homes of a certain 
size or price. Those with higher educational levels enjoy 
similar benefits.\9\ Chongqing municipality grants local hukou 
to persons with a two-year college degree (dazhuan) or higher 
who purchase a house or apartment that measures 30 square 
meters or more.\10\ One city in Zhejiang province grants local 
hukou to unskilled laborers only after five years of residence, 
in addition to requiring a fixed residence and a stable source 
of income, but applies no time limits to skilled and educated 
individuals.\11\
    Migrants who do not qualify for local hukou usually cannot 
obtain public services on an equal basis with other 
residents.\12\ In May 2005, the UN Committee on Economic, 
Social and Cultural Rights registered:

          deep concern [with] the de facto discrimination 
        against internal migrants in the fields of employment, 
        social security, health service, housing and education 
        that indirectly result[s], inter alia, from the 
        restrictive national household registration system 
        (hukou) which continues to be in place despite official 
        announcements regarding reforms.\13\

    Such discrimination severely restricts migrant children's 
access to education. The State Council has required local 
governments to take responsibility for educating migrant 
children.\14\ But some local governments require children who 
hold non-local hukou to be educated in their place of hukou 
registration rather than their place of actual residence, even 
if this requires them to be separated from their parents.\15\ 
Both national and local regulations permit schools to charge 
additional educational fees to migrant children lacking local 
hukou.\16\ Government schedules often set these fees at several 
hundred yuan per semester, which is a large part of the average 
migrant's annual earnings.\17\ Many public schools levy 
additional unauthorized charges that can total several thousand 
yuan per year.\18\ Some Chinese officials have made laudable 
efforts to curb such practices.\19\ Efforts by migrants to 
establish private schools to educate their children continue to 
face local opposition in many cities.\20\

Practical Impact of Reform

    Income and home ownership criteria limit the practical 
impact of recent hukou reforms. In the city of Ningbo in 
Zhejiang province, officials expect only 30,000 people out of a 
total migrant population of 2 million to meet the stable income 
and permanent residence requirements set in 2001 for obtaining 
a local urban hukou.\21\ After similar reforms in Shijiazhuang 
city in Hebei province, only 11,000 applicants out of a total 
migrant population of 300,000 migrant workers filed 
applications.\22\ Municipal plans to grant local hukou on the 
basis of investment criteria are even more limited in impact. 
More than two months after implementation began of Beijing's 
2001 reforms granting local hukou to wealthy investors, only 
one person applied who could meet the requirements.\23\
    Local government officials often portray reforms as 
eliminating hukou discrimination because they have ended 
distinctions between different hukou types.\24\ For example, 
Jiangsu province announced in March 2003 that it planned to end 
the labeling of hukous as agricultural and non-agricultural, 
thereby ``breaking'' urban-rural divisions.\25\ Similar reforms 
have been announced in other provinces.\26\ These changes do 
not abolish hukou identification entirely, however. They leave 
intact the remaining element of hukou identification: 
registration by permanent residence. Migrants must still 
satisfy the criteria set by local authorities to obtain a local 
hukou in a given urban area.

Government Measures To Address Abuse of Migrants

    Chinese authorities have adopted a variety of measures to 
address abuse of migrants. Some measures reflect public concern 
with police abuses.\27\ In 2003, after the death of a young 
migrant in police custody sparked a national outcry, the State 
Council abolished the coercive custody and repatriation system 
often used to detain unregistered migrants.\28\ In Hangzhou 
city in Zhejiang province, the public security bureau announced 
an end to mass dragnet sweeps conducted to round up 
undocumented migrants.\29\ In Shenyang, police announced the 
elimination of the temporary residence permit system and all 
associated fees (reducing the ability of police to extort 
additional payments from migrants) in favor of an automatic 
``sign-in'' registration system for migrants arriving in the 
city.\30\ Chinese authorities have also taken steps to 
eliminate work restrictions that discriminate against migrants. 
In December 2004, the State Council issued a directive to 
eliminate discriminatory measures that limit employment 
prospects for migrants in urban areas.\31\ In early 2005, the 
Beijing municipal government followed suit, abolishing long-
standing regulations that prohibited renting apartments and 
office space to migrants and excluded them from certain 
occupations.\32\ Although scholars and citizens have called for 
more comprehensive legislation to protect the rights of 
migrants, Chinese officials have so far taken no concrete steps 
to 
respond to these demands.\33\

                    IV. Political Prisoner Database

    The CECC Political Prisoner Database (PPD) is a unique and 
powerful resource that became globally accessible via the 
Internet in November 2004. The PPD is designed to serve as a 
tool for individuals, educational institutions, NGOs, and 
governments that wish to research political and religious 
imprisonment in China or advocate on behalf of prisoners. 
During the PPD's first eight months of operation, about one-
third of the requests for prisoner information originated from 
government Internet domains (.gov).
    The PPD is designed to allow anyone with Internet access to 
query the database and download prisoner data without providing 
personal information. Users have the option to create a user 
account, which allows them to save, edit, or reuse queries. A 
user-specified ID and password is the only information required 
to set up a user account. The PPD does not download or install 
any software or Web cookies to a user's computer.
    The PPD allows users to conduct queries on 19 types of 
prisoner information. Users may search for prisoners by name, 
using either the Roman alphabet or Chinese characters. Users 
may construct queries to include personal information (ethnic 
group, sex, age, 
occupation, religion), or information about imprisonment 
(current status of detention, place of detention, prison name, 
length of sentence, legal process).
    Each prisoner's record describes the type of human rights 
abuse by Chinese authorities that led to his or her detention. 
These abuses include violations of freedom of speech, religion, 
and association, for example, as well as issues related to 
democracy, labor rights, and ethnicity. Each record includes a 
short summary of the case. Users may download information about 
prisoners from the PPD as Adobe Acrobat files or Microsoft 
Excel spreadsheets.
    As of September 2005, the PPD contained more than 3,600 
records of political and religious imprisonment in China. The 
Dui Hua Foundation, based in San Francisco, and the Tibet 
Information Network, based in London, shared their extensive 
experience and data on political and religious prisoners in 
China with the Commission to help establish the database. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by other NGOs 
and groups that specialize in promoting human rights and 
opposing political imprisonment.
    Commission staff regularly updates the information in the 
PPD. The Commission staff also works to upgrade the PPD 
software periodically, to improve performance, and to provide 
PPD users with access to more data.
    The PPD is accessible on the Internet at http://
ppd.cecc.gov. The Commission Web site contains instructions on 
how to use the PPD.

 V. Development of the Rule of Law and the Institutions of Democratic 
                               Governance


                 V(a) The Development of Civil Society


                                FINDINGS

        <bullet> Chinese non-profit associations and 
        organizations are growing in number and engaging in 
        valuable educational work and issue advocacy. While 
        some ministries and local governments support these 
        groups, some high-level leaders consider the emergence 
        of an independent civil society a threat to government 
        and party control.
        <bullet> Central authorities use regulations to limit 
        and control the development of civil society in China, 
        forcing many groups to remain unregistered or operate 
        underground. In 2005, Chinese authorities moved to 
        curtail the activities of international and domestic 
        civil society organizations, particularly environmental 
        groups that challenged government policies.

Civil Society Activism and Government Controls

    Chinese civil society organizations are growing in number 
and engaging in valuable educational work, social welfare 
service provision, and issue advocacy.\1\ These groups include 
national mass organizations that Party authorities created and 
fund, smaller citizen associations registered under national 
regulations, and loose networks of unregistered grassroots 
organizations.\2\ Civil society organizations have been 
particularly active in environmental protection and HIV/AIDS 
work, issues on which the Chinese government has been more 
tolerant of nongovernmental activity in recent years.\3\ For 
example, civil society groups operate orphanages for the 
children of AIDS victims, run Web sites disseminating 
information on AIDS to at-risk groups, and advocate on behalf 
of HIV-positive 
individuals.\4\
    A restrictive regulatory environment continues to hamper 
the development of Chinese civil society. National regulations 
require that non-governmental organizations have a government-
approved ``sponsor organization'' to register.\5\ Official 
Chinese sources indicate that only designated Party and 
government bureaus and mass organizations may sponsor non-
governmental organizations.\6\ Chinese scholars and prominent 
Chinese civil society organizations have criticized this 
requirement.\7\ As the director of the Qinghua University NGO 
research institute noted, ``China has 3 million social 
organizations, but only 280,000 are registered. Why? Because 
the sponsor requirement is too strict, most social 
organizations can't find sponsors.'' \8\ As a result, many 
citizen groups ignore the registration requirements. According 
to one academic survey, only 22 percent of organizations to 
which rural residents belong are formally registered.\9\ In 
practice, unregistered groups generally experience little or no 
government interference as long as they avoid 
financial misdeeds or overt political challenges.\10\ Chinese 
citizens, however, cite difficulties in registering as a 
significant obstacle to establishing even relatively 
nonpolitical, civic-minded organizations, such as those 
directed at helping Beijing prepare for the 2008 Olympics.\11\
    Central authorities have long tried to keep civil society 
organizations under tight official control, but some Chinese 
officials support reducing restrictions and allowing them to 
play a more active social and political role. Both the Ministry 
of Civil Affairs (MOCA) and the State Environmental Protection 
Agency have been particularly supportive of civil society 
organizations.\12\ MOCA officials have suggested publicly that 
the sponsorship requirement should be eliminated and have 
submitted multiple draft civil society regulations to the State 
Council that would remove it. The State Council, however, has 
rejected these proposals.\13\ Chinese news reports suggest that 
upcoming revisions to the 1998 regulations on social 
organizations will liberalize current rules somewhat, but will 
not change the sponsor organization requirement.\14\
    National and local authorities also sometimes disagree on 
how to manage civil society organizations. In 2004, Zhejiang 
provincial 
authorities passed a relatively liberal set of rules governing 
the operation of farmers' cooperatives. These rules do not 
require cooperatives to have a sponsor organization to 
register.\15\ The Zhejiang rules appear to conflict with 
national guidelines that require local government bureaus to 
sponsor farmers' cooperatives and call for a greater degree of 
official supervision over the cooperatives.\16\ Whether local 
experiments such as Zhejiang province's will be successful when 
they conflict with national policies is unclear, as other local 
efforts to liberalize registration requirements for farmers' 
cooperatives have run into problems with banks and tax bureaus 
because of their ambiguous status.\17\
    Individual civil society organizations and activists risk 
official retaliation when they directly challenge government 
decisions. In March, Chinese authorities ordered the Beijing 
AIDS Institute of Health Education, a registered non-
governmental organization, to eliminate the terms ``Health 
Education'' and ``AIDS'' from its name or be closed. Institute 
sources voiced concern that this order would affect the group's 
financial operations and limit its AIDS prevention efforts. 
Although officials asserted that the terms violated NGO naming 
rules, they issued the order a week after the Institute 
released a report alleging that government plans for using 
international AIDS funds lacked adequate public participation 
and representative patient sampling.\18\ Similarly, local 
authorities in Henan province detained and arrested AIDS 
activists who criticized local government actions and attempted 
to contact higher-level government authorities.\19\
    Structural problems also affect Chinese civil society 
groups. Many remain dependent on foreign funding, which can 
amount to over 90 percent of the budget of some 
organizations.\20\ China's civil society organizations are tax-
exempt in theory, but the absence of implementing regulations 
hinders their ability to raise funds.\21\ Local government 
agencies also seeking to raise money sometimes compete with 
revenue-generating civil society organizations for the same 
sources of funding.\22\ Chinese civil society groups generally 
have a weak capacity for self-governance.\23\

2005: Central Government Effort to Curtail Civil Society

    In early 2005, senior Chinese leaders mounted a wide effort 
to curtail activist civil society organizations. Articles in 
academic journals linked to the State Council pressed officials 
to prevent ``Western countries from carrying out infiltration 
and sabotage of China through political NGOs.'' \24\ 
International NGOs with U.S. ties have experienced more 
government interference in recent months.\25\ Editorials in the 
state-sponsored press stressed the need for civil society 
organizations to carry out Party policies and ideology.\26\ 
Central authorities ordered certain social science research 
groups that had attempted to operate outside of regular 
controls by registering as for-profit companies to reregister 
with MOCA or be closed.\27\
    In April 2005, top Chinese leaders established the All-
China Environment Federation (ACEF), a state-run alliance of 
civil society organizations controlled by current and former 
government officials. Official reports indicate that the ACEF 
is aimed at ensuring better cooperation between ministries on 
environmental issues and offering regular channels for Chinese 
civil society organizations to provide policy input.\28\ 
Nevertheless, the ACEF resembles traditional mass 
organizations, such as the All-China Women's Federation or the 
All-China Federation of Trade Unions, that Chinese leaders use 
to co-opt and regulate social groups that might challenge Party 
control. Chinese environmental activists state that the 
government has pressured them to join the ACEF and pay 
mandatory dues. They also state that many regard the move as an 

attempt to restrict the growing activism of environmental 
organizations.\29\

                  V(b) Legal Restraints on State Power


                                FINDINGS

        <bullet> The Chinese government has affirmed the right 
        of citizens to petition the National People's Congress 
        Standing Committee for review of regulations that 
        violate the Constitution or national law. The effect of 
        this right remains limited, however, since Chinese 
        citizens have no right to compel such review or to 
        challenge the constitutionality of government actions.
        <bullet> Constitutional enforcement remains a 
        politically sensitive topic in China, and the near-term 
        prospects for the establishment of a more robust 
        constitutional enforcement mechanism are remote. The 
        Chinese government has ruled out establishing a 
        constitutional court or giving people's courts the 
        power to review the constitutionality of laws and 
        regulations.
        <bullet> The Chinese government has enacted laws to 
        curb administrative abuses, but Chinese officials 
        retain significant administrative discretion. Existing 
        legal mechanisms provide only 
        limited checks on arbitrary or unlawful government 
        actions.

Constitutional Enforcement

    Over the past year, Chinese leaders continued to emphasize 
the importance of the Constitution, but focused primarily on 
constitutional study and government-supervised implementation 
measures. In his annual report in March 2005, for example, Wu 
Bangguo, Chairman of the National People's Congress Standing 
Committee (NPCSC), stressed the importance of implementing and 
studying the Constitution.\1\ In December 2004, authorities 
made constitutional consciousness the subject of a national 
legal awareness day.\2\ Government statements stressed the 
significance of March 2004 constitutional amendments, which 
included a new provision stating explicitly that ``the State 
respects and safeguards human rights.'' Official statements 
also highlighted legislation and rectification campaigns 
designed to implement these amendments.\3\
    The Chinese government has affirmed the right of citizens 
to petition the NPCSC for review of regulations that conflict 
with the Constitution and national law. Under the Constitution, 
the power of constitutional enforcement rests with the 
NPCSC.\4\ Chinese experts have long criticized the NPCSC for 
failing to exercise this function.\5\ In 2004, the NPCSC 
announced the formation of a new office to assist it in 
reviewing regulations that conflict with the Constitution and 
national law.\6\ An NPC official publicly confirmed in December 
2004 that citizens have the right to petition the office for 
review of regulations.\7\ Official news media published 
accounts of at least one such petition and encouraged citizens 
to submit petitions in other cases.\8\
    To date, however, the practical impact of the right to 
petition for NPCSC review remains limited. As one Chinese legal 
expert notes, the office is only empowered to make 
recommendations to the NPCSC;\9\ it is not required to act on 
citizen petitions, and citizens have no power to request review 
of ``unconstitutional acts'' by officials or laws passed by the 
NPC.\10\ Whether the office has a set of review procedures in 
place or has yet taken any formal action to invalidate a 
regulation is unclear. One Commission source suggests that in 
several cases, the NPCSC has worked behind the scenes to have 
inconsistent local regulations repealed, perhaps to avoid 
publicly embarrassing local authorities with a formal 
decision.\11\
    Chinese courts do not have the power either to apply 
constitutional provisions in the absence of concrete 
implementing legislation or to strike down laws or regulations 
that are inconsistent with the Constitution.\12\ In recent 
years, however, lawyers have worked to establish case 
precedents for judicial application of constitutional 
principles by incorporating constitutional arguments into legal 
cases.\13\ At a Commission hearing in 2005, a respected 
American expert on Chinese law suggested that even if the NPCSC 
is unwilling to permit Chinese courts to review the validity of 
laws or regulations, courts could be given the power to apply 
constitutional provisions in settling disputes related to 
administrative or private actions.\14\
    Reform-minded scholars and lawyers continued to raise 
constitutional issues in Chinese courts over the past year. In 
November 2004, the All-China Lawyer's Association announced the 
formation of a Constitutional and Human Rights Committee to 
research constitutional implementation, train lawyers, and 
``use individual cases to help promote China's constitutional 
litigation.'' \15\ One such case arose in April 2005, when two 
Henan lawyers cited constitutional protections in a lawsuit 
they filed against the Shenzhen public security bureau. The 
bureau had posted a banner encouraging Shenzhen residents to 
report on ``Henan'' criminals, an act the plaintiffs argued was 
discriminatory.\16\ Constitutional arguments were raised in 
other cases as well.\17\ Although efforts to encourage courts 
to apply constitutional principles in specific cases have been 
largely unsuccessful, lawyers also promoted efforts to 
incorporate constitutional protections into national laws, 
which courts are permitted to apply in their decisions.\18\
    Prospects appear remote for the establishment of a more 
robust constitutional enforcement mechanism in the near term. 
Constitutional enforcement remains a sensitive topic, and 
senior Party leaders have warned officials to guard against 
efforts to promote Western-style constitutional reform.\19\ In 
December 2004, the government ruled out establishing a 
constitutional court or some other mechanism for judicial 
review of the constitutionality of laws and official acts and 
stated that the Constitution is not a basis for litigation.\20\ 
Although scholars continued to study constitutional enforcement 
and held several conferences on the issue, authorities forced 
the cancellation of an international conference on 
constitutionalism and human rights in May 2005.\21\ In April 
2005, authorities also shut down a Beijing consultancy that 
planned to assist citizens in enforcing their human rights.\22\ 
Chinese scholars suggest that if the government introduces any 
new constitutional enforcement mechanism in the near-term, it 
is most likely to be a special constitutional enforcement 
commission under the National People's 
Congress.\23\

Administrative Litigation and State Compensation

    China's 1989 Administrative Litigation Law (ALL) and 1994 
State Compensation Law (SCL) provide citizens with limited 
checks on arbitrary government action, but growth in the number 
of cases brought under the two laws appears to be leveling off. 
The ALL gives Chinese citizens the right to file lawsuits to 
challenge ``concrete'' administrative acts that violate their 
lawful rights and interests.\24\ The SCL provides citizens with 
the right to obtain compensation in a limited number of 
situations in which administrative or criminal justice agencies 
engage in illegal conduct.\25\ After reaching a peak of 98,759 
cases in 1999, the number of administrative lawsuits handled in 
Chinese courts has fluctuated and declined slightly since 2000, 
with courts handling 92,192 cases in 2004.\26\ The number of 
SCL cases handled by people's courts has remained low and 
leveled off at about 3,000 cases per year.\27\ Over the same 
period, the number of citizen petitions and social protests has 
grown considerably.\28\ In comparison to the more than 11 
million citizen petitions filed in 2003 [see Section V(e)--
Access to Justice], the number of ALL and SCL claims is 
relatively small.
    The limited scope of the ALL and SCL and official 
resistance to both laws have limited their practical utility. 
The ALL only applies to ``concrete'' administrative decisions, 
not government-issued directives or rules, while compensation 
standards under the SCL remain rigid and the amounts awarded 
are small.\29\ Chinese sources also cite complicated 
procedures, legal loopholes that facilitate official resistance 
to claims, the failure of administrative defendants to attend 
trials, administrative interference with the courts, and 
citizen fears of official retribution as problems that 
undermine the effectiveness of both laws.\30\ In a November 
2004 article, China Youth Online noted that citizen plaintiffs 
won about 21 percent of the administrative cases filed in the 
first nine months of 2004, but suggested that success rates 
should be higher because most citizens are cautious about suing 
officials.\31\ In the case of the SCL, plaintiffs have 
reportedly won compensation in about one-third of the state 
compensation cases that people's courts have adjudicated since 
1995.\32\ Several Chinese reports demonstrate that government 
departments often refuse to honor compensation awards, however, 
with one commentator concluding that the SCL ``sounds good but 
is of no use.'' \33\ The Chinese government is considering 
amendments to both laws that may address some of these 
concerns.\34\

Additional Administrative Law Developments

    China's Administrative Licensing Law (Licensing Law) has 
created new legal limits on administrative discretion. The 
Licensing Law, which came into effect in July 2004, is intended 
to improve administrative efficiency and curb corruption by 
controlling the number of administrative agencies with 
licensing power. The law also limits the matters subject to 
licensing requirements, clarifies and enhances the transparency 
of licensing procedures, and provides time limits within which 
authorities must act on licenses.\35\ Official news media have 
argued that the Licensing Law is a significant step toward the 
rule of law, declaring that it ``prompted the government to 
start a revolution with respect to limiting its authority and 
protecting private rights.'' \36\ In March 2005, the People's 
Daily reported that the State Council had canceled or rectified 
more than 1,795 administrative licenses since the Licensing Law 
became effective.\37\ Although the law is potentially a 
significant development in limiting bureaucratic discretion, 
most of its enforcement provisions emphasize government 
supervision and inspection, rather than citizen enforcement 
through the courts.\38\
    The Chinese government continues to work on a comprehensive 
Administrative Procedure Act (APA), but the law appears to be 
mired in drafting debates.\39\ The APA would be the first 
comprehensive national law on administrative procedure and is 
expected to fill gaps in China's existing administrative law 
framework. Drafts of the law have been under consideration for 
several years.\40\ The law was not included in the 2005 
legislative plan for the NPC, however, and sources with 
knowledge of the drafting process suggest that it could be 
several years before it is enacted.\41\

Implications of Developing Legal Constraints on State Power

    The Chinese government has placed heavy rhetorical emphasis 
on respect for the Constitution and ``administration according 
to law,'' \42\ and some of the laws and policies described 
above are positive steps toward these goals. Government 
officials retain enormous discretion, however, and existing 
legal mechanisms neither permit Chinese citizens to enforce 
their constitutional rights nor provide a consistent and 
reliable check on arbitrary administrative acts. Given such 
problems and the limited independence of Chinese courts [see 
Section V(c)--China's Judicial System], prospects are limited 
for the development of true legal restraints on state power.

                      V(c) China's Judicial System


                                FINDINGS

        <bullet> Chinese judicial officials announced ambitious 
        reform goals in 2005 that would address structural 
        problems affecting the Chinese judiciary. These include 
        changes to court adjudication committees, the system of 
        people's assessors, and judicial review of death 
        penalty cases.
        <bullet> Communist Party authorities and local 
        governments continue to limit the independence of 
        China's courts. Internal 
        administrative practices of Chinese courts also 
        compromise judicial efficacy and independence.
        <bullet> The Chinese judiciary has improved the 
        educational level of Chinese judges and the quality of 
        their judicial opinions. Rural courts, however, are 
        rapidly losing judges to urban areas.

Plans for Ongoing Reform

    Judicial reform plans that Chinese authorities currently 
are considering appear to be aimed at addressing a range of 
structural problems in the Chinese judiciary. Recent efforts by 
senior Chinese leaders to tighten social and political control 
raise questions about whether these plans will actually be 
implemented.\1\ An important test of official intent to reform 
the judiciary in a meaningful way will be whether the Supreme 
People's Court (SPC) Five-Year Plan for court reform, which has 
yet to be released, includes details on how to implement the 
reforms discussed below.
    In 2005, Chinese court authorities set out a framework for 
continuing judicial reform.\2\ According to both the SPC work 
report and media reports on the contents of the draft SPC Five-
Year Plan (2005-10), reform goals include:

        <bullet> Changes to judicial review of death penalty 
        cases. Chinese officials and domestic sources indicate 
        that the government has already decided to return the 
        power of reviewing all death penalty decisions to the 
        SPC [see Section III(b)--Rights of Criminal Suspects 
        and Defendants].
        <bullet> Revisions to the court adjudication committee 
        system. Judicial authorities are considering structural 
        reforms to the system of court adjudication committees. 
        These committees of court presidents and other 
        administrative personnel are the highest authority in 
        Chinese courts, but their practices challenge 
        principles of judicial independence. They often are the 
        vehicle for outside pressure to reverse decisions in 
        individual cases, for court officials to overrule the 
        decisions of trial judges, or for trial judges to seek 
        internal advisory review of cases before them. 
        Officials and scholars currently are divided over 
        different plans for reforming these committees.\3\
        <bullet> Changes to rehearing procedures. Rehearing 
        procedures permit courts and adjudication committees to 
        reopen and review final decisions with few practical 
        limits.\4\ Extensive use of rehearing procedures 
        undermines the finality of court decisions.\5\ Proposed 
        reforms may limit the number of times a case may be 
        reviewed, but may also make it easier for parties to 
        request a rehearing.\6\
        <bullet> Strengthening the people's assessor system. In 
        May, an SPC directive entered into force regularizing 
        the practice of using ordinary citizens selected by 
        court personnel to participate in court hearings. The 
        directive clarifies that these laypersons enjoy the 
        same powers as judges, including determining the facts 
        and interpreting the law. Chinese authorities promote 
        this practice as an anti-corruption device allowing 
        popular supervision of the judiciary.\7\
        <bullet> Regularizing the use of forensic 
        determinations and expert testimony. A National 
        People's Congress decision issued in February 2005 bars 
        courts and justice bureaus from establishing for-profit 
        forensics centers to provide expert testimony.\8\ This 
        practice has raised substantial ethical and legal 
        questions concerning the fairness of trials.\9\ Many 
        Chinese courts, however, commonly depend on the revenue 
        generated by these centers to support their 
        operations.\10\

    Party interests continue to influence judicial reforms. For 
example, Ministry of Justice efforts to strengthen the role of 
local judicial bureaus in resolving local disputes are directly 
linked to the Party's ``harmonious society'' campaign aimed at 
reducing social unrest.\11\ In December 2004, two well-known 
legal scholars gave unusually candid public interviews about 
judicial reform proposals they had prepared at the SPC's 
request. The scholars noted the expansive nature of their 
proposals, which included guaranteeing independence for Chinese 
judges in deciding cases and forbidding court officials and 
adjudication committees to interfere in trial judge 
deliberation.\12\ Despite having commissioned the proposals, 
the SPC publicly distanced itself from the authors and 
criticized them.\13\ The People's Daily noted that the 
``Supreme People's Court has ruled out the scenario of radical 
judicial reform in the short term.'' \14\ These responses 
suggest that judicial authorities remain wary of creating 
perceptions that they are trying to ``Westernize'' China and 
are being careful to curtail excessively independent 
reform efforts.\15\

Growing Professionalism, But Continuing Structural Problems

    The Chinese judiciary continues to improve the educational 
levels of judges and the quality of their judicial opinions. 
According to SPC statistics, about 40 percent of Chinese judges 
had earned a 4-year university degree in 2003, a 21 percent 
increase since 1998.\16\ Pursuant to SPC directives, local 
courts continue to experiment with publishing their decisions 
online and providing statements of legal reasoning supporting 
their decisions.\17\ Central 
government efforts to compel rural courts to meet national 
standards for judicial qualifications and a wide gap in 
judicial salaries between rich urban areas and poor rural ones 
have weakened rural courts. Rural courts are losing talented 
judges to urban areas and facing difficulties hiring new ones, 
leading to the aging and thinning of the ranks of the rural 
judiciary.\18\
    Chinese judges are subject to external interference that 
limits their independence. Local governments influence courts 
through their control over judicial funding and appointments, 
and frequently use this influence to protect local 
interests.\19\ Party authorities often intervene in politically 
sensitive cases and routinely screen court personnel 
decisions.\20\ Since the early 1990s, local 
people's congresses have exercised increasing influence over 
court decisions.\21\ Public opinion is an increasing source of 
pressure on Chinese courts, through sensationalistic media 
reporting on cases.\22\
    Internal administrative practices commonly used in Chinese 
courts also reduce judicial effectiveness and independence. 
Chinese courts frequently evaluate judicial efficiency and 
assign bonuses or sanctions by using ``case closure ratios''--
the ratio of closed to filed cases during a given year.\23\ To 
generate high ratios, Chinese courts often resort to 
unscrupulous means, including pressuring parties to agree to 
mediated outcomes and refusing to accept cases filed late in 
the year. Court responsibility systems discipline judges for a 
range of errors, including appellate reversals for legal error. 
Punishments include criticism, fines, limited career prospects, 
and criminal sanctions.\24\ These systems encourage judges to 
rely on internal advisory requests (qingshi) to ask for advance 
guidance from higher court authorities about how to decide 
cases in order to avoid punishment.\25\ As both Chinese 
officials and scholars have noted, this practice harms judicial 
fairness by separating actual court decisions from trials, and 
by making subsequent appeals (to the same entity that responded 
to the request for review) a formality.\26\

           V(d) Democratic Governance and Legislative Reform


                                FINDINGS

        <bullet> China has an authoritarian political system 
        controlled by the Communist Party. Party organizations 
        formulate all major state policies before the 
        government implements them. The Party dominates Chinese 
        legislative bodies such as the National People's 
        Congress and fills important government positions at 
        all levels by an internal selection process. China 
        lacks meaningful elections for significant political 
        positions.
        <bullet> Chinese authorities have introduced limited 
        elements of political participation at the lowest 
        levels of government to enhance their ability to 
        govern. These elements include direct elections for 
        village and residents committees, local people's 
        congress elections, and some popular input into the 
        selection of low-level government and Party officials. 
        The Party controls these selection and electoral 
        processes by screening, and often selecting, the 
        candidates.
        <bullet> Chinese citizens are attempting to use the 
        limited political space created by official reforms to 
        protect their rights and interests, but Party officials 
        and local governments often suppress these efforts, 
        leading to social unrest.

Introduction

    Since the 1980s, Chinese leaders have introduced and 
pursued limited policies to encourage popular participation in 
local political institutions. These include village and 
residents' committees (VCs, RCs), local people's congresses 
(LPCs), and various systems allowing some popular input into 
the selection of lower-level government and Party officials. 
Chinese leaders introduced these reforms to enhance the Party's 
ability to govern, limit the power of individual cadres, and 
improve China's international image, among other policy 
goals.\1\ Such reforms partially check the behavior of local 
officials, since they must consider public opinion in addition 
to the demands of their superiors.\2\
    The Party has refused, however, to compromise the principle 
of Party control over all key political institutions and 
policies. Central authorities also suppress local reforms that 
cross boundaries that they have set, such as direct popular 
elections for township government leaders.\39\ Party officials 
channel political participation into outlets that the Party can 
monitor and control.\4\ Without free and open public 
participation, implementation of certain reforms remains 
piecemeal and pro forma.\5\
    The Party has initiated these political reforms to 
strengthen Party rule by co-opting popular political 
participation, rather than pursuing it as an independent good. 
The official communique of the Communist Party's 4th Plenum in 
September 2004 emphasized this goal, stating that the Party 
should:

          continue to enforce and improve the existing 
        practices of democratic recommendation and democratic 
        evaluation of officials, multi-candidate competitive 
        selections for official posts, opinion solicitation 
        prior to appointment of new officials, and voting by 
        all members of a Party committee (rather than arbitrary 
        decisionmaking by committee heads).\6\

    The focus on recommendation rather than nomination, 
selection rather than election, and decisionmaking by all 
members of a Party committee, rather than by representative 
vote, indicates the Party's intent to use popular participation 
as a utilitarian tool of governance, rather than as a stepping 
stone to representative democracy.\7\
    The impact of political reforms at the local level has been 
limited. In some cases, reforms have produced competitive 
elections for local office and have exposed citizens to 
electoral processes.\8\ Reforms have also created limited 
public forums for local residents to challenge some local 
government actions\9\ and created popular expectations for 
changes in other areas, such as cadre recruitment.\10\ Limited 
public participation and continued tight Party control, 
however, generate problems and conflict in the Chinese 
political system.\11\ Organizations having some popular 
legitimacy, such as directly elected village committees, 
frequently clash with Party officials and higher-level 
governments.\12\ In September 2005, township authorities 
suppressed a popularly elected recall committee in Taishi 
village, Guangdong province, that was part of a citizen effort 
to use national election laws to remove the village committee 
head.\13\ Without independent political organizations or open 
campaigning, some candidates rely on clan ties to win 
elections.\14\ The refusal of central officials to allow 
meaningful citizen political participation above the lowest 
levels of the political system blocks the expansion of 
political freedom while generating internal tensions.

Village/Residents' Committee Elections

    The Chinese government has attempted to reinvigorate local 
governance by supporting the direct election of VCs since the 
1980s and urban RCs since the 1990s.\15\ After local 
experiments with VC elections in the early 1980s, the central 
government formally approved them in a 1987 experimental 
law.\16\ With support from the Ministry of Civil Affairs (MOCA) 
officials and grassroots efforts by rural residents, direct VC 
elections spread nationally during the 1990s.\17\ Since 1998, 
national law has required direct elections to select VC 
members, although this requirement has not been implemented 
everywhere.\18\ Urban RC elections only developed recently, 
despite prior 1989 legislation permitting local experiments in 
direct RC elections. In 1999, MOCA organized a pilot project 
for holding direct RC elections in 12 selected cities.\19\ The 
reform has been extended and major urban centers such as 
Beijing and Shanghai have held direct RC elections.\20\ Guangxi 
province adopted a province-wide requirement for direct RC 
elections in 2002.\21\
    VC and RC elections remain subject to Party and government 
controls. Party authorities and township governments control 
electoral procedures by using county election leadership groups 
and village election commissions to supervise election 
proceedings, certify lists of candidates, and approve the 
results.\22\ Election committee members often are designated by 
existing village committee heads or appointed by township 
governments. Heads of village election committees generally 
must be Party members.\23\ According to one study of local 
elections in Jilin province, 66 percent of officials surveyed 
said that the village Party secretary himself headed their 
local election committee.\24\ As one Chinese scholar noted, 
this ``Party-controlled system not only facilitates the 
intervention of the village Party secretary in the electoral 
process, but it also suppresses the inclination of villagers to 
actively participate in the elections.'' \25\
    Structural problems continue to limit both the fairness of 
VC and RC elections and the independence of these institutions. 
Migrants often remain excluded from local elections, 
particularly where the allocation of local land rights is at 
stake.\26\ Regulations limit the ability of candidates to 
conduct many campaign activities.\27\ 
Despite MOCA efforts to limit their use, proxy voting and 
floating ballot boxes call into question the fairness of many 
VC and RC elections.\28\ As MOCA officials acknowledge, current 
law does little to protect the electoral rights of Chinese 
citizens.\29\ Many local governments delegate administrative 
tasks to VCs and RCs and control them by fiat.\30\
    Central authorities have not permitted direct elections 
beyond local levels in order to prevent any challenge to Party 
control. In 2000, central government officials suppressed 
efforts in Sichuan province to organize direct elections for a 
township government, which is one level above the village 
level.\31\ Unlike the 1990s, when they actively supported VC 
elections, MOCA officials 
currently appear less inclined to support expansion of urban RC 
elections. MOCA officials say that only 10 percent of all RCs 
nationwide are currently chosen through direct elections, and 
expanding that percentage will depend on the interest of local 
authorities.\32\ Some local governments have made RC elections 
a long-term priority. According to the five-year development 
plan issued by the Shenzhen government in February 2005, at 
least 70 percent of municipal RCs are to be chosen through 
direct election by 2010.\33\
    Despite these limitations, some Chinese officials are 
working to ensure a degree of transparency and openness in VC 
and RC elections. One study conducted in Fujian province found 
that village representative assemblies controlled selection of 
the electoral commission in 75.6 percent of the villages 
surveyed.\34\ Nationally, MOCA officials are seeking revisions 
to existing laws governing RCs and VCs and have hosted hearings 
calling for greater RC and VC independence. MOCA officials also 
advocate greater flexibility for candidates to campaign for 
office.\35\

Local People's Congresses

    The authority of local people's congresses (LPCs), the 
legislative branch of local government, has grown since the 
early 1990s, in part as a result of Party decisions to enlarge 
their role. LPCs have also expanded their power by exercising 
their right to supervise and review the actions of local 
governments and courts.\36\ LPCs appraise and criticize local 
officials, require government agencies to respond to requests 
for information, and form special commissions to investigate 
issues of public concern.\37\ LPCs also increasingly use public 
hearings (codified under the 2000 Legislation Law) as a means 
to solicit public views on pending legislation.\38\
    Although relatively more powerful than in the past, LPCs 
remain handicapped by infrequent meetings, biases against rural 
and migrant populations, a lack of resources, and continuing 
Party control over important decisions.\39\ County and township 
LPC delegates serve five-year terms but meet in annual plenary 
sessions lasting only a few days.\40\ Real LPC authority 
resides in two leadership groups, the standing committee and 
the presidium.\41\ Membership in both of these groups is 
tightly controlled. For example, previous LPC leaders generally 
select LPC presidium members in advance and vet their choices 
with local Party authorities.\42\ LPC membership discriminates 
against migrants and rural residents. Under 
national law, rural LPC deputies represent four times as many 
constituents as their urban counterparts.\43\ Voter 
registration requirements often inhibit migrants from voting in 
their places of actual residence, although some localities have 
undertaken initiatives to reduce these barriers.\44\
    The government and Party have ensured that LPCs do not 
develop into fully representative legislative bodies. Township 
LPCs have been directly elected since 1953, and county LPCs 
since 1979, but these elections remain subject to regulatory 
controls and direct Party interference. Party leaders see 
electoral reform as a threat to their control. For example, 
during a brief flirtation with political reform in 1979-80, 
authorities relaxed LPC election rules to allow a degree of 
competition and campaigning.\45\ In the ensuing 1980 elections, 
student and democracy activists used this leeway to debate 
political issues and challenge government authority. Chinese 
authorities responded with a general crackdown on elections and 
adopted restrictive amendments to relevant laws that removed 
the competitive, democratic elements from LPC elections.\46\
    Officials employ a variety of techniques to limit the 
democratic nature of LPC elections. Election laws allow the 
Party and the mass organizations that it controls to submit 
lists of approved cadres for LPC positions.\47\ While election 
laws permit groups of 10 or more voters to nominate LPC 
candidates, nomination procedures often raise obstacles to 
independent candidates, thus ensuring that only Party-nominated 
candidates survive the nomination process and reach the 
election.\48\ Election regulations impose very short deadlines 
for holding elections. Official candidate lists need only be 
released five days before the election,\49\ limiting a 
candidate's opportunity to campaign for voter support. 
Practices commonly associated with election fraud, such as the 
use of floating ballot boxes and proxy voting, plague many LPC 
elections.\50\
    Party officials use local election committees to maintain 
direct control over LPC elections. Formalized in a 1983 NPC 
directive, but never incorporated into national election laws, 
election committees determine voter eligibility, issue 
candidate lists, conduct elections, and report the results.\51\ 
Party-led county election leadership groups direct local 
election committees\52\ and are headed by township Party 
secretaries. Election committee members are often themselves 
candidates for LPC seats.\53\ Thus, election committees often 
have an interest in limiting competition and in assuring that 
LPCs remain relatively passive. Rules granting election 
committees nearly unlimited discretion in how to select final 
candidates facilitate this result.\54\ Election committees 
often resort to screening processes that are neither 
transparent nor democratic to narrow the candidate field to an 
acceptable few.\55\ As the NPC Legal 
Affairs Office has noted, these procedures ``easily lead in 
practice to behind-the-scenes manipulation of elections.'' \56\ 
Chinese scholars have criticized such practices, noting that 
``[c]ontrols and limitations on LPC candidate nominations 
ensure that individuals nominated by LPC presidiums win, and 
that candidates nominated by the Party win. Organizational 
tactics and outright illegal conduct in handling LPC candidate 
nominations have in practice meant that many township LPC 
elections lack any democratic 
nature. . . .'' \57\
    The practices used to elect LPC members discriminate 
against individuals who run as independent candidates. During 
the 2003 Beijing district LPC elections, for example, 23 
independent candidates attempted to run under the independent 
nomination procedure.\58\ These candidates included scholars 
and activists who had gained notoriety for their challenges to 
government policies.\59\ Only two were actually elected.\60\ 
Government restrictions prevented candidates from independently 
making public speeches and meeting the voters.\61\ Local 
electoral commissions used designated groups of voters to 
screen potential candidates, preventing many independent 
candidates from appearing on the ballot.\62\
    In October 2004, the NPC amended the LPC election law, 
introducing several minor reforms.\63\ The amended law 
expressly allows electoral commissions to use primary elections 
to narrow the candidate list.\64\ The amended law also permits 
the electoral commission itself to organize public events to 
allow the candidates to respond to questions from the 
public.\65\ These reforms create a vaguely defined zone of 
authorized political participation in LPC elections that future 
reformers might use to press for greater accountability. Both 
reforms resulted from pressure by local activists in the 2003 
LPC elections.\66\
    Despite these positive changes, the 2004 amendments 
represent only a small step towards making China's LPC 
elections more competitive and democratic. The reforms merely 
reintroduce electoral processes, such as limited campaign 
events and open primaries, that Chinese authorities had 
abolished after the 1980 elections discussed above. Moreover, 
many provincial regulations already permitted these electoral 
processes.\67\ The reforms do not address the deeper structural 
problems of continued Party domination of LPC electoral 
systems, such as Party control of nomination procedures and 
electoral commission discretion over candidate lists.\68\

Selection of Local Party and Government Officials

    Party organizations use internal elections to fill 
leadership positions. Local Party committees must submit 
proposed lists of 
candidates to higher authorities for clearance before holding 
such elections. Candidates must undergo background checks for 
political reliability. Party authorities frequently convene 
small groups of Party members in advance to elicit their views 
about candidates, using this information to narrow the 
candidate list. This process ensures that the election is 
merely a ratification of the Party leadership's choices.\69\
    Since the early 1990s, many Chinese localities have 
experimented with more open forms of Party elections.\70\ One 
system in wide use for selecting village Party secretaries is 
an open primary system in which both Party and non-Party 
members are allowed to nominate candidates. Voting in the Party 
election, however, is limited to Party members alone.\71\ A 
2004 experiment in Sichuan province relied on a weighted 
election to generate two final 
candidates for village Party secretary. The votes of local 
Party members counted for 50 percent of the total, local 
officials for 25 percent, and other citizens in the village for 
the remaining 25 percent. Village Party members then selected 
the ultimate winner.\72\
    In recent years, other localities have adopted similar 
techniques for the selection of low-level government 
officials.\73\ Despite official claims to the contrary, their 
actual democratic nature remains limited. Officials retain the 
power to decide the final outcome. For example, in 2004, 
Jiangsu province chose 295 officials, ranging from county 
government heads to the deputy chief of the provincial 
development commission, through a ``public nomination/public 
selection'' procedure. Actual public participation included 
only passive observation of candidate speeches and minimal 
input by chosen 
officials and citizens into the selection process.\74\
    These reforms are an effort to improve the Party's 
governance of society by permitting limited public 
participation and do not indicate an underlying commitment to 
democracy. As one Chinese commentator noted, ``these reforms 
are an improvement, but remain but a transitional mechanism. 
[They] are not actually a reform of the political system, but 
merely an internal, technical adjustment of the system of cadre 
management.'' \75\

                         V(e) Access to Justice


                                FINDINGS

        <bullet> Chinese citizens resort to thousands of 
        ``letters and visits'' (xinfang) offices for redress of 
        their grievances because of deficiencies in the legal 
        system and the absence of alternative channels for 
        political participation.
        <bullet> More citizens are petitioning xinfang offices, 
        although only a small fraction of grievances are 
        resolved. Citizen frustration is finding an outlet in 
        collective petitions that take the form of mass 
        demonstrations or strikes. Because Chinese authorities 
        punish local officials more severely for large 
        protests, citizens think that collective petitioning is 
        more likely to gain results.
        <bullet> The Chinese government passed new regulations 
        in 2005 designed to make the xinfang system more 
        responsive to citizen complaints, but these regulations 
        also expand the role of xinfang offices and the 
        incentives for citizens to resort to collective 
        petitioning.

Citizen Reliance on Petitioning

     Since the 1950s, ``letters and visits'' (xinfang) offices 
have been a channel for citizen requests for assistance in 
resolving grievances and appeals of government decisions 
outside the judicial system.\1\ Xinfang offices are found 
throughout the Chinese bureaucracy, including offices of the 
Communist Party, police, government, procuracy, courts, and 
people's congresses. Xinfang offices help central leaders 
administer the country, serving as a channel for them to obtain 
information on grassroots conditions and allowing them to use 
public input to monitor the actions of lower-level 
officials.\2\ Individual petitioning may be as simple as one 
dissatisfied individual visiting multiple government xinfang 
offices.\3\ Collective petitioning may involve organized 
demonstrations, speeches, and marches of hundreds or thousands 
of people seeking to present their grievances to officials.\4\
    Citizen petitioning of xinfang offices reflects a number of 
structural problems in the Chinese political and legal systems. 
Particularly in rural China, a single Party secretary often 
holds virtually unchallenged political power. Ordinary citizens 
have no ability under current law to organize independent 
organizations to protect their rights,\5\ and have only limited 
means to participate in the selection of local officials.\6\ 
Moreover, judicial institutions are subject to extensive local 
Party and government interference and 
provide limited protection for citizen rights.\7\ Without 
effective political or legal channels of redress, citizens 
often have little choice but to petition higher authorities 
repeatedly to seek help in resolving their grievances.
    Despite the gradual development of the formal Chinese legal 
system, Chinese citizens continue to rely heavily on 
petitioning to resolve their grievances. According to estimates 
by national xinfang officials, petitions to Party and 
government xinfang bureaus at the county level and higher total 
about 11.5 million per year.\8\ In contrast, the entire Chinese 
judiciary handled 6 million legal cases in 2004, of which only 
91,192 were administrative cases.\9\ Even within formal legal 
institutions, citizens commonly resort to petitioning to 
resolve their grievances; petitioners presented 4.2 million 
xinfang petitions to Chinese courts in 2004.\10\
    Petitioning practices and institutions challenge the 
development of the rule of law in China. Petitioners often 
contact any official or bureau that they think may be able to 
intervene and assist them, regardless of whether or not the 
official or bureau has formal authority over the issue. 
Similarly, official resolution of petitions often depends on 
the willingness of high officials to intervene rather than on 
the legal merits of the case.\11\ Many petitions are appeals of 
court decisions outside of formal legal channels.\12\ As one 
Chinese observer has noted, ``Xinfang--a mechanism originally 
established to resolve political problems, has gradually 
evolved into a system of assistance serving as a replacement 
for the judicial system.'' \13\ Despite heavy citizen reliance 
on xinfang offices, individual petitioning rarely resolves 
underlying grievances. According to a 2004 survey of the 
xinfang system conducted by the Chinese Academy of Social 
Sciences, government bureaus address only 0.2 percent of 
petitions filed. Over half of petitioners surveyed experienced 
beatings or other reprisals by government officials as a result 
of their petitioning.\14\ Xinfang offices lack authority to 
resolve petitions, frequently refer petitioner cases from 
bureau to bureau without resolution, handle petitions under 
opaque and secretive procedures, and are the source of a wide 
range of human rights abuses.\15\ Lacking other channels for 
redress of grievances, petitioners sometimes spend years or 
decades living in poverty in Beijing slums as they pursue their 
petitions.\16\
    Although individual petitioners rarely succeed under the 
xinfang system, collective petitioning efforts occasionally 
compel officials to act on citizen grievances.\17\ This result 
occurs in part because local officials who experience 
collective petitions face punishment under official xinfang 
responsibility systems.\18\ These systems apply progressively 
harsher disciplinary sanctions to government officials 
depending on the scale of the mass petitions and the 
bureaucratic level to which they are directed, rather than 
linking punishment solely to the legal merit of the 
complaints.\19\ For example, Anhui provincial regulations 
impose formal criticism on local officials who face mass 
petitions (over 50 petitioners at the provincial capital or 
over 20 at the national level) that remain for more than 48 
hours at government agencies.'' \20\ Mass petition movements of 
over 100 people to the provincial capital (or over 30 to 
Beijing) result in suspension of the responsible official.\21\
    Xinfang responsibility systems create an incentive system 
that encourages petitioners to organize larger petition 
movements 
directed at increasingly higher levels of government. Because 
the systems apply harsher disciplinary sanctions to officials 
who experience larger and more frequent mass petitions, 
petitioners have an incentive to take their grievances to the 
streets to force officials to act. Local officials have an 
interest in suppressing collective petition movements and 
preventing petitioners from approaching higher authorities. 
Foreign NGOs have documented the efforts by local and national 
officials to suppress mass petition movements violently.\22\ 
This cat-and-mouse struggle between petitioners and local 
authorities appears to be producing a group of experienced 
petition leaders who are capable of operating in secrecy and 
mobilizing large groups of petitioners.\23\
    The incentive structure described above appears to be 
causing a rapid increase in the number of citizen petitions. 
Officials at the national xinfang bureau report that the total 
number of petitions has increased every year since 1993.\24\ 
Petitions to the Supreme People's Court increased by 23.6 
percent in 2004.\25\ Petitioners are focusing on higher levels 
of government. In 2003, the national xinfang bureau registered 
a 14 percent increase over 2002 in the total number of 
petitions, but provincial and local bureaus only registered 
minimal increases. Similarly, national-level government 
agencies received 46 percent more petitions in 2003 than in 
2002, while provincial and local agencies had only minor 
increases.\26\ Collective petitions are increasing as a 
percentage of total petitioning activity. While the total 
numbers of letters and in-person visits by individual 
petitioners in one surveyed set of villages remained relatively 
stable between 1995 and 2000,\27\ the numbers of collective 
petitions nearly tripled during the same period.\28\

2005 Amendments to Xinfang Regulations

    In January 2005, the State Council responded to criticism 
of the xinfang system by amending the national xinfang 
regulations.\29\ The amended regulations clarify that officials 
must resolve petitions in accordance with laws and 
regulations.\30\ Petitioners must raise violations of their 
legal rights with the courts or other legally mandated 
entities.\31\ The amendments remove language suggesting that 
the xinfang system can be an alternative to legal remedies 
provided in the Administrative Litigation and Administrative 
Reconsideration Laws. The amendments strengthen the finality of 
decisions and permit hearings to be held to resolve 
petitions.\32\ The amended regulations also encourage local 
officials to allow legal aid groups to assist in resolving 
petitions under the guidance of xinfang bureaus.\33\
    Despite the positive aspects of the 2005 amendments, 
however, they also reinforce the xinfang institutions and 
responsibility systems that are at the root of existing 
problems. The national xinfang bureau is charged with creating 
a nationwide system to track petitions.\34\ All local 
governments must now adopt xinfang responsibility systems and 
make the success of officials in handling 
petitions an element of official performance reviews.\35\ The 
new regulations also require that all county and township 
governments and their subordinate administrative bureaus 
establish a system of ``xinfang leadership reception days'' for 
petitioners to approach responsible officials of various 
government bureaus directly.\36\ Finally, the regulations grant 
xinfang officials a degree of ``soft power'' to affect the 
disposition of particular cases\37\ and require regular 
reporting of petition statistics to higher government 
authorities.\38\

         V(f) Commercial Rule of Law and the Impact of the WTO


                                FINDINGS

        <bullet> The Chinese government has made progress in 
        bringing its laws and regulations into compliance with 
        its WTO commitments. Though significant flaws remain, 
        the new body of commercial laws has improved the 
        business climate for foreign companies in China. With 
        new, more transparent rules, the Chinese trade 
        bureaucracy has reduced regulatory and licensing 
        delays.
        <bullet> The Chinese government tolerates intellectual 
        property infringement rates that are among the highest 
        in the world. Steps taken by Chinese agencies in the 
        past 12 months to improve the protection of foreign 
        intellectual property have not produced any significant 
        decrease in infringement activity. The Chinese 
        government has not introduced criminal penalties 
        sufficient to deter intellectual property infringement.
        <bullet> The Chinese government has not fully 
        implemented the key WTO principles of national 
        treatment, non-discrimination, and transparency in such 
        areas as distribution and agriculture. To address these 
        problems, the Chinese government must continue economic 
        reforms, establish a more transparent and consistent 
        regulatory and licensing system, implement and enforce 
        distribution rights for foreign companies, and 
        strengthen 
        enforcement of intellectual property laws.

Developments in Commercial Rule of Law

    The Chinese government has made progress in bringing its 
laws and regulations into compliance with its WTO commitments. 
Since joining the WTO in 2001, central, provincial, and local 
governments have reviewed more than 2,500 trade-related 
measures\1\ and the Supreme People's Court (SPC) has reviewed 
all of its approximately 2,600 interpretations and related 
documents,\2\ to ensure that they comply with WTO requirements. 
Despite these positive steps, the rule of law remains weak in 
China and this, among other factors, has hampered the timely 
and efficient implementation of China's WTO commitments.
    Though significant flaws remain, the new body of commercial 
laws has improved the business climate for foreign companies in 
China.\3\ With new, more transparent rules, the Chinese trade 
bureaucracy has made some progress in reducing regulatory and 
licensing delays.\4\ The new laws and regulations have reduced 
uncertainty about contractual rights and obligations.\5\ 
Foreign companies are increasingly using Chinese courts to 
resolve business disputes, and the overall professional quality 
of judges has improved [see Section V(c)--China's Judicial 
System]. Improvements in the legal regime are the primary 
reason that more U.S. companies in China planned to expand 
their operations in 2005.\6\
    The WTO principles of non-discrimination and transparency, 
introduced to government officials at all levels by the new 
commercial laws, are having a positive effect on some aspects 
of non-commercial public policy as well. A former Chinese trade 
negotiator noted that WTO transparency requirements have put 
pressure on officials to curb the use of internal, non-public 
rules to regulate corporate and citizen behavior.\7\ Chinese 
citizens, private companies, and government agencies have also 
used WTO terminology regarding national treatment when 
criticizing regulatory discrimination.\8\ For example, Chinese 
scholars have criticized the lack of ``urban resident 
treatment,'' a term derived from the WTO term for non-
discriminatory treatment, for rural residents in regulations 
that favor urban residents [see Section III(j)--Freedom of 
Residence and Travel].\9\ In their discussions of such 
discrimination, both the central government and local 
governments have also used WTO-derived terms, promising 
expanded ``urban resident treatment'' to all citizens.\10\
    Nonetheless, the Chinese government still maintains 
measures that undermine implementation of its WTO commitments. 
For 
example, although the Chinese government implemented WTO-
mandated tariff reductions in a timely manner, Chinese customs 
officials continue to impose arbitrary tariff classifications 
on imports at different ports of entry.\11\ Likewise, a new, 
draft Telecommunications Law could clarify the nature of market 
regulations and the procedures for foreign firms to gain the 
market access guaranteed in China's WTO commitments, but has 
yet to be published for public comment.\12\
    The Chinese government has also proposed and implemented 
new measures that appear to protect and promote domestic 
industry and disadvantage foreign business, sometimes in 
contravention of its WTO commitments. A senior official at the 
Ministry of Commerce (MOFCOM) affiliated Beijing WTO Affairs 
Research and Consulting Center called on the Chinese government 
in late 2004 to focus on the ``threats of imports and increased 
competition from foreign goods, services, and enterprises.'' 
\13\ Two measures, although now resolved, illuminate policy 
efforts to protect domestic industry. In 2004, the government 
sought to implement a new commercially onerous wireless 
networking standard that mandated technology transfers from 
foreign to domestic high-technology companies, despite a WTO 
commitment to use international standards except when 
ineffective or inappropriate.\14\ For over two years following 
WTO accession, the Chinese government maintained an 
export tax rebate for domestically produced integrated circuits 

designed to compel foreign firms to relocate their design and 
fabrication facilities to China.\15\ The U.S. government 
asserted that the policy violated a WTO prohibition against tax 
policies favoring domestic production.
    The government has adopted a steel industry development 
policy that will raise barriers to entry for foreign companies 
by imposing high capital requirements and limitations on joint 
venture partners.\16\ Although this policy may be consistent 
with WTO requirements, it exploits broad WTO rules to protect 
or develop Chinese industries at the expense of foreign firms. 
The United States and China's other WTO partners will need to 
remain vigilant to ensure that the government's implementation 
of WTO obligations helps create a robust commercial legal 
system, rather than creating incentives to implement 
development policies consistent with WTO requirements, but 
acting as subtle barriers to trade.

Infringement of Foreign Intellectual Property

    In the past year, the Chinese government continued to 
tolerate intellectual property (IP) infringement rates that 
were among the highest in the world.\17\ Copyright piracy rates 
in China currently exceed 90 percent in some industries,\18\ 
including rates of 95 percent for motion pictures and 90 
percent for software.\19\ In 2004, U.S. Customs seized more 
Chinese products for trademark violations than from any other 
country.\20\ In early 2004, Vice Premier Wu Yi committed her 
government to reducing the level of IP infringement in China 
immediately, and reiterated and expanded this commitment to 
senior U.S. officials at the U.S.-China Joint Commission on 
Commerce and Trade (JCCT) session in July 2005.\21\ As of the 
publication date of this Annual Report, the Chinese central 
government has intensified its efforts to combat infringement 
activities, but has not yet met this goal.
    The Chinese government reported that the number of raids 
conducted and the quantity of pirated products destroyed have 
increased,\22\ but U.S. industry sources say that infringement 
of foreign intellectual property in China has grown worse since 
2003.\23\ High infringement rates continue, in part because 
Chinese authorities have not increased penalties against 
producers of pirated goods.\24\ Infringement rates in South 
Korea and Taiwan that approached or exceeded 90 percent in the 
1980s and 1990s were brought under control after the central 
government instituted new deterrent penalties and specific 
legal measures.\25\ A specific licensing requirement for 
optical disc production, for example, helped the Hong Kong 
government curb piracy at its source.\26\
    The Chinese government has not introduced criminal 
penalties sufficient to deter IP infringement. The WTO 
Agreement on Trade-Related Aspects of Intellectual Property 
Rights requires WTO Members to maintain criminal IP penalties, 
including monetary fines ``sufficient to provide a deterrent.'' 
\27\ Current provisions in China's Criminal Law are inadequate 
to deter infringement\28\ and serious IP cases remain in the 
administrative enforcement system, which has proven ineffective 
at deterring violators.\29\ In 2004, the Supreme People's Court 
(SPC) and Supreme People's Procuratorate (SPP) issued an 
interpretation on transferring IP infringement cases from 
administrative to criminal enforcement without sharing a draft 
of its decision with WTO members for comment, despite promising 
to do so.\30\ The U.S. government subsequently determined that 
the revisions ``did not go far enough to be an effective 
deterrent.'' \31\
    Steps taken by Chinese agencies in 2004 to improve the 
protection of foreign IP have not produced a significant 
decrease in infringement activities. The SPC and SPP 
interpretation described above reduced the threshold for 
criminal IP infringement by 40 percent in some cases but still 
calls for calculating infringement using the retail value of 
the illegal goods, rather than the value of genuine 
products.\32\ Consequently, the new lower threshold will be 
limited in its effectiveness. In July 2004, China's Patent 
Reexamination Board invalidated a U.S. company's pharmaceutical 
patent after determining that the company did not submit 
sufficiently detailed laboratory data during the examination 
process, though the data was not required under Chinese 
regulations in effect when the examination took place.\33\ In 
addition, government authorities had designated the U.S. drug a 
``controlled substance'' in its marketing authorization despite 
the wide availability of counterfeit substitutes.\34\ Chinese 
pharmaceutical makers are free to manufacture the U.S. 
company's drug without fear of government sanctions.
    The Chinese government has ample enforcement resources, but 
appears to lack the will to prevent infringement of IP from 
thriving in China. One U.S. expert told a Commission Roundtable 
that local police generally resist efforts to shut down 
commercial infringers because large-scale pirating efforts 
support the local economy and have the financial support of key 
local officials.\35\ The Chinese leadership's repression of 
Falun Gong demonstrates that police can stop the production of 
``illegal publications'' when Party and government leaders 
believe it is in their best interest to do so.\36\ Before the 
state banned Falun Gong in 1999, the spiritual group's 
materials were found throughout China.\37\ Since the crackdown, 
the only publicly available materials in China that discuss 
Falun Gong are anti-Falun Gong materials published by the 
government.

Market Access for Agricultural Products

    In the past year, the Chinese government took a number of 
actions that resolved significant bilateral concerns about 
agricultural trade. These actions included reopening China's 
market to U.S. poultry exports,\38\ granting market approval 
for U.S. agricultural biotechnology products,\39\ and 
increasing formal coordination efforts between inspection and 
quarantine officials in both countries.\40\ In addition, the 
Chinese government's implementation of WTO agricultural 
commitments has generated greater institutional capacity among 
agricultural trade officials and made the administration of 
trade-related agricultural measures less cumbersome for foreign 
business. These changes helped China become the fourth largest 
export market for U.S. agricultural products in 2004, a market 
that was largely closed to the U.S. before China joined the 
WTO.\41\
    Despite these positive steps, a number of serious problems 
still exist in the Chinese government's administration of 
agricultural trade. The government's inspection and quarantine 
system continues to implement discriminatory sanitary and 
phytosanitary measures with a questionable scientific basis. 
Officials with the General Administration of Quality 
Supervision, Inspection, and Quarantine (AQSIQ) have maintained 
a ban on U.S. beef imports,\42\ even though the U.S. cattle 
surveillance system meets international standards.\43\ The 
Chinese government maintained bans on Florida citrus and U.S. 
cherries entering the Chinese market through late 2004 despite 
the lack of a scientific basis for the decision.\44\ AQSIQ has 
also set a limit for selenium in U.S. wheat that is lower than 
the international standard. The requirement, if enforced, could 
result in a significant decrease in exports of U.S. wheat to 
China.\45\
    The Chinese government sets preferential shipping rates and 
provides an export tax rebate on corn exports.\46\ Both 
represent potential export subsidies that could run counter to 
WTO rules.\47\ When it acceded to the WTO, China promised not 
to maintain any agricultural export subsidies and agreed to 
abide by WTO rules proscribing the introduction of such 
policies.\48\ Since then, China has made additional 
declarations to the WTO Committee on Agriculture certifying 
that it does not maintain any export subsidies for agricultural 
products.\49\ In the last year, the Chinese government also 
began to support the rural economy with direct payments to 
agricultural producers.\50\ Although these payments appear to 
be WTO-consistent, this is the first time since WTO accession 
that the Chinese government has provided direct support to its 
agricultural producers and reverses the historical practice of 
using income generated by agricultural areas to support the 
urban population.
    Legal reform that should liberalize market access for 
agricultural products is often ineffective because of local 
differences in implementation and unannounced rule changes that 
delay agricultural shipments. The Chinese government committed 
in several WTO agreements to apply its laws in a uniform 
manner, but central government agencies charged with addressing 
cases of conflicting application of national and provincial 
laws have not always been 
effective.\51\ U.S. exporters express concern that inconsistent 
application of China's inspection and quarantine regime is tied 
to whether or not the government believes that agricultural 
imports are necessary to compensate for shortfalls in domestic 
production.\52\ U.S. exporters say that they must pay Value 
Added Tax (VAT) on corn imports when their products enter 
China, but domestic producers allegedly ``have no VAT directly 
applied.'' \53\

Lack of Transparency in Regulatory and Administrative Processes

    The Chinese government does not consistently publish drafts 
of trade-related measures,\54\ and some government agencies do 
not circulate drafts of commercial laws and regulations to 
outside groups or individuals, domestic or foreign.\55\ Some 
government agencies will circulate drafts on the condition that 
the outside party does not share the draft more widely.\56\ The 
government's tendency toward secrecy runs counter to a WTO 
commitment to provide a meaningful opportunity for appropriate 
Chinese government authorities to receive comments from outside 
parties before laws and regulations are implemented.\57\ To 
date, neither the State Council nor the Ministry of Commerce 
has published a draft of the Anti-Monopoly Law for comment.\58\ 
The SPC and SPP did not release a public draft of their 
December 2004 ``Interpretation Concerning Certain Questions of 
Using the Criminal Law to Handle Violations of Intellectual 
Property Rights,'' despite a central government commitment to 
do so.\59\ Complaints later voiced by the U.S. business 
community regarding the Interpretation could have been avoided 
if the Chinese government had solicited comments in 
advance.\60\
    Despite these problems, the Chinese government has taken 
steps to increase official transparency. The 2004 USTR Report 
to Congress on China's WTO Compliance noted that the Ministry 
of Commerce has begun following administrative transparency 
rules set forth in 2003, and that these rules may serve as a 
model for other ministries and agencies.\61\ The same report 
found that China's ministries and agencies have a ``much better 
record'' in making new or revised laws and regulations 
available to the public soon after issuance, an improvement 
over pre-WTO accession practices.\62\ In March 2005, the Party 
and the State Council issued an opinion directing all levels of 
government to increase transparency by releasing more 
information on all their activities.\63\ The document did not 
require decisions to be published, but suggested that 
disclosure should be the rule, not the exception.\64\ 
Substantive legal changes related to transparency, such as 
amendments to the Administrative Litigation Law and 
consideration of the Administrative Procedure Law, have moved 
slowly [see Section V(b)--Legal Restraints on State Power].
    China committed to mandate judicial review of trade-related 
administrative decisions when it joined the WTO in 2001.\65\ 
The SPC took steps to fulfill this commitment in 2002, but 
split the court assignment process so that only intermediate or 
high people's courts may handle WTO-related cases and review 
anti-dumping decisions.\66\ This reassignment and related 
personnel changes have produced a generally more professional 
judiciary, but the changes are not always sufficient to ensure 
independent judicial review in trade-related cases.\67\

Barriers to Entry in Distribution for Foreign Companies

    In 2004, the Chinese government adopted legal measures to 
comply with its WTO commitment to grant distribution rights to 
foreign companies, but the procedures and requirements for a 
distribution license constitute a barrier to market entry.\68\ 
A foreign-invested enterprise (FIE) must form a new company 
with its own registered capital and legal personality before it 
can be licensed to distribute products in China.\69\ Creating a 
new company requires both Ministry of Commerce and provincial 
government approval, and FIEs have found the licensing process 
slow and non-transparent.\70\ In addition, FIEs with 
distribution licenses sometimes encounter local officials who 
oppose opening markets that could harm enterprises in their 
jurisdiction.\71\ During the July 2005 JCCT meeting, following 
significant efforts by the U.S. government and industry, China 
claimed to have cleared a significant backlog of applications 
for distribution licenses.\72\
    The Chinese government was late in issuing regulations to 
permit FIEs to sell directly away from a store or other fixed 
location. Under China's WTO General Agreement on Trade in 
Services (GATS) commitments, U.S. direct sales companies should 
have received permission to apply for licenses by the end of 
2004. At the July 2005 JCCT meetings, the Chinese government 
said the State Council would enact a regulation permitting 
direct selling as soon as it finished its review and approved 
the measure.\73\ In August 2005, the State Council issued both 
the Regulation on the Administration of Direct Selling and the 
Regulation Prohibiting Pyramid Selling, the measures governing 
direct selling.\74\ They will come into effect in November and 
December 2005.

China's Large Procurement Market and Decreasing Foreign Supplier Access

    The Chinese government has not begun the process of 
acceding to the WTO Agreement on Government Procurement (GPA), 
as it promised to do when it joined the WTO. Among other 
things, the GPA would prevent the Chinese government from 
discriminating against foreign suppliers in the procurement 
process. A Government Procurement Law enacted after China's WTO 
accession requires government agencies to give preference to 
domestic goods and services.\75\ At the July 2005 JCCT meeting, 
China agreed to accelerate efforts to make an initial offer and 
to initiate technical consultations with other GPA members.\76\
    At the July 2005 JCCT meeting, China also agreed to 
withdraw a draft regulation that would limit government 
purchases of software products and services to domestic 
manufactures.\77\ The regulation has caused concern among 
foreign suppliers of software products and services because it 
defines domestic software products and services narrowly and 
does not take into account the investment and work done by 
foreign software companies in China.\78\ It has also raised 
concerns that the government will use it to limit market access 
for foreign software companies and that it will lead to 
increased technology transfer.\79\ In contrast to drafts of 
many other trade-related laws and regulations, the government 
released the draft government software procurement regulation 
for public comment, and foreign software producers reviewed the 
regulation and consulted with the drafters about ways to 
improve it.

Auto Industry Development

    The development of China's automobile industry in the past 
year has followed the industrial plan put forward by the 
Chinese government in 2004.\80\ The Auto Industry Development 
Policy calls for consolidating China's auto industry from the 
current level of over 100 manufacturers to a smaller number of 
globally competitive companies.\81\ The policy specifically 
makes the creation of an export auto industry a priority and 
requires the protection of relevant intellectual property.\82\ 
The implementation of this policy has included the 
reclassification of imports of complete ``knock-down kits'' 
(kits of unassembled auto components requiring only assembly in 
China) as new automobiles, resulting in a substantially 
increased duty rate for those imports.\83\
    Although the Auto Industry Development Policy proscribes 
misuse of foreign intellectual property,\84\ at least one 
Chinese automaker has benefited both from the government's 
policy to promote China's auto industry and from its tolerance 
of intellectual property violations. In December 2004, GM 
Daewoo, a subsidiary of General Motors, filed an unfair 
competition suit in a Shanghai court against Chery 
Automotive,\85\ which received millions of dollars in subsidies 
from the Ministry of Science and Technology in 2004.\86\ The 
suit alleges that Chery misappropriated GM trade secrets and 
used them to design its ``QQ'' model.\87\ GM Daewoo also 
submitted a request to China's Patent Reexamination Board to 
invalidate the design patent Chery filed on the ``QQ'' 
model.\88\ Chery subsequently filed a trademark application 
with the U.S. Patent and Trademark Office seeking to register 
the Chery name in connection with automobiles, and attorneys 
for GM have pointed out that similarities between ``Chery'' and 
the GM trademark ``Chevy'' would likely result in consumer 
confusion.\89\
    In August, the Ministry of Commerce issued a new Auto Trade 
Policy that regulates domestic trade in autos and automotive 
products as well as applying to the import and export of those 
goods.\90\ The policy confirms that foreign investors may enter 
the domestic distribution market for autos, part of China's WTO 
accession commitment to open the distribution sector.\91\ It 
also prohibits the importation of used cars, used car parts, 
and right-side drive autos.\92\ According to an official from 
the Ministry of Commerce, this policy seeks to create a 
consolidated and competitive auto distribution industry in 
China.\93\

                               VI. Tibet


                                FINDINGS

        <bullet> The Dalai Lama has said that he does not seek 
        independence and aims for a solution based on Tibetan 
        autonomy within China. But Chinese leaders do not seem 
        to recognize the benefits of moving forward in the 
        dialogue with the Dalai Lama or his envoys. Chinese 
        laws on regional ethnic autonomy contain provisions 
        that could benefit Tibetans and their culture, but poor 
        government implementation of these laws largely negates 
        their potential value.
        <bullet> Chinese government statistics suggest that 
        Tibetans are not yet prepared to compete in the 
        economic and ethnic environment created by central 
        government policies. The Tibetan rate of illiteracy is 
        five times higher than China's national average. Most 
        Tibetans do not have access to a bilingual education 
        system that can impart skills to help them compete for 
        employment and other economic benefits.
        <bullet> Chinese laws and official statements lend 
        credibility to Tibetan concerns that programs such as 
        Great Western Development and projects such as the 
        Qinghai-Tibet railroad will lead to large increases in 
        Han migration.
        <bullet> The rights of Tibetans to their 
        constitutionally guaranteed freedoms of religion, 
        speech, and assembly are subject to strict constraint. 
        Government officials persecute prominent Tibetans, 
        especially religious leaders, believed to have links to 
        the Dalai Lama.

Introduction

    The impact of Chinese laws and policies in the Tibetan 
areas of China shows that the government and Party place 
economic development ahead of protecting basic human rights, 
such as the freedoms of religion, speech, and assembly. Chinese 
officials support their claims of Tibetan progress with 
statistics that show some economic achievement, but the data 
also show that the main beneficiaries live in urban areas, 
where most ethnic Han reside, and not in the rural areas where 
87 percent of Tibetans live. Tibetans struggle with poverty, 
inadequate education, and competition from a growing Han 
population. The Chinese government can strengthen ethnic and 
national unity by improving the implementation of the Regional 
Ethnic Autonomy Law (REAL), and by ensuring that Tibetans can 
manage their affairs, protect their culture, and become equal 
competitors with their neighbors.

The Status of Discussion Between China and the Dalai Lama

    U.S. government policy on Tibet recognizes the Tibet 
Autonomous Region (TAR) and Tibetan autonomous prefectures and 
counties\1\ in other provinces to be a part of China.\2\ The 
State Department's third annual Report on Tibet Negotiations\3\ 
detailed the U.S. government's steps to encourage Chinese 
officials to ``enter into a dialogue with the Dalai Lama or his 
representatives leading to a negotiated agreement on Tibet.'' 
\4\ The report expressed encouragement that Chinese officials 
invited the Dalai Lama's envoys to visit China for the third 
time in September 2004 and described the Dalai Lama as someone 
who ``can be a constructive partner as China deals with the 
difficult challenges of regional and national stability.'' The 
report noted the gravity of the issue, saying, ``The lack of 
resolution of these problems leads to greater tensions inside 
China and will be a stumbling block to fuller political and 
economic engagement with the United States and other nations.''
    The Dalai Lama has said that he does not seek independence 
and aims for a solution based on Tibetan autonomy within China. 
In March 2005, he told an interviewer, ``This is the message I 
wish to deliver to China. I am not in favor of separation.'' 
\5\ The State Department's Report on Tibet Negotiations 
acknowledges the Dalai Lama's position, saying that he ``has 
expressly disclaimed any intention to seek sovereignty or 
independence for Tibet.'' \6\
    The Dalai Lama's envoys held meetings with Chinese 
officials twice during the past year. The Dalai Lama's Special 
Envoy, Lodi Gyari,\7\ and Envoy, Kelsang Gyaltsen, traveled to 
China for the third time in September 2004, meeting with senior 
Chinese officials and visiting autonomous Tibetan areas of 
Sichuan province.\8\ Gyari characterized the discussions as 
``the most extensive and serious exchange of views'' so far. He 
cautioned that ``major differences'' exist on ``fundamental'' 
issues, and that ``flexibility, far-sightedness and vision'' 
will be necessary to bridge the gap.\9\ The envoys met with 
Chinese officials for the fourth round of talks in late June 
and early July 2005 at the Chinese Embassy in Bern, 
Switzerland.\10\ The talks were the first to take place outside 
China. Gyari said afterward that ``major differences on a 
number of issues, including on some fundamental ones, continue 
to remain,'' but that ``both sides had a positive assessment of 
the ongoing process.'' \11\ An official of the Tibetan 
government-in-exile explained that the main issue for the two 
sides to resolve is the definition of Tibet: \12\ ``While China 
sees Tibet as the area included under the Tibet Autonomous 
Region, Tibetans claim a much larger area where the culture and 
language are Tibetan.'' \13\
    The Tibetan government-in-exile's remarks following the 
envoys' meetings are aligned more closely with the Dalai Lama's 
position than previous statements.\14\ The exiled government 
explained its assessment in an annual statement saying that the 
``basic principle'' to seek ``genuine national regional 
autonomy'' within the framework of China's Constitution cannot 
be changed.\15\
    Samdhong Rinpoche, who heads the exiled Tibetan government, 
pointed to pragmatism as the guiding factor: ``We have to 
accept ground realities of the new world order. We feel that 
the Dalai Lama's middle way approach to seek genuine autonomy 
for Tibetans is an achievable objective and are therefore 
moving ahead for it.'' \16\ He played down the idea popular 
among some Tibetans, but rejected by the Chinese 
government,\17\ that all of the current areas of Tibetan 
autonomy should be combined into a single unit.\18\
    Chinese officials have rejected the Dalai Lama's approach 
and maintain that he seeks Tibetan independence and to ``split 
China.'' \19\ A Chinese government spokesman responded to the 
State Department Report on Tibet Negotiations by reiterating 
preconditions: ``So long as Dalai truly gives up his advocacy 
of `Tibet independence,' stops the activities of separating the 
motherland and publicly declares and recognizes that Tibet and 
Taiwan are inalienable parts of China, we can contact him for 
consultation.'' \20\ In 1998, then-President Jiang Zemin 
demanded that the Dalai Lama make a statement about Taiwan.\21\ 
An exiled Tibetan government spokesman responded that it is 
``entirely for the people of Taiwan to speak their voice.'' 
\22\
    Contacts so far between the Dalai Lama's envoys and Chinese 
officials have not produced concrete results. The dialogue has 
the potential to lead to strengthened protection of Tibetan 
culture and to improved regional stability and prosperity. The 
Dalai Lama is in an unrivaled position to promote a mutually 
beneficial outcome but, at age 70, his ability to pursue this 
opportunity could wane with advancing age.

Autonomy

    Although the preamble of the REAL states that China's 
government has an obligation to ``. . . [respect] and [protect] 
the right of every minority nationality to manage their own 
internal affairs,'' \23\ article 7 of that law voids this 
commitment to autonomy by allowing local government in 
autonomous regions to manage their affairs only in a manner 
that puts the interests of the People's Republic of China as a 
whole first.\24\
    A 2004 Harvard University study of autonomy in Tibetan 
areas of China notes that poor implementation negates the value 
of autonomy legislation and erodes the rule of law.\25\ The 
report found that at least 161 Chinese laws and regulations 
that directly address issues of Tibetan autonomy apply at the 
national, provincial, prefectural, or county level.\26\ ``Now 
more than ever, the Tibetan issue appears ripe for a settlement 
that would preserve Tibetan culture and China's territorial 
integrity,'' the report concludes,\27\ and advises Chinese 
officials and the Dalai Lama's representatives to conduct 
jointly ``an examination of existing laws and regulations in 
the context of international norms and standards.'' It goes on 
to say:

          Such an examination should address not only actual 
        legislation, but also its implementation at the 
        national, prefectural, and county levels. In some 
        instances, China has adopted appropriate laws but 
        neglected to fully implement them. Many of these laws 
        contain conditions and caveats that impede or undermine 
        progress toward their implementation. When the 
        necessary laws and regulations are found to be absent, 
        steps should be taken to draft and enact appropriate 
        measures. When laws have already been promulgated but 
        not effectively implemented, prompt measures should be 
        taken to enhance their earliest implementation.\28\

    A 2004 East-West Center report is less optimistic and does 
not predict a breakthrough in the near term. It cautions, 
``Unless the Tibet issue should erupt as a violent conflict, 
the factors pushing Beijing to negotiate are likely to be 
regarded as insufficiently compelling to justify the risks 
entailed. On the other hand, if the current talks break off, 
Beijing will be going it alone as it manages the chronic threat 
of ethnonationalist discontent.'' \29\ But despite citing 
negative factors, the report says that prospects for engagement 
have improved, even as the ``window of opportunity to negotiate 
a lasting solution draws to a close.'' \30\

Culture, Development, and Demography

    Existing government policy initiatives, especially the 
Great Western Development (GWD) program implemented in 2000, 
exert pressure on Tibetan culture and heritage. Tibetans say 
privately that they believe the programs are attracting a 
steady flow of ethnic Han migrants into Tibetan areas. The 
Qinghai-Tibet railway, which will begin trial operations soon, 
and the construction of passenger terminals in Lhasa contribute 
to Tibetan concerns. The rights of autonomous Tibetan 
governments to manage their local affairs are weak in practice, 
leaving Tibetans with few administrative, legislative, and 
judicial resources to cope with the changes that confront them.
    Long-term prospects for Tibetan culture and self-identity 
depend on preserving and developing the role of Tibetan 
language in Tibetan life, and on building a solid educational 
foundation for a modern and prosperous Tibetan society. This 
objective requires an education system that will train Tibetans 
in both Tibetan and Mandarin Chinese languages and teach skills 
that will enable Tibetans to compete for good jobs and other 
economic opportunities. The central, provincial, and autonomous 
Tibetan governments operate schools and universities with 
bilingual programs designed for Tibetans. Commission staff 
delegations visited Tibetan educational institutions in 
Qinghai, Gansu, and Sichuan provinces, the TAR, and Beijing and 
observed that students, faculty, and administrators seemed 
committed to their tasks.\31\
    Government statistics on educational achievement show that 
most Tibetans are not prepared to compete for employment and 
business opportunities in the Han-dominated economic 
environment developing around them. Chinese government policies 
did not require Tibetans to live with large numbers of Han 
until Deng Xiaoping's policy of reform and opening up began to 
take effect in the late 1970s and early 1980s. Tibetans 
currently have the highest rate of illiteracy of any ethnic 
group in China having a population greater than 500,000.\32\ 
The rate of illiteracy of Tibetans (47.55 percent) is more than 
five times higher than China's national average (9.08 percent), 
according to 2000 census data.\33\ The TAR rate of illiteracy 
(47.25 percent) is the highest in China and is nearly twice as 
high as second-ranked Qinghai province (25.44 percent).\34\ 
Primary school is the only level of educational attainment for 
which data show Tibetans nearly on par with the national 
average.\35\ In the job market, Tibetans compete with Han 
migrants who graduate from universities at more than triple the 
rate of Tibetans, and from senior middle school at five times 
the Tibetan rate.\36\
    The disparity between the level of educational attainment 
by urban and rural Tibetans adds to the social and economic 
challenges facing Tibetans. Census data for 2000 show that 
Tibetans living in TAR cities were 19 times more likely to 
reach senior middle school than Tibetans living in rural areas. 
Tibetans living in TAR townships were 7.6 times more likely to 
do so.\37\ Nearly 85 percent of Tibetans living in the TAR,\38\ 
and 87 percent of all the Tibetans in China,\39\ live in rural 
areas. Rural Tibetans are the largest and least prepared 
category of Tibetans facing competition for the new 
opportunities created by government economic development 
programs.
    Officials in Tibetan areas stress the upward trend of 
economic indicators, and downplay other issues that concern 
Tibetans. Jampa Phuntsog (Xiangba Pingcuo), chairman of the TAR 
government, said in May 2005, ``If you have to say there are 
some `Tibet issues,' [they] shall be ones related to the 
development of Tibet. . . . [W]hat Tibet does need now is only 
development, no other issues can prevail.'' \40\ Claiming 
success for development policies, he cited 2004 statistics for 
the TAR that show steady gains in GDP and personal income.\41\ 
But the data also show a wide gap between the 1,861 yuan per 
capita income of the rural majority of Tibetans and the 8,200 
yuan ``disposable income'' of those living in the TAR's urban 
areas. Development programs that reach farmers and herders will 
benefit the most needy group of Tibetans.
    Central government subsidies for infrastructure projects 
and government staff salaries, rather than local agricultural 
production, manufacturing, and services, provide most of the 
TAR economy.\42\ TAR government sector employees earn salaries 
that are the third highest in China, behind Beijing and 
Shanghai, according to the Tibet Information Network (TIN).\43\ 
Although urban wages fueled by government subsidies are on the 
rise, the Tibetan share is declining, according to TIN.\44\ 
Central government subsidy of the public sector, driven in part 
by the GWD program, has been a principal source of economic 
growth in the TAR. Government spending on local administration 
and public services has benefited some Tibetans, but now 
Tibetan employment in the public sector, the fastest-growing 
and highest-paying part of the economy, is falling.\45\
    The Golmud-Lhasa section of the Qinghai-Tibet railroad is 
scheduled to begin trial operations in July 2006.\46\ The 
project is not only the most expensive infrastructure project 
in any Tibetan area of China, but also has the greatest 
potential to affect Tibetans. When Premier Wen Jiabao visited 
Golmud in May 2005, he hailed the railroad as ``a hallmark 
project of the large-scale development of the western region'' 
and praised ``the builders fighting on the frontline of the 
Qinghai-Tibet Railway.'' \47\ As work moved into its final 
stages, Lhasa area authorities reportedly refused to compensate 
at the promised rate some Tibetans whose land was expropriated 
for the railroad project.\48\
    Chinese laws and official statements lend credibility to 
Tibetan concerns that programs such as GWD and projects such as 
the Qinghai-Tibet railroad will lead to large increases in Han 
migration. State Ethnic Affairs Commission Minister Li Dezhu 
wrote in 2000 that a westward flow of ethnic Han would be ``in 
keeping with the execution of large-scale western development'' 
and referred to the potential population shift as ``the peacock 
flying west.'' \49\ Implementation regulations for the REAL 
issued in May 2005 call for ``professionals of all levels and 
types'' to move to autonomous areas, and for local governments 
to provide special treatment for newly arriving Han.\50\ So 
far, Tibetan officials maintain that there has not been any 
significant change in the population mix.\51\
    Official Chinese census data for 1990 and 2000 depicts the 
Han population in most Tibetan areas as decreasing during the 
1990s, a finding at odds with observations by Tibetans and 
foreign experts.\52\ Han population decreased in 10 of the 13 
Tibetan autonomous areas, according to census data.\53\ The 
five largest declines in Han population, ranging from 16 to 25 
percent, are recorded for Qinghai province. Even in Haixi 
prefecture, which includes the booming city of Golmud and its 
rail link to Xining and Beijing, the Han population supposedly 
dropped 9 percent. The data show increases in Han population in 
only three Tibetan areas.\54\ According to this census data, 
Han population in Tibetan autonomous areas fell by 3.3 percent 
during a decade when development policy and economic conditions 
encouraged Han to work and conduct business in Tibetan 
areas.\55\ The method for conducting the 2000 census called for 
local enumeration to include temporary residents, recent 
arrivals, and persons without a household registration.\56\ The 
decline in Han population portrayed by census data contradicts 
the visible changes evident in many Tibetan towns and cities, 
and raises questions about its completeness and 
reliability.\57\

Tibetan Culture and Human Rights

    The Chinese government did not begin major new political 
campaigns across Tibetan areas during the past year. CECC 
Annual Reports for 2002 through 2004 discussed how government 
policies that promote a national identity defined in Beijing, 
and that favor atheism, discourage Tibetan aspirations to 
foster their distinctive culture and religion. As a result of 
these policies, Tibetan rights to their constitutionally 
guaranteed freedoms of religion, speech, and assembly are 
subject to strict constraint. Expressions and non-
violent actions that officials suspect could undermine Party 
supremacy are sometimes punished as threats to state security. 
The downward trend in the number of known Tibetan political 
prisoners suggests that Tibetans are avoiding the risks of 
direct criticism or protest against Chinese policies and are 
turning to education, arts, and religion for ways to express 
and protect their culture and heritage.\58\
    As reported incidents of Tibetan political protest decline, 
Chinese censors and police watch for other signs of Tibetan 
resentment or nationalism. Writing, publishing, or sharing 
literature that laments cultural loss, or that advocates ethnic 
ambitions not sanctioned by the Party, is sometimes repressed 
or punished. Penalties range from loss of employment or housing 
to imprisonment. For example, authorities stripped Tibetan 
writer Oezer (Weise) of her job, residence, insurance and 
retirement benefits, and barred her from applying for a 
passport after a collection of her essays was published in 
Guangzhou, and then banned, in 2003.\59\ The volume presented 
thoughts ``relating to Tibet's history, personalities, and way 
of life.'' Authorities ruled that positive references to the 
Dalai Lama were ``political errors.'' \60\ The Tibetan Cultural 
Association in Lhasa, Oezer's employer, assembled a group to 
conduct ``thought correction'' with her. She left Lhasa to 
avoid pressure to recant her views and abandon Buddhism.\61\
     In Qinghai province, five monks were imprisoned in January 
2005 for publishing a poem in a monastery newsletter. Security 
officials considered the poem to be politically sensitive and 
ordered the monks to serve terms of two to three years of re-
education through labor.\62\ The poem allegedly expressed 
admiration for two monks from the same monastery who were 
sentenced in 2002 to three years imprisonment for advocating 
Tibetan independence.
     Prominent Tibetans, especially religious leaders, whom 
officials believe have links to the Dalai Lama, risk 
persecution or punishment. In some cases, such as those of 
Tenzin Deleg and Bangri Tsamtrul, prosecutors accuse a Tibetan 
leader of supporting a violent act allegedly committed by 
another Tibetan. In these cases, authorities refuse to disclose 
the details of evidence directly linking the prominent Tibetan 
and the alleged criminal act.
     Three Tibetan political prisoners are serving life 
sentences for crimes that include ``endangering state 
security.'' Two cases involve contact with the Dalai Lama; the 
third is based on printing pro-independence leaflets.

        <bullet> Tenzin Deleg (A'an Zhaxi), recognized by the 
        Dalai Lama as a reincarnate lama, was convicted in a 
        closed court in Sichuan province in November 2002 of 
        conspiring to cause explosions and inciting 
        splittism.\63\ Chinese authorities claim that his case 
        involves state secrets and refuse to disclose the 
        details of evidence that shows a direct link between 
        him and the alleged criminal acts. Tenzin Deleg 
        professed his innocence in a smuggled tape recording. 
        The provincial high court commuted his reprieved death 
        sentence to life imprisonment in January 2005.
        <bullet> Bangri Tsamtrul (Jigme Tenzin Nyima), a lama 
        who lived as a householder, was convicted of inciting 
        splittism and sentenced to life imprisonment in a 
        closed court in Lhasa in September 2000.\64\ He and his 
        wife Nyima Choedron managed a children's home in Lhasa. 
        His sentencing document lists evidence against him that 
        includes meeting the Dalai Lama, accepting a donation 
        for the home from a foundation in India, and a business 
        relationship with a Tibetan contractor who lowered a 
        Chinese flag in Lhasa in 1999 and tried to blow himself 
        up. Jigme Tenzin Nyima acknowledged meeting the Dalai 
        Lama, accepting the contribution, and knowing the 
        contractor, but he denied the charges against him and 
        rejected the court's portrayal of events.\65\ 
        Authorities sentenced Nyima Choedron to 10 years 
        imprisonment and subsequently reduced her sentence to 
        seven years and six months.\66\
        <bullet> Choeying Khedrub, a monk of Tsanden Monastery 
        in the TAR, was sentenced in 2000 to life imprisonment 
        for his role in a group of men who allegedly printed 
        pro-independence leaflets. According to information 
        that the Chinese government provided to the United 
        Nations Working Group on Arbitrary Detention (UNWGAD), 
        he was found guilty of endangering state security and 
        ``supporting splittist activities of the Dalai 
        clique.'' \67\ The UNWGAD reports that the Chinese 
        response ``mentions no evidence in support of the 
        charges, or if they used violence in their 
        activities,'' and finds that the government ``appears'' 
        to have misused the charge of endangering state 
        security.\68\

     Ngawang Phuljung and Jigme Gyatso are examples of Tibetans 
serving long sentences for the obsolete crime of 
counterrevolution handed down under the 1979 Criminal Law. Both 
of them visited India and returned to the TAR without official 
papers. The UNWGAD issued opinions rejecting the legitimacy of 
both convictions.

        <bullet> Ngawang Phuljung, a monk of Drepung Monastery, 
        was sentenced in 1989 to 19 years imprisonment for 
        crimes that included ``forming a counterrevolutionary 
        organization'' and ``spreading counterrevolutionary 
        propaganda.'' \69\ A 1993 UNWGAD decision declared his 
        imprisonment arbitrary, and called on China's 
        government to ``remedy the situation.'' Ngawang 
        Phuljung is currently the longest-serving Tibetan 
        convicted of counterrevolution.
        <bullet> Jigme Gyatso, a former monk who operated a 
        restaurant, was sentenced in 1996 to 15 years 
        imprisonment for counterrevolution. Chinese officials 
        told a UNWGAD delegation in September 2004 that he was 
        guilty of ``planning to found an illegal organization 
        and seek to divide the country and damage its unity.'' 
        \70\ Another UNWGAD opinion on the case found that 
        ``there is nothing to indicate that the `illegal 
        organization' . . . ever advocated violence, war, 
        national, racial, or religious 
        hatred.'' Jigme Gyatso was ``merely exercising the 
        right to freedom of peaceful assembly with others in 
        order to express opinions.'' \71\

     The CECC Political Prisoner Database (PPD) listed 
approximately 120 current cases of Tibetan political 
imprisonment in June 2005, less than one fifth of the number in 
late 1995.\72\ The number of Tibetan political prisoners 
continues to decline as Tibetans imprisoned for political 
protests during the late 1980s to mid-1990s complete their 
sentences and are released. Sentence information is available 
for two-thirds of the current prisoners. Their average sentence 
is 10 years and six months.\73\ Monks and nuns make up 62 
percent of current Tibetan political prisoners, compared to 75 
percent in 2002.\74\ Lhasa's TAR Prison (Drapchi) holds 50 
known Tibetan political prisoners, though the actual number is 
likely to be somewhat higher. They are serving an average 
sentence of 12 years and six months. Chinese authorities did 
not grant early release from prison to any high-profile Tibetan 
political prisoner during the past year.
     Nearly 70 Tibetan political prisoners are believed to be 
imprisoned in the TAR, nearly 40 in Sichuan province, and fewer 
than 15 in Qinghai province, based on PPD data in June 2005. 
None are documented in Gansu or Yunnan provinces. In Sichuan 
province, the ratio of Tibetan political prisoners to the 
provincial Tibetan population is 29.9 prisoners per million 
Tibetans. The ratio is 27.6 per million in the TAR, and 12 per 
million in Qinghai province. The lower rates of political 
detention in Qinghai, Gansu, and Yunnan coincide with a 
religious and educational environment that experts privately 
say is not as repressive as in Sichuan province or the TAR. 
Conversely, government authorities in the areas of the TAR and 
Sichuan with the highest rates of political detention are known 
to deal with Tibetans and their culture more harshly.\75\

                  VII. North Korean Refugees in China


                                FINDINGS

        <bullet> The Chinese government forcibly repatriates 
        North Koreans seeking refuge in China from starvation 
        and political persecution in North Korea, contravening 
        its obligations under the 1951 Convention Related to 
        the Status of Refugees and its 1967 Protocol. A 
        compelling case exists for recognizing North Koreans in 
        China as refugees: the Democratic People's Republic of 
        Korea government regularly denies food to particular 
        groups for political reasons, and refugees returned to 
        North Korea face long prison terms, torture, or 
        execution.
        <bullet> The Chinese government classifies all North 
        Koreans in China ``illegal economic migrants'' and 
        denies the Office of the United Nations High 
        Commissioner for Refugees access to this vulnerable 
        population. Living conditions for North Koreans in 
        China are harsh, with women and children particularly 
        vulnerable to trafficking and prostitution.

     Conditions within China remain bleak for North Koreans 
fleeing starvation and political persecution in their homeland. 
Women and children are vulnerable to trafficking and 
prostitution. More than 75 percent of North Korean immigrants 
are women, and they are often forced into prostitution or other 
exploitative relationships by professional brokers.\1\Children 
have no access to schools and often survive by begging on the 
streets. Some refugees have survived for years living in caves 
in the harsh northern climate.\2\ Others move from one hiding 
place to another to avoid detection by public security forces 
or by Chinese citizens who receive government rewards for 
informing police of refugees' locations.\3\ Conditions in 
detention centers for those awaiting repatriation are cramped, 
and detainees face mistreatment from guards.\4\
     Despite the harsh conditions within China, North Koreans 
take immense risks to avoid being returned to the DPRK. In 
April 2004, 80 North Korean detainees in Tumen Detention Center 
rioted to avoid being sent back to the DPRK. In another prison 
camp, 110 detainees went on a hunger strike to protest their 
impending refoulement.\5\
    The Chinese government refuses entry to representatives of 
the UN High Commissioner for Refugees (UNHCR) into northeast 
China to screen North Koreans seeking protection. This policy 
contravenes a 1995 UN-Chinese Agreement stating that ``UNHCR 
personnel may at all times have unimpeded access to refugees 
and to the sites of UNHCR projects in order to monitor all 
phases of their implementation.'' \6\ Chinese security forces 
guard the UNHCR office in Beijing,\7\ and a number of foreign 
consulates, chiefly to repel North Koreans wishing to present 
refugee petitions or seeking asylum. The Chinese government 
classifies all North Koreans in China as ``illegal economic 
migrants'' and not refugees.\8\ The Chinese government claims 
it must return these ``illegal migrants'' to North Korea under 
a 1961 agreement with the DPRK.\9\
    A number of Western analysts note that the North Korean 
government regularly denies food to particular groups or 
regions for political reasons, a practice which may make those 
fleeing to China in search of food and other ``economic goods'' 
potential refugees under international law.\10\ As the High 
Commissioner for Refugees noted in 2003, ``An analysis of 
currently available information recently carried out by our 
Department of International Protection concludes that many 
North Koreans may well be considered refugees.'' \11\ Moreover, 
those who flee to China may have a claim to refugee status 
because they are considered ``traitors'' for defecting and face 
persecution upon their return to North Korea.\12\ The State 
Department estimates that between 10,000-30,000 North Korean 
refugees are currently hiding in northeastern China. Several 
non-governmental groups estimate the number of refugees to be 
between 100,000-300,000.\13\
    The Chinese government forcibly repatriates North Koreans 
to the DPRK where they face long prison sentences, torture, and 
possible execution. The State Department estimates that Chinese 
security forces detained and forcibly returned several thousand 
North Koreans to the DPRK in 2004.\14\ A South Korean newspaper 
has reported that North Korean agents regularly enter Chinese 
territory and kidnap, with the tacit support of Chinese public 
security officials, South Korean activists assisting North 
Korean asylum seekers.\15\ The North Korean Penal Code 
criminalizes defection. Article 47 of the Penal Code states 
that ``one who escapes to another country or to the enemy is in 
betrayal of his motherland and people'' and will receive a 
minimum punishment of seven years labor re-education, while 
serious violators will be executed.\16\ Video tapes smuggled 
out of North Korea in the winter of 2004-2005 show public 
executions of repatriated ``human smugglers,'' a crime that one 
international NGO notes the DPRK government commonly applies to 
those who help North Koreans flee the country.\17\
     China's refoulement of North Koreans contravenes its 
obligations under the 1951 Convention Relating to the Status of 
Refugees and its 1967 Protocol. The Convention and its Protocol 
state that ``no Contracting States shall expel or return 
(`refouler') a refugee in any manner whatsoever to the 
frontiers of territories where his life or freedom would be 
threatened on account of his race, religion, nationality, 
membership of a particular social group or political opinion.'' 
\18\
    The Chinese government apparently believes that a more 
relaxed policy might result in more North Koreans fleeing into 
an area of China with high unemployment rates. ``If we grant 
political asylum to one refugee today,'' one official 
reflected, ``there could be thousands or millions of North 
Koreans who might seize the opportunity and pour into China.'' 
\19\ The Chinese government has 
increased its monitoring of North Koreans, in part because some 
refugees have turned to crime to survive in China.\20\ The 
government apparently intensified surveillance and detentions 
of North Korean refugees following high profile asylum 
cases,\21\ such as in March 2005 when eight North Koreans 
rushed into a Japanese school in Beijing and were escorted to 
the Japanese Embassy.\22\ In January, Chinese security forces 
disbanded a press conference on the refugee issue called by 
four South Korean legislators visiting Beijing.\23\
     The Chinese government offers rewards to citizens who turn 
in ``illegal migrants'' and imprisons or imposes fines up to 
RMB 30,000 (USD $3,600) on those assisting them.\24\ In 
December 2003, South Korean Reverend Choi Bong-il was sentenced 
to nine years imprisonment for assisting North Koreans transit 
to a third country. In May 2003, South Korean citizen Choi 
Yong-hun was sentenced to five years in prison for his role in 
assisting North Koreans flee through China to South Korea.\25\ 
Chinese authorities detained American citizen Phillip J. Buck 
on May 9, 2005 for assisting North Korean refugees in China. He 
is currently detained in the Yanji PSB Detention Center, though 
no formal charges have been made public.\26\

              VIII. Developments in Hong Kong During 2005

    The United States supports a stable, autonomous Hong Kong 
under the ``one country, two systems'' formula articulated in 
the Sino-U.K. Joint Declaration and the Basic Law.\1\ The Hong 
Kong people continue to enjoy an open society in which the 
freedoms of religion, speech, and assembly are respected, but 
the Commission is troubled by a continuing pattern of central 
government interference in Hong Kong local governance through 
interpretations of the Basic Law. The Commission emphasizes its 
belief in the importance of the central government's obligation 
to give Hong Kong the ``high degree of autonomy'' promised in 
the Basic Law and strongly supports the provisions of the Basic 
Law that provide for the chief executive and the entire 
legislature to be elected through universal suffrage.\2\

Central Government Interference in Hong Kong Local Governance

    In April 2005, the National People's Congress Standing 
Committee (NPCSC) issued a Basic Law interpretation to change 
the length of the next chief executive's (CE)\3\ term of office 
from five to two years,\4\ continuing a pattern of interference 
by the central government in the local governance of Hong 
Kong.\5\ Following the resignation of Tung Chee-hwa as CE in 
March 2005,\6\ pro-Beijing and pro-democracy Hong Kong 
legislators debated whether his successor would serve the full 
five-year term prescribed by the Basic Law or only the 
remaining two years of Tung's term.\7\ Pro-democracy advocates 
launched a legal challenge against the two-year term proposal 
in the Hong Kong courts, but the judicial review process was 
cut short when the Hong Kong government, under pressure to 
ensure that the CE election was held on time, requested that 
the NPCSC resolve the controversy by interpreting the relevant 
articles in the Basic Law.\8\ As expected, the NPCSC ruled in 
favor of a two-year term, effectively closing the issue for 
further discussion.\9\
    Compared with previous interpretations, however, central 
authorities and their Hong Kong supporters showed greater 
responsiveness to the viewpoints of pro-democracy advocates. In 
addition to previously established consultative practices, 
senior Beijing officials met in Shenzhen to discuss the CE term 
issue with pro-democracy legislators, some of whom had been 
banned from entering the mainland.\10\ Some pro-democracy 
leaders saw this meeting as a gesture of goodwill and a sign 
that central government leaders wish to mend ties.\11\ The 
exclusion of other pro-democracy legislators, however, supports 
the criticism that the meeting was a ``public relations 
exercise'' rather than an effort to engage in genuine 
dialogue.\12\

Independent Judiciary

    The Hong Kong judiciary demonstrated its continued 
independence when Hong Kong's commitment to rights and law were 
tested against Communist Party-led abuses on the mainland. A 
May 2005 decision by the Hong Kong Court of Final Appeal (CFA) 
overturned the convictions of eight Falun Gong practitioners 
and protected citizen rights to demonstrate, despite the 
central leadership's ongoing campaign to eliminate the Falun 
Gong movement. In 2002, Hong Kong police arrested the 
practitioners for obstructing a public thoroughfare during a 
peaceful protest outside a government office building.\13\ In 
its decision, the CFA reasoned that the public's interest in 
the use of public facilities must be balanced against the 
constitutionally protected rights of assembly and expression 
enshrined in the Basic Law.\14\ The Commission notes that the 
May 2005 CFA decision might not have been possible if the Hong 
Kong people had not soundly rejected the proposed Article 23 
national security legislation in 2003. The Article 23 
legislation would have permitted the Hong Kong government to 
ban any Hong Kong-based group, such as Falun Gong, whose parent 
organization had already been publicly banned by the central 
government on national security grounds.
    A May 2005 news article reported that Hong Kong police 
officials welcomed the ruling because ``they felt the ruling 
had cleared previously grey areas and would make it easier for 
them to decide whether a protest had caused an unreasonable 
obstruction to the public'' and ``hoped that with more clear-
cut guidelines on what kind of protests should be stopped, the 
police would not be accused of acting under orders from Beijing 
in stopping events that mainland authorities may not like.'' 
\15\ Mainland news media, however, criticized the CFA's 
decision; one editorial found it ``regrettable that CFA has 
deviated from the principle that all are equal before the law 
and has failed to strike a fair and reasonable balance between 
the public interest and the demonstrators' rights.'' \16\ The 
editorial suggested Chinese government discomfort with the idea 
that the application of public obstruction laws must be 
reasonable, and that fundamental constitutional rights must be 
given substantial weight in considering reasonableness.\17\

          IX. Appendix: Commission Activities in 2004 and 2005

Hearings

November 18, 2004 Religious Freedom in China

                                                Preeta Bansal, Chair, 
                                                U.S. Commission on 
                                                International Religious 
                                                Freedom
                                                Ngawang Sangdrol, 
                                                International Campaign 
                                                for Tibet
                                                Bob Fu, President, 
                                                China Aid Association
                                                Joseph Kung, President, 
                                                The Cardinal Kung 
                                                Foundation
                                                Pitman Potter, 
                                                Director, Institute of 
                                                Asian Research and 
                                                Professor of Law, 
                                                University of British 
                                                Columbia

July 26, 2005     Law in Political Transitions: Lessons from 
East
                                        Asia and the Road Ahead 
                                        for China

                                                Gretchen Birkle, 
                                                Principal Deputy 
                                                Assistant Secretary, 
                                                Bureau of Democracy, 
                                                Human Rights, and 
                                                Labor, Department of 
                                                State
                                                Jerome A. Cohen, 
                                                Professor of Law, New 
                                                York University School 
                                                of Law; Adjunct Senior 
                                                Fellow on Asia, Council 
                                                on Foreign Relations; 
                                                Of Counsel, Paul, 
                                                Weiss, Rifkind, Wharton 
                                                & Garrison
                                                John Fuh-sheng Hsieh, 
                                                Professor, Department 
                                                of Government and 
                                                International Studies, 
                                                University of South 
                                                Carolina
                                                John K. Ohnesorge, 
                                                Professor of Law, 
                                                University of Wisconsin 
                                                School of Law; 
                                                Professor and Assistant 
                                                Director of East Asian 
                                                Legal Studies, 
                                                University of Wisconsin 
                                                Law School

Roundtables

December 10, 2004 Coal Mine Safety in China: Can the Accident
                                        Rate be Reduced?

                                                Dave Feickert, 
                                                Consultant, Industrial 
                                                Relations, Ergo-
                                                nomics and Energy
                                                Peter McNestry, Member, 
                                                Numerous British, 
                                                European, and 
                                                International Coal Mine 
                                                Safety Boards and 
                                                Committees
                                                Leo Carey, Executive 
                                                Director of Government 
                                                Services, National 
                                                Safety Council

February 7, 2005  Environmental NGOs in China: Encouraging
                                        Action and Addressing 
                                        Public Grievances

                                                Elizabeth Economy, C.V. 
                                                Starr Senior Fellow and 
                                                Director of Asia 
                                                Studies, Council on 
                                                Foreign Relations
                                                Patricia Adams, 
                                                Executive Director, 
                                                Probe International
                                                Jiang Ru, Ph.D. in 
                                                Environmental 
                                                Management and 
                                                Planning, Stanford 
                                                University

March 10, 2005    Public Intellectuals in China

                                                Merle Goldman, 
                                                Professor Emerita of 
                                                Chinese History, Boston 
                                                University; Executive 
                                                Committee Member, Fair-
                                                bank Center for East 
                                                Asia Research, Harvard 
                                                University
                                                Hu Ping, Chief Editor, 
                                                Beijing Spring
                                                Perry Link, Professor 
                                                of Chinese Language and 
                                                Literature, Princeton 
                                                University

March 14, 2005    China's New Regulation on Religious Affairs: 
A
                                        Paradigm Shift?

                                                Carol Lee Hamrin, 
                                                Consultant and Research 
                                                Professor, George Mason 
                                                University
                                                Daniel Bays, Professor 
                                                of History and Head of 
                                                the Asian Studies 
                                                Program, Calvin College
                                                Mickey Spiegel, Senior 
                                                Researcher, Human 
                                                Rights Watch
April 11, 2005     China's Ethnic Regional Autonomy Law: Does
                                        it Protect Minority 
                                        Rights?

                                                David L. Phillips, 
                                                Senior Fellow, Council 
                                                on Foreign Relations
                                                Gardner Bovingdon, 
                                                Assistant Professor, 
                                                Department of Central 
                                                Eurasian Studies, 
                                                Indiana University
                                                Christopher P. Atwood, 
                                                Associate Professor, 
                                                Department of Central 
                                                Eurasian Studies, 
                                                Indiana University

May 16, 2005     Intellectual Property Protection as Economic
                                        Policy: Will China Ever 
                                        Enforce its IP Laws?

                                                Daniel C.K. Chow, 
                                                Robert J. Nordstrom 
                                                Designated Professor of 
                                                Law, Ohio State 
                                                University Michael E. 
                                                Mortiz College of Law
                                                Eric H. Smith, 
                                                President, 
                                                International 
                                                Intellectual Property 
                                                Alliance
                                                James M. Zimmerman, 
                                                Partner and Chief 
                                                Representative, Beijing 
                                                Office, Squire, Sanders 
                                                & Dempsey LLP

May 23, 2005     Unofficial Religions in China: Beyond the 
Party's
                                        Rules

                                                Patricia M. Thornton, 
                                                Associate Professor of 
                                                Political Science, 
                                                Trinity College
                                                David Ownby, Director, 
                                                Center of East Asian 
                                                Studies, University of 
                                                Montreal
                                                Robert P. Weller, 
                                                Professor of 
                                                Anthropology and 
                                                Research Associate, 
                                                Institute on Culture, 
                                                Religion and World 
                                                Affairs, Boston 
                                                University

June 22, 2005     Forced Labor in China

                                                Harry Wu, Founder and 
                                                Executive Director, 
                                                Laogai Research 
                                                Foundation
                                                Jeff Fiedler, 
                                                President, Food and 
                                                Allied Service Trades 
                                                Department, AFL-CIO
                                                Gregory Xu, Researcher, 
                                                Falun Gong Project

September 2, 2005 China's Household Registration (Hukou) 
System:
                                        Discrimination and 
                                        Reform

                                                Fei-Ling Wang, 
                                                Professor, the Sam Nunn 
                                                School of International 
                                                Affairs, Georgia 
                                                Institute of Technology
                                                Chloe Froissart, 
                                                Researcher, Center for 
                                                International Studies 
                                                and Research and Center 
                                                for Research on 
                                                Contemporary China

Web Resources
    The Commission maintains a Web site at http://www.cecc.gov, 
which features announcements of upcoming events, topical news 
items on issues within the Commission's mandate, transcripts of 
hearings and roundtables, and basic source materials on human 
rights and the rule of law. In addition, the CECC Virtual 
Academy (http://www.cecc.gov/virtual Acad/index.phpd) provides 
users with convenient access to a wide array of news, useful 
Web links, and information about China prepared by Commission 
staff and other experts. Organized by topic area, the Virtual 
Academy currently has information on freedom of expression; 
commercial rule of law; criminal justice; labor rights; freedom 
of religion; and China's Uighur and Tibetan minorities. The 
Virtual Academy also provides timely summaries of stories from 
English and Chinese-language news media on important 
developments in human rights and rule of law, updated 
throughout the day. For those interested in learning more about 
China, the Virtual Academy includes extensive information on 
China's history, culture, and government.

Newsletter
    On June 1, 2005, the Commission published the first edition 
of the China Human Rights and Rule of Law Update, a monthly 
newsletter that includes news and analysis from the Virtual 
Academy, as well as announcements of recent and upcoming 
Commission events. Current and archived editions of the 
newsletter are available on the Commission Web site at http://
www.cecc.gov/pages/virtualAcad/newsletterListing.phpd. Those 
wishing to receive the newsletter may join the Commission's e-
mail list by going to http://www.cecc.gov/pages/general/
subscribe.phpd.

                              X. Endnotes

    <dagger> Voted to approve: Senators Hagel, Smith, DeMint, Martinez, 
Baucus, Levin, Feinstein, Dorgan; Representatives Leach, Dreier, Wolf, 
Pitts, Aderholt, Levin, Kaptur, and Brown; Deputy Secretary Law, and 
Under Secretary Dobriansky.
    Voted not to approve: Senator Brownback.
    Answered ``present'': Representative Honda.

    Notes to Section III(a)--Special Focus for 2005: China's Minorities 
and Government Implementation of the Regional Autonomy Ethnic Law
    \1\ The Chinese government uses a Stalinist formula to determine 
which groups constitute unique minzu, variously translated as 
``nationalities'' or ``ethnic groups.'' Accordingly, to be considered a 
nationality, a group must have a common language, territory, economic 
life, and culture. Stalin, J.V. ``Marxism and the National Question,'' 
in Works (Moscow: Foreign Languages University Publishing House, 1953), 
302. More than 400 groups registered as separate nationalities in the 
1953 census, with more than 240 requesting recognition in Yunnan 
Province alone. The government was only able to winnow the number to 55 
after awkwardly gerrymandering ethnic boundaries by sending work teams 
of anthropologists and government officials to the countryside to 
determine which groups ``objectively'' constituted unique 
nationalities. Many groups continue to contest the government's 
classification system. For details on the classification process, see 
Katherine Palmer Kaup, Creating the Zhuang: Ethnic Politics in China 
(Boulder: Lynne Rienner Press, 2000); Katherine Palmer Kaup 
``Regionalism and Ethnicnationalism in the People's Republic of 
China,'' 172 China Quarterly, 863-884 (2002); and Fei Xiaotong, 
Collected Works of Fei Xiaotong [Fei Xiaotong xuanji] (Fuzhou: Haixian 
Wenyi Chubanshe, 1996), 285.
    \2\ S. Robert Ramsey, The Languages of China (Princeton: Princeton 
University Press, 1987), 157-292. Many of the minority languages are 
further divided into mutually unintelligible dialects.
    \3\ The Uighurs, Kyrgiz, Kazahks, Uzbeks, and Tajiks in Xinjiang, 
for example, all have ethnic counterparts in neighboring countries, as 
do the Zhuang, Miao, Dai, and Shui in Yunnan and Guangxi.
    \4\ The Chinese government and the other five members of the 
Shanghai Cooperation Organization (SCO) signed an agreement on June 2, 
2005, to take ``specific steps to step up the efficiency of cooperation 
in ensuring stability and security, including holding joint 
antiterrorist training exercises, training personnel and exchange of 
experience in fighting terrorism, separatism, and extremism.'' 
``Kazakhstan: SCO Officials Express Concern Over Terrorist Levels in 
Central Asia,'' Almaty Interfax-Kazakhstan, 2 June 05 (FBIS, 2 June 
05).
    \5\ Chinese President Hu Jintao noted in May 2005 that the per 
capita GDP in minority areas is only 67.4 percent of the national 
average and rural per capita income only 71.4 percent of the national 
average. Hu Jintao, ``Opening Speech to the Ethnic Affairs Work 
National Conference'' [Hu Jintao zai zhongyang minzu gongzuo huiyishang 
de jianghua], State Ethnic Affairs Commission Web site, 27 May 05. This 
figure, however, does not indicate the severity of economic 
discrepancies, as Han Chinese within minority areas typically have 
higher incomes than the minorities. The government tightly controls 
statistics on Han-minority economic discrepancies, and published 
statistics report figures based on regional differences rather than 
providing breakdowns by ethnic groups. Kaup, Creating the Zhuang, 149-
53. Numerous factors contribute to minority poverty. Minorities are 
concentrated in harsh geographical terrains on China's periphery and 
lack the capital needed to extract natural resources in their 
territories. Poor infrastructure and low educational levels also 
contribute to their poverty. Government policies have exacerbated 
discrepancies in wealth between the minorities and Han. See Katherine 
Palmer, ``Nationalities and Nationality Areas,'' in China Handbook, ed. 
Chris Hudson (Chicago: Fitzroy Dearborn, 1997), 276-85. Several Western 
analysts report that central development strategies in Xinjiang since 
the launching of the Great Western Development campaign in 2000 have 
disproportionately favored Han Chinese. Nicholas Becquelin, ``Xinjiang 
in the Nineties,'' 44 The China Journal 65, 82-3, 85 (2000); Gardner 
Bovingdon, Autonomy in Xinjiang: Han Nationalist Imperatives and Uyghur 
Discontent (Washington: East-West Center Washington, 2004), 39. Uighur 
human rights advocate Rebiya Kadeer testified that the Great Western 
Development policies have had a deleterious impact on the Uighurs and 
resulted in the ``bleakest period in Uighur history.'' Congressional 
Human Rights Caucus Members Briefing, The Human Rights Situation of the 
Uighurs in the People's Republic of China, 28 April 05.
    \6\ Hu Jintao, ``Opening Speech to the Ethnic Affairs Work National 
Conference.''
    \7\ Tibetans Lose Ground in Public Sector Employment, Tibet 
Information Network (Online), 20 January 05; ``China's Influence in 
Central Asia (Part 5): Uighurs Count the Cost of China's Quest for 
Stability,'' Radio Free Asia (Online), 24 November 04.
    \8\ A Ningxia government report notes that only 5 percent of the 
minority populations in Ningxia and the Tibetan Autonomous Region were 
literate in 1949. By 1998, that figure had risen to 89.5 percent and 48 
percent respectively, though these rates remained below the national 
average. ``Implementing the Regional Autonomy System'' [Shixing minzu 
quyu zizhifa zhidu], Ningxia Government Web site.
    \9\ Wen Jun, ``Assessment of the Stability of China's Minority 
Economic Policy 1949-2002'' [Zhongguo shaoshu minzu jingji zhengce 
wendingxing pinggu], Development Research, No. 3, 2004, 40-45. Han-
minorities discrepancies in per capita income more than tripled in the 
first decade of reforms. Yang Zuolin, A General Discussion of Minority 
Economics [Minzu diqu jingji fazhan tongsu jianghua] (Kunming: Yunnan 
People's Press, 1993), 12. Minorities have had difficulty attracting 
foreign capital given their poor infrastructure, poorly trained labor 
force, and low levels of trade and private enterprise. 1994 tax 
revisions further exacerbated discrepancies in wealth.
    \10\ The Tibetan illiteracy rate (47.55 percent), for example, is 
five times the national average (9.08 percent). Tabulation drawn from 
2000 Population Census of the People's Republic of China (Beijing: 
China Statistics Press, August 2002), Table 2-3.
    \11\ ``Implementing `China's Minority Education Regulations' Placed 
on Agenda,'' [``Zhongguo shaoshu minzu jiaoyu tiaoli'' de zhiding 
lierule yishi richeng], State Ethnic Affairs Commission Web site, 16 
June 05.
    \12\ Regional Ethnic Autonomy Law [hereinafter REAL], enacted 31 
May 84, amended 28 February 01.
    \13\ The relationship between minority areas and the central 
government is reflected in an official news report, ``The Central Party 
Puts Forth A Strategy for Xinjiang's Development and Stability'' 
[Zhonggong zhongyang zuochu Xinjiang fazhan yu wending zhongda zhanlue 
bushu], Xinhua (Online), 18 May 04. The report describes a meeting of 
the top-ranking government officials in Xinjiang called ``to transmit 
the Central Party's Comprehensive Work Plan Regarding Xinjiang's 
Economic Development and Social Stability, and to develop plans for 
implementing it.'' At the meeting, Wang Lequan, Politburo member and 
Party General Secretary of Xinjiang, urged ``all party and government 
officials from all levels within the autonomous region to earnestly 
study and adopt the spirit of the Center's comprehensive plan. We must 
focus all of our thinking on the spirit of the Center's directive, and, 
with a strong sense of enthusiasm and duty, quickly develop concrete 
implementation measures that blend each localities' and departments' 
concrete circumstances in order to rigorously promote all of these 
Xinjiang projects.'' Xinjiang's autonomy rests in how best to implement 
central directives according to local circumstances. In many cases, 
this results in policies more restrictive of individual liberties than 
those promoted by the central government. The report cited here, for 
example, advocates strengthening the role of the predominately Han, 
paramilitary Xinjiang Production and Construction Corps in order to 
promote regional stability.
    \14\ REAL, art. 7.
    \15\ Ibid., arts. 4-7, 19.
    \16\ Ibid., arts. 4-7, 20.
    \17\ The Chinese government has imposed the fewest controls on 
minorities that accept central authority, which in turn have made these 
groups more willing to cooperate with Han Chinese. Mutual distrust 
between Han authorities and several minority groups has led to tighter 
government controls in some areas, however, exacerbating ethnic 
tensions according to both Chinese and Western analysts. See, for 
example, Ma Mingliang, ``Muslims and Non-Muslims Can Coexist in Harmony 
in China, as They Do in Malaysia, If They Understand Each Other's 
Culture Better,'' Islam in China, 31 Jul 05 (FBIS, 6 September 05); 
Bovingdon, Autonomy in Xinjiang: Han Nationalist Imperatives and Uyghur 
Discontent.
    \18\ REAL, art. 9. Authorities sentenced four Uighur boys to three 
and a half years in prison after a schoolhouse brawl in April 2005, on 
the charge of ``undermining the friendship of the nationalities.'' 
``Uighur Youths, Teacher Detained After School Brawl, Residents Say,'' 
Radio Free Asia (Online), 21 June 05.
    \19\ Minorities in southwestern China live in closer proximity to 
Han Chinese than do Tibetans and Uighurs, who are separated from 
predominately Han-populated regions in central China by mountain ranges 
and deserts. Although many of the minorities in southwestern China live 
in single-ethnicity villages, often these villages will be interspersed 
in close proximity to those of other minority groups. Southwestern 
minorities tend to be segregated by villages rather than by larger 
administrative areas, whereas distances between communities of 
different ethnic groups tend to be greater in the Northwest. Many of 
the southwestern minority groups are also internally divided and have 
little interest in mobilizing against Han Chinese authority. For 
further detail see Kaup, Creating the Zhuang, 171-81; and Thomas 
Heberer, ``Nationalities Conflict and Ethnicity in the People's 
Republic of China, With Special Reference to the Yi in the Liangshan Yi 
Autonomous Prefecture,'' in Perspectives on the Yi of Southwest China, 
ed. Steven Harrel (Berkeley: University of California, 2001), 232-7.
    \20\ State Council Regulations on the Implementation of the REAL, 
issued 11 May 05, art. 8.
    \21\ Ibid., arts. 30 and 34.
    \22\ Ibid., arts. 31 and 32.
    \23\ Ibid., art. 2.
    \24\ ``South-Central Nationalities University Opens Legal Aid 
Clinic'' [Zhongnan minzu daxue chengli falu huanzhu zhongxin], Tianshan 
Net (Online), 21 March 05; ``Suzhou Wujiang City Establishes New Social 
Services System for Migrant Minority Workers'' [Suzhou Wujiang shi 
chuang xin wailai liudong shaoshu minzu fuwu tizhi], State Ethnic 
Affairs Commission Web site, 18 August 05; ``Jiangsu's Qiansu City 
Aggressively Expands New Approaches to Help Minority Migrants'' 
[Jiangsu Qiansu shi jiji shensu xinshi xia fuwu ``wailai'' yu 
``waichu'' shaoshu minzu de youxiao tujin], State Ethnic Affairs 
Commission Web site, 18 August 05.
    \25\ ``Open Letter from the Darhad Mongols,'' Southern Mongolia 
Human Rights Watch (Online), March 2005.
    \26\ For example, Articles 15, 17, 18, and 22 of the State Council 
Regulations for the Implementation of the REAL require autonomous 
regions to give priority to border regions and minorities with small 
populations when making investment decisions. Bilingual education must 
be promoted, and autonomous governments are required to ``guide and 
organize'' local populations to seek jobs outside of their localities. 
Although the central government often encroaches on the autonomous 
governments' authority to determine their development strategies 
independently, the REAL in theory gave the autonomous regions the 
authority to control these policy decisions which are now determined by 
the central government.
    \27\ The Party monitors and imposes strict controls on how minority 
cultures are represented in popular, official, and scholarly discourse. 
Controls over minority representation have been imposed on all minority 
groups, not simply on those who have strained relations with Han 
Chinese and the predominately Han government. For example, though 
authorities regularly arrest Uighurs who display overt signs of ethnic 
pride, government authorities in Guangxi have criticized Zhuang authors 
who display too little ethnic pride. Kaup, Creating the Zhuang, 118-9.
    \28\ Article 7 of the REAL requires autonomous governments to 
``place the interests of the state as a whole above anything else.''
    \29\ The Constitution provides for the establishment of provincial-
level autonomous regions, autonomous prefectures, and autonomous 
counties. The government began creating autonomous townships and 
villages in 1993 with the State Council's passage of the Regulation on 
the Administrative Work on Ethnic Villages [Minzu xiang xingzheng 
gongzuo tiaoli], issued 29 August 93. By 2003 the government had 
established five provincial-level autonomous regions, 30 autonomous 
prefectures, 120 autonomous counties, and 1,173 autonomous villages. 
The government decided which areas would be granted autonomous status 
``through consultation between the government of the next higher level 
and the representatives of the minority or minorities concerned.'' 
General Program for the Implementation of Regional Autonomy for 
Minorities [Zhonghua renmin gongheguo minzu quyu zizhi shishi gangyao], 
issued 8 August 52, art. 9. Some members of the larger minority groups 
express concerns privately that the regional autonomy policy 
disproportionately favors smaller groups. Commission Staff Interviews. 
Many Uighurs and Zhuang note that within the provincial-level Xinjiang 
Uighur Autonomous Region and the Guangxi Zhuang Autonomous Region, 
several minority groups have their own autonomous prefectures or 
counties. Once established, these smaller autonomous areas are eligible 
for special development assistance funds that the central and 
provincial governments earmark for county-level autonomous governments. 
The Bayinguoleng Mongol Autonomous Prefecture in Xinjiang contains one-
quarter of Xinjiang's total land. Although only 4.46 percent of the 
Bayinguoleng population is Mongol and 34.25 percent is Uighur, the 
Chinese Constitution and the REAL require that the head of the 
prefectural government be Mongol. In another example, a portion of 
Guangxi's poverty alleviation funds is earmarked for minority counties, 
which means that Bama Yao Autonomous County (17.24 percent Yao and 
69.46 percent Zhuang) is eligible for certain development assistance 
programs not available to nearby Jingxi County, which does not have 
autonomous standing despite the fact that over 99 percent of its 
population is ethnically Zhuang. Article 16 of the Election Law also 
allows minorities with small populations a greater number of People's 
Congress delegates. PRC Election Law for the National People's Congress 
and Local People's Congresses, enacted 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04. Some Western experts 
believe the government consciously pitted minorities against one 
another when establishing regional autonomous areas in order to weaken 
their ability to confront the state. Gardner Bovingdon, ``Heteronomy 
and Its Discontents `Minzu Regional Autonomy' in Xinjiang,'' in 
Governing China's Multiethnic Frontiers, ed. Morris Rossabi (Seattle: 
University of Washington, 2004), 117-154; Becquelin, ``Xinjiang in the 
Nineties,'' 86. Since 2000, the central government has explicitly 
stated that nationality development work will place a priority on the 
22 smallest minority populations. Tang Ren, ``Ethnic Minorities Need 
Help: Government Pledges Another Round of Poverty Alleviation Reforms 
to Save the Country's 22 Small Ethnic Groups,'' Beijing Review 
(Online), 26 July 05. The May 2005 REAL Implementing Regulations 
require provincial-level governments to give priority to smaller 
minorities in their economic development and investment plans.
    \30\ Non-autonomous governments may also pass local legislation on 
issues not addressed by national law, but the autonomous areas have the 
power to pass local legislation expounding upon, or altering, national 
laws to suit minority customs.
    \31\ PRC Legislation Law, enacted 15 March 00, art. 66.
    \32\ Xinjiang has gone through eight drafts of its self-governing 
regulation since 1981. The Xinjiang People's Congress announced in 
January 2005 that it would restart the drafting process after the 
passage of the REAL Implementing Regulations, noting that ``many issues 
[in the self-governing regulation] require reaching a compromise 
between national and local interests so the process has been slow.'' 
``Ten Issues Handled'' [Shi jian yianjian jiande dao chuli], Xinjiang 
Capital Daily (Online), 20 January 05.
    \33\ Article 19 of the REAL states that the self-governing 
regulations of autonomous regions must be submitted to the Standing 
Committee of the National People's Congress for approval before they go 
into effect. Self-governing regulations of autonomous prefectures and 
counties must receive the approval of the Standing Committees of the 
People's Congresses at the provincial or directly administered 
municipal level before becoming effective and then be reported to the 
Standing Committee of the National People's Congress.
    \34\ Governments in many autonomous areas have been revising their 
self-governing regulations over the last few years. Yunnan Province 
announced in October 2004 that all 29 of its autonomous counties and 8 
autonomous prefectures would revise their self-governing regulations. 
``Yunnan Province Comprehensively Pushes Revisions of Autonomous 
Prefectures and Counties Self-Governing Regulations,'' State Ethnic 
Affairs Commission Web site, 12 April 05.
    \35\ These alterations predominately deal with marriage, 
inheritance, elections, and grasslands legislation according to the 
State Council Information Office White Paper. ``Regional Autonomy for 
Ethnic Minorities,'' State Council Information Office Web Site, 28 
February 05; Cheng Jian, ``Autonomous Statutes and Thoughts on Their 
Legislation in the Inner Mongolia Autonomous Region'' [Lun danxing 
tiaoli: Neimonggu zizhiqu danzing tiaolifa xiancun wenti tanqi], 
Journal of Inner Mongolia University Humanities and Social Sciences, 
Vol. 34, No. 6, November 2002, 49-52; Chao Li, ``Thoughts on Autonomous 
Areas' Autonomous Legislative Powers'' [Dui minzu zizhi difang zizhi 
jiguan lifa quan de sikao], Journal of Southwest University for 
Nationalities, Vol. 23, No. 7, July 2002, 137-141; Ma Linlin, 
``Construction of Our Nation's Minority Economics Law'' [Woguo shaoshu 
minzu diqu minzu jingji de fazhi jianshe], Academic Forum, No. 7, 2004, 
57-9.
    \36\ Chen Wenxing, Legislation Must Appropriately Reflect Changing 
Circumstances: On the Promotion of Yunnan's Autonomous Areas' 
Legislation'' [Lifa gongzuo bixu shishi huiying qingshi bianqian: lun 
yunnan minzu sizhidifang lifa de tuijin''], Academic Exploration, No. 
12, December 2004, 60-3; Li Baoqi, ``On the Theory and Practice of the 
Financial Transfer Payment System in National Autonomous Areas'' 
[Caizheng zhuanyi zhifu zhidu zai minzu zizhi difang de lilun yu 
shixian], Journal of Yanbian University, Vol. 37, No. 1, March 2004, 
51.
    \37\ Zeng Xianyi, ``The Legislative Base of the Autonomous 
Government Regulations'' [Lun zizhi tiaoli de lifa jichu], Journal of 
South-Central University for Nationalities--Humanities and Social 
Sciences, Vol. 24, No. 4, July 2004, 7. Chinese scholars regularly call 
for autonomous governments to exercise their right to formulate 
meaningful self-governing regulations, though these discussions do not 
appear in the popular press.
    \38\ Zhou Li, et al, ``Autonomous Legislation in the Course of 
Modernization'' [Xiandaihua jinchengzhong de zizhi lifa], Yunnan 
University Journal- Legal Studies Edition, Vol. 17, No. 2, 2004, 88; Li 
Zhanrong, ``On the Application of Minority Economic Law'' [Lun minzu 
jingjifa shiyong], Journal of the Guangxi Cadre Institute of Politics 
and Law, Vol. 20, No. 1, January 2005, 18; Li Chaokai, ``Brief Analysis 
of Yunnan's Legal Personnel Training and Law School Reforms'' [Yunnan 
falurencaipeiyang yu faxue jiaoyu gaige qianxi], Seeking Truth, Vol. 6, 
2003, 58.
    \39\ Li Chaokai, ``Brief Analysis of Yunnan's Legal Personnel 
Training and Law School Reforms,'' 57; Chen Wenxing, ``Legislation Must 
Appropriately Reflect Changing Circumstances,'' 60-3; Li Zhanrong, ``On 
the Application of Minority Economic Law,'' 15-20.
    \40\ Li Zhanrong, ``On the Application of Minority Economic Law,'' 
15-20.
    \41\ Article 32 of the Inheritance Law mandates that the property 
of a deceased person with no survivors reverts to the state. PRC 
Inheritance Law, enacted 10 April 85. The customary practice of many 
Islamic groups, however, requires that such property be donated to the 
local mosque. No alterations or supplements to the National Inheritance 
Law have yet been passed. Li Zhanrong, ``On the Application of Minority 
Economic Law,'' 19.
    \42\ 6.9 percent of government workers are minorities though 
minorities account for almost 9 percent of China's total population. 
Ling Yun, ``Analysis of Major Issues and Theories in Our Nation's 
Minority Nationality Cadre Education'' [Woguo minzu ganbu jiaoyu cunzai 
de zhuyao wenti ji lilun fenxi], Journal of South-Central University 
for Nationalities, Vol. 24, No. 2, 2004, 17; Wang Xiubo, ``Research and 
Thoughts Regarding The Current Situation Of Minority Nationality Cadres 
Corps Talent'' [Guanyu shaoshu minzu diqu ganbu rencai duiwu xianzhuang 
de diaocha yu sikao], Progressive Forum, March 2004, 24-5; Yang Guocai, 
``Building a Minority Nationality Cadres Corps Is the Crux to 
Developing Minority Nationality Areas'' [Shaoshu minzu ganbu duiwu 
jianshe shi minzu diqu fazhan de guanjian], Yunnan Nationalities 
University Journal, Vol. 21, No. 4, July 2004, 84-6. The proportion of 
technically trained minorities placed in high- or mid-level positions 
is 19 and 45 percentage points below the Han average according to Na 
Canhui, ``In- Depth Analysis of Our Nation's Minority Nationality 
Cadres' Training'' [Woguo shaoshu minzu ganbu peiyu jizhi shenxi], 
South-Central Nationalities University Journal, Vol. 24, April 2004, 
183-4. The absolute number of technically trained minorities has 
increased substantially. One Chinese scholar reports that the number 
rose from 238,000 in 1979 to over 1.7 million in 2002. Zhang Linchun, 
``Policy Decisions and Successful Experience Regarding Minority Cadre 
Training and Use'' [Woguo shaoshu minzu ganbu peiyang he xuanbo shiyong 
de zhengce guiding he chenggong jingyan], Tianshui Government 
Administration Academy, Vol. 2, 2002, 18.
    \43\ Zhang Linchun, ``Policy Decisions and Successful Experience 
Regarding Minority Cadre Training and Use,'' 15-8. In July 2002, the 
State Council approved the joint appointment of State Ethnic Affairs 
Commission officials to 20 government ministries and bureaus. Though 
these officials are not necessarily ethnic minorities, the majority of 
SEAC cadres are. The decision also helps assure that minority issues 
will be raised in each of these government offices. ``State Ethnic 
Affairs Commissioners Joint Appointment to Other Commissions and Their 
Responsibilities'' [Guojia minzu shiwu weiyuanhui bingzhi weiyuan 
danwei ji zhize], State Ethnic Affairs Commission Web site, 8 February 
05.
    \44\ Ling Yun, ``Analysis of Major Issues and Theories in Our 
Nation's Minority Nationality Cadre Education,'' 171-3. Government 
investment in education in Xinjiang in 2000 was only 45.45 percent of 
the national average, according to Gu Huayang, ``Research on the 
Current Situation and Policy of Xinjiang's Educational Development'' 
[Xinjiang jiaoyu fazhan de xianzhuang ji duice yanjiu], Seeking Truth, 
No. 2, 2004, 74-7. The same article notes that although a higher 
percentage of people in Xinjiang have college degrees than the national 
average, the percentage of people receiving high school and middle 
school degrees is only 58.43 and 38.15 percent of the national average 
respectively.
    \45\ Wang Xiubo, ``Research and Thoughts Regarding the Current 
Situation of Minority Nationality Cadres Corps Talent,'' 24-5. Wang 
Xiubo also notes that many autonomous governments are having difficulty 
recruiting government employees under the age of 35. The State Council 
Implementation Decision calls for ``vigorous training'' of younger 
minority cadres to ensure that a corps of minorities is being trained 
to assume mid- and upper-level positions in the years ahead.
    \46\ In the 10th People's Congress, for example, 13.91 percent of 
the deputies were minorities, well above the 8.9 percent they represent 
of the total population. State Council White Paper on Regional 
Autonomy, issued 28 February 05. The Election Law also allows ethnic 
groups not residing in autonomous areas to hold separate elections for 
congressional delegates ``based on the local circumstances,'' though 
how these should be carried out remains unclear. Article 9 of the 
Election Law says that the State Council may allow autonomous people's 
congresses 5 percent more seats than they would normally be allowed on 
the basis of their population size. PRC Election Law for the National 
People's Congress and Local People's Congresses.
    \47\ ``Number of CPC Members Reaches 69.6 Million,'' China Daily, 
24 May 05 (FBIS, 24 May 05). Because the party represents the interests 
of the entire nation without bias, it would be ``unscientific'' to 
require specific minority representation within the party ranks, 
according to the official party position. Guo Zhengli, The Theory and 
Practice of Regional Ethnic Autonomy with Chinese Characteristics 
[Zhongguo tese de minzu quyu sishi lilun yu shijian] (Urumqi: Xinjiang 
University Press, 1992), 92.
    \48\ Nicholas Becquelin, ``Staged Development in Xinjiang,'' 178 
China Quarterly 358, 363 (2004).
    \49\ In a widely studied speech in May 2005, Hu Jintao stressed the 
need to increase party control over nationality work. He highlighted 
the need to ``increase the contingent of nationality work cadres'' 
while avoiding any mention of increasing the number of ethnic minority 
Party members. Hu Jintao, ``Opening Speech to the Ethnic Affairs Work 
National Conference.''
    \50\ Central Personnel Office Notice on the Correct Handling of 
Party Members' Believing in Religion [Guanyu tuoshan jiejue gongchan 
dangyuan xinyang zongjiao wenti de tongzhi], issued 20 March 93; 
Chinese Communist Party Notice on ``Our Nation's Basic Understanding 
and Policies Toward Religion in the Current Stage of Socialism'' 
[Zhonggong zhongyang yinfa ``guanyu woguo shehuizhuyi shiqi he jiben 
zhengce de tongzhi''], issued March 1982. Religion is a central marker 
of ethnic identity for many in China, including the Tibetans and the 
country's ten Muslim minorities.
    \51\ The Chinese government distinguishes between those from ``the 
interior, advanced regions'' and those from the ``borderland, 
autonomous areas.''
    \52\ ``Assist Tibet, Xinjiang, and Border Areas Cadre Policy'' 
[Yuan zang, yuanjiang zhibian ganbu], State Ethnic Affairs Web site.
    \53\ Louisa Lim, ``Uighurs Lost Out in Development,'' BBC (Online), 
19 December 03.
    \54\ The Xinjiang Propaganda Department praised a local technical 
college for placing 60 minority graduates in the coastal city of 
Shenzhen. The school plans to send another 180 by year's end. ``60 
Xinjiang Minority Technical School Graduates Take Jobs in Shenzhen'' 
[Xinjiang 60 ming shaoshu minzu zhongzhuansheng Shenzhen jiuye], 
Tianshan Net (Online), 14 April 05.
    \55\ State Council Regulation on the Implementation of the REAL, 
art. 18.
    \56\ ``Assist Tibet, Xinjiang, and Border Areas Cadre Policy,'' 
State Ethnic Affairs Web site.
    \57\ Wen Jun, ``Assessment of the Stability of China's Minority 
Economic Policy 1949-2002'' [Zhongguo shaoshu minzu jingji zhengce 
wendingxing pinggu], Development Research, No. 3, 2004, 40-45.
    \58\ Calla Weimer, ``The Economy of Xinjiang,'' in Xinjiang: 
China's Muslim Borderland, ed. S. Frederick Starr (Washington, DC: 
Central Asia-Caucasus Institute, 2004), 163-189; Nicholas Becquelin, 
``Staged Development in Xinjiang,'' 362; David Bachman, ``Making 
Xinjiang Safe for the Han? Contradictions and Ironies of Chinese 
Governance in China's Northwest,'' in Governing China's Multiethnic 
Frontiers, ed. Morris Rossabi (Seattle: University of Washington Press, 
2004), 165-168.
    \59\ Uighurs also regularly report that they are discriminated 
against in the broader job market, with offices publicly posting help 
wanted signs stipulating ``Uighurs need not apply.'' ``China's 
Influence in Central Asia (Part 5),'' Radio Free Asia. Graham E. Fuller 
and Jonathan N. Lipman state that ``members of the Han majority appear 
to advance more rapidly than similarly qualified Uighurs, while even in 
Kashgar many specialized occupations are reserved for the Xinjiang 
Production and Construction Corps and other Han-dominated work units.'' 
Graham E. Fuller and Jonathan N. Lipman, ``Islam in Xinjiang,'' in 
Xinjiang: China's Muslim Borderland, ed. S. Frederick Starr 
(Washington, DC: Central Asia-Caucasus Institute, 2004), 325. Economist 
Calla Weimer demonstrates statistically that Uighurs have less earning 
power than Han living in the same area. Calla Weimer, ``The Economy of 
Xinjiang,'' 188.
    \60\ REAL, art. 20.
    \61\ Ibid., arts. 27 and 65; PRC Constitution, art. 9.
    \62\ ``Complaint Against the Chinese Government's Forced Eviction 
of Ethnic Mongolian Herders,'' Southern Mongolian Human Rights 
Information Center (Online); Hong Jiang, Fences, Ecologies, and Changes 
in Pastoral Life: Society and Reclamation in Uxin Ju, Inner Mongolia, 
China, paper presented at the Association for Asian Studies Annual 
Conference in Chicago, IL, 3 April 05; Enhebatu Togochog, Ecological 
Immigration and Human Rights in Inner Mongolia, paper presented at the 
Association for Asian Studies Annual Conference, Chicago, IL, 3 April 
05.
    \63\ Stanley Toops, ``The Ecology of Xinjiang: A Focus on Water,'' 
in Xinjiang: China's Muslim Borderland, ed. S. Frederick Starr 
(Washington, DC: Central Asia-Caucasus Institute, 2004), 271; 
Becquelin, ``Xinjiang in the Nineties,'' 84.
    \64\ State Council Regulation on Implementation of the REAL, arts. 
30 and 32. Article 8 requires the central government to compensate 
autonomous governments who have suffered financially after implementing 
ecological development projects. Many of the central government's 
largest ecological protection programs are in minority regions, which 
must share the financial burden of implementing the center's plans. The 
``three returns'' plan of 2000 (returning farmland to forest, farmland 
to grasslands, and pasturelands to fallow) cost each of the affected 
banners in Inner Mongolia an average of 200,000 yuan annually, for 
example. Zhuang Wanlu, ``Discussion of Minority Areas' Various Types of 
Poverty: The Problem of Local Government Financial Resources Poverty'' 
[Lun minzu diqu de linglei pinkun--difang zhengfu caizheng pinkun 
wenti], Journal of Southwest University for Nationalities, Vol. 24 No. 
6, June 2003, 23.
    \65\ REAL, art. 36. Minority governments have established a number 
of special schools to increase literacy among adult minorities. In 
these short courses, local education departments within the autonomous 
areas tailor textbooks to student needs. Some courses use local 
minority scripts to teach farming techniques and personal hygiene, for 
example. The government carefully monitors the depiction of minority 
history in all fields of publication, however, including textbooks. All 
textbooks must reflect official historiography showing ``family ties 
and deep affection among the nationalities'' and ``common struggle 
towards prosperity of all the minorities within a multinational unitary 
state.'' Teachers are not allowed to include course segments on a 
particular minority group's distinct history. Commission Staff 
Interview.
    \66\ ``Education for Ethnic Minorities,'' China's Education and 
Research Network Web site.
    \67\ Minorities Statistical Yearbook 2000 [Minzu tongji nianjian 
2000], Ethnic Publishing House Web site. The percentage of minorities 
in the total student population in secondary technical schools rose for 
that same period from 0.4 percent to 6.6 percent, in teaching 
institutes from 2.1 percent to 10.7 percent, in middle schools from 2.6 
percent to 6.8 percent, and primary schools from 2.2 percent to 9 
percent.
    \68\ More than 10,000 attended similar classes in preparation for 
secondary school. ``Education for Ethnic Minoriites II,'' China's 
Education and Research Network Web site.
    \69\ Wang Lequan, ``Maintain the Dominant Position of Marxism in 
Ideological Work and Adhere to the Four Cardinal Principals,'' Seeking 
Truth, 16 January 05, No. 2, (FBIS, 1 February 05).
    \70\ Commission Staff Interview.
    \71\ Steven Harrell and Ma Erzi (Mgebbu Lunze), ``Folk Theories of 
Success Where Han Aren't Always Best,'' in China's National Minority 
Education: Culture, Schooling, and Development, ed. Gerard A. 
Postiglione (New York: Falmer Press, 1999), 220-1.
    \72\ These are terms the government uses to deride those it 
believes promote the interests of their own ethnic group over the 
interests of the state as a whole or who favor the creation of a 
separate state for their minority group.
    \73\ Chinese Communist Party Notice on ``Our Nation's Basic 
Understanding and Policies Toward Religion in the Current Stage of 
Socialism.''
    \74\ Central Personnel Office Notice on the Correct Handling of 
Party Members' Believing in Religion.
    \74\ Hu Jintao stressed the importance of ``conducting nationality 
solidarity propaganda and education campaigns on an extensive scale'' 
in his May address to the National Conference on Ethnic Minority Work, 
while Xinjiang's Party secretary announced that the region would 
``vigorously step up propaganda to reveal that the fallacies spread by 
national separatists are outrageous lies.'' Wang Lequan, ``Maintain the 
Dominant Position of Marxism in Ideological
    \75\ Work and Adhere to the Four Cardinal Principals.'' On June 29, 
2005, the central State Ethnic Affairs Commission met with more than 20 
media organizations, including the Party's main theoretical journal and 
the national People's Daily, to discuss increasing propaganda work. 
``State Ethnic Affairs Commission Holds Meeting with Media 
Representatives''[Guojia minwei juban xinwen meiti zuotanhui], State 
Ethnic Affairs Commission Web site, 28 June 05.
    \76\ ``The Teahorse Road'' [Chama gudao], State Ethnic Affairs 
Commission Web site, May 2005.
    \77\ One scholar argues that the Party in essence ``created'' 
certain ethnic groups through careful manipulation of ethnic cultural 
markers, widespread Party propaganda about the groups' histories and 
cultures, and banning of unofficial critiques of minorities' cultures. 
Kaup, Creating the Zhuang.
    \78\ Michael Dillon, ``Uyghur Language and Culture Under Threat in 
Xinjiang,'' Diplomatic Observer (Online), 14 August 02.
    \79\ Members of some minority groups report that they are pleased 
to highlight their ethnic heritage in these and other state-sponsored 
forums. Numerous Zhuang scholars, peasants, and government workers, for 
example, participated with enthusiasm in the construction of a ``Zhuang 
Village'' display near the capital of Yunnan in 2001. Commission Staff 
Interviews.
    \80\ The White Paper notes that over 50 million copies of 4,800 
separate book titles have been published in minority languages, and 
more than 200 magazines and 88 newspapers.
    \81\ The Paper notes, for example, that it was the central 
authorities who ``organized'' 3,000 experts and scholars to compile a 
five-part series of books on each of China's ethnic minorities. The 
White Paper also reports that ``the state has set up institutions to 
collect, assort, translate and study in an organized and programmed 
manner the three major heroic epics of China's ethnic minorities.''
    \82\ REAL, art.10.
    \83\ Minglang Zhou, Multilingualism in China: The Politics of 
Writing Reforms for Minority Languages 1949-2002 (New York: Mouton de 
Gruyter, 2003). Not all of the minorities had unified written scripts 
when the Communist Party came to power in 1949. Practical challenges, 
such as determining which dialect should form the foundation for new 
phonetic scripts, limited many minorities' ability to utilize their own 
scripts rather than any concerted efforts by the central government to 
limit their use.
    \84\ Select universities in the TAR, Inner Mongolia, and the 
Yanbian Korean Autonomous Prefecture offer coursework in minority 
languages, though generally minority language use is limited to primary 
and middle schools. In many areas, minority languages are used only in 
the lower levels of primary school until students master Chinese and 
are able to take all of their classes in Mandarin.
    \85\ The REAL Implementing Regulations instruct autonomous areas to 
promote ``bilingual teaching.'' Whereas Article 37 of the REAL 
previously only stipulated that ``Han language and literature courses'' 
should be offered in the senior grades of primary school or secondary 
school, the new Regulations encourage the use of Mandarin with minority 
languages in all courses. Uighur activist Rebiya Kadeer reports that 
the Uighur language has been banned in schools throughout Xinjiang. 
Commission Staff Interview, 22 August 05.
    \86\ Mette Halskov Hansen, ``The Challenge of Sipsong Panna in the 
Southwest,'' in Governing China's Multiethnic Frontiers, ed. Morris 
Rossabi (Seattle: University of Washington Press, 2004), 69.
    \87\ Regulation on Spoken and Written Language Work in the Inner 
Mongolian Autonomous Region [Neimenggu zizhiqu menggu yuyan wenzi 
gongzuo tiaoli], enacted 26 November 04.
    \88\ Ibid. Article 18, for example, increases the number of 
translators in each government office and assures that they receive the 
same rank and compensation as others in their office. Article 14 states 
that offices and businesses should give priority in hiring to students 
who received their education in Mongol technical schools.
    \89\ Mette Halskov Hansen, ``The Challenge of Sipsong Panna in the 
Southwest,'' 62.
    \90\ A survey conducted in Xinjiang in 2003 revealed that over 67 
percent of those interviewed felt strong Mandarin language skills were 
the most important qualification for hiring minorities. Wang Jianjun, 
``Develop Social Surveys, Train Qualified Talent'' [Kaizhan shehui 
diaocha peiyang shiyingxing hege rencai], Advanced Scientific 
Education, No. 6, 2003, 64-7. ``China's Influence in Central Asia (Part 
5): Uighurs Count the Cost of China's Quest for Stability,'' Radio Free 
Asia.
    \91\ Tibetans Lose Ground in Public Sector Employment in the TAR, 
Tibet Information Network. For detailed analysis, see Section VI--
Tibet.
    \92\ Moreover, these new cadres would not be allowed to serve in 
their own hometowns, despite a 1993 central government decision 
specifically exempting minorities from a national ban on local 
officials being placed in their home locales. ``Xinjiang Will Hold Open 
Civil Service Exams for 700 Civil Servants to Enrich Southern 
Xinjiang'' [ Xinjiang jiang mianxiang shehui zhaokao 700 ming 
gongwuyuan chongshi nanjiang ganbu duiwu], Xinjiang Daily, reprinted on 
Tianshan Net (Online), 7 April 05; Temporary Regulations on Public 
Officials [Guojia gongwuyuan zhanxing tiaoli], issued 19 August 93; 
Wang Lequan, ``Those Who Master Minority Language Will Be Exempted From 
Civil Service Examination,'' [Wang Lequan: zhangwo minyu baokao 
gongwuyuan ke mianshi], Urumqi Evening News, reprinted on Tianshan Net 
(Online), 25 July 05.
    \93\ ``To Establish Scientific Development Views: Xinjiang Urgently 
Needs to Address the Challenge of Its Talent Loss'' [Luoshi kexue 
fazhanguan Xinjiang jidei huajie rencai liushi kunju], Workers' Daily, 
reprinted on Tianshan Net, 1 May 05. The government has created some 
special programs to encourage minorities with doctoral degrees to 
conduct their research in autonomous areas. The government has set 
aside a million yuan each year since 2000, for example, to fund 
research projects by minority scholars. The applicant pool for these 
funds is a group of 516 minority scholars sent for one to two years of 
advanced scientific training outside of Xinjiang between 1992 and 2001. 
``The Clear Success Over the Last Five Years of The Scientific Research 
Program for Those in Xinjiang's Special Training Plan for Minority 
Technical Talent'' [Xinjiang shaoshu minzu keji rencai teshu peiyang 
jihua keyan xiangmu shishi 5 nianlai chengxiao xianzhu], Hami 
Information Outlet Web site, 12 June 05.
    \94\ Official press coverage stressed that the flow of new workers 
would lead to ``mutual prosperity'' for both Xinjiang and Gansu. 
``Jointly Prosper: 4,000 Gansu Households Begin Work in Xinjiang's 
Construction and Production Corps,'' Gansu Daily, 21 April 05, 
reprinted on Tianshan Net, 22 April 05.
    \95\ Xinjiang is home to 8.2 million Uighurs, who are largely Sunni 
Muslims of Turkic descent. Several other minorities live in the region, 
including Tajiks, Kazahks, Uzbeks, Kyrgz, and Mongols. Xinjiang 
supplies over 35 percent of China's oil and gas, and borders eight 
countries.
    \96\ Human Rights Watch, Devastating Blows: Religious Repression of 
Uighurs in Xinjiang, April 2005; Bovingdon, Autonomy in Xinjiang: Han 
Nationalist Imperatives and Uighur Discontent.
    \97\ He Ruixia, ``Political Thought Work In the Course of 
Strengthening and Improving the Struggle Against Nationality 
Splittism'' [Jiaqiang he gaijin fandui minzu fenliezhuyi douzhengzhong 
de sixiang zhengshi gongzuo], Seeking Truth, No. 2, 2004, 22-4.
    \98\ Commission Staff Interview. ``Press Conference on the 50th 
Anniversary of the Founding of the Xinjiang Uighur Autonomous Region'' 
[Zizhiqu chengli 50 zhounian xinwen fabuhui zhaokai], Tianshan Net 
(Online), 25 August 05.
    \99\ ``In the Midst of Glory and Hope: Key Points in Propaganda for 
Xinjiang 50th Anniversary'' [Xinjiang zai huihuan yu xiwang zhong 
fengyongqianjin: qingzhu Xinjiang weiwuer zizhiqu chengli 50 nianzhou 
xuanchuan jiaoyu yaodian], Xinjiang Daily, reprinted on Tianshan Net 
(Online), 19 May 05; ``AFP: Xinjiang Ribao Carries `Editorial' Against 
Separatism as Uzbek President To Visit,'' Agence France-Presse, 25 May 
05 (FBIS, 25 May 05).
    \100\ ``Xinjiang Has Become the Main Battlefield For China's 
Antiterrorism Struggle,'' China Youth Daily, 6 September 05 (FBIS, 7 
September 05).
    \101\ Human Rights Watch, Devastating Blows: Religious Repression 
of Uighurs in Xinjiang; Arienne M. Dwyer, The Xinjiang Conflict: Uighur 
Identity, Language Policy, and Political Discourse (Washington: East-
West Center Washington, 2005); Bovingdon, Autonomy in Xinjiang: Han 
Nationalist Imperatives and Uighur Discontent.
    \102\ ``Police Patrolmen in China's Xinjiang Capital Get Sub-
Machine-Guns,'' Urumqi News, 1 March 05 (FBIS, 1 March 05).
    \103\ Gardner Bovingdon, ``The Not-so-Silent Majority: Uighur 
Resistance to Han Rule in Xinjiang,'' 28 Modern China 39, 39-78 (2002). 
For similar findings, see Jay Todd Dautcher, ``Reading Out-of-Print: 
Popular Culture and Protest on China's Western Frontier,'' in China 
Beyond the Headlines, eds. T.B. Weston and L.M. Jensen (Lanham: Rowman 
and Littlefield, 2000), 273-295; Justin Rudelson, Oasis Identities: 
Uighur Nationalism Along China's Silk Road (New York: Columbia 
University Press, 1997); Joanne Smith, ``Four Generations of Uighurs: 
The Shift towards Ethno-Political Ideologies Among Xinjiang's Youth,'' 
Vol. 2, No. 2 Inner Asia 195, 195-224 (2000).
    \104\ Michael Dillon, ``Uighur Language and Culture Under Threat in 
Xinjiang.''
    \105\ China's Regional Ethnic Autonomy Law: Does It Protect 
Minority Rights?, Staff Roundtable of the Congressional-Executive 
Commission on China, 11 April 05, Testimony of Gardner Bovingdon, 
Assistant Professor, Department of Central Eurasian Studies, Indiana 
University, Bloomington, Indiana.
    \106\ Wang Lequan, ``Maintain the Dominant Position of Marxism in 
Ideological Work and Adhere to the Four Cardinal Principals.''
    \107\ He Ruixia, ``Political Thought Work In the Course of 
Strengthening and Improving the Struggle Against Nationality 
Splittism,'' 23.
    \108\ Linguist Arienne Dwyer dates the beginning of a policy of 
forced linguistic assimilation to the mid-1980s. Dwyer, The Xinjiang 
Conflict: Uighur Identity, Language Policy, and Political Discourse.
    \109\ ``China Imposes Chinese Language on Uyghur Schools,'' Radio 
Free Asia (Online), 16 March 04. Xinjiang residents previously had the 
choice of attending minority schools, in which classes were conducted 
in minority languages, or Chinese schools, where Mandarin was used. 
Graduates with Mandarin Chinese language skills are more competitive in 
the job market, and some Uighurs may welcome the opportunity to study 
the language. The government is demanding a rapid transition to 
bilingual schools, however, and is placing higher emphasis on Mandarin 
language use than on local minority language use. Uighurs in exile 
report that the government has banned Uighur language use in schools 
and that Uighurs fear ``cultural annihilation'' through the weakening 
of their language. Commission Staff Interview with Rebiya Kadeer, 22 
August 05.
    \110\ Teacher-student ratios in Xinjiang's colleges are 1:333 
compared to the national average of 1:144, according to an article in 
the party's main theoretical journal. While more than 800 new teachers 
are needed to bring Xinjiang's teacher-student ratio in line with the 
national average, Xinjiang actually lost more than 530 higher education 
teachers between 2001-2004. Gu Huayang, ``Research on the Current 
Situation and Policy of Xinjiang's Educational Development'' [Xinjiang 
jiaoyu fazhan de xianzhuag ji duice yanjiu], Seeking Truth, No.2, 2004, 
74-7.
    \111\ Dwyer, The Xinjiang Conflict: Uighur Identity, Language 
Policy, and Political Discourse, 40.
    \112\ ``Wang Lequan Stresses: Firmly Implement the Principle of 
Politicians Managing Education'' [Wang Lequan qiangdiao: jianding lushi 
zhengzhijia ban jiaoyu yuanze], Xinjiang Economic News, reprinted on 
Xinhua (Online), 26 April 05.
    \113\ ``Xinjiang Will Hold Open Civil Service Exams for 700 Civil 
Servants to Enrich Southern Xinjiang,'' Xinjiang Daily.
    \114\ ``Wang Lequan Stresses: Firmly Implement the Principle of 
Politicians Managing Education,'' Xinjiang Economic News.
    \115\ ``How to Handle the Issue of Religion Interfering in 
Education in Minority Areas with a Majority of Religious Believers'' 
[Zai yixie duoshuren xinjiao de minzu diqu, rehe chuli zongjiao ganyu 
xuexiao jiaoyu wenti], State Minorities Bookstore Web site.
    \116\ Wang Lequan, ``Maintain the Dominant Position of Marxism in 
Ideological Work and Adhere to the Four Cardinal Principals.''
    \117\ Zhang Jian, ``Speech at the All-County 20th Teachers' Day 
Award Ceremony'' [Zai quanxian qingzhu di ershi ge jiaoshijie ji 
biaozhang dahuishang de jianghua], Buerjin County (Xinjiang) Communist 
Party Office Web site, 10 September 04.
    \118\ He Ruixia, ``Political Thought Work In the Course of 
Strengthening and Improving the Struggle Against Nationality 
Splittism,'' 22-4.
    \119\ ``Wang Lequan Stresses: Firmly Implement the Principle of 
Politicians Managing Education,'' Xinjiang Economic News.
    \120\ He Ruixia, ``Political Thought Work In the Course of 
Strengthening and Improving the Struggle Against Nationality 
Splittism,'' 22-4.
    \121\ Ibid.
    \122\ Human Rights Watch, Devastating Blows: Religious Repression 
of Uighurs in Xinjiang, Appendix III.
    \123\ The story tells of a wild pigeon who commits suicide rather 
than submit to being caged by humans who feed him well, but deny him 
his freedom. ``RFA Publishes First English Translation of Noted Uighur 
Story,'' Radio Free Asia (Online), 29 June 05.
    \124\ Tohti Tunyaz's doctoral advisor in Japan denies any such 
publications exist. Tunyaz was arrested for obtaining state secrets, 
which according to the sentencing record were publicly available 
library materials he obtained from a state- employed librarian at 
Xinjiang University. ``Honorary Members: Tohti Tunyaz,'' Pen American 
Center Web site.
    \125\ The charges included ``inciting to split China, organizing 
meetings, taking oaths, accepting membership and possessing illegal 
publications and counterrevolutionary videos for propaganda purposes.'' 
``Bingtuan Supreme Court Affirms Jail Terms for Uighur Youths,'' Radio 
Free Asia (Online), 23 December 03.
    \126\ The names of the other defendants have not been disclosed. 
Human Rights Watch, Devastating Blows: Religious Repression of Uighurs 
in Xinjiang, 49.
    \127\ Ibid., 6.
    \128\ ``Police Raid Forces Uyghur Dissident's Son Into Hiding,'' 
Radio Free Asia (Online), 16 May 05.

    Notes to Section III(b)--Rights of Criminal Suspects and Defendants
    \1\  ``Xiao Yang: People's Courts Must Maintain the Strike-Hard 
Principle Over the Long Term,'' [Xiao Yang: Renmin fayuan bixu changqi 
jianchi yanda fangzhen], Xinhua (Online), 16 December 04; ``Senior 
Party Official: China to Regularize Crackdown Campaign Against 
Crimes,'' Xinhua, 6 March 05 (FBIS, 6 March 05).
    \2\ Wang Lin, ``The Right Time for Replacing `Yanda' with `Prevent 
and Control,' `Policing Revolution' Requires Lasting Effort'' 
[`Fangkong' tidai `yanda' zhengdangshi, `jingwu geming' xu chijiu 
nuli], Southern Weekend (Online), 23 June 05; ``Public Order Can't Rely 
Merely on Campaigns'' [Zhi an bu neng guangkao gao yundong], Southern 
Metropolitan Daily (Online), 1 February 05; Du Yonghao, ``Strike Hard 
Should Embody the Spirit of Rule of Law'' [Yanda geng ying tixian fazhi 
jingshen], People's Daily (Online), 25 August 03.
    \3\ ``Crime Crackdown Must Observe Justice Principles,'' China 
Daily (Online), 18 December 04.
    \4\ See, e.g., ``Liaoning Strikes Hard at Six Kinds of Corruption 
in the Political-Legal Team'' [Liaoning yanda zhengfa duiwu liu da 
fubai], Legal Daily (Online), 12 May 05; ``50,000 Cases Broken in 
Guangdong's Hundred Days of Strike Hard'' [Guangdong bairi yanda po 
wuwan xingan], Southern Metropolitan Daily (Online), 10 November 04; 
``Ministry of Public Security Requires Strike Hard Against Three Types 
of Criminal Activity--Criminal Organizations, Etc.'' [Gonganbu yaoqiu 
yanda hei e shili deng san lei fanzui huodong], Ministry of Public 
Security (Online), 5 November 04; ``China to Launch `People's War' on 
Drugs,'' People's Daily (Online), 5 April 05.
    \5\ ``Ministry of Public Security Publicizes the Situation of the 
Nation's Public Security Organs Striking at Crime and Preserving Social 
Order in 2004'' [Gonganbu tongbao 2004 nian quanguo gongan jiguan daji 
xingshi fanzui weihu shehui zhian qingkuang], Ministry of Public 
Security Web site, 5 February 05; Supreme People's Procuratorate Work 
Report [Zuigao renmin jianchayuan gongzuo baogao], 9 March 05.
    \6\ Supreme People's Court Work Report [Zuigao renmin fayuan 
gongzuo baogao], 8 March 05.
    \7\ ``Juvenile Crime Up 19.1 Percent Nationally in 2004, China 
Prepares to Establish Juvenile Courts'' [2004 nian quanguo wei 
chengnian ren fanzui shangsheng 19.1 percent, wo guo yunniang jianli 
shaonian fayuan], Southern Metropolitan Daily (Online), 14 March 05. A 
separate article indicates that juvenile crime as a percentage of total 
crime increased each year between 2000 and 2003: 2000 (11.8 percent of 
all crimes), 2001 (12 percent), 2002 (13.9 percent), and 2003 (18.9 
percent). Zhou Kai, ``Prevent Juvenile Crime Without Delay'' [Yufang 
weichengnianren fanzui liburonghuan], China Youth (Online), 11 March 
05.
    \8\ For selected positive statistics, see ``Ministry of Public 
Security Publicizes the Situation of the Nation's Public Security 
Organs Striking at Crime and Preserving Social Order in 2004'' [Gongan 
bu tongbao 2004 nian quanguo gongan jiguan daji xingshi fanzui weihu 
shehui zhian qingkuang], Ministry of Public Security Web site; 
``Ministry of Public Security Publicizes National Public Order 
Situation'' [Gonganbu tongbao quanguo zhian qingkuang], Xinhua 
(Online), 27 April 05. For sources suggesting a growing crime problem, 
see, e.g., SPP Work Report, 9 March 05; Yuan Zhengbing, Cui Zuojun, Liu 
Jinlin, ``To Prevent Unjust Cases, Firmly Grasp the Relationship With 
Arresting Personnel--This Paper's Reporter Conducts a Special Interview 
with Supreme People's Procuratorate Vice President Zhu Xiaoqing'' 
[Fangzhi yuan cuoan yao ba buren guan--benbao jizhe zhuanfang zuigao 
renmin jianchayuan fu jianchazhang Zhu Xiaoqing], Procuratorate Daily 
(Online), 16 May 05; ``Ministry of Public Security Publicizes the 
Situation of the Nation's Public Security Organs Striking at Crime and 
Preserving Social Order in 2004,'' Ministry of Public Security Web 
site; ``National Statistics Bureau: Crime in China Clearly Has the 
Largest Effect on Public Sense of Security'' [Guojia tongjiju: wo guo 
xingshi fanzui yiran zui yingxiang qunzhong anquangan], China Youth, 
reprinted in Xinhua (Online), 7 February 05.
    \9\ For two of the many detailed Chinese accounts of the Nie and 
She cases, see `` `Nie Shubin Murder Case' Still Unresolved'' [`Nie 
Shubin yuan sha an' xuaner weijue], Southern Weekend (Online), 24 March 
05; and Gu Yunyong, ``The Unjust Case of She Xianglin Murdering His 
Wife: the Price of Efforts to Seek Redress and Innocence on a Common 
Chinese Peasant Household'' [She Xianglin sha qi yuanan: yige putong 
zhongguo nongmin jiating de shenyuan zhilu yu qingbai daijia], Southern 
Metropolitan Daily (Online), 5 April 05. In April 2005, a Hubei court 
formally exonerated Mr. She.
    \10\ For two of the numerous examples of such stories, see ``14 
Years of an Unjust Case of Wife Murder, `Liaoning's She Xianglin' Li 
Huawei Obtains State Compensation'' [14 nian sha qi yuanan `Liaoning 
She Xianglin' Li Huawei huo guojia peichang], People's Daily (Online), 
15 April 05; Lei Dao, ``Why No Compensation After Eight Years of Unjust 
Imprisonment'' [Ba nian yuanyu weihe bu peichang], Legal Daily 
(Online), 17 April 05.
    \11\ Li Na, ``Unjust Case of Wife Murder Causes China's Judicial 
Realm to Rethink Protection of Human Rights'' [``Sha qi'' yuanan yinfa 
zhongguo sifa lingyu renquan baohu fansi], Xinhua, reprinted in 
People's Daily (Online), 6 April 05. For an English-language version of 
the article, see ``Return of `Murdered Wife' Calls China's Justice 
System Into Question,'' People's Daily (Online), 5 April 05.
    \12\ See, e.g., ``The `Nie,' `She' Cases in Lawyers' Eyes: 
Rethinking Necessary Before Judicial System Can Be Improved'' [Lushi 
yanzhong de ``Nie,'' ``She'' liangan: fansi cai neng dailai sifa tizhi 
de gaishan], Criminal Defense Net (Online), 13 April 05; ``Legal 
Redemption for Erroneous Death Sentences'' [Sixing wupan de falu 
jiushu], Modern Bulletin (Online), 16 March 05; Tang Weibin, Li 
Changzheng, ``How Do Unjust Cases Come About? Following the Trail of 
Hubei's She Xianglin `Wife Murder' Case'' [Yuanan shi zenme zaocheng 
de? Hubei She Xianglin ``sha qi'' an zhuizong], Procuratorate Daily 
(Online), 8 April 05; ``Analyzing the Xu Jingxiang Unjust Case'' [Xu 
Jingxiang yuanan pouxi], China Youth Online, 10 May 05; ``Don't Allow 
the Wings of Justice to Break: Using Unjust Cases to Look at 
Confessions Extorted Through Torture, [Bie rang zhengyi zheduan le 
chibang: cong mianan kan xingxun bigong], Legal Daily (Online), 22 
April 05; ``Return of `Murdered Wife' Calls China's Judicial System in 
Question,'' People's Daily (Online); ``Behave Prosecutors to Protect 
Innocent,'' China Daily, 28 May 05 (FBIS, 28 May 05); Lin Wei, ``Can 
Audio and Videotaping Really Keep Torture Under Control? '' [Luyin 
luxiang zhen neng guanzhu xingxun bigong?], Legal Daily (Online), 7 
June 05; Ge Lin, ``Why a Not Guilty Verdict Is a Rarity of Rarities'' 
[Wuzui panjue weihe fengmaolinjiao], Southern Weekend (Online), 16 June 
05; Jiang Hong, ``Commentary: Use Vigorous Legal Supervision to Prevent 
Unjust Cases'' [Shelun: yong qiang you li de falu jiandu fangzhi 
cuoan], Justice Net (Online), 26 April 05; Yuan Zhengbing, Cui Zuojun, 
Liu Jinlin, ``To Prevent Unjust Cases, Firmly Grasp the Relation with 
Arresting Personnel,'' Procuratorate Daily (Online). For an useful 
collection of translations and English-language briefings on some of 
the topics addressed in these articles, see Human Rights in China, 
China Rights Forum: Law and Justice, No. 2, 2005.
    \13\ ``Legal Redemption for Erroneous Death Sentences,'' Modern 
Bulletin.
    \14\ ``Return of `Murdered Wife' Calls China's Justice System Into 
Question,'' People's Daily (Online).
    \15\ Shi Ting, ``Police Reforms Put More Officers on the Beat,'' 
South China Morning Post, 26 March 05 (FBIS, 26 March 05).
    \16\ Ibid. See also ``Beijing to Hire 6,500 More Policemen To Save 
On-the-Job From Overwork,'' Xinhua, 5 June 05 (FBIS, 5 June 05); Zuo 
Guobin, ``Ministry of Public Security to Raise an Army for Police 
Substations, 70,000 Police to Be Added at Basic Levels'' [Gonganbu wei 
paichusuo zhaobingmaima, jiang chongshi qiwan jingli dao jiceng], CRI 
Online, 22 June 05.
    \17\ Dwight Daniels, ``Beijing Demands Better Policing,'' China 
Daily (Online), 9 May 05.
    \18\ For crackdowns on abuses, see, e.g., SPP Work Report, 9 March 
05; ``Supreme People's Procuratorate Confirms Emphasis of Investigative 
Supervision This Year'' [Zuigaojian queding jinnian zhencha jiandu 
zhongdian], Legal Daily (Online), 17 May 05; Cao Desheng, ``Rights 
Infringements in Focus,'' China Daily, 27 July 05. For statements on 
balancing crime-fighting and human rights protection, see, e.g., Tian 
Yu, ``Xiao Yang: Ensure in Practice That The Innocent Are Not 
Criminally Prosecuted'' [Xiao Yang: qieshi baozhang wuzui de ren bushou 
xingshi zhuijiu], Xinhua (Online), 16 December 04; Yuan Zhengbing, et. 
al., ``To Prevent Unjust Cases, Firmly Grasp the Relationship with 
Arresting Personnel.''
    \19\ UN Working Group on Arbitrary Detention, Report of the Working 
Group on Arbitrary Detention, Mission to China, Advance Edited Version, 
29 December 04 [hereinafter UNWGAD Report], para. 68(a). UNWGAD 
officials interviewed more than 70 detainees according to UNWGAD's 
terms of reference.
    \20\ The Commission's Political Prisoner Database includes profiles 
on more than 500 current and 3,000 past political prisoners. Thousands 
of political prisoners are detained in China's re-education through 
labor system. See infra, ``Administrative Punishment,'' and 
accompanying notes.
    \21\ ``China Rebuffs Call for Tiananmen Account,'' Associated 
Press, 6 June 05.
    \22\ Over the past year, Chinese authorities detained, questioned, 
and then released numerous ``public intellectuals'' who had been 
critical of the government or working on sensitive issues, including 
Liu Xiaobo, Yu Jie, Zhang Zuhua, Jiao Guobiao, Wang Guangze, Li 
Boguang, Chen Min, Yang Tianshui, Li Guozhu, Guo Guoting, and others. 
For more details, see Section III(d)--Freedom of Expression. For a 
detailed discussion of the challenges faced by China's public 
intellectuals, see Public Intellectuals in China, Staff Roundtable of 
the Congressional-Executive Commission on China, Testimony and Written 
Statements submitted by Perry Link, Professor of Chinese Language and 
Literature, Princeton University; Merle Goldman, Professor Emerita of 
Chinese History, Boston University and Executive Committee Member, 
Fairbank Center for East Asia Research, Harvard University; and Hu 
Ping, Chief Editor, Beijing Spring.
    \23\ ``Petitioner Round-up as NPC Meets,'' Human Rights in China 
(Online), 11 March 03; ``China Detains Dissidents Who Mourned Deposed 
Leader Zhao: Rights Group,'' Agence France-Presse, 30 January 05 (FBIS, 
30 January 05); ``Activists Under Tight Security Ahead of Tiananmen,'' 
Radio Free Asia (Online), 3 June 05; Chan Siu-sin, ``Rights Activists 
Call Confinement `Ridiculous,' '' South China Morning Post, 8 September 
05 (FBIS, 8 September 05).
    \24\ Law in Political Transitions: Lessons From East Asia and the 
Road Ahead for China, Hearing of the Congressional-Executive Commission 
on China, 26 July 05, Written Statement submitted by Jerome A. Cohen, 
Professor of Law, New York University. Individuals charged with or 
convicted of such crimes since October 2004 include Jamal Abdulla, 
Nurmemet Yasin, Sonom Phuntsog, Jamphel Gyatso, Jigme Dazang, Lobsang 
Dargyal, Tashi Gyaltsen, Tsesum Samten, Tsultrim Phelgyal, Zhang Lin, 
Xu Wanping, and Zheng Yichun.
    \25\ Human Rights in China Press Release, ``Shanghai Resident Under 
Administrative Detention For Petitioning Over Destruction of His 
Home,'' 2 February 03; ``Visitors to Memorial Ceremony Re-educated 
Through Labor and Arrested One by One'' [Jidian de fangmin fenfen bei 
laojiao he jubu], Boxun (Online), 3 February 05; Forced Labor in China, 
Roundtable of the Congressional-Executive Commission on China, 22 June 
05, Written Statement of Harry Wu, Executive Director, Laogai Research 
Foundation.
    \26\ UNWGAD Report, para. 73.
    \27\ ``Foreign Ministry Spokesperson Zhang Qiyue's Press 
Conference,'' Ministry of Foreign Affairs (Online), 7 December 04.
    \28\ Chris Buckley, ``U.S. Cautious as China Offers Details on 
Political Prisoners,'' New York Times (Online), 9 February 05.
    \29\ A Global Review of Human Rights: Examining the State 
Department's 2004 Annual Report, Hearing of the Subcommittee on Africa, 
Global Human Rights, and International Operations, House Committee on 
International Relations, 17 March 05, Oral Statement of Michael Kozak, 
Assistant Secretary of State for Democracy, Human Rights, and Labor, US 
Department of State.
    \30\ The UNWGAD defines a detention as arbitrary (1) when there is 
clearly no legal basis for the deprivation of liberty (for example when 
individuals are kept in detention after the completion of their prison 
sentences or despite an amnesty law applicable to them, or in violation 
of domestic law or relevant international instruments); (2) when 
individuals are deprived of their liberty because they have exercised 
the rights and freedoms guaranteed in certain provisions of the United 
Nations Declaration on Human Rights (UNDHR) or the International 
Covenant on Civil and Political Rights; and (3) when noncompliance with 
the standards for a fair trial set out in the UNDHR and other relevant 
international instruments is sufficiently grave as to make a detention 
arbitrary. United Nations Commissioner for Human Rights, Fact Sheet 
#26, the Working Group on Arbitrary Detention.
    \31\ Xue Yongxiu, ``Extended Detention Cases in Courts at Each 
Level Have Been Completely Cleared'' [Geji fayuan chaoqi jiya anjian 
quanbu qingli wanbi], China Court Net (Online), 9 March 05; State 
Council Information Office, ``China's Progress in Human Rights in 
2004,'' April 2005 (FBIS, 13 April 05).
    \32\ Andrea Worden, ``Legal Theatre in China: The Detention and 
Trial of Pro-Democracy Activist Yang Jianli,'' draft manuscript on file 
with the Commission.
    \33\ Benjamin Kang Lim, ``New York Times Chinese Researcher Accused 
of Fraud,'' Reuters (Online), 1 June 05.
    \34\ PRC Criminal Procedure Law, enacted 1 Jan 97, art. 128. Under 
a variety of legal exceptions and detention extension provisions such 
as Articles 69, 124, 126, 127, and 140 of the PRC Criminal Procedure 
Law, a suspect's pre-trial detention could be extended for more than 
seven months even without evidence of new crimes. Worden, ``Legal 
Theatre in China.''
    \35\ Worden, ``Legal Theatre in China'' (citing Chinese criminal 
law experts). Even SPC officials acknowledge that police and judicial 
officials hold suspects for periods much longer than allowed by law. 
Liu Yu, ``Reforms for More Rights--Protecting the Rights of the Accused 
and Building a More Just Legal System Are the Goals of Change,'' 
Beijing Review (Online), 25 November 04.
    \36\ International Covenant on Civil and Political Rights, arts. 
9(3) and 9(4). China has signed, but has not yet ratified, the ICCPR. 
However, treaty signatories have an obligation to refrain from acts 
that would defeat the purpose of a treaty while ratification is 
pending. Vienna Convention on the Law of Treaties, art. 18.
    \37\ UNWGAD Report, para. 32.
    \38\ ``Ministry of Public Security Publicizes the Situation of the 
Nation's Public Security Organs Striking at Crime and Preserving Social 
Order in 2004,'' Ministry of Public Security (Online).
    \39\ See, e.g., the broad-ranging and vaguely worded lists of 
offenses in the State Council Notice on Re-Issuing the Ministry of 
Public Security's Trial Methods for Implementation of Re-education 
Through Labor [Guowuyuan guanyu zhuanfa gonganbu zhiding de laodong 
jiaoyang shixing banfa de tongzhi], issued 21 January 82, art. 9; 
Regulations on the Handling of Re-education Through Labor Cases By 
Public Security [Gongan jiguan banli laojiao anjian guiding], issued 1 
June 02, art. 9; PRC Public Order Administration Punishment Law, 
adopted 28 August 05. According to Chinese officials, 80 percent of 
RETL detainees are drug addicts. Chiang Hsun, ``NPC To Replace `Re-
education Through Labor System,' Which Has Come Under Mounting 
Criticisms, with `Illegal Conduct Correction System' In Order to 
Protect Human Rights,'' Asia Weekly, 8 May 05 (FBIS, 4 May 05).
    \40\ Wu Yihuo, Hong Jun, ``Too Few Administrative Law Enforcement 
Cases Transferred to Judicial Organs--Relevant Anhui Research Reveals 
Information: Three Major Factors Influence Effective Links Between 
Administrative Law Enforcement and Criminal Law Enforcement'' 
[Xingzheng zhifa anjian yisong sifa jiguan taishao, anhui youguan 
yanjiuban touchu xinxi: san da yinsu yingxiang xingzheng zhifa yu 
xingshi zhifa youxiao xianjie], Procuratorate Daily (Online), 31 
January 05.
    \41\ Various analysts estimate that between 2 percent and 10 
percent of RETL subjects are political detainees. Randall Peerenboom, 
``Out of the Frying Pan and Into the Fire,'' 98 Northwestern University 
Law Review 991, 1000-01 and accompanying notes (2004); Jim Yardley, 
``Issue in China: Many in Jails Without Trial,'' New York Times 
(Online), 9 May 05.
    \42\ State Council Notice on Re-Issuing the Ministry of Public 
Security's Trial Methods for Implementation of Re-education Through 
Labor, art. 9; Regulations on the Handling of Re-education Through 
Labor Cases By Public Security, art. 9; PRC Public Order Administration 
Punishment Regulations [Zhonghua renmin gongheguo zhian guanli chufa 
tiaoli], issued 5 September 86, amended 12 May 94.
    \43\ UNWGAD Report, 29 December 04, paras. 40, 41. Note that in 
August 2005, the NPC Standing Committee passed a ``Public Order 
Administration Punishment Law'' to replace the ``Public Order 
Administration Punishment Regulations'' mentioned in the UNWGAD Report. 
The new law is effective as of March 1, 2006, at which time the old 
regulations will be canceled. Public Order Administration Punishment 
Law, adopted 28 August 05.
    \44\ Most sources place the number of RETL camps at around 300 and 
the number of detainees between 250,000 and 300,000. See, e.g., 
Peerenboom, ``Out of the Frying Pan and Into the Fire,'' 1000-01 and 
accompanying notes (2004); Yardley, ``Issue in China: Many in Jails 
Without Trial''; Can Siu-sin, ``Critics Take Shine of Bootcamp 
Reforms,'' South China Morning Post, 21 March 05. However, a May 2005 
article in Asia Weekly cites Beijing researchers as confirming that 
there are at least 1 million people in RETL camps. Chiang Hsun, ``NPC 
To Replace Re-education Through Labor System.''
    \45\ Regulations on the Handling of Re-education Through Labor 
Cases By Public Security, art. 3; Chan Siu-sin, ``Critics Take Shine of 
Bootcamp Reforms.'' In its December 2004 report, the UNWGAD found, 
``The operation of the laws governing decisionmaking on placement in a 
re-education through labour camp is, however, highly problematic. From 
reliable sources, including interviews with persons affected, it is 
clear that in the overwhelming majority of cases, a decision on 
placement in a re-education center is not taken within a formal 
procedure provided by law. The commission vested with power to take 
this decision in practice never or seldom meets, the person affected 
does not appear before it and is not heard, no public and adversarial 
procedure is conducted, no formal and reasoned decision on placement is 
taken (or issued for the person affected). Thus, the decisionmaking 
process completely lacks transparency. In addition, recourse against 
decisions are [sic] often considered after the term in a center has 
been served.'' UNWGAD Report, para. 58.
    \46\ Ibid., para. 56.
    \47\ Ibid., para. 75.
    \48\ Ibid., para. 51. Under Chinese law, penalties involving 
restrictions on personal freedom may only be established by law. PRC 
Legislation Law, adopted 15 March 00, art. 8.
    \49\ Wu Kun, ``A Powerful Weapon for Public Order Administration'' 
[Shehui zhian guanli de you li falu wuqi], Legal Daily (Online), 1 
September 05.
    \50\ PRC Public Order Administration Law, arts. 5, 16. 79. See 
also, ``Passage of the Public Order Administration Punishment Law, 
Focuses on Citizen Rights'' [Zhian guanli chufafa tongguo, guanzhu 
gongmin quanli], Legal Daily, 29 August 05, available on People's Daily 
(Online), 29 August 05.
    \51\ At the 2004 NPC session, more than 420 deputies reportedly 
signed a motion on reform of the RETL system. Chiang Hsun, ``NPC To 
Replace Re-education Through Labor System.''
    \52\ Wang Yu, ``China's Re-education Through Labor Management Will 
Enlarge Reform Efforts in Four Areas'' [Wo guo laojiao guanli jiang zai 
si fangmian jiada gaige lidu], Legal Daily (Online), 1 December 04; 
Zhang Qingshui, ``National Re-education Through Labor Work Conference 
Closes'' [Quanguo laojiao gongzuo zuotanhui bimu], China Legal 
Publicity (Online), 2 December 04.
    \53\ Chan Siu-sin, ``Critics Take Shine of Bootcamp Reforms''; Liao 
Weihua, ``Re-education Through Labor System Faces Reforms, Law on 
Correcting Unlawful Acts To Be Formulated'' [Laojiaozhi mianlin gaige 
jiang zhiding weifa xingwei jiaozhifa], Beijing News, reprinted in 
Defense Lawyer Net, 2 March 05.
    \54\ Liao Weihua, ``Re-education Through Labor System Faces 
Reforms.''
    \55\ Chan Siu-sin, ``Critics Take Shine of Bootcamp Reforms''; 
Yardley, ``Issue in China: Many in Jails Without Trial''; Chiang Hsun, 
``NPC To Replace Re-education Through Labor System''; Tim Luard, 
``China's `Reforming' Work Programme,'' BBC News (Online), 13 May 05.
    \56\ Robin Munro, A Question of Criminal Madness: Judicial 
Psychiatry and Political Dissent in the People's Republic of China, 
September 2004 (doctoral thesis on file with the Commission).
    \57\ Ibid., 13, 322-343; Commission Staff Interview.
    \58\ UNWGAD Report, paras. 64, 66.
    \59\ or a description of sometimes arbitrary and brutal treatement 
in these institutions, see Robin Munro, A Question of Criminal Madness.
    \60\ Forced Drug Detoxification Measures [Qiangzhi jiedu banfa], 
issued 1 January 95, art. 5.
    \61\ Regulations on the Handling of Re-education Through Labor 
Cases By Public Security, art. 9.
    \62\ ``Treatment Requires Psychological Support,'' China Daily, 25 
June 05 (FBIS, 25 June 05).
    \63\ Jiang Zhuqing , Jiao Xiaoyang, ``Battles Won on Drugs, But War 
Rages On,'' China Daily, 27 May 05 (FBIS, 27 May 05). According to a 
Chinese source, 580,000 individuals had been ``accepted'' into RETL 
drug detention centers through the end of 2004. ``A Total of 580,000 
Accepted for Drug Detoxification, China's RETL Drug Detoxification 
Model Basically Complete'' [Leiji shourong jieduzhe 58 wan, zhongguo 
laojiao jiedu moshi jiben chengxing], China News (Online), 24 June 05.
    \64\ Leu Siew Ying, ``Addict Dies in Rehabilitation Center,'' South 
China Morning Post, 4 August 05 (FBIS, 4 August 05); Leu Siew Ying, 
``Drug Rehabilitation Centre Inmates Sometimes Faced with Deadly 
Abuse,'' South China Morning Post (Online), 5 August 05.
    \65\ Ibid.
    \66\ Ibid. Key footage from a surveillance camera that had been 
installed to prevent abuses apparently is missing without explanation.
    \67\ CECC, 2004 Annual Report, 5 October 04, 18.
    \68\ Ibid.
    \69\ Ibid.
    \70\ Tu Chaohua, ``For Urban Beautification, 7 Indigents Are 
Abandoned in the Wilderness'' [Wei zhengdun shirong, 7 ming liulangren 
bei paosong huangye], China Youth Online, 7 June 05. According to the 
article, a January sweep of vagrants and mentally ill persons in 
Ganzhou city, Jiangxi province, left five people missing and presumed 
dead. Local officials have admitted that the roundup, which they 
referred to as custody and repatriation, was an ``administrative 
mistake,'' but claim that they have disciplined the officials involved 
and closed the matter. According to a later report, one of the 
individuals was later found. Li Qing, Chen Xiuqi, ``News Comes Out in 
the Chongyi Vagrant Abandonment, Secret Rule To Send Back and Forth 
Between Counties'' [Chongyi paosong liulang qitao renyuan baolu neirong 
xian yu xian hu qian jingcheng qianguize], Legal Daily (Online), 15 
June 05.
    \71\ Ibid. In a subsequent commentary, a China Youth Online writer 
expressed concern about whether the aid system has been implemented and 
strongly criticized local Jiangxi officials over the incident. Yang 
Tao, ``Civil Affairs Ministry Can't Abandon the Weak'' [Minzhengbu bu 
neng paoqi ruozhe], China Youth Online, 9 June 05.
    \72\ For just a few of the many Western reports on torture in 
China, see ``Three Tibetans Jailed for Suspected Separatism,'' Radio 
Free Asia (Online), 23 October 04; ``Falun Gong Practitioner Reunites 
with Husband After 3 years in China Labor Camp,'' Newsday (Online), 
reprinted in Lexis/Nexis, 30 September 04; Kate McGeown, ``China's 
Christians Suffer for Their Faith,'' BBC News (Online), 9 November 04; 
``Tiananmen Protester Reports on Tortured Mao Portrait Protester,'' 
Agence France-Presse, 22 November 04 (FBIS, 22 November 04); Human 
Rights in China Press Release, ``New Account Sheds Light on Degrading 
Conditions at Inner Mongolia's Chifeng Prison,'' 20 December 04; Human 
Rights Watch, ``Country Summary--China,'' January 2005; and Nora 
Boustany, ``Rebiya Kadeer: After Horrors of Prison, Constant Kisses and 
Hugs,'' Washington Post (Online), 30 March 05.
    \73\ See, e.g., ``Suggestions for Enhancing the Rights of Lawyers'' 
[Wei zhengjin lushi quanli jianyan xiance], China Legal Publicity 
(Online), November 2004; ``Return of `Murdered Wife' Calls China's 
Judicial System in Question,'' People's Daily (Online); Lin Wei, ``Can 
Audio and Videotaping Really Keep Torture Under Control? '' Legal Daily 
(Online); Guo Hengzhong, ``Coercing Confessions Through Torture 
Seriously Violates Human Rights, Perfecting the System Should Be a 
Matter of Vital Urgency'' [Xingxun bigong yanzhong qinfan renquan, 
wanshan zhidu ying shi dangwuzhiji], Legal Daily (Online), 24 June 05.
    \74\ See, e.g., ``Sichuan Investigates and Prosecutes a Case Where 
Torture Led to Person's Death'' [Sichuan chachu yiqi xingxun bigong 
zhiren siwangan], China Youth Online, 18 November 04; Zhou Wenying, Zou 
Shilai, ``Jiangxi Fuzhou: Make Inquiries a Required Procedure in 
Examining Arrests'' [Jiangxi Fuzhou: ba xunwen zuowei shencha daibu 
bijing chengxu], Procuratorate Daily (Online), 4 January 05; Liu Li, 
``Sixty Officials Charged with Dereliction of Duty, Abuse of Power,'' 
China Daily (Online), 26 January 05; ``Detention Discipline Incites 
Detainees to Whip Convict for Six Hours, Leading to His Death'' 
[Kanshousuo guanjiao zhizhi zai ya renyuan bianda fanren 6 xiaoshi zhi 
qi siwang], Boxun (Online), 8 February 05 (citing a Heilongjiang Daily 
story on the case); Wan Xingya, ``Civil Servants Violating Human 
Rights'' [Gongzhi renyuan qinfan renquan fanzui], China Youth Online, 
27 July 05 (noting that between July 2004 and July 2005, procuratorates 
prosecuted 1,751 officials for human rights violations, including 
illegal detentions, torture, and other violations); `` `Nie Shubin 
Murder Case' Still Unresolved,'' Southern Weekend; ``Murdered Wife 
Lives, Proves Husband's Innocence,'' China Daily (Online), 4 April 05; 
``14 Years of an Unjust Case of Wife Murder, `Liaoning's She Xianglin' 
Li Huawei Obtains State Compensation,'' People's Daily; Lei Dao, ``Why 
No Compensation After Eight Years of Unjust Imprisonment,'' Legal 
Daily; Fei Zhiyong, ``Supreme People's Procuratorate Publishes Three 
Criminal Cases of Serious Infringements on Human Rights Involving 
Confessions Coerced Through Torture, etc.'' [Zuigaojian gongbu xingxun 
bigong deng 3 qi yanzhong qinfan renquan fanzuian], Procuratorate Daily 
(Online), 27 July 05.
    \75\ See notes for the following paragraph for examples of these 
discussions.
    \76\ See, e.g., Fu Kuanzhi, ``Three Essential Elements That Must Be 
Put Forth to Put a Stop to Torture'' [Dujue xingshi bigong xu jubei 
sange yaosu], Procuratorate Daily (Online), 11 August 04; Li Jinlin, 
``China Law Society Opens Research Forum on the Torture Problem'' 
[Zhongguo faxuehui zhaokai xingxun bigong wenti yanjiu zuotanhui], 
Procuratorate Daily (Online), 30 January 05; ``Return of `Murdered 
Wife' Calls China's Judicial System in Question,'' People's Daily; 
Cheng Jishan, ``Radical Policies to Eliminate the Extortion of 
Confessions Through Torture'' [Xiaochu xingxun bigong de zhiben zhice], 
Legal Daily (Online), 13 April 05; ``Don't Allow the Wings of Justice 
to Break: Using Unjust Cases to Look at Confessions Extorted Through 
Torture,'' Legal Daily; Guo Hengzhong, ``Coercing Confessions Through 
Torture Seriously Violates Human Rights, Perfecting the System Should 
Be a Matter of Vital Urgency''; ``The `Nie,' `She' Cases in Lawyers' 
Eyes: Rethinking Necessary Before Judicial System Can Be Improved,'' 
Criminal Defense Net.
    \77\ Ibid. Under current Chinese law and judicial interpretations, 
judges have the discretion to exclude illegally obtained evidence, and 
such evidence may not form the basis for a judgment. However, they are 
not required to exclude such evidence. SPC Interpretation on Several 
Issues Regarding Implementation of the PRC Criminal Procedure Law 
[Zuigao renmin fayuan guanyu zhixing zhonghua renmin gongheguo xingshi 
susongfa ruogan wenti de jieshi], issued 29 June 98. One Procuratorate 
Daily article argues that illegally obtained evidence should not be 
excluded, provided the evidence can be verified. Fu Kuanzhi, ``Three 
Essential Elements That Must Be Put Forth to Put a Stop to Torture.''
    \78\ For law enforcement emphasis on supervision, see e.g., 
``Return of `Murdered Wife' Calls China's Judicial System in 
Question,'' People's Daily; ``China Exclusive: All 3,000 Police Chiefs 
to Hold Face-to-Face Meetings With Petitioners,'' Xinhua, 18 May 05 
(FBIS, 18 May 05); Jiang Hong, ``Commentary: Use Vigorous Legal 
Supervision to Prevent Incorrect Cases''; and SPP rectification 
campaigns noted earlier in this section.
    \79\ Cao Desheng, ``Rights Infringements in Focus.''
    \80\ ``Jiangxi Fuzhou: Make Inquiries a Required Procedure in 
Examining Arrests,'' Procuratorate Daily (Online). Prosecutors 
typically only review a paper file of cases when approving the formal 
arrest of criminal suspects.
    \81\ ``Supreme People's Procuratorate Confirms Emphasis of 
Investigative Supervision This Year'' [Zuigaojian queding jinnian 
zhencha jiandu zhongdian], Legal Daily (Online), 17 May 05.
    \82\ ``China Exclusive: All 3,000 Police Chiefs to Hold Face-to-
Face Meetings With Petitioners in 3 Months,'' Xinhua.
    \83\ Bradley S. Klapper, ``UN: China Allows First Probe on 
Torture,'' Associated Press, 23 August 05, reprinted in Washington Post 
(Online), 23 August 05.
    \84\ ``Confessions Extracted Through Torture May Not Be Used as 
Evidence: On May 1, Sichuan Province Experiments With `Several Opinions 
Regarding the Standardization of Criminal Evidence Work' '' [Bichulai 
de kougong bu neng zuowei zhengju, Sichuan sheng 5 yue 1 hao qi shixing 
``Guanyu xingshi zhengju gongzuo de ruogan yijian''], Procuratorate 
Daily (Online), 13 April 05. Several Chinese legal scholars have 
expressed concern that the rule does not go far enough, and that 
external checks on abuse and better evidentiary standards are 
necessary. Qin Ping, ``How Local Criminal Evidence Standards Guarantee 
Implementation of the Criminal Procedure Law'' [Difang de xingshi 
zhengju guifan ruhe baozhang xingshi susongfa de zhixing], Legal Daily 
(Online), 22 April 05. In the first case under the new rules, a Chengdu 
court reportedly held a hearing on a defendant's complaint that police 
coerced his confession through torture and found that the allegation 
was unsubstantiated. Gu Ping, Li Zhen, ``Is It Torture or Not? Police 
Go To Court to Present Evidence'' [Shifou xingxun bigong, jingcha 
chuting zhizheng], Procuratorate Daily (Online), 6 June 05.
    \85\ Scholars from the Procedural Research Center at the Chinese 
University of Politics and Law in Beijing designed the project and 
chose Haidian district, Beijing; Baiyin district, Gansu; and Jiaozhu 
city, Henan, as the three pilot districts. ``When Suspects Are 
Interrogated, They May Request Audio or Videotaping'' [Xianyiren 
shoushen ke shenqing luyin luxiang], Legal Daily (Online), 8 May 05. 
Under the program, suspects are reportedly informed of their rights and 
given the choice of having a lawyer present free of charge, having the 
interrogation audiotaped or videotaped, or proceeding without any of 
the above. ``Beijing Haidian Police Experiment With Having Lawyers 
Present During Interrogation, Take Strict Precautions Against Torture'' 
[Beijing haidian jingfang shixing lushi pangting shenxun zhi, yanfang 
xingxun bigong], China East Day (Online), 20 May 05.
    \86\ Liao Weihua, ``Many Sides Promote the Ten-year Major Amendment 
of the Criminal Procedure Law, Consensus on Guarding Against 
Confessions Coerced Through Torture'' [Duofang tuidong xingsufa shinian 
daxiu, fangfan xingxun bigong cheng gongshi], Beijing News (Online), 13 
July 05.
    \87\ Ibid.
    \88\ Ibid.
    \89\ For a discussion of corresponding amendments to the PRC 
Criminal Procedure Law that are under consideration, see Liao Weihua, 
``Many Sides Promote the Ten-year Major Amendment of the Criminal 
Procedure Law''; ``China's `Criminal Procedure Law' Will Again Undergo 
Large-Scale Amendment [Zhongguo ``xingshi susongfa'' jiang zaici 
jinxing daguimo xiuding], Procuratorate Daily (Online), 12 October 04; 
Li Yu, ``Reforms for More Rights,'' Beijing Review (Online), 25 
November 04. Several Chinese sources suggest that the Sichuan evidence 
experiment will accelerate the implementation of a similar rule at the 
national level. Qin Ping, ``How Local Criminal Evidence Standards 
Guarantee Implementation of the Criminal Procedure Law''; ``Lawyers at 
Interrogations Can Protect Suspect's Rights and Interests, Represents 
Rule of Law Progress'' [``Lushi zai chang'' ke baohu xianyiren quanyi, 
biaozhi fazhi jinbu], Beijing Times, available on ACLA Defense Lawyer 
Net, 23 May 05.
    \90\ See, e.g., ``Suggestions for Enhancing the Rights of 
Lawyers,'' China Legal Publicity (Online); Li Yu, ``Reforms for More 
Rights''; Cheng Jishan, ``Radical Measures to Policies Eliminate The 
Extortion of Confessions Through Torture''; Qin Ping, ``How Local 
Criminal Evidence Standards Guarantee Implementation of the Criminal 
Procedure Law''; ``China Needs Better Enforcement of Ban on Torture--
Lawyers,'' Wall Street Journal (Online), 14 April 05; Guo Hengzhong, 
``Coercing Confessions Through Torture Seriously Violates Human Rights, 
Perfecting the System Should Be a Matter of Vital Urgency''; Wang 
Changfeng, ``Assistance of Lawyers From the First Moment'' [Di yi 
shijian hou de lushi bangzhu], Legal Daily (Online), 2 June 05.
    \91\ Liao Weihua, ``Many Sides Promote the Ten-year Major Amendment 
of the Criminal Procedure Law.''
    \92\ PRC Criminal Procedure Law, arts. 33, 34; Regulations on Legal 
Aid, issued 16 July 03, art. 12.
    \93\ PRC Criminal Procedure Law, art. 34; Regulations on Legal Aid, 
chapter 2.
    \94\ State Council Information Office, ``China's Human Rights 
Progress in 2004,'' April 2005 (FBIS, 13 April 05).
    \95\ Chinese sources generally cite a figure of 30 percent for 
defense representation. See, e.g., ``Don't Allow the Wings of Justice 
to Break: Using Unjust Cases to Look at Confessions Extorted Through 
Torture,'' Legal Daily; Guo Xiaoyu, ``Lawyers Appeal: Abolish `The 
Crime of Lawyer Evidence Fabrication' '' [Lushi huyu: quxiao ``lushi 
weizhengzui''], Legal Daily (Online), 1 June 05; Wang Changfeng, 
``Assistance of Lawyers From the First Moment''; Wang Yu, Yu Nayang, 
``Lawyers: We Are Fighting For Our Own Rights'' [Lushi: Women bu shi 
zai wei ziji zheng quanli], Legal Daily (Online), 16 June 05. However, 
one source cites figures as low as a 20 percent. Liao Weihua, ``Lawyers 
Right to Be Present Should Be Guaranteed in Amendments'' [Lushi 
zaichangquan ying xiufa quebao], Beijing News (Online), 17 May 05. 
According to one Western researcher, Chinese counterparts privately 
suggest that the official 30 percent figure for defense representation 
is too high. Commission Staff Interview.
    \96\ Ibid.
    \97\ PRC Criminal Procedure Law, art. 96.
    \98\ Commission Staff Interview; UNWGAD Report, para. 36; ``Lawyers 
Law Prepared for Changes'' [Lushifa yunniang bianlian], Beijing News 
(Online), 16 May 05; Wang Changfeng, ``Assistance of Lawyers From the 
First Moment''; Hu Cong, ``Tighter Rein on Law Enforcement Demanded.''
    \99\ Commission Staff Interview. The public security authorities 
reportedly argued that such meetings were ``inappropriate'' or 
``inconsistent with Chinese law.''
    \100\ Tan Weiping, ``Beijing: More Than 80 percent of Criminal 
Defendants Don't See a Lawyer Within 48 Hours'' [Beijing: guo 8 cheng 
xianfan 48 xiaoshi nei jianbudao lushi], Beijing Youth Daily, reprinted 
in ACLA Defense Lawyer Web site, 31 May 05. Another survey reportedly 
revealed that only 4.6 percent of suspects were able to meet with their 
lawyers within the first three days of detention. Wang Changfeng, 
``Assistance of Lawyers From the First Moment.''
    \101\ Tan Weiping, ``Beijing: More Than 80 percent of Criminal 
Defendants Don't See a Lawyer Within 48 Hours.''
    \102\ Commission Staff Interview.
    \103\ Law in Political Transitions, Written Statement submitted by 
Jerome A. Cohen. Under Article 36 of the CPL, the defense may not 
examine and duplicate official materials related to the case until 
after the case is transferred to the procuratorate for prosecution.
    \104\ Commission Staff Interview. See also, e.g., UNWGAD Report, 
para. 35; ``Lawyers Law Prepared for Changes,'' Beijing News; 
``Suggestions for Enhancing the Rights of Lawyers,'' China Legal 
Publicity; Wu Nanlan, ``Groups Call for Lawyers' Right to 
Investigate,'' China.org, 23 May 05 (FBIS, 24 May 05).
    \105\ PRC Criminal Procedure Law, art. 37.
    \106\ Li Weihua, ``Deep Analysis of `Today's Court Hearings Have No 
Witnesses' '' [``Jinri tingshen wu zhengren'' de shenceng pouxi], 
Democracy and Law, No. 4 (2005), reprinted in Guangming Net (Online), 3 
April 05; Qin Ping, ``How Local Criminal Evidence Standards Guarantee 
Implementation of the Criminal Procedure Law''; Ji Xiangde, 
``Commentary: Let Witnesses Come to Court and Testify, Most Needed Are 
Systemic Guarantees,'' Procuratorate Daily (Online), 7 December 04 
(noting that only 5 percent of witnesses appear at criminal trials, and 
citing the shocking example of Nanning, Guangxi province, where the 
rates of witness attendance at criminal trials were 0.33 percent, 0.7 
percent, and 1.27 percent for the years 2000, 2001, and 2002, 
respectively).
    \107\ According to the report, police have even tortured witnesses 
in some cases. Li Weihua, ``Deep Analysis of `Today's Court Hearings 
Have No Witnesses.' ''
    \108\ Under the CPL, ``the testimony of a witness may be used as 
the basis in deciding a case only after the witness has been questioned 
and cross-examined in the courtroom by both sides.'' PRC Criminal 
Procedure Law, art. 47.
    \109\ Wan Xingya, ``Requirement That Witnesses Appear in Court to 
Testify Will Be Written into the New Criminal Procedure Law'' [Zhengren 
yao chuting zuozheng jiang xiejin xin xingshi susongfa], China Youth 
Daily, reprinted in Defense Lawyer Net, 8 August 05.
    \110\ Guo had represented journalists, Falun Gong practitioners, 
and imprisoned attorney Zheng Enchong. The Shanghai Justice Bureau 
reportedly accused Guo of ``on several occasions adopting positions and 
making statements contrary to the law and the Constitution'' and 
``defiling and slandering'' the Communist Party and government. 
Reporters Without Borders Press Release, ``Lawyer for Several 
Journalists and Cyberdissidents Banned From Practising for One Year,'' 
4 March 05; Bill Savadove, `` `Accidental Activist' Under House 
Arrest,'' South China Morning Post, 16 March 05 (FBIS, 16 March 05).
    \111\ Jian Fa, ``Independence Called for Lawyers,'' Beijing Review, 
October 2004; UNWGAD Report, para. 37; Guo Xiaoyu, ``Lawyers Appeal: 
Abolish `The Crime of Lawyer Evidence Fabrication.' ''
    \112\ Wang Ying, ``The Irregular Publication of a Criminal Defense 
Lawyer Work Environment Survey Report'' [Xingbian lushi zhiye 
zhuangkuang diaocha baogao de fei zhengchang gongbu], 21st Century 
Business Herald (Online), 11 August 04. According to the Legal Daily, 
of 23 cases of lawyer evidence fabrication that have actually gone to 
trial, the lawyer was found innocent or the case was withdrawn in 11 
cases; the lawyer was found guilty in 6 cases; the lawyer avoided 
criminal punishment in 1 case; and 5 cases have not yet been concluded. 
Guo Xiaoyu, ``Lawyers Appeal: Abolish `The Crime of Lawyer Evidence 
Fabrication.' ''
    \113\ Jian Fa, ``Independence Called for Lawyers.''
    \114\ Although there was domestic discussion of removing Article 
306 from the Criminal Code last year, there has been no news of further 
steps to repeal the controversial provision. During a recent NPCSC 
inquiry, lawyers renewed their calls for repeal of Article 306. Guo 
Xiaoyu, ``Lawyers Appeal: Abolish `The Crime of Lawyer Evidence 
Fabrication.' '' For a compilation of more than 27 cases involving 
lawyer detentions, see Stacy Mosher, ``In Custody, Lawyers in 
Detention,'' China Rights Forum, No. 2, 2005, 100-5.
    \115\ Wang Ying, ``The Irregular Publication of a Criminal Defense 
Lawyers Work Environment Survey Report.'' According to the article, the 
initial results are said to have ``shocked people,'' with one observer 
noting that the problems were worse than they thought possible. In 
response, the Beijing Justice Bureau reportedly blocked publication of 
the initial survey results and refused applications to continue the 
research program in 2003 and 2004.
    \116\ ``Lawyers Law Prepared for Changes,'' Beijing News; `` `Nie 
Shubin Murder Case' Still Unresolved,'' Southern Weekend; ``What It 
Means to Be a Lawyer: A Special Interview With Zhang Sizhi'' [Zuo yige 
lushi gai zuo de shiqing: zhuanfang Zhang Sizhi], Southern Window, 
reprinted in Sina.com, 15 October 04.
    \117\ Yan Yongwei, ``Liaoning Establishes Provisions Requiring Case 
Handling Organs to Guarantee Arrangements for Lawyer Meetings Within 48 
Hours'' [Liaoning chutai guiding yaoqiu banan jiguan baozhang lushi 
huijian 48 xiaoshi nei anpai], Legal Daily (Online) 16 November 04; 
``When Suspects Are Interrogated, They May Request Audio or 
Videotaping,'' Legal Daily.
    \118\ Prosecutors approved the arrest of 811,102 suspects and 
refused to approve the arrest of 67,904 suspects in 2004. Suspects thus 
had a 7.7 percent chance that prosecutors would reject public security 
applications for a formal arrest in 2004. Prosecutors decided to indict 
867,186 suspects and refused to indict 21,554 suspects in 2004. Once 
prosecutors approved an arrest, therefore, suspects had only a 2.4 
percent chance that prosecutors would decide not to proceed to trial. 
SPP Work Report, 9 March 05. By contrast, criminal courts of first 
instance convicted defendants in 99 percent of cases. See infra, 
Fairness of Criminal Trials and Appeals.
    \119\ ``Suggestions for Enhancing the Rights of Lawyers'' China 
Legal Publicity. See also Wang Yu, Yu Nayang, ``Lawyers: We Are 
Fighting For Our Own Rights''; Guo Xiaoyu, ``Lawyers Appeal: Abolish 
`The Crime of Lawyer Evidence Fabrication.' ''
    \120\ ``Lawyers Law Prepared for Changes,'' Beijing News; ``China's 
`Criminal Procedure Law' Will Again Undergo Large-Scale Amendment,'' 
Procuratorate Daily.
    \121\ Criminal courts of first instance completed the trials of 
770,947 defendants in 2004 and found only 2,996 defendants (0.4 
percent) not guilty. An additional 12,345, or 1.6 percent, of 
defendants ``avoided criminal punishment.'' SPC Work Report, 8 March 
05. Some Chinese commentators questioned whether high convictions rates 
should be viewed as a sign of law enforcement effectiveness. Wang 
Songmiao, ``Commentary: Looking at 100 percent Conviction Rates 
Discriminately'' [Pinglun: bianzheng kandai 100 percent de youzui 
juelu], Procuratorate Daily (Online), 25 May 05.
    \122\ Criminal courts heard 644,248 first instance criminal cases 
in 2004 and completed appeals in 96,204 criminal cases. SPC Work 
Report, 8 March 05. ``2004 Situation of the Adjudication of Second 
Instance Cases in the Nation's Courts'' [2004 quanguo shenli gelei 
ershen anjian qingkuang], China Court Web site, 4 October 05.
    \123\ Appeals courts changed the original judgment in 12,730, or 
13.2 percent, of all cases heard on appeal. In addition, courts changed 
judgments in 1,371 criminal cases that were given an additional 
rehearing under court adjudication supervision procedures. In total, 
appeals courts canceled 2.1 percent of the first instance verdicts in 
the 644,248 total criminal cases adjudicated in 2004. SPC Work Report, 
8 March 05. In China, prosecutors may appeal a ``not guilty'' verdict, 
but given the conviction rate of more than 99 percent in first instance 
cases, it is assumed that almost all of the 96,204 cases heard on 
appeal involved guilty verdicts at the trial level. In addition to 
changing the verdict in 12,730 cases, appeals courts sent 6,198 cases 
back to trial courts for retrial.
    \124\ In at least one prior year in which a similar number of cases 
were ``changed'' or sent back for retrial, court statistics indicate 
that the total conviction rate in all cases, including appeals and 
rehearings, was over 99 percent. 2002 China Law Yearbook [2002 Zhongguo 
falu nianjian], (Beijing: Legal Press, 2003), 144, 1240. This suggests 
that few verdicts are ``changed'' to not guilty and that few defendants 
are exonerated after retrials. As discussed later in this section, 
recent Chinese media accounts also suggest that trial courts commonly 
reconvict defendants on retrial.
    \125\ PRC Criminal Procedure Law, arts. 182, 203-7.
    \126\ Under Chinese law, procuratorates may be required to pay 
criminal compensation for wrongful arrest and prosecution if defendants 
are found not guilty. PRC State Compensation Law, enacted 12 May 1994, 
art. 15.
    \127\ PRC Criminal Procedure Law, arts. 203-4. A court has the 
discretion to decide whether an adjudication supervision petition from 
a defendant meets the legal requirements for a retrial. In contrast, 
Article 205 requires a retrial when a people's procuratorate requests 
adjudication supervision.
    \128\ Ge Lin, ``Why a Not Guilty Verdict is a Rarity of Rarities.''
    \129\ See, e.g., Liu Binglu, ``Misuse of Retrials Is a Major Reason 
for Unjust Cases'' [Lanyong fahui chongshen shi zhi yuanan zhuyin], 
Beijng News (Online), 4 April 05; Che Hao, ``Looking at `Repeat 
Prosecutions' in the Criminal Process as `Judicial Marathons' '' [Cong 
`sifa malasong' kan xingsuzhong de `chongfu zhuisu'], 21st Century 
Business Herald (Online), 6 December 04; ``The `Nie,' `She' Cases in 
Lawyers' Eyes: Rethinking Necessary Before Judicial System Can Be 
Improved,'' Criminal Defense Net; Ge Lin, ``Why a Not Guilty Verdict is 
a Rarity of Rarities.''
    \130\ Liu Binglu, ``Misuse of Retrials Is a Major Reason for Unjust 
Cases''; ``Don't Allow the Wings of Justice To Break: Using Unjust 
Cases to Look at Confessions Extorted Through Torture,'' Legal Daily; 
Veron Mei-Ying Hung, ``Judicial Reform in China: Lessons from 
Shanghai,'' Carnegie Endowment for International Peace, No. 58 (April 
2005), 17.
    \131\ For examples of such cases, see Tang Weibin, ``Hebei She 
Xianglin `Wife Murder' Case: One Unjust Case, Three Points to Rethink'' 
[Hebei She Xianglin ``shaqi'' an: yi qi yuanan, san dian fansi], 
People's Daily (Online), 8 April 05. For other examples, see ``Don't 
Allow the Wings of Justice to Break: Using Unjust Cases to Look at 
Confessions Extorted Through Torture'' Legal Daily; ``Why Aren't Eight 
Years of Unjust Imprisonment Being Compensated? '' Legal Daily; Wang 
Ying, ``The Irregular Publication of a Criminal Defense Lawyer Work 
Environment Survey Report''; ``The `Nie,' `She' Cases in Lawyers' Eyes: 
Rethinking Necessary Before Judicial System Can Be Improved,'' Criminal 
Defense Net; ``Analyzing the Xu Jingxiang Unjust Case,'' China Youth 
Online.
    \132\ See, e.g., Liu Binglu, ``Misuse of Retrials Is a Major Reason 
for Unjust Cases''; ``The `Nie,' `She' Cases in Lawyers' Eyes: 
Rethinking Necessary Before Judicial System Can Be Improved,'' Criminal 
Defense Net.
    \133\ Tian Yu, ``Court Reforms in 2005: People's Assessors Begin 
Work May 5'' [2005 nian fayuan gaige: renmin peishenyuan `wuyi' 
shanggang], People's Court Net (Online), 14 February 05.
    \134\ `` `Nie Shubin Murder Case' Still Unresolved,'' Southern 
Weekend (quoting the judge in the original case as stating, ``Now, I 
can't say whether this case was correct or not. It's determined by what 
the leaders say. Whatever the leaders say is what I decide.''); 
Commission Staff Interview.
    \135\ Tang Weibin, Li Changzheng, ``How Do Unjust Cases Come About? 
Following the Trail of Hubei's She Xianglin `Wife Murder' Case''; Wang 
Yijun, Yang Siyuan, ``Xu Jingxiang, From A Sentence of 16 Years to 
Innocence and Liberation,'' [Xu Jingxiang: cong panxing 16 nian dao 
wuzui jiefang], China Youth Online, 10 May 05; ``14 Years of An Unjust 
Case of Wife Murder, `Liaoning's She Xianglin' Li Huawei Obtains State 
Compensation,'' People's Daily; ``The `Nie,' `She' Cases in Lawyers' 
Eyes: Rethinking Necessary Before Judicial System Can Be Improved,'' 
Criminal Defense Net. For a recent discussion of Party interference 
based on a detailed study of courts in Shanghai, see Hung, ``Judicial 
Reform in China: Lessons from Shanghai,'' 17.
    \136\ ``China Hints at Death Penalty Reform,'' China Daily, 10 
March 05 (FBIS, 10 March 05).
    \137\ For an explicit reference to the ``execute fewer, execute 
cautiously'' policy by a public security official, see Yang Zhongmin, 
``Substitute Death Sentences That Are Immediately Executed With 
Suspended Sentences'' [Yi `sihuan' tidai `sixing liji zhixing'], 
Southern Weekend (Online), 17 March 05. According to one Chinese 
source, the number of death sentences in China has dropped every year 
since 1997 except in 2001, the year China launched a new ``strike 
hard'' campaign, and the number of death sentences in 2004 was a little 
more than half the highest yearly total recorded previously. ``SPC 
Draws Up Draft to Take Back Death Penalty Review Power, Cautiously 
Using the Death Penalty is in Accord With the Spirit of the Law'' 
[Gaofa si shouhui sixing fuhequan, shenyong sixing fuhe lifa jingshen], 
People's Daily (Online), 18 November 04.
    \138\ ``PRC Foreign Ministry Spokesman Defends Keeping PRC 
Execution Statistics Secret,'' Agence France-Presse, 5 February 04 
(FBIS, 5 February 04).
    \139\ Domestic sources that hint at the annual number of executions 
conflict. In March 2004, an NPC delegate suggested that Chinese courts 
issue death sentences for immediate execution in ``nearly 10,000 cases 
per year.'' ``41 Representatives Jointly Sign Proposal for the Supreme 
People's Court to Take Back the Power of Death Penalty Approval'' [41 
daibiao lianming jianyi, zuigao renmin fayuan shouhui sixing hezhun 
quan], People's Daily (Online), 10 March 04. A recent Chinese report 
indicated that provincial high people's courts review nearly 90 percent 
of all death sentences, which means that about 10 percent of such 
reviews are conducted by the SPC. ``Conference on Ways for the Supreme 
People's Court to Take Back the Power of Death Penalty Review Opens'' 
[``Zuigao renmin fayuan shouhui sixing fuhequan zhi duici'' yantaohui 
zhaokai], Defense Lawyer Net, 1 June 05. According to the 2004 Supreme 
People's Court Work Report, the SPC reviewed 300 death sentences in 
2003. SPC Work Report, 9 March 04. Taken together, these figures 
suggest that China issues about 3,000 death sentences annually.
    \140\ For the debate over the death penalty, see, e.g., ``Special 
Program: Should the Death Penalty Continue or Be Abolished? Experts, 
Netizen Views Collide'' [Tebie cehua: sixing shi cun shi fei? Zhuanjia, 
wangyou guandian pengzhuang], People's Daily (Online), 20 January 05; 
``Opinions Differ: Debate Over Death Penalty Reform Followed With 
Interest'' [Yijian buyi, sixing gaige lunzhen ling ren guanzhu], China 
News Weekly, reprinted in Southern Weekend (Online), 31 January 05; Hu 
Cong, ``Court Gets Back Power of Death Reviews,'' China Daily, 14 March 
05 (FBIS, 14 March 05); ``Legal Redemption for Erroneous Death 
Sentences'' [Sixing wupan de falu jiushu], Modern Bulletin (Online), 16 
March 05; ``Experts Recommend That Death Penalty Reviews Establish 
Hearing Phase to Avoid Judicial Corruption'' [Zhuanjia jianyi sixing 
fuhe she tingzheng huanjie bimian sifa fubai], Beijing Youth Daily, 
reprinted in People's Daily (Online), 28 March 04.
    \141\ Ibid.
    \142\ Yang Tao, ``In Abolishing or Retaining the Death Penalty, We 
Can't Ignore Public Opinion'' [Sixing cunfei buke hushi minyi], China 
Youth Online, 26 January 05; ``Eliminating the Death Penalty Means 
Weakening the Cost of Retribution for Wrongdoing'' [Feichu sixing yiwei 
zhe xueruo zuifan wei zuinie suo fuchu de daijia], Beijing News, 
reprinted in Peoples Net (Online), 6 February 05; ``Who Will Benefit 
From Reducing Capital Punishment,'' Beijing Review (Online), 16 
February 05.
    \143\ ``Eliminating the Death Penalty Means Weakening the Cost of 
Retribution for Wrongdoing,'' Beijing News; ``China Hints at Death 
Penalty Reform,'' China Daily; ``Backgrounder: Death Penalty in 
China,'' Xinhua, 14 March 05 (FBIS, 14 March 05); ``China Not to 
Abolish Death Penalty: Premier,'' Xinhua, 14 March 05 (FBIS, 14 March 
05); ``Supreme People's Court Demands Strict Grasp of `Death Penalty' 
'' [Zuigaofa yaoqiu yange bahao ``sixing'' guan], People's Daily 
(Online), 20 July 05.
    \144\ ``Who Will Benefit From Reducing Capital Punishment? '' 
Beijing Review; Hu Cong, ``Court Gets Back Power of Death Reviews''; 
Yang Zhongmin, ``Substitute Death Sentences That Are Immediately 
Executed With Suspended Sentences'' [Yi ``sihuan'' tidai ``sixing'' 
liji zhixing], Southern Weekend (Online), 17 March 05.
    \145\ See e.g., ``Central Government To Take Back Power to Review 
Death Sentences Next Year,'' Chengdu Daily (Online), 13 August 05. 
While the CPL requires the SPC to review all death sentences, the SPC 
has delegated this power in cases involving rape, murder, and certain 
other crimes to provincial high courts. Chinese experts have long 
argued that this system is both unlawful and problematic, since high 
courts serve as both courts of second instance and reviewing courts. 
For a more detailed discussion of expert objections to high court 
review of death sentences, see CECC, 2004 Annual Report, 24 and 
accompanying notes.
    \146\ ``Change of Review on Death Penalty Vital,'' China Daily, 4 
March 05 (FBIS, 4 March 05); ``Next Year, Hopefully a Special Death 
Penalty Review Tribunal Will be Established'' [Mingnian youwang 
zhuanshe sixing fuheting], Beijing News (Online), 3 March 05; ``SPC May 
Establish Review Division in Beijng to Take Back the Power of Death 
Penalty Review'' [Zuigaofa keneng zai Beijing shi fuchating shouhui 
sixing fuhequan], Beijing News (Online), 14 April 05.
    \147\ ``Central Government To Take Back Power to Review Death 
Sentences Next Year,'' Chengdu Daily; Supreme People's Court Will Add 
Three Criminal Tribunals to Cope With Reclaiming the Death Penalty 
Review Power'' [Zuigao renmin fayuan jiang zengshe 3 ge xingting 
yingdui sixing fuhequan shouhui], China Youth Daily (Online), 27 
September 05.
    \148\ Guo Guangdong, `` `Provincial Level' Rights to Review Death 
Sentences Should Be Given an `Abrupt Death' '' [``Shengji'' sixing 
hezhuquan ying yu ``turang siwang''], Southern Weekend (Online), 14 
October 04; Zhao Ling, `` `Nie Shubin Wrongful Murder Case' 
Unresolved.'' For open hearings, see, e.g., Zhou Baofeng, ``Is 
Returning the Power of Death Penalty Review to the Supreme Court 
Enough? ''[Sixing hezhunquan huigui zuigao fayuan jiu gou le ma?], 
Southern Weekend (Online), 28 October 04; ``Experts Recommend That 
Death Penalty Review Establish Hearings Phase to Avoid Judicial 
Corruption,'' Beijing Youth Daily. Under the current system, the court 
reviewing the death sentence typically only reviews a paper file of the 
case.
    \149\ ``Opinions Differ: Debate Over Death Penalty Reform Followed 
With Interest,'' China News Weekly.
    \150\ ``Guangzhou Hospital Expands the Use of Prisoners' Organs for 
Transplant Operations,'' Laogai Research Foundation (Online), 31 March 
05; ``The Harvesting of Executed Prisoners' Organs: Behind the First 
Mafia Case in Central China,'' Laogai Research Foundation Web site, 17 
May 05.
    \151\ Guo Hengzhong, ``Experts Appeal for Quick Legislation on 
Human Organ Transplants'' [Zhuanjia huyu jinkuai jiu renti qiguan yizhi 
lifa], Legal Daily (Online), 3 June 05; Li Qing, Huang Hui, ``Why It Is 
Difficult For Condemned Prisoners to Donate Organs If They Wish'' 
[Sixingfan juan qiguan wehe nanruyuan], Legal Daily (Online), 31 May 
05; ``Two Condemned Prisoners Vie With Each Other to Donate Their 
Kidneys to a Poor Student'' [Liangming sixingfan zhengxiang wei yi 
pinkun xuezi juanxian shenzang], China Youth Online, 20 April 05.
    \152\ Guo Hengzhong, ``Experts Appeal for Quick Legislation on 
Human Organ Transplants.''
    \153\ ``Trading of Human Organs Prohibited,'' Xinhua (Online), 5 
June 05.
    \154\ See, e.g., Xu Lai, ``My Country Has Already Established 2,400 
Juvenile Tribunals, Is Presently Looking at Establishing Juvenile 
Courts'' [Wo guo yi jianli shaonian fating 2400 yu ge, zhengzai 
yunniang chengli shaonian fayuan], China Legal Publicity (Online), 2 
November 04; ``Strengthen Juvenile Crime Research, Protect the Healthy 
Maturation of Juveniles'' [Jiaqiang qingshaonian fanzui yanjiu, baohu 
qingshaonian jiankang chengzhang], Legal Daily (Online), 18 October 04.
    \155\ ``Prisoner Escape Rate Down 96.7 Percent in Decade in 
China,'' Xinhua, 9 December 04 (FBIS, 9 December 04); ``Ministry of 
Justices Opens Second Work Conference on the Expansion of Prison System 
Reforms'' [Sifabu zhaokai di er ci jianyu tizhi gaige kuoda shidian 
gongzuo huiyi], China Legal Publicity (Online), 24 January 05.
    \156\ ``Urgent: Chinese Top Legislature Passes Decision on Expert 
Witness Management,'' Xinhua, 28 February 05 (FBIS, 28 February 05).
    \157\ ``Procuratorial Organs Ferret Out Illegal Sentence 
Reductions, Parole, and Medical Releases Involving More Than 17,000,'' 
CCTV International, reprinted in People's Daily (Online), 29 October 
04.
    \158\ Qin Ping, `` `Major Amendment' or `Minor Adjustment' to the 
State Compensation Law'' [Guojian peichangfa shi ``daxiu'' haishi 
``xiaobu''], Legal Daily (Online), 29 July 05; Cui Li, ``Lawyer's Law 
Amendments Near Completion'' [Lushifa xiugai jin weisheng], China Youth 
Daily, reprinted in Defense Lawyer Net, 18 May 05; Liao Weihua, ``Court 
Set Up Hopefully to Be Separated From Administrative Regions'' [Fayuan 
shezhi youwang yu xingzhengqu huafenli], Beijing News (Online), 29 
November 04.
    \159\ Regulations on the Implementation of People's Supervisor 
System (Trial Implementation) [Guanyu shixing renmin jianduyuan zhidu 
de guiding (shixing)], issued 2 September 03, amended 7 July 04.
    \160\ SPP Work Report, 9 March 05.
    \161\ Directive on the Perfection of the People's Assessor System 
[Guanyu wanshan renmin peishenyuan zhidu de jueding], issued 28 August 
04.
    \162\ Ibid. According to the Directive, judges must form a panel 
with people's assessors for all criminal, civil, and administrative 
cases with considerable social repercussions or cases where litigants 
request the presence of the people's assessors. In other cases, parties 
may apply for people's assessors to serve. It is unclear whether courts 
have the discretion to deny such applications.
    \163\ Li Xiao, ``27,000 People's Assessors to Begin Work `May 1' '' 
[Zhunbei gongcuo jiuxu 2.7 wan ming peishenyuan ``wuyi'' shanggang], 
Fuzhou Daily, 3 March 05.
    \164\ For Chinese attention to the need for international 
cooperation generally, see e.g., ``Chinese Top Legislator Calls for 
Int'l Efforts to Curb Organized Crime,'' Xinhua, 13 September 04 (FBIS, 
13 September 04); Li Weiwei, ``Four Major Trends in the Trafficking in 
Women and Children, Public Security Organs Face Three Challenges'' 
[Guaimai funu ertong chengxian 4 da dongxiang, gongan jiguan mianlin 3 
ge tiaozhan], Xinhua, reprinted in Procuratorate Daily (Online), 15 
February 05. For expanded cooperation with US law enforcement agencies, 
see Matt Pottinger, ``US and China Bridge Divisions to Fight Crime,'' 
Wall Street Journal, 3 March 05, A11.
    \165\ Commission Staff Interviews. For news reports on some of 
these programs, see, e.g., Jiang Anjie, Zhao Yang, ``17th International 
Penal Law Conference Opens in Beijing'' [Di shiqi jie guoji xingfaxue 
dahui zai jing zhaokai], Legal Daily (Online), 13 September 04; ``US-
China `Criminal Defense Lawyer Training' Opens in Guangzhou'' [Zhongmei 
``xingshi bianhu lushi peixun guanmohui'' zai Guangzhou zhaokai], 
People's Daily (Online), 1 November 04; Liu Li, ``All Rise: China 
Beijing Gets Taste of US Courtroom,'' China Daily (Online) 13 May 05; 
``World Legal Professionals Gather for Beijing Conference,'' Xinhua 
(Online), 5 September 05. Some Western NGOs reported obstacles with 
implementing criminal justice and other legal programs beginning in 
early 2005. Commission Staff Interviews and Correspondence.
    \166\ Commission Staff Interviews and Correspondence.
    \167\ Bradley S. Klapper, ``UN: China Allows First Probe on 
Torture.''
    \168\ ``The ICRC in China,'' International Committee for the Red 
Cross Web site, 20 July 05.
    \169\ ``China and UN Rights Office Agree on Cooperation To Help 
Country Implement, Ratify Rights Covenants,'' United Nations Press 
Release, 31 August 05.
    \170\ The cooperation program outlined in the Memorandum reportedly 
includes the projects to assist China find alternative measures to 
imprisonment; help the country revise its Criminal Procedure Law, its 
Lawyers Law, and any other related laws and regulations, facilitate 
capacity building of civil society, and incorporate human rights 
education into school and public service curricula. Ibid.
    \171\ As the UN High Commissioner arrived in China, authorities 
detained writer Liu Xiaobo, Internet dissident Liu Di, and political 
theorist Zhang Zuhua, and raided the office of the Empowerment and 
Rights Institute, a human rights advisory group. ``HRIC Statement on UN 
High Commissioner for Human Rights Visit to China,'' Human Rights in 
China Press Release, 31 August 05. According to other reports, police 
also detained and beat AIDS activist Hu Jia. ``Chinese Police Beat Up 
AIDS Activist During UN Rights Visit,'' Radio Free Asia (Online), 31 
August 05.
    \172\ China made these commitments in negotiations with the United 
States. A Global Review of Human Rights: Examining the State 
Department's 2004 Annual Report, Hearing of the Subcommittee on Africa, 
Global Human Rights, and International Operations of the House 
Committee on International Relations, 17 March 05, Oral Statement of 
Michael Kozak.

    Notes to Section III(c)--Protection of Internationally Recognized 
Labor Rights
    \1\ The last figure for labor protests that the Chinese state 
released was 100,000 for the year 1999. Despite the government's 
efforts to limit reporting on labor protests since 2001, ``it has 
nonetheless been possible to collect information on nearly 200 separate 
incidents between 1994 and 2004 from the many thousands of unreported 
events that actually took place. . . . Indeed, the few episodes that 
made it into the media beyond the Chinese mainland usually involve such 
protests as railway lay-ins or blockages of major urban thoroughfares, 
assaults on and clashes with authorities, detentions and arrests.'' 
Dorothy Solinger, ``China is No Workers' Paradise,'' Bangkok Post, 
reprinted in Asian Labour News (Online), 12 February 05. As Tim Johnson 
points out, one of the reasons for worker discontent is the ``disregard 
for labor law.'' Tim Johnson, ``Labor Unrest: Migrant Workers Shun 
Factory Region in China,'' Detroit Free Press (Online), 13 September 
04.
    \2\ The closure of state-owned enterprises (SOEs) often produces 
corruption when factory officials embezzle the assets of the closed SOE 
and leave workers without pay or jobs. For example, in December 2004, 
thousands of workers in Luzhou, Sichuan blocked traffic and surrounded 
factory officials after a chemical plant was closed. Embezzlement by 
factory officials had reportedly bankrupted the factory, which had not 
paid its workers for months. After three days of clashes with 1,000 
anti-riot police, a number of workers were arrested. ``Ming Pao Reports 
Large Scale Worker Protest Against SOE Corruption in Sichuan,'' Ming 
Pao, 20 December 04 (FBIS, 20 December 04).
    \3\ Lawyers who represent labor protest leaders are often subject 
to harassment by authorities. ``People's Republic of China: Labor 
Unrest and the Suppression of the Rights to Freedom of Association and 
Expression,'' Amnesty International (Online), 30 April 02. Two workers 
were arrested after a non-violent strike at a garment factory and 
sentenced to five and two years in prison. The workers planned to 
appeal their sentences but could not find a lawyer who would agree to 
take their case. ``Two Chinese Labor Activists Get Jail Terms For 
Demanding Wages and Insurance,'' Associated Press (Online), 17 May 05. 
Even when an attorney is available, the chance of a successful outcome 
is low. In Shanghai, some 8,000 workers turned to a legal aid center 
established by East China University of Politics and Law. One of the 
volunteer attorneys said that, ``We do not have very good enforcement 
channels for labor law in China.'' Advocates complain that fines are 
too low to compel employers to obey the law. Tomio Geron, ``Rights for 
China's Workers,'' San Francisco Chronicle (Online), 15 June 05.
    \4\ New national legislation targets the problem of wage arrears. 
According to recently enacted labor regulations, employers who withhold 
workers' wages without good cause and fail to pay the workers within a 
set period shall pay an additional fee of not more than the owed wages. 
Regulations on Labor Security Supervision [Laodong baozhang jiancha 
tiaoli], issued 26 October 04, art. 16. In addition, provincial-level 
legislatures have enacted rules to implement the above Regulations. For 
example, see Zhejiang Provincial Regulations on Labor Security 
Supervision [Zhejiang sheng laodong baozhang jiancha tiaoli], issued 14 
April 05. Similarly, a number of provinces and municipalities have 
enacted new legislation to improve workplace safety. For example, see 
Jiangsu Provincial Regulations on Production Safety [Jiangsu sheng 
anquan shengchan tiaoli], issued 31 March 05.
    \5\ Chinese experts attribute the difficulties in the 
implementation of the Labor Law to changes in socio-economic conditions 
since the enactment of the Labor Law in 1993, in particular, the 
growing diversity and complexity of ownership and employment forms. 
``One Hundred Experts Discuss `Labor Law,' Accompanying Rules and 
Regulations Already Being Drafted'' [Bai ming zhuanjia yantao ``laodong 
fa,'' peitao falu fagui yi zai qicao], Ministry of Justice Web site, 8 
November 04.
    \6\ Zhao Heng, ``Labor Law in Effect for Ten Years: Laborers Still 
at a Loss'' [Laodong fa shixing shi nian: laodongzhe yiran mangran], 
Procuratorate Daily (Online), 7 December 04.
    \7\ ``What Makes Workers Turn Against Their `Union,' '' Southern 
Metropolitan Daily, translated in China Labour Bulletin (Online), 21 
January 05.
    \8\ ``One Hundred Experts Discuss Labor Law,'' Ministry of Justice 
Web site, 8 November 2004.
    \9\ Huang Yong, ``Professor Huang He, NPC Delegate: Labor Law 
Urgently Needs Reform'' [Quanguo renda daibiao huang he jiaoshou: 
laodongfa jidai xiugai], People's Daily (Online), 7 March 05.
    \10\ Zhi Ming, ``China Daily `Opinion': Revamp Rules to Protect 
Interest of Ordinary Workers,'' China Daily (Online), 7 January 05 
(FBIS, 7 January 05).
    \11\ China's top officials renewed calls for stricter supervision 
of coal mine safety after a series of large coal mine accidents in the 
beginning of 2005, including a gas explosion at Sunjiawan coal mine 
that left 216 coal miners dead. Hu Manyun, ``State Safety Supervision 
Bureau Emphasizes: Strictly Investigate the Corruption Behind Coal Mine 
Accidents'' [Guojia anjian zongju qiangdiao: yancha meikuang shigu 
beihou de fubai xianxiang], Southern Metropolitan Daily (Online), 27 
March 05.
    \12\ ``Safety Agency: Tougher Penalties Needed to Curb China's 
Fatal Coal Mine Accidents,'' Xinhua, 5 April 05 (FBIS, 5 April 05).
    \13\ Jonathan Watts, ``Blood and Coal: The Human Cost of Cheap 
Chinese Goods,'' The Guardian (Online), 14 March 05.
    \14\ ``China and the ILO,'' China Labour Bulletin (Online), Issue 
No. 58, January-February 2001.
    \15\ The United States has ratified only two of the eight ILO Core 
Conventions. U.S. State Department officials point out that even 
without ratification the Conventions are essentially already 
incorporated into U.S. law. For an overview of the United States' 
ratification of ILO core conventions, see ``Final Internationally 
Recognized Core Labour Standards in the U.S.,'' Union Network 
International (Online), 4 September 01.
    \16\ For an overview of the relationship between China and the ILO, 
see John Chen, ``China and ILO: Formal Cooperation Masks Rejection of 
Key Labour Rights,'' Asian Labour Update (Online), Issue No. 44, July-
September 2002.
    \17\ ``The ACFTU Wins a Seat in the Workers' Group of the ILO's 
Governing Body in June 2002,'' China Labour Bulletin (Online), Vol. 8, 
2 July 02; ``A Major Defeat for Workers Struggling for Freedom of 
Association in China: HKCTU Statement Concerning the ACFTU's Election 
as a Worker Deputy Member in the ILO Governing Body,'' China Labour 
Bulletin (Online), 12 June 02.
    \18\ PRC Trade Union Law, enacted 3 April 92, amended 27 October 
01, art. 11. Thomas Lum, ``Workplace Codes of Conduct in China and 
Related Labor Conditions,'' Congressional Research Service, April 2003.
    \19\ Stephen Frost, ``China: Facing Reality,'' International Union 
of Food, Agricultural, Hotel, Restaurant, Catering, Tobacco and Allied 
Workers' Associations (IUF) Web site, 10 December 04.
    \20\ PRC Trade Union Law.
    \21\ ``Wang Zhaoguo, ACFTU Chairman'' [Wang zhaoguo, quanguo zong 
gonghui zhuxi], All-China Federation of Trade Unions Web site.
    \22\ According to China's Trade Union Law, the ACFTU shall ``uphold 
the socialist path, uphold the people's democratic dictatorship; uphold 
the leadership of the Chinese Communist Party; uphold Marxist Leninism, 
Mao Zedong thought, and Deng Xiaoping theory . . .'' PRC Trade Union 
Law, art. 4.
    \23\ Han Dongfang, ``It's Our Union--and We Want It Back,'' 
International Union Rights, reprinted in China Labour Bulletin 
(Online), 4 January 05.
    \24\ Tim Pringle, ``Industrial Unrest in China: A Labor Movement in 
the Making? '' China Labour Bulletin, reprinted in Foreign Policy in 
Focus (Online), 20 February 02.
    \25\ Yao Fuxin and Xiao Yunliang remain in prison after being 
identified as leaders of demonstrations in Liaoyang in March 2002. 
``Imprisoned Labor Activist Threatened with End to Family Visits if 
Abuse is Revealed,'' Human Rights in China (Online), 1 December 04.
    \26\ For example, see ``Inner Mongolian Workers' Six-year Fight for 
Unpaid Wages Meets with Police Violence--15 Workers Detained, Several 
Others Injured,'' China Labour Bulletin (Online), 7 July 05; Dorothy 
Solinger, ``Worker Protests in China--Plentiful, but Preempted? '' 
Taipei Times (Online), 18 February 05. For a list of current labor 
prisoners in China, see ``A List of Imprisoned Labour Rights Activists 
in China,'' China Labour Bulletin (Online), 4 June 05.
    \26\ The workers submitted their case for arbitration, but the 
arbitration board charged an arbitration fee of 2,540 yuan per person. 
The application to waive these fees had to be filed by the Chongqing 
Federation of Trade Unions, which refused to file the application. The 
workers then sued the union for blocking their efforts to take their 
case before the arbitration committee. ``Eighty-Three Migrant Workers 
Sue Chongqing Trade Union For Not Acting Responsibly,'' Chongqing 
Morning News, translated in Asian Labour News (Online), 15 January 05; 
``What Makes Workers Turn Against Their `Union,' '' Southern 
Metropolitan Daily.
    \28\ Trini Leung, ``ACFTU and Union Organizing,'' China Labour 
Bulletin (Online), 26 April 02.
    \29\ Lan Xinzhen, ``Multinationals in China are Having to Come to 
Terms With Unions,'' Beijing Review, translated in Asian Labour News 
(Online), 10 December 04.
    \30\ ``ACFTU Ready to Help Wal-Mart Establish Trade Union,'' Xinhua 
(Online), 25 November 04.
    \31\ ``Thirty-Two McDonald's Restaurant in Tianjin Set Up ACFTU 
Trade Union Branches,'' Workers' Daily, reprinted in Asian Labour News 
(Online), 15 January 05.
    \32\ Commission Staff Interview.
    \33\ ``Three Parties Negotiate Minimum Wage Standard For 
Guangzhou,'' Workers' Daily, translated in Asian Labour News (Online), 
2 December 04. The three parties in this case were the provincial 
government, the Guangzhou Enterprise Association, and the Guangzhou 
Foreign Enterprise Association. Both associations argued that raising 
wages for labor-intensive enterprises would place an additional burden 
on these industries in comparison to high-tech companies.
    \34\ ``Guangdong Province Raises Minimum Wage Level,'' China Labor 
Watch (Online), 4 December 04.
    \35\ Tim Johnson, ``Chinese Factory Workers Begin Protesting Low 
Wages, Poor Conditions,'' Monterey Herald, reprinted in Asian Labour 
News (Online), 10 September 04.
    \36\ Chow Chung-Yan, ``Shenzhen Plans to Raise Minimum Wage to 
Solve Labor Shortage,'' South China Morning Post, 5 March 05 (FBIS, 5 
March 05).
    \37\ One factory manager disclosed that he assigned a team of six 
employees to create a fake paper trail. Most foreign companies only see 
the fake records, he commented. ``This is the way of surviving,'' he 
said. ``This is the way of Chinese factories.'' Lauren Foster and 
Alexandra Harney, ``Why Ethical Sourcing Means Show and Tell,'' 
Financial Times (Online), 22 April 05.
    \38\ PRC Labor Law, enacted 5 July 94, arts. 41, 44.
    \39\ ``Working Overtime Prevails in China Amid Swelling Wallets, 
Complaints,'' Xinhua, 15 May 05 (FBIS, 15 May 05).
    \40\ The Chinese now have a name for death from overwork: 
``guolaosi,'' similar to the Japanese, ``karoshi.'' There have been 
several cases of death in the workplace. A female garment worker in 
Guizhou died from what the doctors think was overwork. Her factory had 
recently raised working hours from eight to 12 hours per day. Another 
female worker died after 12 hour shifts, and a male worker died in a 
toy factory because of overwork in the high temperatures. Two other 
female workers died from overwork in Shenzhen and Guangzhou. Stephen 
Frost, ``Guolaosi: Death by Overwork in China,'' Corporate Social 
Responsibility in Asia (Online), 12 November 04; ``12 Hours Per Day 
Kills Female Factory Worker in Nanjing,'' Apple Daily, reprinted in 
Asian Labour News (Online), 12 November 04.
    \41\ ``Steps Requested for Unpaid Salaries and Rights Violations of 
Migrant Workers,'' China Daily, 22 October 04 (FBIS, 22 October 04).
    \42\ Jane Cai, ``State Council Issues Regulation to Make Employers 
Pay Workers a Premium on Delayed Wages,'' South China Morning Post 
(Online), 16 November 04.
    \43\ ``1,000 Shenzhen Workers Block Road to Protest Against Unfair 
Severance Pay,'' Wen Wei Po, 9 January 05 (FBIS, 10 January 05).
    \44\ ``Workers in Shenzhen Factory Hold Owners Hostage Over Back 
Pay,'' Yahoo! News Asia, reprinted in Asian Labour News (Online), 16 
November 04.
    \45\ ``Shenyang Migrant Workers Threaten to Jump from Building,'' 
South China Morning Post (Online), 26 January 05.
    \46\ ``Yantai Worker Li Xintao Was Sentenced to Five Years' 
Imprisonment,'' China Labor Watch (Online), 15 May 05; and Li Qiang, 
``Two Female Workers in Yancheng, Jiangsu Arrested for Opposing `Buy 
and Cut' Severance Pay,'' China Labor Watch (Online), 26 October 04. 
Ten workers were arrested during a strike at Stella's electronic 
factory and were given sentences of up to three and a half years. 
Stella's mangers and some overseas NGOs petitioned the judges however, 
and sentences were reduced to several months. Neil Gough, ``Trouble on 
the Line,'' Time Asia Magazine (Online), 31 January 05.
    \47\ Guo Yali, ``Premier's Intervention Should Not Be Necessary,'' 
China Daily (Online), 23 July 04.
    \48\ ``Zeng Peiyan on Clearing Back Pay, Arrears in Construction at 
Forum in Tianjin,'' Xinhua, 6 January 05 (FBIS, 6 January 05); ``Steps 
Requested for Unpaid Salaries and Rights Violations of Migrant 
Workers,'' China Daily, 22 October 04 (FBIS, 22 October 04).
    \49\ ``JJRB on Back Pay, Wage Arrears in China's Construction 
Sector,'' Economic Daily, 24 September 04 (FBIS, 16 December 04).
    \50\ Fu Jing, ``Zeng: Pay All Owed Wages to Migrant Workers,'' 
China Daily (Online), 24 August 04.
    \51\ Wang Yuqi, ``Government Owes 64.28 Billion Yuan in 
Construction Project Payment,'' Farmers' Daily, 28 August 04 (FBIS, 1 
November 04).
    \52\ Ibid.
    \53\ ``Trade Unions Help Migrant Workers Get Their Back Pay,'' 
Xinhua, reprinted in Asian Labour News (Online), 7 January 05.
    \54\ ``China Helps Migrant Rural Workers Retrieve 99 Percent of 
Defaulted Payments,'' Xinhua, 21 April 05 (FBIS, 21 April 05).
    \55\ Shirley Wu, ``PRC Trade Union Says Migrant Workers Owed 100 
Billion Yuan in Back-Pay,'' South China Morning Post, 10 June 05 (FBIS, 
10 June 05); see also, ``Migrant Laborers Suspect `High Rate of 
Repayment' '' [Nongmingong zhiyi ``gao qingqian lu''], Beijing News 
(Online), 26 May 05.
    \56\ Commission Staff Interview.
    \57\ Wu Yixie, ``PRC Officials: Poor Safety Awareness, Equipment 
Major Factors in Construction Accidents,'' China Daily, 29 April 04 
(FBIS, 29 April 04).
    \58\ Xing Zhigang, ``Officials, Experts Criticize `Rampant 
Negligence' of Work Safety,'' China Daily, 3 December 04 (FBIS, 3 
December 04); ``Workplace Tragedies Continue to Make Headlines,'' China 
Labour Bulletin (Online), 22 June 05.
    \59\ Liang Zhi, ``China's Third Evil Force: The News Media,'' New 
Century Net, translated in Asian Labor News (Online), 12 November 04.
    \60\ Robert Marquand, ``New Openness in China Disaster,'' Christian 
Science Monitor (Online), 29 November 04; ``China: Media Highlight 
Problem in Coal Industry,'' Foreign Broadcast Information Service, 9 
May 05 (FBIS, 9 May 05).
    \61\ One observer noted that the ``news media coverage in China of 
the Sunjiawen mine disaster was excellent.'' Stephen Frost, ``A Sketch 
of China's Coal Industry,'' CSR Asia News Weekly (Online), 23 February 
05; Xing Zhigang, ``Officials, Experts Criticize `Rampant Negligence' 
of Work Safety,'' China Daily, 3 December 04 (FBIS, 3 December 04).
    \62\ Fu Jing, ``China to Name Senior Coal Miners as Safety 
Inspectors,'' China Daily, 1 June 05 (FBIS, 1 June 05).
    \63\ Coal Mine Safety in China: Can the Accident Rate Be Reduced?, 
Staff Roundtable of the Congressional-Executive Commission on China, 10 
December 04, Oral Testimony of Dave Feickert, consultant in industrial 
relations, ergonomics and energy.
    \64\ Following the Sunjiawan mine disaster, the vice governor of 
Liaoning province received ``a serious demerit'' and the board chairman 
and general manager of the mine was stripped of his titles. ``Safety 
Agency: Tougher Penalties Needed to Curb China's Fatal Coal Mine 
Accidents,'' Xinhua, 5 April 05 (FBIS, 5 April 05). See also, Nailene 
Chou Wiest, ``PRC Safety Officials Release Coal Miner Death Figures, 
Say Safety Priority,'' South China Morning Post, 6 April 05 (FBIS, 6 
April 05).
    \65\ ``The Value of Miners' Life-Interviews with an Insurance 
Company Manager, Chongqing,'' China Labour Bulletin (Online), 24 July 
04.
    \66\ U.S. Department of Labor, The U.S. Department of Labor and The 
People's Republic of China Sign Four Joint Letters of Understanding, 21 
June 04.
    \67\ Commission Staff Interview.
    \68\ International Labour Office, A Global Alliance Against Forced 
Labour, International Labor Conference, 93rd Session 2005.
    \69\ Most sources place the number of RETL camps at around 300 and 
the number of detainees between 250,000 and 300,000. See, e.g., Randall 
Peerenboom, ``Out of the Frying Pan and Into the Fire,'' 98 
Northwestern University Law Review 991, 1000-01 and accompanying notes 
(2004); Jim Yardley, ``Issue in China: Many in Jails Without Trial,'' 
New York Times (Online), 9 May 05; Can Siu-sin, ``Critics Take Shine of 
Bootcamp Reforms,'' South China Morning Post, 21 March 05. However, a 
May 2005 article in Asia Weekly cites Beijing researchers as confirming 
that there are at least 1 million people in RETL camps. Chiang Hsun, 
``NPC To Replace `Re-education Through Labor System,' Which Has Come 
Under Mounting Criticisms, with `Illegal Conduct Correction System' In 
Order To Protect Human Rights,'' Asia Weekly, 8 May 05 (FBIS, 4 May 
05).
    \70\ ``UN Committee Urges Ban On Forced Labour and Allow 
Independent Trade Unions,'' China Labour Bulletin (Online), 18 May 05.
    \71\ Forced Labor in China, Staff Roundtable of the Congressional-
Executive Commission on China, 22 June 05, Testimony of Harry Wu, 
Executive Director of the Laogai Research Foundation.
    \72\ Jamil Anderlini ``Banks Buy Into Jail-Labour Firm,'' South 
China Morning Post (Online), 17 August 05.
    \73\ Forced Labor in China, Testimony of Gregory Xu, Falun Gong 
practitioner, and researcher on the treatment of Falun Gong 
practitioners in China.
    \74\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, 2004 Country Report on Human Rights Practices: China, 28 
February 05.
    \75\ ``Zhang Fulin Points Out Need to Maintain Correct Direction of 
Prison Reform'' [Zhang fulin zhichu: jianyu tizhi gaige yao baochi 
zhengque de fangxiang], Ministry of Justice Web site, 27 August 04.
    \76\ ``As China's Economy Grows, So Does China's Child Labor 
Problem,'' China Labor Bulletin (Online), 10 June 05.
    \77\ Yan Liang and Lu Zheng, ``Secret Investigation Into Child 
Labor'' [Anfang tonggong], Beijing News (Online), 14 November 04.
    \78\ Ching-Ching Ni, ``China's Use of Child Labor Emerges from the 
Shadows,'' Los Angeles Times (Online), 13 May 05.
    \79\ Regulations on the Specific Scope of State Secrets and the 
Level of Secrecy in Labor and Social Security Work [Laodong he shehui 
baozhang gongzuo zhong guojia jimi ji qi miji juti fanwei de guiding], 
issued 17 January 00, art. 3. For a general discussion on the issue of 
state secrets and labor issues, see Human Rights in China and the China 
Labor Bulletin (Online), Labor and State Secrets, No. 3, 2004.
    \80\ ``Inspection of Labor Guarantee and Rights Protection of Rural 
Workers Concludes: 103 Child Laborers Discovered and Returned'' 
[Mingong laodong baozhang quanyi baohu jiancha jieshu: tonggong qingtui 
103 ge], Longhoo Net (Online), 1 July 04; ``2004 Statistical Report on 
Jiangsu Province Labor and Social Security Project Development: Legal 
Construction and Inspection'' [2004 nian jiangsu sheng laodong he 
shehui baozhang shiye fazhan tongji gongbao: fazhi jianshe he jiancha], 
China Labor Market (Online), 16 June 05; Wang Li, ``Over One Hundred 
Child Laborers Discovered and Returned in Whole Province Last Year'' 
[Qu nian quan sheng qingtui tonggong bai yu ren], Hebei Daily (Online), 
25 May 05.
    \81\ Yan Liang and Lu Zheng, ``Secret Investigation into Child 
Labor.''
    \82\ Huang Runliu, ``Youngsters Sneak Out of Factory to Expose 
Child Labour Scandal,'' South China Morning Post (Online), 15 July 05.
    \83\ ``Official Survey Finds Around Half of China's Fireworks Are 
Sub-Standard and Unsafe,'' China Labour Bulletin (Online), 6 June 05.
    \84\ As Robin Munro, research director of China Labor Bulletin, 
points out, children who drop out of school tend to enter the workforce 
as illegal child workers. Ching-Ching Ni, ``China's Use of Child Labor 
Emerges from the Shadows.''
    \85\ Chinese anti-child labor law and regulations permit 
educational and professional training institutions to organize minors 
under the age of 16 to participate in labor for educational or skills-
training purposes as long as such labor does not harm the physical and 
mental well-being of the minor. Regulations Banning the Use of Child 
Labor [Jinzhi shiyong tonggong guiding], issued 1 December 02, art. 13.
    \86\ ``Middle School Sends a Thousand Students to Construct Road: 
Punishment For Failing to Complete Assignment Is to Do Clean Up'' 
[Zhongxue rang qian ming xuesheng bei tu xiu lu, wan bu cheng renwu jiu 
fa zuo qingjie], Huaxi Metropolitan Daily, reprinted in Sohu (Online), 
25 October 04.
    \87\ Wang Ming, ``The Current Developmental Status and Analysis of 
Private Schools in the Period of Compulsory Education,'' [Yiwu jiaoyu 
jieduan minban xuexiao de fazhan xianzhuang yu fenxi], Research on 
Educational Development (Online), September 2003.
    \88\ ``Private Schools Organize New Students to Collectively Engage 
in Child Labor'' [Minban xuexiao zuzhi xinsheng jiti zuo tonggong], 
Beijing News (Online), 15 September 04.

    Notes to Section III(d)--Freedom of Religion
    \1\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli] 
[hereinafter RRA], issued 7 July 04. The RRA is available on the Xinhua 
Web site. An English translation is available online on the Web site of 
China Elections and Governance, and in Kim-Kwong Chan and Eric R. 
Carlson, Religious Freedom in China (Hong Kong: Hong Kong Institute for 
Culture, Commerce, and Religion, 2005), 78-89.
    \2\ For example, in one county in Anhui province, the local 
Religious Affairs Bureau interpreted its duty to manage religious 
affairs according to law as a mandate to ``resolve hot issues, . . . 
boost the force of management according to law, [and] effectively 
protect political and social stability.'' ``Managing Religious Affairs 
According to Law in Lingbi County'' [Lingbixian yifa guanli zongjiao 
shiwu], Suzhou Municipal Government Web site, 14 June 05. The Bureau 
reported that it used a ``heavy inspection'' process to follow up on 
problems discovered in annual inspection forms submitted by religious 
venues. Then it ``strictly carried out the law'' to address those 
problems. First, it handled 30 cases in which the rights and interests 
of religious people and entities had been violated. Second, it worked 
with the county police to break up illegal activities, including 119 
unauthorized meetings (most likely house church meetings). Of these, 
the Bureau caused 38 to merge with ``legal'' religious venues, and 
banned the other 81. It also seized 21 evangelical preachers, 
``educating and reforming'' 16 of them, and putting the other five into 
administrative detention. It found 23 centers of ``cult activity.'' Of 
the 38 people seized in these centers, the Bureau detained four for 
criminal prosecution, put 22 into administrative detention, and 
detained four for criminal prosecution.
    \3\ Nailene Chou Wiest, ``Religious Groups Get More Room to Move,'' 
South China Morning Post (Online), 20 October 04.(2283).
    \4\ Ibid. (2283)
    \5\ Wang Zuoan, ``Establish the Idea of Managing Religious Affairs 
According to Law,'' Chinese Religions, 26 February 05 (FBIS, 26 
February 05). For existing Chinese laws that can be used to hold 
officials accountable for their actions, see, e.g., PRC Administrative 
Litigation Law, enacted 4 April 89; PRC State Compensation Law, enacted 
12 May 94; PRC Administrative Licensing Law, enacted 12 August 03; PRC 
Administrative Punishment Law, enacted 17 March 96; and PRC Law on 
Administrative Reconsideration, enacted 29 April 99. All of these laws 
except the Administrative Reconsideration Law can be found on the CECC 
Web site. The text of the Law on Administrative Reconsideration can be 
found on the Ministry of Finance Web site.
    \6\ ``Highlights: Report on Ethnic Stability Issues in PRC 31 Dec 
2004-17 Mar 2005,'' Foreign Broadcast Information Service, 23 March 05 
(FBIS, 23 March 05) (citing the Tibet Daily, 18 January 05). The threat 
of hostile infiltration into religious circles from outside China has 
long been a preoccupation of Chinese authorities, particularly in areas 
with large populations of ethnic minorities. The CCP Central Committee 
emphasized this danger in Document No. 6, a 1991 internal document 
setting out religious policy. Circular of the Central Committee of the 
Chinese Communist Party and the State Council Concerning Several Issues 
in Which Religious Work Has Not Been Successful [Zhonggong zhongyang, 
Guowuyuan, guanyu jin yi bu zuohao zongjiao gongzuo ruogan wenti de 
tongzhi], issued 5 February 91, available at Chinese Religious 
Materials Net (Online). An English translation appears in Chinese Law 
and Government, Vol. 33, No. 2, 56-63 (March/April 2000).
    \7\ ``Highlights: Report on Ethnic Stability Issues in PRC 31 Dec 
2004-17 Mar 2005,'' Foreign Broadcast Information Service (citing the 
Tibet Daily, 18 January 05). Tibetan authorities also held some follow-
up activities to publicize the contents of the RRA when the regulation 
became effective in early March. Ibid.
    \8\ ``Highlights: Report on Ethnic Stability Issues in PRC 31 Dec 
2004-17 Mar 2005,'' Foreign Broadcast Information Service (citing the 
Yunnan Daily, 7 February 05, and the Xinghua Daily, 18 February 05).
    \9\ Xiong Fei, ``Henan Party School President Points out Importance 
of Religious Affairs,'' Henan Daily, 27 April 05 (FBIS, 12 May 05).
    \10\ Ibid. In Jiangsu, Ren Yanshen, Deputy Party Secretary and 
Director of the Leading Group on Ethnic and Religious Work, focused 
even more sharply on the need to use the RRA to resist foreign 
infiltration under the guise of religion. Ren reiterated that Jiangsu 
faced a ``new situation'' of this kind of threat from outside. 
``Highlights: Report on Ethnic Stability Issues in PRC 31 Dec 2004-17 
Mar 2005,'' Foreign Broadcast Information Service (citing Xinhua Daily, 
18 February 05). This level of fear in Henan and Jiangsu, possibly 
related to local increases in the numbers of Protestant believers in 
the two provinces, raises the danger of official and police abuse of 
believers.
    \11\ See, e.g., the Web sites of the Cardinal Kung Foundation, 
Agape Press, Compass Direct, and Voice of the Martyrs.
    \12\ RRA, art. 3. Outside observers have pointed out that the vague 
nature of the category ``normal religious activities'' makes the RRA 
promise of protection meaningless for a believer hoping to get redress 
against official abuse. Nicolas Becquelin, ``Reins Tight on Religious 
Affairs,'' The Standard (Online), 18 February 05. (7419) Ambiguous 
language in the regulations gives officials and police too much 
discretion in cracking down on religious believers, whom the Party has 
long portrayed as people of questionable loyalty.
    \13\ RRA, chap. 5. For a discussion of the implications of the 
property provisions of Chapter 5 for the Catholic Church, see Anthony 
Lam, ``A Commentary on the Regulations on Religious Affairs'' (as 
translated by Michael J. Sloboda), 25 Tripod, No. 136 (Spring, 2005). 
Chapter 7 of the 1995 Shanghai Municipal Regulation on Religious 
Affairs offered protection for the properties owned or legally used by 
religious organizations and venues similar to that provide by the RRA. 
Shanghai Municipal Regulation on Religious Affairs [Shanghai shi 
zongjiao shiwu tiaoli], issued 30 November 95, amended 21 April 05. The 
1995 version of the Shanghai regulation is posted on the Web site of 
the United Front Work Department.
    \14\ RRA, art. 17.
    \15\ Human Rights Watch, ``Asia: State Control of Religion,'' 1997, 
17-38. Magda Hornemann of Forum 18 argues that the RRA ensures yet more 
intrusive government regulation of religion than provided for under 
preexisting law and predicts that believers will continue to peacefully 
resist unreasonable interference in their religious activities. Magda 
Hornemann, ``How Believers Resist State Religious Policy,'' Forum 18 
News Service (Online), 18 January 05, 5687.
    \16\ China's New Regulation on Religious Affairs: A Paradigm Shift? 
Staff Roundtable of the Congressional-Executive Commission on China, 14 
March 05, Testimony of Mickey Spiegel, Senior Researcher, Human Rights 
Watch, New York.
    \17\ China's New Regulation on Religious Affairs: A Paradigm Shift? 
Testimony of Daniel H. Bays, Professor of History, Calvin College.
    \18\ China's New Regulation on Religious Affairs: A Paradigm Shift? 
Testimony of Carol Lee Hamrin, Consultant and Research Professor, 
George Mason University, Fairfax, VA.
    \19\ Bernardo Cervellera, ``Not Much New in the New Regulations on 
Religion: Interview with Anthony Lam, an Expert on the Church in China 
at the Holy Spirit Study Centre,'' AsiaNews (Online), 1 March 05. 
(7680)
    \20\ Xu Mei, ``China's New Religious Law Promises Little Change,'' 
Christian News Service (Online), 17 January 05.
    \21\ See, e.g., ``Varying Views on the Regulation that Became 
Effective on the First of March'' [Points de vue nuances sur le 
reglement entre en vigueur le 1er Mars], Zenit (Online), 9 March 05. 
(83
    \22\ Xu Mei, ``Christians React to New Religious Regulations,'' 
Compass Direct (Online), 9 March 05; 8924. ``PRC Expert Comments on 
China's First National Law on Religious Affairs,'' Wen Wei Po, 1 March 
05 (FBIS, 1 March 05);10539. PRC Promotion of Privately Run Schools 
Law, enacted 28 December 02 (requiring a strict separation of religion 
and education in such privately run schools). Another issue is whether 
the absence of a requirement for prior approval by the local branch of 
the Patriotic Religious Association (PRA) or the local religious 
affairs bureau before registering a religious organization with the 
Ministry of Civil Affairs under Article 6 of the RRA is meaningful. 
According to Madga Hornemann of Forum 18, many religious organizations, 
particularly Protestant Christian ones, have claimed that the approval 
of the local branch of the national Patriotic Religious Association, 
while not specified in prior regulations, was required before even 
approaching the state religious affairs office for registration. Magda 
Hornemann, ``Religious Freedom and the Legal System: Continuing 
Struggle,'' Forum 18 News Service (Online), 28 April 04. 5474.
    \23\ Commission Staff Interview.
    \24\ RRA, art. 34. Previous regulations, like the 1995 Shanghai 
Municipal Regulation on Religious Affairs, already permitted religious 
organizations and venues to undertake commercial activities for self-
support, and also to run activities in the public interest. See, e.g., 
the Shanghai Municipal Regulation on Religious Affairs, art. 11. 
<http://www.zytzb.org.cn/> and as amended is available at <http://
www.law-lib.com/law/l>. Article 34 of the RRA adds language providing 
for the management and use of the proceeds from such activities. Lauren 
Homer, ``Organizing and Funding Non-Worship Activities of Religious 
Organizations,'' paper presented at Religion and the Rule of Law: 
Comparative Approaches to Regulating Religion and Belief, Conference of 
the Chinese Academy of Social Sciences and Institute of World 
Religions, Beijing, China, 18-19 October 04.
    \25\ RRA, art. 6. The RRA incorporates the Ministry of Civil 
Affairs' Regulation on Registration and Management of Social 
Organizations to govern the registration of religious organizations in 
the same way as some older regulations on religion. See the 1995 
version of the Shanghai Municipal Regulation on Religious Affairs, art. 
10, <http://www.zytzb.org.cn/>. However, unlike the old Shanghai rule, 
the RRA does not specify that religious organizations must first get 
approval from the local religious Affairs Bureau, and so could lead to 
a less burdensome scheme of regulation. However, Article 7 of the 2005 
amendments to the Shanghai Regulation, issued after the promulgation of 
the RRA, specifically requires organizations to get such approval 
before applying to the local civil affairs bureau. Lauren B. Homer, 
``The New Regulation of Religious Affairs in China: A Legal Analysis,'' 
paper delivered at Fuller Seminars Program, Fuller Seminary, 2 March 
05, 15 (manuscript on file with the CECC).
    \26\ ``China to Ease Policies on Religion, NGOs,'' United Press 
International, reprinted in Washington Times (Online), 20 October 04. 
(2300)
    \27\ Article 12 of the RRA merely says: ``Collective religious 
activities of religious citizens shall generally be conducted on the 
premises of registered venues for religious activities (Buddhist 
temples, Taoist temples, mosques, churches, and other fixed places of 
religious activities)'' (emphasis added).
    \28\ Becquelin, ``Reins Tight on Religious Affairs'';(7419) Homer, 
``The New Regulation on Religious Affairs in China: A Legal Analysis,'' 
2; ``Chinese Underground Churches Face Legalization,'' Voice of Germany 
Chinese Service, reprinted on Boxun (Online), 20 May 05http://
boxun.com/; ``Varying View on the Regulation that Became Effective on 
the First of March,'' Zeni (8344).
    \29\ Wiest, ``Religious Groups Get More Room to Move'';(2283). see 
generally, Unofficial Religion in China: Beyond the Party's Rules, 
Staff Roundtable of the Congressional Executive Commission on China, 23 
May 05.
    \30\ See ``Religious Freedom for China's Orthodox Christians,'' 
infra this Section.
    \31\ On May 23, 2005, the Commission held a roundtable to discuss 
the situation of unofficial religions in China entitled ``Unofficial 
Religion in China: Beyond the Party's Rules.'' Professor Robert Weller 
drew on the recent experience of Taiwan to show how the state's efforts 
to control and repress popular religions failed to eradicate them and 
ultimately gave way, after political liberalization in the 1980s, to a 
rich combination of religious societies and beliefs. Temple-based 
activity, now legal, has fostered community solidarity and the growth 
of local civil society. Pietistic groups, no longer repressed, offer 
individuals a place to meet and discuss moral and religious issues 
based on a variety of spiritual texts. The end of religious control in 
Taiwan has allowed the growth of new humanitarian Buddhist societies, 
with millions of members worldwide, which have an explicit social 
mission of building hospitals, founding universities, bringing aid to 
the poor, and providing emergency relief. At this event, a witness 
confirmed that there had been rumors that SARA might soon add a 
category of ``Popular Religion'' to the authorized list of religions.
    \32\ CECC, 2004 Annual Report, 5 October 04, 36-7. See also stories 
collected in ``Highlights: China's Religious Affairs, Falungong, Anti-
cult Documents,'' Foreign Broadcast Information Service, 27 September 
04 (FBIS, 27 September 04.)
    \33\ ``Special Characteristics of Religion and Cults in 
Contemporary China,'' Popular Science News (Online), 25 May 05; 
``Entire City Finals Held in Speaking Competition on the Topic `Respect 
Science; Fight Cults,'' Baoji Daily (Online), 2 June 05.
    \34\ His defection was soon followed by that of Hao Fengjun, a 
``610'' officer posted to Australia, who brought with him a computer 
disk containing hundreds of reports sent by agents in Australia to a 
``610'' security office in China. According to a document inspected by 
Commission staff that was purported to be a copy of a 610 security 
office form, local officials have a number of specific ``610'' duties 
involving Falun Gong members. Officials have to fill out periodic 
reports on their performance of duties like forming ``610 small 
groups'' and entering 610 activities into the work schedule. Officials 
who fail to perform such tasks receive a fixed number of demerits on 
their annual work evaluation.
    \35\ Unofficial Religion in China: Beyond the Party's Rules, 
Testimony of Patricia M. Thornton, Associate Professor of Political 
Science, Trinity College, Hartford, CT.
    \36\ In comparison, the 1994 Regulation Governing Venues for 
Religious Activities [Zongjiao huodong changsuo guanli tiaoli], issued 
31 January 94, and abrogated on the effective date of the RRA, did not 
explicitly refer to social and public interests: ``No person shall be 
permitted to make use of any such venue to undertake activities which 
harm national unity, ethnic unity, or the social order, harm citizens' 
health or obstruct the national educational system.''
    \37\ RRA, art. 17: ``Venues for religious activities shall set up 
management organizations and practice democratic management. Members of 
the management organizations of venues for religious activities shall 
be selected through democratic consultations and reported as a matter 
of record to the registration management organs for the venues.'' (In a 
Tibetan monastery or nunnery, a DMC is generally made up of monks or 
nuns elected from among themselves. Candidates are sometimes screened 
by local officials, according to some reports.)
    \38\ Commission Staff Interviews.
    \39\ ``The Sixth Training Class for Temple Administrative Committee 
Directors in Tibet Concludes,'' China's Tibet, 31 May 05 (FBIS, 1 June 
05).
    \40\ Commission Staff Interviews.
    \41\ Commission Staff Interviews.
    \42\ The Gelug is the largest of several traditions of Tibetan 
Buddhism that are currently practiced. The Dalai Lama and Panchen Lama 
are the most revered spiritual teachers of the Gelug. Tibetan Buddhist 
followers of other traditions, such as the Kargyu, Sakya, Kadam, 
Jonang, and Nyingma, also revere the Dalai Lama. The Dalai Lama served 
as the head of the Lhasa-based Tibetan government until 1959, when he 
fled into exile along with most of the Tibetan government. The Chinese 
government continues to subject Gelug monasteries to heightened levels 
of suspicion and control because of the Dalai Lama's close association 
with the Tibetan government-in-exile.
    \43\ Commission Staff Interviews.
    \44\ Commission Staff Interviews.
    \45\ Based on data available in the PPD in June 2005, there were 
121 Tibetan political prisoners known or believed to be currently 
imprisoned. Sixty-seven were held in the TAR, 38 in Sichuan province, 
13 in Qinghai province, and three in an unknown location. As of June 
2005, of the 42 Tibetan political prisoners known to have been detained 
from 2002 onward, and known or believed to remain imprisoned, 27 were 
held in Sichuan province, eight in Qinghai province, and seven in the 
TAR.
    \46\ Commission Staff Interviews. Official permission to travel to 
India is almost never granted, according to experts.
    \47\ Liu Yuxiang and Wu Kun, ``Analysis on Threats of Violent Acts 
of Terror Presently Facing Sichuan Province,'' Policing Studies, No. 2, 
10 February 04 (FBIS, 17 May 04).
    \48\ ``The Execution of Lobsang Dondrub and the Case Against Tenzin 
Deleg: The Law, the Courts, and the Debate on Legality,'' Topic Paper 
of the Congressional-Executive Commission on China, February 2003. In 
December 2002, the Ganzi Intermediate People's Court sentenced Tenzin 
Deleg, a popular religious leader in Ganzi, TAP, to death with a two-
year reprieve for endangering state security by writing separatist 
leaflets and causing explosions. No details about the evidence have 
ever been made public and NGOs allege that he was framed because of his 
popularity. Officials accused his co-defendant, Lobsang Dondrub, of 
setting off the explosions and scattering the leaflets, and Tenzin 
Deleg of being a conspirator. Lobsang Dondrub was sentenced to death in 
December 2002 and executed on January 26, 2003. Media and NGO reports 
allege that he was tortured into confessing.
    \49\ The phrase, ``dismissed after the reorganization of 
monasteries,'' refers mainly to monks who were expelled from 
monasteries, or fled them, during an intense campaign of Patriotic 
Education conducted throughout Tibetan areas from 1996-2000. 
Authorities traveled to every Tibetan monastery and nunnery and led 
mandatory classes on Party-sanctioned positions on religion, the Dalai 
Lama, and Tibetan history. Upon completion of the course, monks and 
nuns had to pass examinations and then sign or fingerprint a statement 
denouncing the Dalai Lama, accepting the legitimacy of the Panchen Lama 
enthroned by China, and endorsing China's account of Tibetan history. 
According to unofficial estimates, several thousand monks and nuns gave 
up their seats rather than accept the Party's demands.
    \50\ Criminal Verdict of the Sichuan Province Ganzi Tibetan 
Minority Autonomous Prefecture Intermediate People's Court, 2000, Ganzi 
Intermediate Court Verdict No. 11, reprinted in Selection of Cases from 
the Criminal Law, The Dui Hua Foundation, August 2003, 42-55. The 
translation of the official sentencing document shows that the court 
agreed that Sonam Phuntsog had not explicitly called for ``Tibetan 
independence,'' but nonetheless sentenced him for inciting splittism 
because he ``incited the masses to believe in the Dalai Lama.''
    \51\ State Council Information Office, ``White Paper on Freedom of 
Religious Belief in China,'' Xinhua, 16 Oct 97 (FBIS, 16 Oct 97). 
``[T]he approval of the reincarnation of the Grand Living Buddhas by 
the central government is a religious ritual and historical convention 
of Tibetan Buddhism, and is the key to safeguarding the normal order of 
Tibetan Buddhism.''
    \52\ ``President Hu Meets 11th Panchen Lama,'' Xinhua (Online), 3 
February 05.
    \53\ Commission Staff Interviews.
    \54\ In the late 1950s, the Chinese government organized the 
Catholic Patriotic Association (CPA), gave it control of all Church 
property, and convinced a small group of bishops and priests to 
proclaim their independence from the Holy See and subordinate 
themselves to the CPA. Since that time, the government has worked to 
persuade and coerce Catholic clergy and laity to do the same. The 
majority have refused to do so and have gone ``underground,'' where, 
persisting in their fidelity to the Holy See, they have refused to 
attend Masses offered by priests who accept the authority of the CPA. 
Today there are more than 8 million unregistered and 4 million 
registered Catholics in China. On the situation of the Catholic Church 
in China today, see, Betty Ann Maheu, MM, ``The Catholic Church in 
China: Journey of Faith. An Update on the Catholic Church in China: 
2005,'' paper delivered at the 21st National Catholic China Conference, 
24 June 05, Seattle, WA, U.S. Catholic China Bureau (Online); Han 
Fengxia, ``Growth of Christianity in China: Perspective of a Woman 
Religious of the Liaoning Diocese,'' address delivered at the 21st 
National Catholic China Conference in Seattle, WA, 26 June 05 
(available at the Web site of the U.S. Catholic China Bureau).
    \55\ Commission Staff Interview. Igor Rotar, ``Xinjiang: Controls 
Tighten on Muslims and Catholics,'' Forum 18 News Service (Online) 29 
September 05; Xing Guofang, ``A New Wave of Persecution Against Hebei 
Catholics,'' AsiaNews (Online), 27 September 05.
    \56\ Commission Staff Interviews. ``Classes Begin at New Sichuan 
Seminary Campus Amid Concerns Over Standard of Teaching,'' Union of 
Catholic Asian News (Online), 30 September 05.
    \57\ ``Prisoners of Religious Conscience for the Underground Roman 
Catholic Church in China,'' Cardinal Kung Foundation (Online), 31 July 
05.
    \58\ Commission Staff Interviews. For the detentions reported in 
the past 12 months, see, ``Underground Roman Catholic Bishop Arrested 
in China,'' Cardinal Kung Foundation (Online), 6 January 05; ``Arrest 
of an Underground Roman Catholic Priest,'' Cardinal Kung Foundation 
(Online), 30 January 05; Arrest of an Underground Roman Catholic Bishop 
and a Priest; Reflection on the Pope's Passing From the Underground 
Roman Catholic Church,'' Cardinal Kung Foundation (Online), 3 April 05; 
``Arrest of Seven Underground Roman Catholic Priests in China,'' 
Cardinal Kung Foundation (Online), 27 April 05; ``Police Disperse 
`Underground' Catholic Retreat, Send Priests Home,'' Union of Catholic 
Asian News [hereinafter UCAN] (Online), 9 June 05 (undetermined number 
of priests detained for a short period); ``Underground Roman Catholic 
Bishop Arrested Again in China,'' Cardinal Kung Foundation (Online), 4 
July 05; ``Underground Roman Catholic Priest and His Parishioners 
Beaten and Arrested in China,'' Cardinal Kung Foundation (Online), 28 
July 05. Bishop Jia Zhiguo was detained in September (twice) and 
December of 2004, and in January and July of 2005. ``Bishop Julius Jia 
Zhiguo Arrested,'' AsiaNews (Online), 5 July 05. For the release of 
Catholic prisoners of religious conscience, see ``Release of an 
Underground Roman Catholic Priest,'' Cardinal Kung Foundation (Online), 
5 June 05 (release of Zhao Kexun after two months of detention); 
``Chine: Liberation d'un pretre clandestin emprisone en 1999. Une 
nouvelle saluee par Radio Vatican,'' Zenit (Online), 4 July 05 (release 
of Kong Guocun after nearly six years of detention); ``Bishop Julius 
Jia Zhiguo Released in Hebei,'' AsiaNews (Online), 22 July 05. 
Regarding a letter sent by unregistered Catholics to a Catholic news 
agency abroad to protest a ``wave of violence'' unleashed in Gao Cheng 
county, Hebei province, see, Wang Hui, ``Persecution in Hebei, a 
Liability for Hu Jintao's Plans,'' AsiaNews (Online), 8 June 05; Magda 
Hornemann, ``Is Central or Local Government Responsible for Religious 
Freedom Violations? '' Forum 18 News Service (Online), 2 August 05; 
``Underground Roman Catholic Priest and a Recently Graduated Seminarian 
Arrested in China,'' Cardinal Kung Foundation (Online), 4 September 05. 
Regarding a foreign Web site blocked in China after it published an 
article critical of China's human rights record vis-a-vis Catholics, 
see, Sandro Magister, ``Riconoscimenti. In Cina, www.chiesa entra nel 
club degli oscurati,'' L'espresso (Online), 25 July 05.
    \59\ Commission Staff Interview; ``Underground Bishop of Roman 
Catholic Church in China `Lost' for More Than 6 Years Found Very Ill in 
Government Detention,'' Cardinal Kung Foundation (Online), 19 November 
03.
    \60\ Commission Staff Interviews; ``China to Defy Rome With New 
Bishops? '' Catholic World News (Online), 14 March 05; ``China: State 
Attempts to Control Religious Leaderships,'' Forum 18 News Service 
(Online), 15 June 05.
    \61\ ``Vatican Confirms Informal Dealings With China,'' Catholic 
World News (Online), 30 June 05.
    \62\ Regarding the ordination of Xing Wenzhi in Shanghai, see ``New 
Shanghai Bishop: `Serving the Community Against the Spread of 
Secularization,' '' AsiaNews (Online), 29 June 05; ``Choice of Bishop 
Positive Step Toward Vatican Ties,'' South China Morning Post, 30 June 
05 (FBIS, 30 June 05) (Bishop Xing announced during a ceremony that he 
had been nominated by the Holy See); ``Further On China Says Vatican 
Did Not Approve Appointment of Shanghai Bishop,'' Agence France-Presse, 
29 June 05 (FBIS, 29 June 05) (denial issued by Shanghai Religious 
Affairs Bureau); ``Vatican Confirms Informal Dealings with China,'' 
Catholic World News (Online), 30 June 05; ``Ordination of a Patriotic 
Association Bishop in Shanghai,'' Online Newsletter, Cardinal Kung 
Foundation (Online), 1 July 05 (points out that the Holy See has not 
issued an official statement); Gianni Valente, ``Anche a Shanghai c'e 
qualcosa di nuovo,'' Trenta Giorni (Online), 1 August 05. Regarding the 
ordination of Dang Mingyan in Xi'an, see ``The Vatican Recognizes New 
Appointment in the Xi'an Diocese,'' Wen Wei Po, 29 July 05 (FBIS, 30 
July 05) (CPA official claims that bishop was appointed in accordance 
with procedures of ``Chinese Catholic Church,'' that the Vatican had 
recognized a bishop ``elected in China,'' which is ``an improvement and 
is favorable to moving Sino-Vatican relations forward''); ``China und 
Heiliger Stuhl einigen sich erneut auf Bischof,'' Kath.net (Online), 1 
August 05.
    \63\ ``Shanghai Bishop Seeks to Heal Division,'' Washington Post 
(Online), 23 June 05 (registered Bishop Jin: ``Rome said that after the 
death of the underground church bishop, no more division.''); ``China: 
The Government and the Holy See Ordain a Bishop Jointly for the First 
Time,'' AsiaNews (Online), 28 June 05.
    \64\ Betty Ann Maheu, MM, ``The Catholic Church in China: Journey 
of Faith. An Update on the Catholic Church in China: 2005''; Sandro 
Magister, ``Nuovi vescovi per la Cina di domani,'' L'espresso (Online), 
16 August 05; Sandro Magister, ``La Cina ha un nuovo record: i piu 
giovani vescovi del mondo,'' Settimo Cielo (Online), 17 August 05.
    \65\ Commission Staff Interviews; ``Vocation-rich Zhouzhi Diocese 
Faces Uncertainty After Bishop Dies,'' UCAN (Online), 28 September 04; 
``Mgr Paul Su Yongda, New Bishop of Zhanjiang,'' AsiaNews (Online), 15 
November 04; ``Bishop of Datong Dies at 87, Leaving Management of 
Diocese to Young Priests,'' UCAN (Online), 12 January 05; Wang Xixian 
``Octogenarian Bishop Dies in Eastern China, Leaves Anhui Province 
`Vacant,' '' UCAN (Online), 18 March 05; ``Bishop of Tianjin Dies 
Without Reconciling With `Underground' Prelates,'' UCAN (Online), 18 
March 05; ``Bishop Giuseppe Zhu Huayu the Only Bishop in Anhui Province 
Dies at the Age of 88,'' Agenzia Fides (Online), 19 April 05; ``Body of 
Chinese Catholic Leader Cremated,'' Xinhua (Online), 28 April 05 (FBIS, 
28 April 05); ``China: The Government and Holy See Ordain a Bishop 
Jointly for the First Time,'' AsiaNews; ``Franciscan Doctor-Bishop of 
Yichang Dies at Age 88,'' AsiaNews/ UCAN (Online), 26 July 05; ``Open 
Church Bishop of Mindong Dies, Underground Bishop Seriously Ill,'' UCAN 
(Online), 11 August 05; ``Death of Two Bishops: Bishop Thomas Zhao 
Fengwu, A Life of Poverty and Penance, and Bishop James Xie Shiguang, 
Who Spent 30 Years in Prison,'' Agenzia Fides (Online), 30 August 05.
    \66\ Commission Staff Interviews.
    \67\ Adam Minter, ``The Sisters of Shanghai: A Congregation of Nuns 
Flourishes in China,'' Commonweal (Online), 12 August 05; ``Xi'an 
Seminary Offers Educational Program for Women Religious,'' UCAN 
(Online), 23 September 04; ``Shaanxi Sisters Pursue Studies in Social 
Work,'' UCAN (Online), 2 November 04; ``More Than `Half the Sky,' '' 
Hong Kong Sunday Examiner (Online), 17 July 05; Betty Ann Maheu, MM, 
``The Catholic Church in China: Journey of Faith. An Update on the 
Catholic Church in China: 2005''; ``Seminary College's First Symposium 
With Mainland Scholars Inspires Priests,'' Union of Catholic Asian News 
(Online), 26 August 05; ``Chine: les religieuses ameliorent leur 
formation,'' Zenit (Online), 7 October 04; ``Precious Contribution 
Offered by the Prado Institute for the Formation of Priests and 
Religious in China Underlined During a Recent Visit by Superior General 
Rev. Robert Daviaud,'' Agenzia Fides (Online), 12 July 05; ``Formation, 
Evangelization, Self-Support, Pastoral Care to Meet Needs of Today: 
Commitments of Bishop Anthony Li Du An of the Diocese of Xi'an,'' 
Agenzia Fides (Online), 27 July 05; Bernardo Cervellera, ``Chinese 
Priest: We Need Help to Form Priests in the Official Church,'' AsiaNews 
(Online), 8 August 05. For a rare report on the formation of clergy for 
the unregistered Catholic community in China, see ``Meeting With 
Underground Religious in Rome,'' Online Newsletter, Cardinal Kung 
Foundation (Online), 1 July 05.
    \68\ ``Nuns Serving Mentally Challenged Children Help Change Social 
Attitudes,'' UCAN (Online), 2 September 04; ``Liaoning Diocese Goes 
Full Throttle With Its New HIV/AIDS Ministry,'' UCAN (Online), 9 
September 04; ``Nuns Care for Mentally Challenged Children in Xi'an,'' 
UCAN/AsiaNews (Online), 11 February 05; ``Interreligious Conference 
Affirms Religions' Contribution To Ethics, Morality,'' UCAN (Online), 9 
March 05.
    \69\ Commission Staff Interview.
    \70\ ``Guidelines on China from the Vatican,'' Cardinal Kung 
Foundation (Online).
    \71\ ``Breakthrough in Vatican-China Ties? '' Reuters (Online), 19 
August 05 (senior European Catholic prelate speculates on coming 
``breakthrough'' in diplomatic relations); Ramon Pedrosa, ``Beijing and 
the Vatican Edge Closer,'' International Herald Tribune (Online), 18 
August 05; Sandro Magister, ``Nuovi vescovi per la Cina di domani''; 
``Pope Benedict Reaches Out to China,'' Associated Press (Online), 12 
May 05; John L. Allen, ``The Word From Rome,'' National Catholic 
Reporter (Online), 13 May 05; Lucia Pozzi, `` `Pechino dice si al 
dialogo con il Papa'; Intervista a Dong Jinyi, ambasciatore cinese a 
Roma. `Cosi cambia il mio Paese,' '' Il Messaggero (Online), 14 May 05; 
``Pope Reaches Out to Non-Catholics and China During First Month,'' 
Associated Press (Online), 18 May 05; Elisabeth Rosenthal, ``Hints of 
Thaw Between China and Vatican,'' International Herald Tribune 
(Online), 22 May 05; Joe McDonald, ``Beijing, Vatican Express 
Enthusiasm for Ties, But Church's Role Remains a Stumbling Block,'' 
Associated Press (Online), 29 May 05; ``Hong Kong Bishop: Vatican 
`Anxious' for Diplomatic Ties with Beijing,'' Catholic World News 
(Online), 14 June 05; Nailene Chou Wiest, ``Beijing Paving Way to Renew 
Vatican Links,'' South China Morning Post (Online), 15 June 05 (FBIS, 
15 June 05); ``Vatican Expresses Desire for Ties With China, but 
Stresses Religious Freedom,'' Associated Press (Online), 17 June 05; 
``Religious Freedom the Key, Says Vatican as It Seeks Ties,'' South 
China Morning Post (Online), 18 June 05; ``Vatican Official Optimistic 
About Relations With China, Archbishop Lajolo Upbeat After Asian 
Trip,'' Zenit (Online), 23 June 05; ``Bishop Calls for China, Vatican 
Compromise,'' Associated Press (Online), 23 June 05 (referring to 
Bishop Jin); ``China and Vatican Make No Secret of Thaw,'' Los Angeles 
Times (Online), 25 June 05; ``Report: Chinese Catholic Official Says 
Vatican and China Will Establish Ties,'' Associated Press (Online), 27 
June 05 (referring to Anthony Liu Bainian); Minnie Chan, ``Vatican Ties 
Closer With New Bishop,'' South China Morning Post, 30 June 05 (FBIS, 
30 June 05) (referring to bishop Xing and reporting that the Chinese 
government sets up an intergovernmental working group on religious 
affairs to discuss potential relations with the Holy See); Wei Wu, 
``China's Religious Official on Prerequisite to Better China-Vatican 
Ties,'' Xinhua (Online), 1 July 05 (referring to spokeswoman for SARA); 
Gerard O'Connell, ``China Reportedly Wants `to Change its Relations' 
With the Holy See,'' UCAN (Online), 22 July 05; Vatican Information 
Service Press Release, 25 July 05; Bernardo Cervellera, ``Chinese 
Priests Visit the Pope: an `Unexpected Gift'; a Sign of `Union With the 
Holy See,' '' AsiaNews (Online), 4 August 05; Wu Yung-chiang, ``The 
Pope Meets With Chinese Priests; Foreign Ministry Makes No Comment on 
This,'' Ta Kung Pao, 4 August 05 (FBIS, 5 August 05); ``Chinese Youths 
Visit the Pope Before Heading for World Youth Day,'' AsiaNews (Online), 
10 August 05; ``Catholics Regret Over Vatican Decision,'' China Daily 
(Online), 12 September 05; ``China Rebuffs New Vatican Call to Send 
Bishops,'' South China Morning Post (Online), 13 September 05; 
``Negotiations Still on for Chinese Bishops' Rome Visit,'' AsiaNews 
(Online), 16 September 05; Gerard O'Connell, ``Four Mainland China 
Prelates Absent as Pope Opens Synod of Bishops,'' Union of Catholic 
Asian News (Online), 3 October 05; Bernardo Cervellera, ``Beijing's No 
to Bishops Shatters Illusion That Things Have Changed for the Better,'' 
AsiaNews (Online), 1 October 05. On the fundamental factors influencing 
Sino-Holy See relations in recent years, see, Beatrice Leung, ``Sino-
Vatican Relations at the Century's Turn,'' Journal of Contemporary 
China, Vol. 14, No. 43 (May 2005), 353-370.
    \72\ ``Committee to Spread True Koran,'' China Daily (Online), 24 
April 02; ``PRC: Qinghai Enhances Religious Work to Guard Against 
Separatist Infiltration,'' Qinghai Daily, 8 September 04 (FBIS, 11 
January 05).
    \73\ Provinces have launched separate campaigns at various times 
since 2000. For discussion of Qinghai's campaign, launched in April 
2004, see ``PRC: Qinghai Enhances Religious Work to Guard Against 
Separatist Infiltration,'' Qinghai Daily.
    \74\ Ma Pinyan, ``The Implementation of the Party's Religious 
Policy in Xinjiang'' [Dang de zongjiao zhengce zai xinjiang de 
shixian], Xinjiang Social Sciences, No. 1, 2005, 49-55.
    \75\ ``PRC: Qinghai Enhances Religious Work to Guard Against 
Separatist Infiltration,'' Qinghai Daily.
    \76\ ``Sichuan Guangyuan Sacred Mosque Becomes A Bar!'' Bulletin 
Board Post, Crescent Review (Online), 21 June 04. A mosque in Gansu 
province opened a slaughterhouse to ``ease the burden on its 
believers.'' ``Linxia Hui Autonomous Prefecture's Ethnic Unity and 
Advancement Campaign Activities,'' Gansu Daily, 15 June 05 (Online).
    \77\ RRA, arts. 35 and 36.
    \78\ Hui girls in Shujinwan village in northern Yunnan, for 
example, take Chinese, Arabic, and religious classes in a school run by 
a local ahong. Elisabeth Alles, ``Muslim Religious Education in 
China,'' 45 Perspectives Chinoises (January-February 2003) (Online).
    \79\ ``Top Ten Islamic News Stories of 2003'' [2003 zhongguo 
yisilin shida xinwen], Islamic Crescent Web site, 15 January 05. Nankai 
University, located in the coastal city of Tianjin, sent ``patriotic 
education'' volunteers to the school less than a year after its 
establishment. ``Nankai University Students Set Up A Base in Gansu'' 
[Nankai zai Gansu shili daxuesheng shixian jidi], Current Trends 
(Online), 7 September 04.
    \80\ ``PRC: Qinghai Enhances Religious Work to Guard Against 
Separatist Infiltration,'' Qinghai Daily.
    \81\ Though estimates vary widely, there are an estimated 40,000 
mosques in China. Elisabeth Alles, ``Muslim Religious Education in 
China.''
    \82\ Ibid.
    \83\ Human Rights Watch, ``China: Human Rights Concerns in 
Xinjiang,'' October 2001. An article in the Party's main theoretical 
journal warned the leadership not to ``underestimate the threat to 
society that splittism and illegal religious activities pose.'' The 
author of the article proposed attacking the ``root of the problem'' by 
refusing to ``loosen controls over religion.'' He Ruixia, ``Political 
Thought Work In the Course of Strengthening and Improving the Struggle 
Against Nationality Splittism'' [Jiaqiang he gaijin fandui minzu 
fenliezhuyi douzhengzhong de sixiang zhengshi gongzuo], Seeking Truth, 
No. 2, 2004, 23. A 2002 report by the Hetian Party Committee found that 
``religion, illegal religious activities and extremist religious 
thought have severely influenced, disturbed and infiltrated society and 
villages.'' ``Separatists Alleged to Have Infiltrated Xinjiang 
Schools,'' Agence France-Presse, 31 January 02 (FBIS, 31 January 02).
    \84\ Practicing Islam in Today's China: Differing Realities for the 
Uighurs and the Hui, Staff Roundtable of the Congressional-Executive 
Commission on China, 17 May 04, Testimony of Kahar Barat, Lecturer in 
Near Eastern Languages and Civilizations, Yale University; Human Rights 
Watch, Devastating Blows: Religious Repression of Uighurs in Xinjiang, 
April 2005.
    \85\ Ma Pinyan, ``The Implementation of the Party's Religious 
Policy in Xinjiang'' [Dang de zongjiao zhengce zai xinjiang de 
shixian], Xinjiang Social Sciences, No. 1, 2005, 52.
    \86\ Wang Lequan, ``Maintain the Dominant Position of Marxism in 
Ideological Work and Adhere to the Four Cardinal Principals,'' Seeking 
Truth, No. 2, 2005.
    \87\ He Ruixia, ``Political Thought Work In the Course of 
Strengthening and Improving the Struggle Against Nationality 
Splittism''; Ma Pinyan, ``The Implementation of the Party's Religious 
Policy in Xinjiang.''
    \88\ Human Rights Watch, Devastating Blows: Religious Repression of 
Uighurs in Xinjiang, 14-20; Gardner Bovingdon, Autonomy in Xinjiang: 
Han Nationalist Imperatives and Uyghur Discontent (Washington: East-
West Center Washington, 2004).
    \89\ Human Rights Watch, Devastating Blows: Religious Repression of 
Uighurs in Xinjiang, 31.
    \90\ ``Record of the Meeting of the Standing Committee of the 
Political Bureau of the Chinese Communist Party Concerning the 
Maintenance of Stability in Xinjiang (Document 7),'' reproduced in 
Human Rights Watch, China: State Control of Religion, Update #1 
(Online), 13 March 98.
    \91\ The Chinese government carefully guards the precise number of 
arrests made during the campaign, but one Uighur emigre group with 
detailed records on the arrests reports that 2,200 were arrested in the 
single prefecture of Khotan from April to July alone. World Uighur 
Network News, 16 July 96, in Michael Dillon, Xinjiang--China's Muslim 
Far Northwest (London: Routledge, 2004), 86. Xinjiang's chair of the 
United National Revolutionary Front reportedly claimed that 10,000 were 
arrested in Aksu and 8,000 in Urumqi, though the Chinese government 
later denied those figures. Urumqi radio announced on July 8th that 400 
had been arrested and 3,700 families had been required to sign written 
pledges not to participate in any further anti-party activities. 
Michael Dillon, Xinjiang--China's Muslim Far Northwest, 87-88.
    \92\ The restrictions on religious practice led to widespread 
resentment among the Uighurs that culminated in protests at Yining 
(Ghulja) in February 1997. Although reports differ on exactly what 
sparked the clash between Uighurs and Chinese security forces, 
eyewitnesses and official reports confirm that People's Armed Police 
shot a number of unarmed demonstrators and security forces arrested 
hundreds of Uighurs for their participation in the protests demanding 
religious freedom and rights enshrined in the 1984 Regional Ethnic 
Autonomy Law. Human Rights Watch, Devastating Blows: Religious 
Repression of Uighurs in Xinjiang, 15; Michael Dillon, Xinjiang--
China's Muslim Far Northwest, 92-99; Amnesty International, ``People's 
Republic of China: China's Anti-terrorism Legislation and Repression in 
the Xinjiang Uighur Autonomous Region,'' 2002.
    \93\ These courses entail study of state-approved religious 
interpretations, review of ``the correct relationship between religion 
and socialist society,'' and sessions in which imams publicly criticize 
their own political views as well as those of fellow imams.
    \94\ Draft Amendments to the Xinjiang Uighur Autonomous Region 
Regulations on the Management of Religious Affairs Adopted by the 23rd 
Session of the Standing Committee of the 9th People's Congress of 
Xinjiang Uighur Autonomous Region [Xinjiang weiwuer zizhiqu dongjiao 
shiwu guanli tiaoli xiugai zheng an (caoan)], submitted 16 July 01, 
art. 9.
    \95\ ``China Bans Islamic Group in Xinjiang, Arrests 179,'' Agence 
France-Presse, 19 August 05 (FBIS, 19 August 05); ``Teacher and 37 
Students Detained for Reading Koran in China,'' Agence France-Presse, 
15 August 05 (FBIS 16 August 05).
    \96\ Human Rights Watch, Devastating Blows: Religious Repression of 
Uighurs in Xinjiang, April 2005, 46, note 91.
    \97\ ``Ministry of Foreign Affairs Spokesman Liu Jianchao Answers 
Reporters Questions,'' Ministry of Foreign Affairs Web site, 3 March 
05.
    \98\ Xinjiang Implementation Measures on the Law on the Protection 
of Minors [Xinjinag weiwuer zizhiqu shishi `wei chengnianren baohu fa' 
banfa], issued 25 September 93; Ma Pinyan, ``The Implementation of the 
Party's Religious Policy in Xinjiang'' [Dang de zongjiao zhengce zai 
xinjiang de shixian], Xinjiang Social Sciences, No. 1, 2005, 53.
    \99\ ``China Cracks Down on Its Muslims,'' Agence France-Presse, 23 
November 01 (FBIS, 23 November 01).
    \100\ The 2000 Urumqi Yearbook [Wulumuqi nianjian] (Urumqi: 
Xinjiang People's Press, 2001), 250-1. This volume notes that Yili 
prefectural officials had closed 70 ``illegal constructions or 
renovations of religious sites'' between 1995 and 1999 in their 
prefecture alone.
    \101\ A specific requirement that any publication ``related to the 
research and appraisal of Islamic religion'' be submitted to national-
level authorities before publication also contravenes the 1984 Regional 
Ethnic Autonomy Law. This requirement is listed in a 2000 ``Manual for 
Municipality Ethnic Religious Work'' edited by the Ethnic Religious 
Work Committee of the Urumqi Nationality Religious Affairs Bureau Work 
Committee. Cited in Human Rights Watch, Devastating Blows: Religious 
Repression of Uighurs in Xinjiang, 48.
    \102\ Including the Universal Declaration of Human Rights, 
International Covenant for Civil and Political Rights, The Convention 
on the Rights of the Child, and The Convention Against Discrimination 
in Education.
    \103\ Human Rights Watch, Devastating Blows: Religious Repression 
of Uighurs in Xinjiang, 8.
    \104\ The Russian Orthodox Church claims that there are about 12 to 
15 thousand Chinese Orthodox, most of them Chinese citizens of Russian 
or mixed-Russian descent. Most of them are located in northern China, 
Beijing, or Shanghai. Though there has never been an autocephalous 
Chinese Orthodox Church, in the 1950s an autonomous Chinese Orthodox 
Church was formed under the Moscow Patriarchate. Both of its Chinese 
bishops died during the Cultural Revolution. ``Keeping the Faith,'' 
South China Morning Post (Online), 28 March 05; ``About Orthodoxy in 
China: Interview with Archpriest Nikolai Balashov,'' RIA Novosti 
(Online), 13 October 04; ``Toward a Rebirth of the Orthodox Church in 
China. Interview with Mitrophan Chin,'' Religioscope (Online), 23 
October 04.
    \105\ Commission Staff Interview; Li Fangchao, ``Harbin Talks of 
Rebuilding Church,'' China Daily (Online), 5 September 05; ``Orthodox 
Church Asks China for Official Recognition to Enhance Activities,'' 
UCAN (Online), 24 June 04; ``Tiny Chinese Orthodox Church Seeks 
Recognition,'' Telegraph (Online), 3 January 04; ``Beijing Is Sending 
Positive Signals to Orthodox Church,'' Taipei Times (Online), 21 
October 04; Igor Rotar, ``Xinjiang: No Children in Church, Catholics 
Told,'' Forum 18 News Service (Online); Igor Rotar, ``Xinjiang: Linked 
Religious Practice and State Control Levels? '' Forum 18 News Service 
(Online). Though local authorities have registered Orthodox communities 
in some areas, in others they have refused. In December 2003, Chinese 
officials briefly detained a Russian Orthodox priest from Kazakhstan 
who was providing pastoral care to Orthodox Christian believers in 
Yining (Ghulja), Xinjiang. Igor Rotar, ``Security Service Investigation 
Followed Orthodox Priest's Deportation,'' Forum 18 News Service 
(Online).
    \106\ Commission Staff Interview; ``Something New But Mostly the 
Same Old Rules on Religion,'' AsiaNews (Online), 12 January 05; 
``Priest Dionisy Pozdnyaev Comments on the `Regulation on Religious 
Affairs' Adopted in the PRC,'' Orthodoxy in China (Online), 24 December 
04.
    \107\ Commission Staff Interview; ``Beijing's Orthodox Community 
Has First Paschal Liturgy Since 1957,'' Orthodoxy in China (Online), 3 
May 05; ``Eye on Eurasia: Russia's Church in China,'' United Press 
International (Online), 27 October 04; Geraldine Fagan, ``Will Orthodox 
Christians Soon Be Allowed Priests? '' Forum 18 News Service (Online), 
22 September 04; ``Shanghai News Spokesperson Explains Closure of 
Dining Hall Managed by Taiwan Businessman,'' Orthodoxy in China 
(Online), 13 January 05; ``A Verbatim Record of Vladimir Putin's 
Meeting With Participants in the Bishops' Council of the Russian 
Orthodox Church,'' Orthodoxy in China (Online), 8 October 04; ``Report 
of the Chairman of the Department of External Church Relations of the 
Moscow Patriarchate, Metropolitan Kirill of Smolensk, to the Bishops' 
Council of the Russian Orthodox Church (October 3-8, 2004), on External 
Church Activity, Care of the Diaspora of the Russian Orthodox Church,'' 
Orthodoxy in China (Online), 4 October 04; ``China Visit of Russian 
Orthodox Church Delegation Comes to an End,'' Orthodoxy in China 
(Online), 26 October 04; ``Entertainment Institutions to Be Ejected 
From Former Orthodox Churches in Shanghai,'' Orthodoxy in China 
(Online), 20 July 04; ``China's Ambassador Gave Dinner Honoring 
Chairman of Department of External Church Relations Moscow 
Patriarchate,'' Orthodoxy in China (Online), 13 July 04; Igor Rotar, 
``Xinjiang: Controls Tighten on Muslims and Catholics,'' Forum 18 News 
Service (Online), 29 September 05; (``One Orthodox source told Forum 18 
that four Chinese citizens have now completed training at Orthodox 
seminaries in Russia and are ready for ordination, but so far the 
Chinese authorities had not given them permission to work in China as 
priests.'')
    \108\ Sandro Magister, ``Lo strano ritiro spirituale di Jiang Zemin 
e compagni,'' L'espresso (Online), 14 January 04.
    \109\ Bernardo Cervellera, ``New Regulations for Controlling 
Religions,'' AsiaNews (Online), 20 December 04; Lauren B. Homer, ``The 
New Regulation on Religious Affairs in China: A Legal Analysis,'' 12.
    \110\ Commission Staff Interview.
    \111\ Commission Staff Interview; ``Five American Church Leaders 
Arrested in Henan; Female House Church Evangelists Tortured and Abused 
in Xinjiang and Hubei; Secret Documents Show Chinese Government's 
Campaign Against Religious Cults,'' China Aid Association (Online), 17 
August 05; ``American Tourists Mistreated; Arrested House Church 
Pastors Tortured in Prison; Shanghai House Church Faces Forced 
Closure,'' China Aid Association (Online), 8 August 05; ``Wave of 
Arrests Submerges Hope in New Regulations,'' Compass Direct (Online), 
20 July 05 (reporting several detentions of small groups that went 
unreported elsewhere); ``Nationwide Crackdown on House Churches in 
China; Numerous Leaders Arrested; Renown Beijing Church Leader Trial 
Delayed Again,'' China Aid Association (Online), 29 June 05; ``Massive, 
Coordinated Crackdown on House Church Christians in China's Jilin 
Province,'' China Aid Association (Online), 9 June 05; ``American 
Church Leaders Deported; Beijing House Church Pastor Tortured in 
Prison,'' China Aid Association (Online), 2 March 05. Regarding the 
mass arrests of recent months, see ``One Hundred House Churches Raided 
in China,'' Voice of the Martyrs Canada (Online), 15 June 05 (Voice of 
the Martyrs has ``received a copy of an official Chinese government 
document outlining a new offensive on underground house churches''). 
Most analysts believe that rural Christians are more persecuted than 
their urban counterparts. Allie Martin and Jenni Parker, ``Rural 
Chinese Christians Suffer Behind State's Religious Freedom Facade,'' 
Agape Press (Online), 10 June 05.
    \112\ ``Prominent Beijing House Church Leader Faces Harsh 
Sentence,'' China Aid Association (Online), 11 November 04; Jason Lee 
Steorts, ``With the Chinese Christians,'' National Review (Online), 31 
January 05; ``American Church Leaders Deported; Beijing House Church 
Pastor Tortured in Prison,'' China Aid Association; ``Nationwide 
Crackdown on House Churches in China; Numerous Leaders Arrested; 
Renowned Beijing Church Leader Trial Delayed Again,'' China Aid 
Association (Online); ``Beijing Church Leader Put on Trial; Relatives 
and US Embassy Official Blocked,'' China Aid Association (Online), 7 
July 05; ``Chinese Pastor Put on Trial,'' Voice of the Martyrs 
(Online), 7 July 05; Wang Te-chun, ``Pastor Prosecuted for Illegally 
Publishing and Distributing the Bible,'' Ta Kung Pao, 8 July 05 (FBIS, 
8 July 05); Hans Peterson, ``China: Why Can't All Christian Bookshops 
Sell Bibles? '' Forum 18 News Service (Online), 24 August 05.
    \113\ ``Senior Chinese House Church Leader Arrested; More Churches 
Raided Before Christmas,'' China Aid Association (Online), 10 December 
05; ``China: Christian Church Leader Arrested and at Risk of Torture 
For Possession of Religious DVDs,'' Amnesty International UK (Online), 
23 December 04; ``House-Church Leader Arrested; Zhang Rongliang Has a 
High Profile in China and Internationally,'' Christianity Today 
(Online), 5 January 05. On Zhang and the Fangcheng Fellowship and the 
Confession of Faith, see also David Aikman, Jesus in Beijing: How 
Christianity Is Transforming China and Changing the Global Balance of 
Power (Washington, D.C.: Regnery, 2003), 74-80, 92-95. In addition, 
approximately ten foreign Protestant leaders were expelled and 130 
Chinese Protestant lay leaders were briefly detained when security 
officials raided a house church leadership training session in Harbin 
in February 2005. ``American Church Leaders Deported; Beijing House 
Church Pastor Tortured in Prison,'' China Aid Association. Members of 
the South China Church claim that over 300 members of their church were 
detained between May and November 2004. ``The Hard Truth Concerning the 
Case of the South China Church,'' Chinese Law and Religion Monitor, 
April-June 2005, 118-128.
    \114\ ``Christian Businessman in Xinjiang Tortured and 
Hospitalized,'' China Aid Association (Online), 30 September 05; 
``Hospitalized Christian Businessman Threatened by State Security 
Agents,'' China Aid Association (Online), 3 October 05. For the 
worsening situation of all believers in Xinjiang, including 
Protestants, see Rotar, ``Xinjiang: Controls Tighten on Muslims and 
Catholics.''
    \115\ ``Mr. Zhang Yinan's Case and the UN Verdict,'' Chinese Law 
and Religion Monitor, April-June 2005, 79-117; ``Chinese Church 
Historian Released from Labor Camp,'' China Aid Association (Online), 
27 September 05 (officials released Zhang on September 25, 2005, at the 
end of his two year term).
    \116\ For the witnesses who now say their testimony was extracted 
under torture, see ``Chinese House Church Leaders First Time Testify at 
UN, Video Testimony From Tortured Women Believers Released,'' China Aid 
Association (Online), 2 April 2004; ``Released South China Church 
Prisoners Re-arrested by Chinese Police,'' Voice of the Martyrs 
(Online), 14 October 2002 (report that Xiang Fengping and Li Yingping 
were sexually molested and tortured to extract testimony against Gong 
Shengliang); Roundtable on Religious Freedom, Staff Roundtable of the 
Congressional-Executive Commission on China, 25 March 02, Letter from 
Yulan (Jin Tongyen) and Testimony of Cui Guilian; Press Release, 
Committee for Investigation on Persecution of Religion in China, 
available at Free Church for China Web site, 29 January 02 (written 
testimonies of Zhang Hongjuan and Li Tongjin).
    \117\ ``A Member of the Communist Party Absolutely Cannot Believe 
in Any Religion'' [Gongchan dangyuan jue bu neng xinyang renhe 
zongjiao], Bureau of Religious Affairs of Yunnan Province (Online), 15 
August 04; ``Reflections on the Condition of Religion Faith Among 
University Students in the Province,'' Gansu Ribao, 14 November 04 
(FBIS, 16 November 04); ``Secret Communist Party Document Orders New 
Initiative Promoting Atheism,'' China Aid Association (Online), 17 
November 04 (contains text of the Notice on Further Strengthening 
Marxist Atheism Research, Propaganda, and Education).
    \118\ Ding Guangxun [K.H. Ting], ``A Call for Adjustment of 
Religious Ideas,'' Chinese People's Political Consultative News, 4 
September 98, reprinted in Li Xihyuan, Theological Construction--or 
Destruction, An Analysis of the Theology of Bishop K.H. Ting (Ding 
Guangxun) (Streamwood, Illinois: Christian Life Press, 2003), 109-111. 
For further evidence of the pressure to make Protestant theology 
conform to state ideology, see K.H. Ting, ``Some Thoughts on the 
Subject of Theological Reconstruction,'' Chinese Theological Review, 
Vol. 17 (2003); K.H. Ting, ``Adjustments in Theology are Necessary and 
Unavoidable,'' Chinese Theological Review, Vol. 17 (2003); Zhang 
Xiaofa, ``The Popularization of Theological Reconstruction,'' Chinese 
Theological Review, Vol. 18 (2004); Li Weizhen, ``On Justification by 
Faith,'' Chinese Theological Review, Vol. 18 (2004); Wang Guanghui, 
``De-Emphasis on Justification by Faith: An Instance of Theological 
Adaptation,'' Chinese Theological Review, Vol. 18 (2004). For a 
critical discussion of theological construction, see Li Xinyuan, 
``Theological Construction--or Destruction? '' The TSPM has also 
announced that it plans to consecrate bishops in the future, though the 
implementation of this plan has not yet been worked out, so that it 
remains to be seen what effect this will have on the religious freedom 
of registered Protestants who do not believe in episcopal authority. 
``Church Leadership Discusses Consecrating Bishops,'' Amity News 
Service (Online), 1 January 05; Wang Aiming, ``Growth of Christianity 
in China: A Protestant Perspective of Ecumenical Challenges and 
Opportunities,'' address delivered at the 21st National Catholic China 
Conference in Seattle, WA, 26 June 05 (available at the Web site of the 
U.S. Catholic China Bureau).
    \119\ Magda Hornemann, `` `Religious Distortion' and `Religious 
Freedom,' '' Forum 18 News Service, 25 November 04.
    \120\ Aikman, Jesus in Beijing, 263-284; God and Caesar in China: 
Policy Implications of Church-State Tensions, eds. Jason Kindopp and 
Carol Lee Hamrin (Washington, D.C.: Brookings Institution, 2004), 137-
139.
    \121\ See, e.g., the press releases of the China Aid Association.
    \122\ Aikman, Jesus in Beijing; Kindopp, Hamrin, God and Caesar in 
China.
    \123\ ``Chinese Churches Face Challenges of Growth,'' Ekklesia 
(Online), 11 May 05.
    \124\ Paul Hattaway, Brother Yun, Peter Xu Yongze, and Enoch Wang, 
Back to Jerusalem: Three Chinese House Church Leaders Share Their 
Vision to Complete the Great Commission (Carlisle, UK: Piquant, 2003), 
13 (80-100 million); Aikman, Jesus in Beijing, 9 (up to 80 million); 
Kindopp, Hamrin, God and Caesar in China, 2 (at least 30 million, 
``with estimated figures as high as 45 million to 60 million''); Gianni 
Criveller, ``Pechino nuova Antiochia? '' Mondo e Missione (Online), 
July-August 2005 (less than 30 million); ``Millions All Over China 
Convert to Christianity,'' Telegraph (Online), 3 August 05; ``Just How 
Many Christians and Communists Are There in China? '' Ecumenical News 
International (Online), 14 September 05; Caroline Fielder, ``The Growth 
of the Protestant Church in China,'' address delivered at the 21st 
National Catholic China Conference in Seattle, WA, 27 June 05 
(available at the Web site of the U.S. Catholic China Bureau).
    \125\ Aikman, Jesus in Beijing, 97-114. On Protestantism at Chinese 
universities, see Jen Lin-liu, ``At Chinese Universities, Whispers of 
Jesus,'' Chronicle of Higher Education (Online), 10 June 05.
    \126\ Commission Staff Interviews; Richard R. Cook, ``Behind 
China's Closed Doors Newly Confident House Churches Open Themselves Up 
to the World,'' Christianity Today (Online), February 2005.
    \127\ There are early signs of an emerging denominational 
sectarianism developing over disagreements as to Pentecostal and 
charismatic practices and the growing theological sophistication of the 
unregistered house churches, probably due to their increasing contact 
with Protestants outside China. Commission Staff Interview; ``Threat of 
Denominationalism Requires Vigilance,'' Amity News Service (Online), 
August 2004. The government's concern with Protestant evangelicalism 
can be seen in many of the articles published in the Chinese 
Theological Review or on the Web site of the Amity News Service. On 
evangelicalism in China, see Aikman, Jesus in Beijing. For important 
criticisms of Aikman, particularly regarding the Pentecostal character 
of many of the Protestant house churches, see Samuel Pearson, ``Jesus 
in Beijing: A Review Essay,'' Encounter LXV (Autumn 04), 393-402, and 
Gianni Criveller, ``Pechino nuova Antiochia? '' Mondo e Missione 
(Online), July-August 2005.
    \128\ ``Bringing the Church Into Society,'' Amity Newsletter 
(Online), March 2005, no. 7.
    \129\ Commission Staff Interview. See also the Web site of St. Paul 
University of China.
    \130\ Magda Hornemann, ``Is Central or Local Government Responsible 
for Religious Freedom Violations? ''

    Notes to Section III(e)--Freedom of Expression
    \1\ See, e.g., Public Intellectuals in China, Staff Roundtable of 
the Congressional-Executive Commission on China, 10 March 05, Written 
Statement submitted by Merle Goldman, Professor Emerita of Chinese 
History, Boston University and Executive Committee Member, Fairbank 
Center for East Asia Research, Harvard University:In fact, there has 
been a contraction of public space for political discourse since Jiang 
Zemin announced he would step down from his last position as head of 
the state military commission in the fall 2004 and Hu gained full power 
over the government. The Hu leadership has cracked down on a number of 
people who use the Internet or publish their own websites to discuss 
political issues. A number of cyber-dissidents have been imprisoned as 
a warning to others as to how far they can go in discussing political 
reforms on the Internet. Independent intellectuals who speak out on 
controversial issues have been briefly detained as well.
    \2\ Cheng Yizhong, ``Acceptance Speech by Laureate of UNESCO/
Guillermo Cano, Cheng Yizhong: Hold on to Common Sense Amid Terror and 
Lies'' [Cheng Yizhong huo shijie xinwen ziyou jiang daxieci: zai kongbu 
he huangyan zhong jianchi changshi], 28 April 05, reprinted in Boxun 
(Online), 29 April 05.
    \3\ ``How to Tightly Control Public Opinion, Increase Abilities to 
Guide Public Opinion'' [Zenyang laolao bawo yulun daoxiang, zengqiang 
yindao yulun de benling], Xinhua (Online), 14 December 04. Much of the 
Party and government rhetoric and policymaking in this regard in the 
last year can be traced to a speech given by Liu Yunshan, member of the 
Chinese Communist Party Central Committee, secretary of the 
Secretariat, and director of the Central Propaganda Department, on 
September 22, 2004, at the National Propaganda Directors Seminar, and 
subsequently published in the October 16 edition of Seeking Truth under 
the title ``Earnestly Study and Implement the Spirit of the Fourth 
Plenary Session of the 16th Chinese Communist Party Central Committee; 
Strive to Increase the Party's Ability to Lead Ideological Work'' 
[Renzhen xuexi guanche shiliu jie si zhong quanhui jingshen; nuli tigao 
dang lingdao yishi xingtai gongzuo de nengli]:In order to consolidate 
the guiding position of Marxism, it is necessary to ensure the 
leadership of the Party in ideological work. . . No matter what changes 
occur in the situation or the environment, there can be no change in 
the Party's control over ideology. It is necessary to insist on the 
principle that the Party controls the cadres, to strengthen the 
building of the leadership ranks in ideological agencies and work 
units, and to grasp the work and leadership of news publishing, radio 
and television, and the cultural arts and philosophical and social 
sciences firmly within the hands of those loyal to Marxism. It is 
necessary to establish an awareness that this is a battlefield, and 
that people have a responsibility for defending this territory. The 
thought and culture battlefield is the primary vehicle and 
dissemination channel of ideology, and if Marxist thought does not 
occupy it, then all kinds of non-Marxist, and even anti-Marxist, 
thought will occupy it.See also ``Liu Yunshan: Deepen Education of 
`Three Kinds of Study,' Enhance Skills to Guide Public Opinion'' [Liu 
yunshan: shenhua sanxiang xuexi jiaoyu huodong, zengqiang yindao yulun 
benling], Xinhua, 26 December 04, reprinted in People's Daily (Online), 
26 December 04: ``Liu Yunshan stressed: Party committees at all levels, 
especially the propaganda departments, should conscientiously 
strengthen and improve the Party's leadership over journalistic and 
propaganda work. . . .''
    \4\ Ji Weimin, ``Public Opinion Supervision: A Right? A Tool? A 
Duty? '' [Yulun jiandu: Quanli? Gongju? Zeren?], Study Times, reprinted 
in People's Daily (Online), 25 March 05.
    \5\ ``How to Tightly Control Public Opinion, Increase Abilities to 
Guide Public Opinion,'' Xinhua: In China, journalism constitutes one of 
the major parts of the Party's enterprises, the news media is the 
mouthpiece of the Party and the people, and must be under the 
leadership of the Party. In its thought, the news must take Marxism as 
its guide, must maintain a high degree of unanimity with the central 
Party with Comrade Hu Jintao as the Secretary; . . . in its 
organization it must insist on the Party's leadership of news work, 
ensure that leaders of news organizations at all levels firmly grasp in 
their hands loyalty to Marxism, and loyalty to the Party and the 
people.
    \6\ See, e.g., Zhao Shi, ``Establish Systematic Protections for the 
Good Image of the Media'' [Shuli xinwen meiti lianghao xingxiang de 
zhidu baozheng], People's Daily, 8 April 05, 11.
    \7\ Ling Yan, ``The Essence of Western Freedom of Expression and 
the Mission of Our Country's Journalism'' [Xifang xinwen ziyou de 
benzhi yu woguo xinwen shiye de shiming], Red Flag Manuscript, 
reprinted in People's Daily, 6 April 05, 9:
    For a long time, some comrades have had some incorrect areas in 
their ideology, owing to the fact that they either do not have a 
concept of the true meaning of press freedom, or they do not fully 
understand the way the news business operates in the world today. These 
incorrect areas manifest themselves in two main ways. The first way is 
to blindly worship Western press freedom, and always believe that the 
West is a press freedom paradise. The second way is to think that press 
freedom means you get to report whatever you want, and report any way 
you want, and to have a complete lack of restrictions on press freedom.
    See also Hou Jianmei, ``Shedding Light on the Inside Story of the 
U.S. Government News Making'' [Meiguo zhengfu paozhi xinwen neimu 
baoguang], Beijing Daily, reprinted in Xinhua (Online), 18 March 05; Qi 
Zijian, ``The New York Times Reveals the Inside Story: U.S. Media 
Enjoys Freedom of Speech Like This'' [``Niuyue shibao'' jie neimu: mei 
meiti ruci xiangshou ``xinwen ziyou''], Xinhua (Online), 22 March 05.
    \8\ ``Journalist Accreditation Cards: Legal Rights to Be Protected, 
Illegal and Unethical Behavior to Be Sanctioned'' [Jizhezheng: hefa 
quanyi shoudao baohu, weigui weiji jiang bei zhongfa], Xinhua (Online), 
16 February 05: ``[N]ews reporters are a new force in the work of 
propagandizing public opinion, and all of their news gathering and 
editing activities relate to insisting on correct guidance of public 
opinion . . . and will always be the subject of high-level attention 
from the government and the Communist Party.'' See also Interim Rules 
for the Administration of Those Employed as News Reporting and Editing 
Personnel [Xinwen caibian renyuan guanli de guiding], issued 22 March 
05, art. 2, requiring that journalists and editors ``carry out China's 
foreign policies.''
    \9\ Commission Staff Interview.
    \10\ ``[Newspapers] shall not select articles that contradict the 
guiding policies of the Party and the nation.'' Notice Regarding 
Further Strengthening the Administration of Selection of Articles for 
Newspapers and Periodicals [Guanyu jiyibu jiaqiang baokan zhaizhuan 
gaojian guanli de tongzhi], issued 25 February 05, art. 1. Authorities 
describe this policy as public opinion ``guidance,'' ``steering,'' and 
``supervision.'' These are, however, different names for the same 
policy. Ji Weimin, ``Public Opinion Supervision: A Right? A Tool? A 
Duty? '':
    In fact, currently public opinion supervision and media supervision 
are considered to be one and the same. . . While it is the media that 
acts as the critic in exercising the public opinion supervision 
function, the media's major critical reports must usually receive 
instructions or permission from their managing government agency, and 
public opinion supervision texts are generally perceived as being the 
opinion of a government or Party organization at one level or another. 
. . [P]ublic opinion supervision is an extension of, or supplement to, 
the authority of the Party and the government.See also ``Right to 
Protect and Right to Benefit of Public Opinion Supervision'' [Yulun 
jiandu zhuti de weiquan yu yongquan], China Journalist, reprinted in 
Xinhua (Online), 16 September 04: ``The implementation of proper 
supervision of public opinion must be carried out in a manner that 
benefits the Party's line, direction, and policies . . . and encourages 
the strengthening of the people's faith in the Party and the 
government.''
    \11\ Wang Xiaojie, ``Confirming the Position of Party Papers, 
Expanding the Function of Party Papers'' [Mingque dangbao dingwei, 
tuozhan dangbao gongneng], Journalistic Front, reprinted in People's 
Daily (Online), 1 December 04:
    Regarding providing policy reference material to the Party and the 
government, the primary means is [for reporters] to go through media 
investigation and research in order to provide Party and government 
agencies with information they do not possess or are neglecting (and 
for that portion [of the information] that it is not convenient to make 
public, it can be provided in the form of internal reference).See also: 
Interim Rules on Chinese Communist Party Internal Supervision [Zhongguo 
gongchandang dangnei jiandu tiaoli (shixing)], promulgated 17 February 
04: ``Under the leadership of the Party, the news media shall, in 
accordance with relevant regulations and procedures, utilize internal 
notices or public reports, and give free rein to functions of public 
opinion supervision.''
    \12\ For example, in June 2005, officials in a Zhejiang province 
township had banned the sale of the May edition of Rural Youth magazine 
because of an article criticizing local officials. The Sun newspaper of 
Hong Kong reported that Rural Youth's May edition included an article 
entitled ``Treasuring the Land that We Rely Upon for our Existence'' 
that revealed how officials in Shangyu municipality's Lihai township 
abused their authority to give away and sell state-owned land at low 
prices to commercial developers. Following the magazine's publication, 
no copies were available from magazine vendors, and a Shangyu 
government official said that subscribers did not receive their copies. 
`` `Rural Youth' Silenced for Exposing the Inside Story of Illegal Land 
Sales'' [``Nongcun qingnian'' yin jielu feifa shoudi neimu zao 
fengsha], Radio Free Asia (Online), 22 July 05. Also in June, someone 
removed pages from its sister publication, the Southern Metropolitan 
Daily, that were distributed in the Da Gang township. The removed pages 
included an article that reported about people from Long Gu village in 
Da Gang petitioning for the return of land requisitioned by the 
township's real estate development company. `` `Southern Metropolitan 
Daily' Suspected of Being Maliciously Bought Up in Panyu Dagang, Two 
Sections Removed That Reported on Illegal Property Confiscations'' 
[``Nanfang dushibao'' zai panyu dagang yi zao eyi shougou; baodao 
weigui zhengdi de liang ban be chouzou], Southern Daily (Online), 22 
June 05.
    \13\ ``List of `50 Public Intellectuals Who Influence China' '' 
[``Yingxiang zhongguo gonggong zhishi fenzi wushi ren'' mingdan], 
Southern People Weekly, reprinted in Sohu (Online), 9 September 04; 
`Who Are the `Public Intellectuals' ? '' [Shei shi gonggong zhishi 
fenzi?], Southern People Weekly, reprinted in Sohu (Online), 7 
September 04.
    \14\ Ji Fangping, ``Seeing Through the Appearance To Perceive the 
Essence--An Analysis of the theory of `Public Intellectuals' '' [Touguo 
biaoxiang kan shizhi--xi ``gonggong zhishi fenzi'' lun], Liberation 
Daily, 15 November 04, reprinted in People's Daily (Online), 25 
November 04, 9.
    \15\ For more information on this campaign, see Public 
Intellectuals in China, Testimony and Written Statements of Perry Link, 
Professor of Chinese Language and Literature, Princeton University; 
Merle Goldman, Professor Emerita of Chinese History, Boston University 
and Executive Committee Member, Fairbank Center for East Asia Research, 
Harvard University; and Hu Ping, Chief Editor, Beijing Spring.
    \16\ Joseph Kahn, ``China Calls Off Rights Conference,'' New York 
Times (Online), 18 May 05.
    \17\ Commission Staff Correspondence.
    \18\ Jin Qiang, ``Firmly Grasp the Initiative on Ideology Work'' 
[Laolao zhangwo yishi xingtai gongzuo de zhudao quan], People's Daily, 
23 November 04, 9.
    \19\ Liu Yixing, ``Zhu Hong of the State Administration of Radio 
Film and Television Interpreting the New Regulations on the 
Introduction of Foreign Television Programs'' [Guojia guangdian zongju 
zhuhong jiedu dianshi yinjin yu hezuo xin guiding], China Radio Film & 
Television, reprinted in People's Daily (Online), 4 November 04, Zhu 
Hong, the head of China's State Administration of Radio, Film, and 
Television, discussing the ``Broadcast Administration Regulations on 
the Introduction of Foreign Television Programs.''
    Foreign current event news programs cannot be introduced . . . news 
propaganda programs are the mouthpiece of the Communist Party and the 
government, and shoulder the responsibility of spreading the Party's 
voice to every household, and China's voice around the world. Therefore 
we must keep news and other programs that embody ideology firmly within 
our grasps. . . .Following [government] approval, foreign television 
programs may only be used as source materials, and cannot be broadcast 
in their entire, original condition. . . . [Broadcasters] should pay 
attention to the orientation of programs' general values, as well as 
their particulars, and filter out words and scenes that are not suited 
to China's situation . . . .
    \20\ Yu Xiao, ``Creating Strong Press on the Internet: There Is 
Politics on the Internet, There Is Competition on the Internet'' 
[Yingzao wangshang yulun qiangshi: wangshang you zhengzhi, wangshang 
you jiaoliang], People's Daily, 8 December 04, 4: However, the Internet 
is not tranquil. . . . Both at home and abroad there are hostile 
influences and people with ulterior motives who are using the Internet 
to make us ``divided'' and ``westernized.'' They disseminate fake 
information, spread reactionary speech, and even employ Internet 
writers to write about socially hot topics and sensitive news to fool 
Internet users and misguide public opinion. . . . If we do not move to 
capture the ideological battlefield, others will occupy it.
    See also Chen Kexiang, Xiang Keyuan, ``Inhibiting the Negative 
Influences of `Internet Emotional Public Opinions' '' [Ezhi ``wangluo 
qingxuxing yulun'' fumian yingxiang], Guangming Net, 19 April 05:
    [The Internet] has already become a means employed by enemy forces 
to carry out psychological warfare. Relevant information demonstrates 
that some enemy forces surreptitiously employ Internet experts and 
writers as ``hired guns,'' inflame the emotions on the Internet, seduce 
some people who do not understand the situation into wrongdoing, spread 
negative emotions, all in order to give rise to social chaos and create 
social instability.
    See also Liu Yuzhu, ``Actively Responding to the Challenge of the 
Internet Era'' [Jiji yingdui wangluo shidai de tiaozhan], Seeking Truth 
(Online), 1 January 05: Western countries, headed by the United States, 
have occupied an advantageous position with respect to the spread of 
the Internet, and they dump on China massive amounts of information of 
all kinds, including their political models, value systems, and 
lifestyles, in order to oppose and edge out socialist values. In 
particular, the so-called religious culture and the culture which 
spreads pornography and violence are stealthfully influencing the 
audience's sentiment and value judgments. . . . [T]his kind of 
``cultural invasion'' conducted via the Internet is extremely 
dangerous, as it threatens the independence and existence of the 
national culture, and even shakes the foundation of the nation and the 
state. In order to safeguard our cultural security, we must have a full 
understanding of, and actively prepare against, this.
    \21\ Zhao Jie, ``Do Not Vilify the Internet, It Is Necessary to 
Emphasize Forming Online Positive Public Opinion'' [Bu yao yaomohua 
hulianwang, yao xingcheng wangshang zhengmian yulunde qiangshi], Wen 
Hui Bo, 12 November 04, reprinted in People's Daily, 6 December 04, 9.
    \22\ ``GAPP Book Office Responsible Person Work Report for Previous 
Year on National Book Publishing Administration Work'' [Zongshu tushusi 
fuzeren tongbao qunian quanguo tushu chuban guanli gongzuo], Press and 
Publication (Bureau) of Guangdong Web site, 24 February 05; see also Yu 
Xiao, ``Creating Strong Press on the Internet: There Is Politics on the 
Internet, There Is Competition on the Internet'': ``Just as we have 
taken the initiative to emphasize that the work of newspapers, 
television, and radio must have a firm grasp on propaganda ideology 
work, we must also build up the emphasis on Internet public opinion 
propaganda. . . .''
    \23\ See, e.g., Cao Junwu, ``Suqian: Leading Internet Public 
Opinion in Practice'' [Suqian: yingdao wangluo yulun shijian], Southern 
Weekend, 19 May 05, 5; Chen Ming, Yang Guowei, and Chen Qiaoge, 
``Outlook Magazine: China's Internet Expression's Current Situation and 
Press Guidance'' [Zhongguo wangluo yulun xianzhuang ji yulun yindao], 
Outlook, reprinted in People's Daily (Online), 2 September 04; Zheng 
Baowei, ``Grasp the Art of Mastering and Guiding Public Opinion: Raise 
the Quality of Responding to and Resolving Public Opinion Crises'' 
[Zhangwo jiayu he yindao yulun de yishu, tigao yingdui he huajie yulun 
weiji de shuiping], Journalist Monthly (Online), 1 February 05.
    \24\ Josephine Ma, ``University Chat Room Shut Ahead of Meeting,'' 
South China Morning Post (Online) 16 September 04.
    \25\ ``News Black-Out on Death of Former Top Leader Zhao Ziyang,'' 
Radio Free Asia (Online), 28 January 05.
    \26\ ``China Tightens Internet Security During Imminent Plenary NPC 
Meeting,'' Xinhua (Online), 1 March 05.
    \27\ ``Responding to Recent Protest Marches Regarding Japan in Some 
Places, Ministry of Public Security: Using Internet to Stir Up Protest 
Marches Forbidden'' [Jiu jinqi yixie difang fasheng she ri youxing 
shiwei huodong, gonganbu: budei liyong wangluo gudong youxing shiwei], 
Xinhua, 21 April 05, reprinted in People's Daily, 22 April 05, 1. `` 
`Activists' Claim China Blocking Anti-Japan Websites for May Day 
Holidays'' Agence France-Presse, 2 May 05 (FBIS, 2 May 05); Zheng Qian, 
``Professors and Mentors Participate in Discussions Online: Shanghai 
University BBSs Stop Illegal Rumors'' [Jiaoshou, daoshi shangwang canyu 
taolun: Shanghai gaoxiao BBS dujue feifa chuanyan], Shanghai Evening 
Post (Online), 25 April 05; ``Beijing Warns Off Protestors With SMS, 
Braces for May 4,'' Associated Press, 2 May 05, reprinted in Taipei 
Times (Online), 2 May 05.
    \28\ ``BBS Contents Illegal, Investigate Operator's Responsibility: 
Online Postings Need to be Examined Before Distributing'' [BBS neirong 
weigui zhuijiu banzhu zeren: tiewen shangwang xu xianshen houfa], 
Southern Metropolitan Daily (Online), 2 May 05.
    \29\ In February 2005, SARFT issued a policy statement listing as 
one of its top 10 priorities for China's non-print media outlets for 
2005: ``Strengthen the capability and influence of radio, television, 
and film with respect to propagandizing abroad, and establish a 
positive perception of China abroad.'' ``Radio and Television 
Propaganda Work Priorities for 2005,'' [2005 nian guangbo yingshi 
xuanchuan gongzuo yaodian], SARFT Web site, 22 February 05; Interim 
Implementation Rules for Administration of Those Employed as Radio and 
Television News Reporters and Editors [Guangbo yingshi xinwen caibian 
renyuan congye guanlide shishi fangan (shixing)], issued 1 April 05, 
art. 4 (requiring that journalists and editors ``observe discipline 
with respect to propagandizing to foreigners, maintain a high degree of 
unanimity with the central government's line of action with respect to 
foreigners, and do not create any static or noise''); see also Lan 
Tianwei, ``The Internet Has Become Our Country's Best Medium for 
Propagandizing Abroad'' [Wanglu yijing chengwei woguo duiwai xuanchuan 
de zuijia meiti], Xinhua, reprinted in People's Daily (Online), 10 
November 04.
    \30\ Liu Binjie, ``Using Reform as the Motivator to Speed Up 
Development of Press and Publishing'' [Yi gaige we dongli jiakuai 
xinenchubanye fazhan], China Youth Daily, reprinted in People's Daily 
(Online) 26 January 05:
    [T]here only remains the cultural arena where our influence is 
insufficient. . . . We only need to develop and strengthen our cultural 
products, increase our cultural competitiveness, and only then can we 
gain a foothold in the world's cultural market, only then will we be 
able to allow the world to understand China's culture, and bring into 
play our culture's influence on international society.
    \31\ Declan McCullagh, ``The UN Thinks About Tomorrow's 
Cyberspace,'' CNET Networks (Online), 29 March 05.
    \32\ Han Yongjun, ``Huang Chengqing: Registration Promotes the 
Administration of Internet Regulation'' [Huang chengqing: beian cujin 
hulianwang guifan guanli], People's Post and Telecommunication Daily 
(Online), 1 June 05; see also Elliot Noss, ``A Battle for the Soul of 
the Internet,'' CNET Networks (Online), 8 June 05.
    \33\ Regulations on the Administration of Publishing [Chuban guanli 
tiaoli], issued 25 December 01, art. 11. For example, Chinese 
authorities confiscated 906 books that Wang Yi had privately printed to 
give to friends. Wang, an author in China and member of the Independent 
Chinese PEN Center, filed an administrative appeal with the GAPP to 
have his right to self-publish respected, but the appeal was rejected.
    \34\ ``Vice Director of GAPP Liu Binjie: Firmly Ban Illegal 
Newspapers and Magazines'' [Xinwen chuban zongshu fu shuzhang Liu 
Binjie: jianjue qudi feifa baokan], China Journalist Net, reprinted in 
People's Daily (Online), 10 May 05.
    \35\ For example, in August 2005, a court in Beijing sentenced the 
head of the Beijing representative office of a Hong Kong media group to 
three years imprisonment under Article 225 of the PRC Criminal Law for 
publishing a magazine without a government issued serial number. Li 
Kui, ``Printing and Publishing an Illegal Magazine; Media Group Chief 
Representative Sentenced to Three Years'' [Yinshua chuban feifa qikan; 
chuanmei jituan shouxi daibiao huoxing 3 nian], Legal Evening News, 
reprinted in Xinhua (Online), 11 August 05. Article 225 makes it a 
crime for anyone to commit ``illegal acts in business operation and 
thus disrupt market order.''
    \36\ See, e.g., ``Vice Director of GAPP Liu Binjie: Firmly Ban 
Illegal Newspapers and Magazines,'' China Journalist Net (calling on 
GAPP officials to ``unceasingly improve our ability to use the law as a 
means to restrain illegal periodical publishing activities.''); Liu 
Binjie, ``Motivated by the Goal of Reform, Speed Up Development in the 
News Publishing Industry'' [Yi gaige wei dongli jiakuai xinwen chubanye 
fazhan], Youth Journalist, reprinted in People's Daily (Online), 26 
January 05 (``With regards to marketized media, we must strengthen 
administrative legislating, and use the law to ensure that the guidance 
of public opinion and publishing direction are correct.'').
    \37\ Zhao Jie, ``Do Not Vilify the Internet, It is Necessary to 
Emphasize Forming Online Positive Public Opinion,'' 9.
    \38\ Li Liang and Yu Li, ``14 Government and Party Agencies Unite 
to Purify the Internet'' [14 buwei lianhe ``jinghua'' hulianwang], 
Southern Weekend (Online), 18 August 05.
    \39\ ``Realistically Improve Administration; Promote Administration 
in Accordance with the Law'' [Qieshi gaijin guanli; tuijin yifa 
xingzheng], People's Daily, 21 June 05, 4.
    \40\ Tim Johnson, ``China Sees New Breed of Civil Activists 
Emerge,'' Knight Ridder, 4 October 04; Fu Qiang, ``Nation's First 
Private Crime Reporting Web Site Existed Only 38 Days: Experts Discuss 
Three Big Questions'' [Quanguo shouge minjian jubaowang jin cun 38 
tian: zhuanjia tan san da zhiyi], China Economic Net (Online), 8 
September 04.
    \41\ Han Yongjun, ``Hurry to Get an `ID Card' for Your Web Site'' 
[Kuai gei nide wangzhan ling ``shenfenzheng''], People's Posts and 
Telecommunications News, reprinted in China Information Industry 
(Online), 1 June 05; Registration Administration Measures for Non-
Commercial Internet Information Services [Feijingyingxing hulianwang 
xinxi fuwu beian guanli banfa], issued 8 February 05.
    \42\ ``Beijing Public Security Office Demands Virus Web Sites and 
Medium and Small Web Sites Register With Their Local Offices'' [Beijing 
gonganju yaoqiu bingdu wangzhan ji zhongxiao wangzhan dao shudi beian], 
Xinhua (Online), 2 June 05.
    \43\ Li Liang and Yu Li, ``14 Government and Party Agencies Unite 
to Purify the Internet.''
    \44\ ``Major Deadline Arrives for Unregistered Domestic Web Sites; 
One Quarter Temporarily Shut Down'' [Wei beian jingnei wangzhan daxian 
yizhi; 1/4 wangzhan zhanshi guanbi], Beijing Youth Daily (Online), 1 
July 05; see also, ``Operators Refuse to Implement Registration; 
Shandong Shuts Down 404 Internet Web Sites'' [Ju bu fuxing beian yean; 
shandong guanbi 404 jia hulian wangzhan], Qilu Evening News, reprinted 
in Xinhua (Online), 18 July 05.
    \45\ ``Xinhua Editorial: The Important Regulation Which Regulates 
the Behavior of Those Engaged in News Reporting and Editing'' [Xinhua 
shiping: guifan xinwen caibian renyuan xingwei de zhongyao zhidu], 
Xinhua (Online), 22 March 05.
    \46\ ``Professional Ethical Standards for China Radio and 
Television Announcers and Hosts'' [Zhongguo guangbo dianshi boyinyuan 
zhuchiren zhiye daode zhunze], issued 2 December 04; ``Professional 
Ethical Standards for China Radio and Television Editors and 
Reporters'' [Zhongguo guangbo dianshi bianji jizhe zhiye daode zhunze], 
issued 2 December 04.
    \47\ Notice Regarding Strengthening the Supervision of Radio and 
Television Discussion Programs [Guanyu jiaqiang guangbo dianshi 
tanhualei jiemu guanlide tongzhi], issued 10 December 04.
    \48\ Measures for the Administration of Journalist Accreditation 
Cards [Xinwen jizhezheng guanli banfa], issued 10 January 05; Measures 
for the Administration of News Bureaus [Baoshe jizhezhan guanli banfa], 
issued 10 January 05.
    \49\ Interim Rules Regarding the Administration of Those Engaged in 
News Reporting and Editing [Guanyu xinwen caibian renyuan congye guanli 
guiding], issued 22 March 05. According to one provincial Propaganda 
Department official, ``the promulgation of the Rules makes public the 
Party's demands regarding news work and those engaged in news work, 
what news reporters and editors should do and should not do, and what 
methods and behaviors are incorrect. . . .'' ``Published Extracts of 
Speeches at the Forum of the Province's Primary News Work Units to 
Study the Implementation of the `Regulations' '' [Shengnei zhuyan 
xinwen danwei xuexi guanche ``guiding'' zuotanhui shangde fa yan 
zhaideng], Gansu Daily (Online), 9 May 05.
    \50\ Interim Implementation Rules for Administration of Those 
Employed as Radio and Television News Reporters and Editors, art. 4. 
These rules also state: ``With respect to reports on breaking events 
relating to minorities and minority areas, it is necessary to have a 
cautious grasp, and ask for instructions from the relevant government 
agency in a timely manner.'' See also State Administration of Radio 
Film and Television Printed and Distributed Notice Regarding Resolutely 
Strengthening and Improving Radio and Television Public Opinion 
Supervision Work [Guojia guangdian zongju yingfa guanyu qieshi jiaqiang 
he gaijin guangbo dianshi yulun jiandu gongzuo de yaoqiu de tongzhi], 
SARFT (Online), 10 May 05.
    \51\ ``General Office of the Communist Party Prohibits Inter-
Regional Supervision by Domestic Mass Media'' [Zhongban jin neidi 
chuanmei yidi jiandu], Ming Pao (Online), 13 June 05.
    \52\ Nailene Chou Wiest, ``Closing of Loopholes to Further Gag 
Media,'' South China Morning Post (Online), 11 June 05.
    \53\ ``Cleaning up and Reorganizing Newspaper Magazine Agencies and 
Reporter Stations Nationwide: 642 Shut Down and Had Licenses Removed'' 
[Quanguo baokanshe jizhezhan qingli zhengdun: tingban zhuxiao 642 jia], 
Xinhua, 28 September 04, reprinted in People's Daily, 29 September 04, 
10.
    \54\ Yuan Xi, ``2004 `Anti-Pornography and Anti-Illegal 
Publications': 200 Million Illegal Publications Confiscated'' [2004 
Nian ``saohuang dafei'': 2 yi jian feifa chubanwu bei shoujiao], 
People's Daily, reprinted in Xinhua (Online), 24 January 05.
    \55\ See, e.g., ``Make the Important Points Stand Out, Place Stress 
on Implementation, Earnestly Protect the Order of the Publication 
Market (Sichuan)'' [Tuchu zhongdian, henzhua luoshi, qieshi weihu 
chubanwu shichang zhixu (Sichuan)], Sichuan Office on ``Sweep Away 
Pornography, Strike Down Illegal Publications,'' 29 December 04, 
reprinted on National Working Group Office on ``Sweep Away Pornography, 
Strike Down Illegal Publications'' Web site, 29 December 04.
    \56\ ``2004 News Publishing Industry Development Report: Further 
Developing and Flourishing'' [2004 nian xinwen chuban ye fazhan baogao: 
jin yibu fazhan fanrong], Xinhua, 30 January 05, reprinted in People's 
Daily, 1 February 05, 11.
    \57\ ``Eight Departments and Agencies: Maintain the Dignity of the 
Nation's Territory, Strengthen the Supervision of the Map Market'' [Ba 
bumen: weihu guojia bantu zunyan, jiaqiang ditu shichang jianguan], 
Xinhua (Online), 27 April 05.
    \58\ Qu Zhihong, ``GAPP and Others Publicly Announced 60 Kinds of 
Illegal Periodicals'' [Guojia xinwen chuban zongshu deng gongbu qudi 60 
zhong feifa qikan], Xinhua, 28 April 05, reprinted in People's Daily 
(Online), 28 April 05.
    \59\ ``Central Authorities Govern Newspapers and Magazines, the 
Leading Group Dispatched Supervision and Inspection Groups to 
Investigate 10 Jurisdictions' Newspaper and Magazines Control'' 
[Zhongyang zhili baokan lingdao xiaozu pai jianchazu jiancha shi 
shengqu baokan zhili], China Journalism Review, reprinted in Xinhua 
(Online), 29 March 04.
    \60\ ``China Banning Illegal Publications For Overhauling 
Publications Market, Official Says,'' Xinhua (Online), 14 May 05.
    \61\ Qu Zhihong, ``Various Illegal Foreign Newspapers and Magazines 
Will be Banned According to Law'' [Duozhong weifa waiwen baokan jiang 
bei yifa chachu qudi], Xinhua (Online), 28 April 05. In July 2005, 
several Chinese government agencies issued a joint notice announcing 
the commencement of a campaign to ``investigate, prosecute, and ban'' 
unauthorized foreign language publications. ``GAPP and Five Agencies 
Unite to Investigate, Sanction, and Shut Down Illegal Foreign Language 
Periodicals'' [Xinwen chuban zongshu deng 5 bumen jiang lianhe chachu 
qudi feifa waiwen baokan], Xinhua (Online), 19 July 05.
    \62\ For detailed information on the regulations governing book 
publishing, see China's Book Publishing Flowchart on the Commission's 
Web site.
    \63\ ``A New Basis for Book Recalls: Those with an Error Rate 
Greater Than 0.05 Percent Should Be Recalled Within 30 Days'' [Tushu 
shouhui xin yiju: chacuolu da wanfen zhi wu 30 tian nei shouhui], 
Beijing Star Daily, reprinted in People's Daily (Online), 2 March 05.
    \64\ See, e.g., Zhang Yonghua, Pan Hua, and Liu Jia, ``Current 
Situation and Challenges for Foreign Media's Entry into Shanghai'' 
[Jingwai meiti jinru: shanghai de xianzhuang yu tiaozhan], News 
Journalist, reprinted in People's Daily (Online), 7 June 05:
    [A]dministrative rules regulate the entry and journalistic 
activities of foreign news agencies residing in China: an approval 
system is imposed on journalists assigned by foreign news agencies and 
their resident news bureaus; and when any resident news bureau or its 
personnel interviews a government bureau or other work unit, it must 
first apply for permission from the relevant foreign affairs agency.
    \65\ ``Hong Kong Reporters Detained in Beijing'' [Xianggang jizhe 
zai Beijing bei koucha], Boxun (Online), 29 January 05; ``Chinese 
Government Bans Two Canadian Journalists with Chinese-Language TV 
Station,'' Radio Free Asia (Online), 18 January 05; Didi Kirsten 
Tatlow, `` `Give Us All Your Notes and Pictures,' '' South China 
Morning Post (Online), 17 April 05; Serena Fang, ``Silenced,'' 
Frontline (Online), 17 January 05; Edward Lanfranco, ``Hebei Incident 
Shows China's Dark Side,'' United Press International, reprinted in 
Washington Times (Online), 19 July 05.
    \66\ ``GAPP Book Office Responsible Person Work Report for Previous 
Year on National Book Publishing Administration Work'' [Zongshu tushusi 
fuzeren tongbao qunian quanguo tushu chuban guanli gongzuo], Press and 
Publication (Bureau) of Guangdong Web site, 24 February 05.
    \67\ Erik Eckholm, ``Aide for Times Revealed Secrets, China 
Charges,'' New York Times (Online), 22 October 04; Human Rights in 
China Press Release, ``Update on Zhao Yan Case,'' September 04.
    \68\ Broadcast Administration Regulations on the Introduction of 
Foreign Television Programs [Jingwai dianshi yewu yinjin, bochu guanli 
banfa], issued 23 September 04, art. 15.
    \69\ ``Journalist Gets 10 Years in Jail for Leaking Top State 
Secrets,'' Xinhua (Online), 30 April 05.
    \70\ Notice of Certain Decisions Regarding Non-Public Investment in 
Cultural Industries [Guanyu feigongyou ziben jinru wenhua chanyede 
ruogan jueding], issued 13 April 05; Rules on the Administration of 
Radio, Film, and Television System's Local Foreign Affairs Work 
[Guangbo yingshi xitong difang waishi gongzuo guanli guiding], issued 6 
July 05; Regulations on the Administration of Commercial Performances 
[Yingyexing yanchu guanli tiaoli], issued 7 July 05; Measures Regarding 
Strengthening the Administration of the Importation of Cultural 
Products [Guanyu jiaqiang wenhua chanpin jinkou guanlide banfa] issued 
3 August 05; Certain Opinions Regarding the Introduction of Foreign 
Investment into the Cultural Domain [Guanyu wenhua lingyu yinjin waizi 
de ruogan yijian], issued 4 August 05; Notice Regarding Further 
Strengthening the Administration of Radio and Television Channels 
[Guanyu jinyibu jiaqiang guangbo dianshi pindao guanlide tongzhi], 
issued 4 August 05.
    \71\ ``China's Progress in Human Rights in 2004,'' State Council 
Information Office White Paper, 13 April 05.
    \72\ ``45 Sino-Foreign Cooperative Projects on Periodicals Approved 
by the General Administration of Press and Publication'' [45 ge 
zhongwai qikan hezuo xiangmu yi huo zongshu pizhun], Media Undo, 
reprinted in People's Daily (Online), 8 September 04.
    \73\ Liu Binjie, ``Motivated by the Goal of Reform, Speed Up 
Development in the News Publishing Industry'' [Yi gaige wei dongli 
jiakuai xinwen chubanye fazhan], Youth Journalist, reprinted in 
People's Daily (Online), 26 January 05.
    \74\ Geraldine Fabrikant, Keith Bradsher, ``Media Executives Court 
China, But Still Run Into Obstacles,'' New York Times, 29 August 05, 
C1; Pietro Ventani, ``Sex and the City (and China's Media Crackdown),'' 
Asia Times (Online), 27 August 05; ``Aiming at Virgin Investment 
Territory; A Roadmap of the Creative Ways that Foreign Companies Get 
Into China's Cultural Industry'' [Miaoxiang ziben chunudi; waizi qiaoru 
zhongguo wenhua chanye luxiantu], International Finance News, reprinted 
in Xinhua (Online), 2 September 05.
    \75\ ``[I]t is necessary to clarify the goal of the reforms, and 
that is to establish within newspaper and periodical enterprises 
leadership by Communist Party committees, government administration, 
industry self discipline, and administrative management systems. . . 
.'' Yang Chiyuan and Cha Guowei, ``2005 Observation of Media Reform and 
Development: Meeting on Direction of Media Reform and Development Was 
Held, Experts Analyzed Reform Policies and Speculated Media Direction'' 
[2005 chuanmaiye gaige yu fazhan gaoduan guancha: chuanmeiye gaige yu 
fazhan zoushi yantaohui zhao kai, zhuanjia xuezhe jiexi gaige zhengce 
bamai chuanmei zoushi], Media, reprinted in People's Daily (Online), 18 
April 05. For example, in April 2005, the People's Daily reported that 
the GAPP had approved the establishment of China's first media 
organization using a shareholding system. The report stated the company 
would be ``co-led'' by a board of directors and a Communist Party 
committee. ``Our Country's First News Organization With a Complete 
Stockholding System Established Today in Beijing'' [Woguo shoujia 
zhengti shixing gufanzhi de xinwen jigou zai jing jiepai], People's 
Daily (Online), 19 April 05.
    \76\ ``GAPP: Private Book Companies Cannot Form Private Publishing 
Houses'' [Chuban zongshu: minying shuye buke chengli minying 
chubanshe], China News Net, reprinted in People's Daily (Online), 10 
September 04.
    \77\ Liu Binjie, ``Motivated by the Goal of Reform, Speed Up 
Development in the News Publishing Industry'' Regardless of how we go 
about reforming or what organization system we implement, we cannot 
allow any change in the correct guidance of public opinion. This 
relates to the problem of strengthening Marxist ideology, it relates to 
the problem of ensuring the dominant position of Marxist ideology, it 
relates to the problem of disseminating the Party's primary ideology. 
What we must first allow for is that we must insist that the Party's 
primary media remain state owned.
    \78\ Antoaneta Bezlova, ``Big Brother's Book Ban Blues,'' The Hong 
Kong Standard (Online), 31 May 05.
    \79\ David Barboza, ``Pushing (and Toeing) the Line in China,'' New 
York Times (Online), 18 April 05.
    \80\ ``China: Foreign Affairs Magazine Shuttered after Criticism of 
North Korea,'' Committee to Protect Journalists, 22 September 04.
    \81\ ``Editor Fired for Advocating China's Reform,'' United Press 
International, reprinted in Washington Times (Online), 26 October 04. 
Authorities later stripped Xiao of his seat on the Guangdong Political 
People's Consultative Conference. Leu Siew Ying, ``Former Editor of 
`Tong Zhou Gong Jin' Stripped of Political Post,'' South China Morning 
Post (Online), 16 March 05.
    \82\ ``Central Propaganda Department Criticized by Name, Beijing 
University Stopped Jiao Guobiao from Teaching'' [Zhongxuanbu dianming 
piping, beida zanting Jiao Guobiao shouke], Sound of Hope Radio 
Network, reprinted in Dajiyuan (Online), 9 October 04; ``China Fires 
Media Professor Who Called For Press Freedom,'' Radio Free Asia 
(Online), 29 March 05.
    \83\ Philip P. Pan, ``China Frees Pioneering Journalist,'' 
Washington Post, 28 August 04, A19.
    \84\ ``Lawyer for Several Journalists and Cyberdissidents Harassed 
and Facing a Professional Ban,'' Reporters Without Borders (Online), 4 
March 05.
    \85\ Joseph Kahn, ``China Detains 3 Who Criticized Government,'' 
New York Times (Online), 14 December 04.
    \86\ Hao Keyuan, ``Twelve Big Changes in the Principles of Running 
a Newspaper'' [Banbao linian de shier da bianhua], People's Daily 
(Online), 25 October 04.
    \87\ Ibid.; see also Edward Cody, ``Party Censors Leave Harbin to 
Speculate on Corruption Scandal,'' Washington Post, 1 November 04, A13:
    One stratagem, they said, is to turn off cell phones and tell their 
secretaries to inform callers the boss is out. Another is to keep a 
story quiet until 5 p.m., when most censorship bureaucrats leave for 
home, and then push it into the paper so the news is out by the time 
censors' advice notices are faxed over the next day.
    \88\ Liu Yuzhu, ``Positively Facing the Challenge of the Internet 
Age'' [Jiji yingdui wangluo shidai de tiaozhan], Seeking Truth 
(Online), 1 January 05: ``[W]e should strengthen supervision over 
telecommunications operators and Internet service providers, and 
request that they assume the responsibility of inspectors and 
supervisors. Relevant domestic Web sites should practice strict self-
discipline, should not provide obscene and other illegal content, and 
regularly and timely remove harmful information posted by Internet 
users.''
    \89\ Zheng Qian, ``Professors and Mentors Participate in 
Discussions Online: Shanghai University BBS Stop Illegal Rumors.
    \90\ Charles Hutzler, ``China Finds New Ways To Restrict Access To 
the Internet,'' Wall Street Journal, 1 September 04.
    \91\ Zhang Song, ``Underground Market Full of Chaos and Dishonesty, 
Why Is It Hard to Administer Private Satellite Installation Despite 
Existing Laws? '' [Dixia shichang youluan youhei, sizhuang weixing 
dianshi weihe youfa nanzhi?], Economic Information Daily, reprinted in 
Xinhua (Online), 6 December 04.
    \92\ ``Foreign Newspapers Will Be Allowed to be Printed in China, 
Currently No One Has Formally Applied'' [Waiguo baozhi jiang huozhun 
zai hua yinshua, muqian hai meiyou yijia tichu zhengshi shenqing], 
Beijing News, reprinted in People's Daily (Online), 26 November 04.
    \93\ Interim Regulations on the Administration of Sino-Foreign 
Joint and Cooperative Ventures in Radio and Television Program 
Production Operating Enterprises [Zhongwai hezi, hezuo guangbo dianshi 
jiemu zhizuo jingying qiye guanlin zhanxing guiding], issued 28 October 
05, art. 12.
    \94\ ``New Regulations Surfaced: Foreign Invested Movie, 
Television, and Media Corporations Can Only Participate in Joint-
Ventures'' [Xin guiding chutai: waizi yingshi chuanmei zhineng kai 
yijia hezi gongsi], Shanghai Morning Post, reprinted in People's Daily 
(Online), 7 March 05; Measures on the Administration of Foreign 
Satellite Television Channel Reception, issued 1 August 04, art. 12.
    \95\ Liu Yuzhu, ``Positively Facing the Challenge of the Internet 
Age'' [Jiji yingdui wangluo shidai de tiaozhan], Seeking Truth 
(Online), 1 January 05.
    \96\ ``Internet Filtering in China in 2004-2005: A Country Study,'' 
OpenNet Initiative (Online), 14 April 05.
    \97\ Xuan Zhaoqiang, ``Monitoring and Controlling Internet Cafe 
Information at Anytime: `Thousand-Mile-Eyes' System is Available for 
Jinan Internet Cafe Monitoring'' [Suishi jiankong wangba xinxi: Jinan 
wangba jianguan youle ``qianliyan''], Hua Dong News, reprinted in 
People's Daily (Online), 24 January 05.
    \98\ ``Shuimu BBS Makes Adjustments to Become an Internal School 
BBS, Beijing University and Other Higher Education BBS Sites Have Also 
Already Made Adjustments'' [Shuimu BBS tiaozheng wei xiaonei xing, 
beida deng gaoxiao BBS zhan ye yi tiaozheng], Beijing Times, reprinted 
in the People's Daily (Online), 19 March 05.
    \99\ ``Internet Cafes to Implement Fingerprint Recognition System: 
Effectively Prevent Underage Children From Entering Internet Cafes'' 
[Wangba jiang tui zhiwen shibie: youxiao fangfan weichengnianren jin 
wangba], Xinhua (Online), 15 March 05.
    \100\ Zhou Wei, Hu Jinwu, ``How Can the Regulation of Internet 
Cafes Only Involve the Regulation of Cafes and Not the Internet? '' 
[Wangba zhengzhi qineng zhiba bu zhiwang?], Xinhua (Online), 11 October 
04.
    \101\ ``Information Supplied by Yahoo! Helped Journalist Shi Tao 
Get 10 Years in Prison,'' Reporters Without Borders (Online), 6 
September 05.
    \102\ Ching-Ching Ni, ``Yahoo Accused of Aiding China in Arrest,'' 
Los Angeles Times (Online), 8 September 05.232 Shi Tao Written 
Judgment, Hunan Province Changsha Municipality Intermediate People's 
Court, Criminal Written Judgment, Changsha Intermediate Criminal 
Division One, Trial in First Instance Document Number 29 (2005), 27 
April 05.
    \103\ ``In Imprisoning Journalists, Four Nations Stand Out,'' 
Committee to Protect Journalists (Online), 3 February 05.
    \104\ Louise Arbour, the United Nations High Commissioner for Human 
Rights, arrived in Beijing on August 29, 2005 for an official visit. On 
that day, Chinese police raided the office of the Empowerment and 
Rights Institute, a legal and human rights advisory group in Beijing. 
The group's director, Hou Wenzhuo, said that the police came to her 
home as well, but did not arrest her. Kahn, ``Beijing Police Raid 
Rights Group Office.'' Also on that day, Liu Xiaobo, president of the 
Independent Chinese PEN Center, wrote an article saying that since the 
United Nations High Commissioner for Human Rights arrived in Beijing, 
police had been deployed near his house, as well as near the houses of 
political theorist Zhang Zuhua and author Liu Di (also known as the 
``Stainless Steel Mouse''). ``A High Level Human Rights Official 
Arrives, and the Police Once Again Take Up Their Posts'' [Renquan gaoji 
guanyuan laile, jingcha you shanggangle], China Information Center Web 
site, 29 August 05.
    \105\ Benjamin Kang Lim, ``China Frees SARS Hero,'' Reuters, 23 
March 05; ``Jiang Yanyong Still Under House Arrest After Being Released 
from Prison'' [Jiang yanyong huoshi hou chuyu bei ruanjin zhuangtai], 
Radio Free Asia (Online), 14 October 04.

    Notes to Section III(f)--Status of Women
    \1\  ``Chinese Police Beat Up AIDS Activist During UN Rights 
Visit,'' Radio Free Asia (Online), 31 August 05.
    \2\ Joseph Kahn, ``Beijing Police Raid Rights Group Office,'' New 
York Times, 30 August 05, A9.
    \3\ Margaret Woo, ``When Gender Differences Become a Trap: The 
Impact of China's Labor Law on Women,'' 14 Yale J.L. & Feminism 69, 71 
(2002).
    \4\ ``Bias or Protection? Can Women Retire at the Same Age as Men? 
'' Xinhua (Online), 29 January 03.
    \5\ Law of the People's Republic of China on the Protection of the 
Rights and Interests of Women [hereinafter Women's Rights and Interests 
Protection Law], enacted 3 April 92, amended 28 August 05.
    \6\ Jonathan Hecht, ``The Legal Protection of Women's Rights in 
China,'' in Human Rights in China, China Rights Forum (Fall 1995). 
Since passage of the Women's Rights and Interests Law, a number of 
institutions have been established in China to enable and encourage 
women to assert their rights. One example is the Center for Women's Law 
and Legal Services of Peking University, founded in December 1995 as 
the first center specializing in women's law in China. The Center has 
led to the development of a number of other institutions to promote 
women's rights, such as the recently founded Web site ``Women's Watch--
China.''
    \7\ Women's Rights and Interests Protection Law. See also Chen 
Liping, ``Thoroughly Implementing the Women's Law is the Common 
Responsibility of the Entire Society'' [Guanche shishi funufa shi quan 
shehui gongtong zeren], Legal Daily (Online), 30 August 05; Chen 
Liping, ``Interpretation of the Law on the Protection of the Rights and 
Interests of Women'' [Jiedu funuquanyi baozhangfa xiugai zhengan], 
Legal Daily (Online), 29 August 05; ``China Daily `Opinion' on Draft 
Amendments of Women's Rights Laws,'' China Daily (Online), 5 July 05. 
The drafting committee said the ten goals of the draft are: to write 
the basic national principle of equality between the sexes into law; to 
specify which government officials have the duty to enforce the law; to 
specify the duties of the All-China Women's Federation (ACWF) at each 
level; to increase the number of women in positions of authority in the 
government and the Party; to prohibit bias against women in school 
admissions; to prevent gender bias in the job market and the workplace, 
loss of labor benefits because of special protective labor regulations, 
and unequal access to rights and benefits like social security, 
welfare, and health insurance; to protect the right of rural women, 
regardless of their marital status, to receive land use contracts and 
get an equal share of any compensation for expropriated land; to 
prohibit sexual harassment, to rescue and rehabilitate trafficking 
victims, and to forbid use of ultrasound to determine fetal sex for 
purposes of non-medical abortion; to clarify the responsibility of the 
police, the government, and the judiciary to eliminate domestic 
violence and provide for the rescue and rehabilitation of victims; and 
to clarify the administrative, civil, and criminal responsibility of 
those who break the Women's Rights and Interests Protection Law, as 
well as to provide legal assistance for women seeking redress under it. 
See also Rong Jiaojiao, ``Law to Catapult Women's Rights into the New 
Century,'' China Daily (Online), 12 August 05.
    \8\ Women's Rights and Interests Protection Law, art. 40. See also, 
``Sexual Harassment Law Gives Hope to Women Suffering in Silence,'' 
South China Morning Post (Online), 8 August 05; ``China Outlaws Sexual 
Harassment,'' Xinhua (Online), 29 August 05; ``Women who Encounter 
Sexual Harassment Have the Right to Complain to their Work Unit and 
Relevant Departments'' [Zao xingsaorao nuxing youquan xiang danwei he 
youguan jiguan tousu], People's Daily (Online), 23 August 05. However, 
some commentators have noted that the term ``sexual harassment'' is not 
defined in the law. ``Those Who Sexually Harass to Be Legally Liable; 
But Outlines of Offense Still Unclear'' [Xingsaoraozhe jiang bei 
zhuijiu falu zeren; jieding chidu reng wu biaojun], Xinhua (Online), 29 
August 05.
    \9\ ``China Issues White Paper on Gender Equality and Women's 
Development'' [`Zhongguo xingbie pingdeng yu funu fazhan zhuangkuang' 
baipishu zhichu], China Legal Information (Online), 24 August 05, The 
white paper cites many facts and figures to show improvements achieved 
in the status of women, although other research shows continued 
inequality in access to political power, education, healthcare, 
employment opportunity, and property. Wang Ying, ``Gender Inequality 
Serious in Rural Areas,'' China Daily (Online), 8 September 05 
(describing research by Professor Li Xiaoyun in ten poor villages in 
2005).
    \10\ ``PRC Official Discusses Improvements in Women's Status at 
World Conference,'' Xinhua (Online), 30 August 05.
    \11\ ``Hu Jintao Addresses Beijing Meeting on Anniversary of World 
Conference on Women,'' Xinhua (Online), 29 August 05.
    \12\ Guowuyuan funuertong gongzuo weiyuanhui, currently chaired by 
Vice Premier Wu Yi. The Committee's Web site is at <http://
www.nwccw.gov.cn/>.
    \13\ Zhonghua chuanguo funulianhehui, currently led by Huang 
Qingyi. The Federation's Web site is at < http://www.women.org.cn/>.
    \14\ See, for example, the manual entitled All-China Women's 
Federation Compilation of Laws Relating to Women and Children (April 
2002). Recent progress on establishing hotlines and local legal 
assistance centers for women facing domestic violence is touched on in 
``One Fifth of Women Convicts in Yunnan Jailed Because of Retaliation 
Against Abusive Spouses'' [Yunnan sheng nufan liangcheng yin jiating 
baoli fanzui], Chuncheng Evening News, reprinted in Xinhua (Online), 19 
August 05.< http://www.yn.xinhuanet.com/newscenter/>. See also ``Ten 
Years of Work on Gender Equality in Yunnan: More than 600 Projects'' 
[Yunnan sheng nannu pingdeng gongzuo 10 nian chunhua qiushi: 600 duo 
xiangmu], Chuncheng Evening News, reprinted in Xinhua (Online), 3 
August 05.
    \15\ ``Program for the Development of Chinese Women'' [Zhongguo 
funufazhan gangyao], Xinhua (Online), 3 September 03. The Program and 
some discussion of its contents are posted on the China Women's Net.
    \16\ See Section III(i)--Population Planning. As a mass line 
organization, the ACWF is dominated by Party members and functions to 
convey and implement Party policies among the people. The ``One Child 
Policy,'' although now expressed in a national law, was originally 
promulgated as Party policy and remains a key element of Party policy. 
It should be noted that article 7 of the amended Women's Rights and 
Interests Protection Law specifies that all levels of the ACWF have the 
affirmative duty to protect women's rights and interests.
    \17\ Successful projects to protect women's rights have also been 
run by the Guangdong Women's Federation Legal Services Center and the 
Shaanxi Province Research Association for Women and the Family, founded 
in 1988.
    \18\ Ma Jianxiong, ``Sex Ratio, Marriage Squeeze, and Ethnic 
Females Marriage Migration in China'' [Xingbiebi, hunyin jizhuang yu 
funuqianyi], Journal of Guangxi Universities for Nationalities, Vol. 
26, No. 4, July 2004. International trafficking particularly harms 
women and girls, as evident in the estimates cited in the State 
Department's 2005 Report on trafficking that of the 600,000 to 800,000 
victims trafficked each year, 80 percent are women and up to 50 percent 
minors. Trafficking in Persons Report, June 2005, available on the 
Department of State Web site, 6. The United States Trafficking Victims 
Protection Act of 2000, as amended in 2003 [hereinafter TVPA] requires 
the State Department to cover ``countries of origin, destination, or 
transit for a significant number of victims of severe forms of 
trafficking.'' Ibid., 26. The Trafficking in Persons reports assign the 
countries covered to one of three tiers based on their compliance with 
the TVPA's minimum standards for combating trafficking. Ibid, 29. In 
order to indicate trends in trafficking and efforts to fight it, the 
TVPA was amended in 2003 to add a fourth category, the ``Tier 2 Special 
Watch List,'' which focuses special attention on countries that are 
making efforts to cope with trafficking but need to do more. The 2005 
Trafficking in Persons Report puts China in the Tier 2 Special Watch 
List because of its failure to provide evidence of increased efforts to 
cope with trafficking, especially of victims trafficked to Taiwan and 
North Koreans trafficked into China and forcibly repatriated. Ibid., 
83-84.
    \19\ Cindy Sui, ``Baby Trafficking in PRC's Rural Areas 
`Widespread,''  Agence France-Presse (Online), 5 February 05.
    \20\ Yunnan Provincial Women's Federation, in collaboration with 
Yunnan Provincial Bureau of Statistics, the Bureau of Statistics, 
Education Commission, and Justice Bureau of Jiangcheng and Menghai 
Counties, Yunnan Province, ``China Situation of Trafficking in Children 
and Women: A Rapid Assessment'' (August, 2003) (sponsored by ILO Mekong 
Sub-Regional Project to Combat Trafficking in Children and Women (IPEC-
TICW).
    \21\ ``Yulin: 28 Baby Girls Drugged and Stuffed Into Plastic Bags 
for Shipping,'' Xinhua (Online), 31 May 04; ``Baby Business,'' China 
Daily (Online), 28 October 03. Several of the traffickers in this case 
were sentenced to death. ``Infant Trading Gang Given Death Sentence, 
Jail Terms,'' Xinhua (Online), 30 November 03. Police have recently 
broken up similar gangs trafficking dozens of young babies and children 
in Henan province, ``Woman Sentenced to Death in China for Trafficking 
Babies,'' Agence France-Presse (Online), 19 June 04, and ``Baby 
Traffickers in China Shift Focus to Girls,'' South China Morning Post 
(Online), 4 August 05; Hohot in Inner Mongolia, ``China Halts Baby 
Trafficking Ring,'' BBC News (Online), 13 July 04<http://
news.bbc.co.uk>; Putian city in Fujian, ``Police Make Arrests in China-
Burma Baby Trafficking Case,'' Agence France-Presse (Online), 3 
February 05; and Kunming city in Yunnan, ``Yunnan Baby Trafficking Gang 
Jailed,'' Xinhua (Online), 14 August 2003; ``Police Smash Women, 
Children Trafficking Gang in SW China,'' Xinhua (Online), 15 November 
2003.
    \22\ Relevant criminal provisions are included in Chapter IV of the 
PRC Criminal Law, Crimes of Infringing Upon Citizens' Right of the 
Person and Democratic Rights, especially arts. 240, 241, and 242. PRC 
Criminal Law, enacted 1 July 79, amended 1 October 97, 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02.
    \23\ Yunnan Province Women's Federation, in collaboration with 
Yunnan Provincial Bureau of Statistics, Bureau of Statistics, Education 
Commission, and Justice Bureau of Jiangcheng and Menghai Counties, 
Yunnan Province, China Situation of Trafficking in Children and Women: 
A Rapid Assessment, (August, 2003) (sponsored by ILO Mekong Sub-
Regional Project to Combat Trafficking in Children and Women (IPEC-
TICW).
    \24\ PRC Criminal Law, art. 240. One commentator, Zhu Jianmei, 
seeks further revision because, as a result of these changes, the 
trafficking of boys over 14 and other similarly powerless victims is 
relegated to the much milder crime of ``Unlawful Detention.'' PRC 
Criminal Law, art. 238. Zhu also argues that coercive trafficking of 
women into the sex trade and raping trafficked women should be separate 
crimes rather than just aggravating circumstances to a basic 
trafficking offense. ``Several Issues Concerning the Crime of 
Trafficking in Women and Children'' [Guaimai funuertong zui de jige 
wenti], Journal of Jiangsu Public Security College, March 2004, 57-61. 
The relevant provisions of the PRC Criminal Code are Articles 238, 239 
and 240. See also Tao Ziqiang and Yang Jionghong, ``How Should We 
Handle the Crime of Trafficking a Boy Over 14? '' [Guaimai shisi sui 
yishang nanxing ruhe dingzui?], Procuratorial Daily (Online), 16 
February 04.
    \25\ UNICEF, ``Abuse, Exploitation and Trafficking of Children in 
East Asia,'' in UNICEF East Asia and the Pacific Regional Office 
Presentation, cited in UNICEF, End Child Exploitation, July 2003, 10-
11, 35.
    \26\ ``Over 50,000 Trafficked Women and Children Rescued by Police 
Over Four Years,'' [Sinianjian chuanguo gonganjiguan jiejiu bei guaimai 
funuertong 5 wan duo ren], Shanxi Evening News (Online), 18 August 05. 
The author of this article seems to have acquired the statistics from 
the Fourth National Meeting on Women's and Children's Work, held on 
August 15-16, 2005. For comparison, a police report covering the years 
from 2001 to 2003 said 42,215 victims had been rescued during that 
period. Tian Yu, ``Chinese Police Rescue 42,215 Women and Children over 
Three Years'' [Woguo gong'an jiguan sannian jiejiu bei guaimai funu 
ertong 42,215 ren], Xinhua (Online), 2 March 04. It is difficult to 
ascertain the degree of overlap between the two reports. Statistics 
announced at a conference held in Guangxi in August 2005 to commemorate 
the 1995 Conference on Women in Beijing claim that a crackdown on 
trafficking across the border with Vietnam resulted in the rescue of 
1800 victims over the course of five years. ``Guangxi Strikes Hard at 
Cross-Border Crime of Trafficking in Women and Children,'' [Guangxi 
yanda kuaguo guaimai funu ertong fanzui], China Radio International 
(Online), 25 August 05.
    \27\ Yan Wei, ``Countries Strike Back--Stamping Out the Trafficking 
of Women in South and Southeast Asia Needs a Tougher, More Strategic 
Approach,'' Beijing Review (Online), 1 July 05.
    \28\ Ibid.
    \29\ Alice Yan, ``Beijing Women's Federation: Women Still Lag, 
Despite Jiang's Promise of Job Equity,'' South China Morning Post 
(Online), 5 August 05; ``Report on the Rights of Women Workers in the 
Workplace'' [Guanzhu nugong quanyi chuangkuang], Workers' Daily 
(Online), 5 April 05.
    \30\ State Council Women's Development Program, 2001-2010 [Zhongguo 
funufazhan gangyao, 2001-2010], May 2001; see also ``Plan for 
Implementation of the Women's Development Program, 2001-2010'' [Guanche 
luoshi funufazhan gangyao, 2001-2010], China Education Online, 11 
September 03
    \31\ State Council Women's Development Program, 2001-2010.
    \32\ Ibid.; see also recent research led by professor Li Xiaoyun of 
the China Agricultural University, ``Gender Inequality Serious in Rural 
Areas,'' China Daily (Online), 8 September 05; ``Inequality in Town and 
Countryside: Still Obstacles for Girls' Education'' [Chengxiang bu 
pingdeng: nutong shou jiaoyu reng cun fang'ai], China Education News 
(Online), 15 August 05.
    \33\ Country Team China, United Nations, Common Country Assessment 
2004, 59.
    \34\ ``Becoming the Ideal Support in the Wing--On Women's Right to 
Education'' [Wei lixiang chashang chibang--guanyu funu jiaoyu quanli], 
Ningbo Government Net (Online), 6 December 04. Premier Wen Jiabao has 
recently reaffirmed the need to address gender inequalities in health 
and education in China. ``Chinese Premier Wen Jiabao Emphasizes 
Protecting Rights of Women, Children,'' Xinhua (Online), 16 August 05.
    \35\ Amy Phariss and Drew Thompson, ``Women and HIV/AIDS in 
China,'' conference hosted by the CSIS Freeman Chair in China Studies, 
1 December 04.
    \36\ ``Sex Ratio of HIV Carriers Reaches 2:1,'' Xinhua (Online), 7 
July 05.
    \37\ Phariss, Thompson, ``Women and HIV/AIDS in China.''

    Notes to Section III(g)--The Environment
    \1\ ``Pollution, Urbanization Threaten Health of East Asian People: 
World Bank,'' Xinhua (Online), 22 April 05. ``Polluted Fog Leaves a 
City Gasping,'' South China Morning Post, 8 April 05 (FBIS, 8 April 
05). ``Those Hazy Days of Spring in Beijing,'' South China Morning 
Post, 7 April 05 (FBIS 7 April 05). ``China's Environmental Suicide,'' 
New Delhi Swadeshi Patrika, 1 May 05 (FBIS 6 July 05).
    \2\ ``China To Build Wind Farms Offshore,'' China Daily (Online) 16 
May 05.
    \3\ ``Reckless Human Activity Blamed for Frequent Mountain 
Torrents,'' Xinhua (Online), 23 June 05. ``World Research Group on 
Erosion Founded in China,'' People's Daily (Online), 20 October 04.
    \4\ ``Growth Leaves Country High and Dry,'' China Daily (Online), 
28 December 04; ``Thirsty Countryside Demands Safe Water,'' Ministry of 
Water Resources Web site, 23 March 05.
    \5\ ``Clean Energy Crunch Time,'' Beijing Review (Online), 31 March 
05; ``China Drafts Vision 2010 for Cyclical Economy,'' People's Daily 
(Online), 26 May 05.
    \6\ ``China, U.S. Launch Program to Reduce Vehicle Emissions,'' 
Agence France-Presse, 17 November 04 (FBIS, 17 November 04); ``Deputy 
Secretary Zoellick Unveils Asia-Pacific Energy Initiative,'' U.S. 
Department of State (Online), 28 July 05; ``EU and China Partnership on 
Climate Change,'' EUROPA (Online), 2 September 05.
    \7\ ``Delays Hit Treatment Facilities on Water Line,'' South China 
Morning Post (Online), 23 March 05; National Development and Reform 
Commission, Full Text: Report on China's Economic and Social 
Development Plan, People's Daily (Online), 15 March 05.
    \8\ ``Those Who Violate Environmental Law will Increasingly Be 
Criticized by Name'' [Weifan huanjing fagui yihou dianming piping hui 
yuelaiyue duo], People's Daily (Online), 1 June 05.
    \9\ Ibid.
    \10\ ``All 30 Law-Breaking Projects Building Stopped,'' China Daily 
(Online), 3 February 05; ``Environmental Bureau Issues Notice of Fine 
and Demand for Corrective Measures to Three Gorges Corporation'' 
[Guojia huanbao zongju xiang san xia zonggongsi fachu xianqi zhenggai 
he xingzheng chufa tongzhishu], Beijing News (Online), 1 February 05; 
``Recast: China Blacklists 46 Thermal Power Plants for Threatening 
Environment,'' Xinhua (Online), 27 January 05.
    \11\ ``China Halts Construction of Six Large Aluminum Projects,'' 
Xinhua (Online), 28 April 05; ``Old Summer Palace Must Complete an 
Environmental Impact Assessment in 40 Days'' [Yuanmingyuan jiao 
huanping xianqi 40 tian], Beijing News (Online), 9 May 05.
    \12\ ``The `Environmental Assessment Storm' Is Normal Enforcement 
of the Law'' [``Huan ping fengbao'' shi zhengchang zhifa jiandu], 
Beijing News (Online), 14 March 05. SEPA's focus appears to be on 
increasing sanctions and fines for government officials and industry 
leaders when they fail to comply with environmental laws.
    \13\ ``Those Who Violate Environmental Law Will Increasingly be 
Criticized by Name,'' People's Daily; ``Public Interest Litigation: 
Environmental Suits--The Tool To Resolving Problems, But Which Hasn't 
Taken Off Yet'' [Gongyi susong: huanbao guansi jiekun zhi men jiang qi 
wei qi], 21st Century Business Herald (Online), 5 February 05; ``An 
Example of a Difficult Environmental Lawsuit: The People on the 
Outskirts of the Yellow Phosphorous Factory'' [Yi ge huanjing susong 
kunjing yangben: huanglin chang zhoubian de naxie renmin], 21st Century 
Business Herald (Online), 5 February 05. Senior SEPA officials have 
expressed support for a system allowing environmental NGOs, not merely 
state prosecutors, to bring lawsuits on behalf of the public.
    \14\ ``Those Who Violate Environmental Law Will Increasingly be 
Criticized by Name,'' People's Daily. SEPA officials are currently 
coordinating revisions of the Water Pollution Prevention Law. ``The 
National People's Congress is Going to Use Legislation to Endow People 
With Environmental Rights'' [Quanguo ren da jiang lifa fuyu gongmin 
huanjing quan], Xinhua (Online), 1 June 05.
    \15\ ``Environmental Protection Fund Worthy,'' China Daily 
(Online), 3 February 05. The effectiveness of the proposal will depend 
on management of funds and assessment of taxes and adjusted prices that 
is free from favoritism or unfair bias.
    \16\ ``Foreign Investment Welcomed in Environmental Protection,'' 
Xinhua (Online), 18 May 05. ``Let Investors Help With Environment 
Protection,'' China Daily (Online), 29 April 05.
    \17\ ``Beijing Will Begin Experimenting With Green GDP This Year'' 
[Luse GDP Beijing shidian jinnian qidong], Beijing News (Online), 1 
March 05; ``The `Environmental Assessment Storm' is Normal Enforcement 
of the Law,'' Beijing News.
    \18\ ``China Dedicated to Realizing `Green Growth:' Official,'' 
Xinhua (Online), 28 March 05; ``SEPA Vice Director Pan Yue: The Summer 
Palace Incident Is Only the Beginning'' [Guojia huanbao zongju fu 
juzhang Pan Yue: Yuanmingyuan shijian zhi shi yi ge kaishi], Southern 
Daily (Online), 18 April 05; ``Growing From Grassroots: Environmental 
NGOs Are Having a Growing Impact on Development,'' Beijing Review 
(Online), 25 November 04; ``Chinese College Students Work in NGOs For 
Environmental Protection,'' Xinhua (Online), 27 March 04.
    \19\ ``SEPA Vice Director Pan Yue: The Summer Palace Incident Is 
Only the Beginning,'' Nanfang Daily; ``Chinese Public Want Greater Say 
on Environmental Issues,'' Xinhua (Online), 12 April 05.
    \20\ ``73 People Obtain Permission to Participate in the Old Summer 
Palace Public Hearing'' [73 ren huozhun canjia Yuanmingyuan 
tingzhenghui], Beijing News (Online), 13 April 05.
    \21\ SEPA officials used the controversy to highlight problems with 
enforcement of the Environmental Impact Assessment (EIA) Law and work 
to address weaknesses in the EIA industry. ``Those Who Violate 
Environmental Law will Increasingly Be Criticized by Name,'' People's 
Daily; ``SEPA to Re-Organize 800 Environmental Impact Assessment 
Bodies'' [Huanbao zongju zhengsu 800 jia huanping jigou], 21st Century 
Business Herald (Online), 23 May 05; ``Since the Environmental Impact 
Assessment (EIA) Body Did Not Accept the Old Summer Palace Assessment 
Project, the Statutes of the Environmental Impact Assessment Law Will 
Be Examined for Deficiencies'' [Cong huanping jigou bu jie Yuanmingyuan 
de hua kan huanping fa falu queshi], Chinalaw.Net (Online), 13 May 05.
    \22\ ``The National People's Congress is Going to Entrust Citizens 
With Environmental Rights,'' Xinhua.
    \23\ ``Renewable Resources Law Released--China Is Undertaking 
Resource Reform'' [Ke zaisheng nengyuan fa chutai--zhongguo jinxing 
nengyuan geming], 21st Century Business Herald (Online), 2 March 05.
    \24\ ``Growing From Grassroots: Environmental NGOs Are Having a 
Growing Impact on Development,'' Beijing Review.
    \25\ Environmental NGOs in China: Encouraging Action and Addressing 
Public Grievances, Staff Roundtable of the Congressional-Executive 
Commission on China, 7 February 05, Written Statement and Testimony of 
Elizabeth Economy, C.V. Starr Senior Fellow and Director of Asia 
Studies, Council on Foreign Relations.
    \26\ ``Government Turns Up NGO Volume,'' China Daily (Online), 26 
April 05; ``New NGO Founded To Rally All Chinese People Against 
Worsening Pollution,'' Xinhua (Online), 23 April 05.

    Notes to Section III(h)--Public Health
    \1\ Cao Haidong and Fu Jianfeng, ``20 Years of Health Care Reform 
in China'' [Zhongguo yigai 20 nian], Southern Daily (Online), 5 August 
05;, 19562 ``Chinese Red Cross Sets Up Charity Fund To Help Rural Poor 
With Medical Bills,'' China Daily (Online), 11 August 05; Ofra Anson 
and Shifang Sun, Health Care in Rural China (Ashgate, Aldershot, Hants, 
2005), 15-17.
    \2\ ``Cooperative Medicare System Helps Prevent Farmers Becoming 
Poorer,'' China's Human Rights (Online), 7 January 04. http://
www.humanrights-china.org/.
    \3\ See, e.g., ``Nearly 2 Million Farmers in Heilongjiang Benefit 
From New Rural Cooperative Medical Scheme,'' Heilongjiang Daily, 15 
April 05 (FBIS, 16 April 05).
    \4\ Yu Tianu and Jin Rongsheng, ``New Rural Cooperative Medical 
Scheme Warmly Received by Farmers in Liaoning's Youyan Autonomous 
County,'' Liaoning Daily, 18 April 05 (FBIS, 14 May 05).
    \5\ A pilot program of rural medical cooperatives instituted in 
Qinghai in 2004 was expanded in 2005, and the number of rural citizens 
covered rose from 2 to 3 million. In Qinghai, the effort to establish 
basic-level health care through these cooperatives was led by the 
Provincial Leading Group for Rural Health Work. ``Qinghai Province 
Plans to Expand Coverage of New Rural Cooperative Medical Scheme by End 
of 2005,'' Qinghai Daily, 16 April 05 (FBIS, 14 May 05). On May 20, 
2005, the governor and Party of Hainan announced a project to expand 
the rural co-op scheme to all residents by 2010, as well as to build a 
few high-standard general and special hospitals on the island. ``Hainan 
Governor Wei Liucheng Chairs Meeting on Construction of Township, Town 
Medical Centers,'' Hainan Daily, 21 May 05 (FBIS, 30 May 05).
    \6\ ``With the Help of Rural Medical Coops, Farmers in Jiangjin, 
Chongqing Speed Towards Prosperity'' [Nongcun hezuo yiliao bangzhu 
Chongqing Jiangjin nongmin ben qianmian xiaokang], Chongqing City 
Statistics Bureau Web site, <http://www.stats.gov.cn/>, 3 June 05.
    \7\ ``Farmers in Sichuan Province Speak Highly of New Rural Medical 
Cooperative System,'' Sichuan Daily, 22 April 05 (FBIS, 14 May 05); see 
also ``China to Promote Rural Cooperative Medical System,'' Xinhua 
(Online), 10 August 05.
    \8\ ``Expert Says China's Medical Reform `Basically Not 
Successful,' '' Xinhua (Online), 29 July 05; Josephine Ma, ``Think-tank 
Lashes the Mainland's Health Care,'' South China Morning Post (Online), 
30 July 05; ``Health Ministry Says Rural Medical System Still Facing 
Several Major Problems,'' China Daily (Online), 4 July 05; ``A Half-
Baked Reform Leaves Patients Unsatisfied, Hospitals Unsatisfied, 
Government Unsatisfied'' [Huanzhe, yiyuan, zhengfu wuren manyi; yigai 
zhaishengfan; yuan zi liang dian mixin], Xinhua (Online), 4 August 05; 
``State Must Lead Medical Reforms,'' China Daily (Online), 4 August 05 
(citing Yanzhao Metropolis Daily); ``Gao Qiang, Minister of Health, 
Urges More Investment in Health Care'' [Wesiheng buzhang Gao Qiang: 
Zhengfu ying jiada yiliao touru], Number One Economic Daily (Online), 5 
August 05; Wang Zhenghua, ``Hospitals Overcharge Patients for 
Profits,'' China Daily (Online), 5 August 05; ``PRC Health Ministry 
Report Details `Serious Problems' Facing Sector,'' Agence France-Presse 
(Online), 5 August 05; ``Gaps Within Troubled China's Health Sector,'' 
Xinhua (Online), 8 August 05; ``Heated Disputes Over Privatization: 
Rethinking China's Healthcare Reform'' [Jibian ``shichanghua'' Zhongguo 
yigai fanse yu chulu], 21st Century Economic Journal, 8 August 05; 
``Health Reform Plan to be Launched By End of the Year'' [Yigai xin 
fang'an huo niandi qidong], Beijing News (Online), 8 August 05; ``China 
Premier Under Fire Over Rising Medical Costs,'' Reuters (Online), 11 
August 05; ``Half of all Children Who Die of Illness in the Countryside 
Had Not Received Medical Treatment'' [Wo guo yin bing siwang de nongcun 
ertong reng you yiban wei dedao yiliao], People's Daily (Online), 17 
August 05; ``What are the Root Problems of Healthcare Reform? '' [Yigai 
de sixue zai nar?], Southern Weekend (Online), 18 August 05; ``China's 
Health Care System is Sick: Patients' Complaints Mount up, Many Turn to 
Violence'' [Zhongguo yiliao xitong bingle; huanzhe tousu jizeng; 
shiyong baolizhe zhong], Asia Times (Online), 18 August 05; ``Fujian 
Suicide Bombing: A Wake-up Call for Health-care Reform? '' South China 
Morning Post (Online), 18 August 05; Zhang Feng, ``Rural Kids `Need 
Better Healthcare,' '' China Daily (Online), 18 August 05; ``China's 
Exorbitant Healthcare Fees Spark Suicides,'' Reuters (Online), 18 
August 05. See also David Blumenthal and William Hsiao, ``Privatization 
and it Discontents--The Evolving Chinese Health Care System,'' 353 New 
England Journal of Medicine 1165 (15 September 05).
    \9\ ``Health Ministry Says Rural Medical System Still Facing 
Several Major Problems,'' China Daily.
    \10\ ``Half of All Farmers Do Not Seek Care for Illness'' [Zhongguo 
nongmin yiban kanbuqi bing], Beijing News (Online), 6 November 04; 
``Half of All Children Who Die of Illness in the Countryside Had Not 
Received Medical Treatment,'' People's Daily.
    \11\ ``Half of All Children Who Die of Illness in the Countryside 
Had Not Received Medical Treatment,'' People's Daily.
    \12\ ``China's Children Severely Malnourished,'' China Youth Daily 
(Online), 7 July 05.
    \13\ ``China Ranks Second in World in Terms of TB Patients; Nearly 
10,000 People in Guangxi Die of Tuberculosis Every Year,'' Wen Wei Po, 
24 Mar 05 (FBIS, 27 March 05).
    \14\ ``Zhejiang's TB Incidence Noticeably Rises,'' Zhejiang Daily, 
24 Mar 05 (FBIS, 27 March 05).
    \15\ ``Jiangxi To Fulfill Tuberculosis Control Task in 2005,'' 
Jiangxi Daily, 25 March 05 (FBIS, 27 March 05).
    \16\ ``Experts Say Infectious Diseases Biggest Biological Threat to 
Modern China,'' China Daily (Online), 6 April 05.
    \17\ UNICEF, ``At a Glance--China,'' available on the UNICEF Web 
site. The report indicates that over 90 percent of all one-year-olds 
were fully immunized against TB, DPT3, and polio and 84 percent were 
fully immunized against measles in 2003. On March 16, 2005, the State 
Council issued the Regulation on the Management of the Circulation of 
Vaccines and Preventive Inoculations [Yimiao liutong he yufang guanli 
tiaoli], issued 24 March 05, providing for free provision to citizens 
of the vaccines specified under the State Immunization Plan.
    \18\ ``China's Immunization Scheme Makes Progress Amid Problems,'' 
Xinhua (Online), 8 June 05.
    \19\ A total of 30,017 measles cases resulting in 20 deaths were 
reported in the first quarter nationwide. The number of cases and 
mortality rate are significantly higher than those reported for the 
same period in 2004. Most victims are pre-school age children. 
``Infectious Disease Data, 1st Quarter, 2005,'' Ministry of Health, 4 
April 05 (FBIS, 1 June 05).
    \20\ Ibid.; see also ``Migrant Workers Get Vaccines,'' China Daily 
(Online), 25 December 03. This article reports on the administration of 
free vaccinations to migrant workers in Beijing. It cites Li Guoying, 
an official with the Municipal Disease Control and Prevention Centre, 
as saying that most of the 800,000 rural migrants in Beijing at the 
time had never been vaccinated before due to weak rural health care.
    \21\ ``Anhui Province Issues Report on Epidemic Situation in First 
Quarter of 2005,'' Anhui Daily, 21 April 05 (FBIS, 14 May 05). 13618.
    \22\ ``Experts Urge Government To Improve Vaccination Program 
Against Hepatitis B,'' China Daily (Online), 18 July 05.
    \23\ ``PRC Public Opinion Defeats Hepatitis B Virus 
Discrimination,'' China Net (Online), 23 September 04.
    \24\  PRC Law on the Prevention and Control of Infectious Diseases, 
enacted 29 February 89, amended 28 August 04. See also CECC, 2004 
Annual Report, 61. China's first hepatitis B health discrimination case 
was filed by Zhang Xianzhu in 2003 when his application to work for the 
city of Wuhu in Anhui province was rejected because of the illness. 
Although the court in that case held for Zhang, it did not invalidate 
the underlying regulation that prohibited the hiring of hepatitis 
carriers. The amended national law should prevent such discrimination 
in the future.
    \25\ ``China Pushes for AIDS Legislation,'' China News Agency, 3 
July 05 (FBIS, 5 July 05)19889; Jasper Becker, ``AIDS in Asia: China 
Becomes Proactive,'' San Francisco Chronicle (Online), 9 February 04.
    \26\ ``PRC State Council Sets Steps for Fighting AIDS at Meeting 
With Wen Jiabao Presiding,'' Xinhua (Online), 15 June 05. See also 
UNICEF--China, ``For Every Child: Progress Report for UNICEF-China, 
2003/2004'' (2005), 5.
    \27\ ``PRC State Council Sets Steps for Fighting AIDS at Meeting 
With Wen Jiabao Presiding,'' Xinhua (Online), 15 June 05. The same 
meeting added ``it is necessary to strengthen the building of the legal 
system for the prevention and control of AIDS and standardize and give 
guidance to the prevention and control of AIDS according to law and in 
an orderly manner.''
    \28\ ``AIDS Prevention Classes Included in University,'' Agence 
France-Presse (Online), 10 September 04; but see ``Students Find Sex 
Education Inadequate,'' China Daily (Online), 26 July 04; Bao Xinyan, 
``Jiangsu Intensifies AIDS Prevention,'' China Daily (Online), 2 August 
04.
    \29\ ``Hubei Province Issues Preemptive Plan for Prevention and 
Control of Occupational Exposure to AIDS Virus,'' Hebei Daily, 18 May 
05 (FBIS, 30 May 05).
    \30\ ``HIV/AIDS Controversy at the Central Party School'' 
[Zhongyang dangxiao de aizi guannian jiaofeng], Southern Weekend 
(Online), 23 June 05.
    \31\ ``Yunnan Province Holds Seminar for Provincial Leading Cadres 
on Drug Control and AIDS Prevention,'' Yunnan Daily, 2 May 05 (FBIS, 30 
May 05).
    \32\ ``Jiangxi Province Draws up Plan for Province-Wide Propaganda 
and Education Campaign on AIDS Prevention and Control,'' Jiangxi Daily, 
21 May 05 (FBIS, 30 May 05).
    \33\ ``Free Education for HIV Children in Guangdong,'' Shenzhen 
Daily (Online), 19 January 05; ``HIV Rate Soars in Southern China 
City,'' United Press International (Online), 30 March 05.
    \34\ ``China to Fight AIDS With Free Condoms, Needle Exchanges,'' 
Associated Press (Online), 8 June 05; ``New Ministry of Health 
Prostitute, Addict AIDS Plan `Controversial,' '' China Daily (Online), 
13 June 05; Edward Cody, ``In China, an About-Face on AIDS Prevention: 
Once-Reluctant Government Increasingly Promoting Efforts to Battle 
Spread of Disease,'' Washington Post (Online), 8 December 04.
    \35\ Fu Jing, `` `Hospital on Wheels' to Offer Farmers Health 
Care,'' China Daily (Online), 2 August 04; ``Taking Affordable Medical 
Service to Farmers,'' China Daily (Online), 11 June 05.
    \36\ Zhang Feng, ``HIV/AIDS Proposals Announced for 2005,'' China 
Daily (Online), 19 March 05.
    \37\ Zeng Liming, ``Yunnan Plans To Give HIV Tests to Targeted 
Groups of 300,000 in 2005,'' Xinhua (Online), 14 June 05 (FBIS, 14 June 
05). Similar rules are in effect in Henan province. ``Health Checks for 
Sex Workers--Boon or Bane? '' Beijing Review (Online), 7 April 05.
    \38\ ``Chinese Province Wants Its Hospitality HIV-Tested,'' 
Associated Press, reprinted in Lexis-Nexis, 23 March 05.
    \39\ Human Rights Watch, Restrictions on AIDS Activists in China, 
June 2005, 19; International Federation for Human Rights, Alternative 
Report to the Committee on Economic, Social and Cultural Rights: China: 
`At a Critical Stage,' Violations of the Right to Health in the Context 
of the Fight Against AIDS, April 2005.
    \40\ Pierre Haski, ``A Report from the Ground Zero of China's AIDS 
Crisis,'' Yale Global (Online), 30 June 05.
    \41\ ``NGOs Active in China's Fight Against AIDS,'' China Daily 
(Online), 20 June 04.
    \42\ See, e.g., Ministry of Health and Bureau of State Secrets 
Explanation on the Regulation on the Specific Scope of the National 
State Secrets Law and Classification of State Secrets in Health Work, 
issued 1 March 91.
    \43\ ``Highlights: PRC Domestic Public Health Topics 2 -- 30 May 
05,'' Foreign Broadcast Information Service, 30 May 05 (FBIS, 19 May, 
2005) (citing the Jiangxi Daily, 19 May 05).
    \44\ Many news stories refer to the Chinese authorities' tendency 
to hide or downplay disease outbreaks. ``China Defends Failure to 
Report Hoof and Mouth Disease Outbreak,'' Xinhua (Online), 30 May 05; 
``China Denies Foot and Mouth Disease in Beijing Suburbs,'' Wen Wei Po, 
24 May 05; Zhao Huanxin, ``Bird Flu Outbreak in Qinghai An `Isolated' 
Case,'' China Daily (Online), 25 May 05; ``Report: Local PRC Media 
Reveal Meningitis Outbreak in December,'' Foreign Broadcast Information 
Service, 7 February 05 (FBIS, 7 February 05); ``Let's Talk About Pork--
and All Food Safety,'' South China Morning Post (Online) 18 August 05. 
A quick-moving and virulent strain of pig-borne streptococcus sickened 
215 humans and caused 39 fatalities in Sichuan province in July 2005. 
Only after the Chinese health authorities had completed their own 
investigations were they willing to share their results with the World 
Health Organization (WHO). ``Outbreak Associated With Streptococcus 
Suis in Pigs in China: Update,'' World Health Organization Newswire, 16 
August 05; ``Media Blackout as Pig-Borne Disease Spreads,'' Radio Free 
Asia (Online), 2 August 05.
    \45\ Alan Sipress, ``Bird Flu Drug Rendered Useless,'' Washington 
Post (Online), 18 June 05.
    \46\ Debora MacKenzie, ``China to Stop Using Human Drug on 
Poultry,'' The New Scientist (Online), 22 June 05.
    \47\ Alan Sipress, ``China Denies Promoting Use of Drug on 
Chickens,'' Washington Post (Online), 22 June 05.
    \48\ Shi Ting and Vivien Cui, ``PRC Teams To Ensure Anti-Viral 
Drugs Not Used on Poultry,'' South China Morning Post (Online), 22 June 
05.
    \49\ ``Recombinomics Commentary,'' Recombinomics Web site, 9 July 
05.
    \50\ Alan Sipress, ``China Has Not Shared Crucial Data On Bird Flu 
Outbreaks, Officials Say,'' Washington Post (Online), 19 July 05.

    Notes to Section III(i)--Population Planning
    \1\ PRC Population and Family Planning Law, enacted 29 December 01; 
Beijing Declaration and Platform for Action (1995), para. 17; Cairo 
International Conference on Population and Development (1994), 
Programme of Action of the International Conference on Population and 
Development, para. 72.
    \2\ PRC Population and Family Planning Law, enacted 29 December 01, 
art. 41.
    \3\ ``Rights Defender Chen Guangcheng Released, But Remains Under 
Police Surveillance,'' Chinese Rights Defenders' Information Bulletin 
(Online), 8 September 05; Philip P. Pan, ``Rural Activist Seized in 
Beijing,'' Washington Post (Online), 7 September 05 (reporting violent 
seizure of Chinese activist against abuses in enforcement of one child 
policy); Philip P. Pan, ``Who Controls the Family? '' Washington Post 
(Online), 27 August 05 (discussing Chinese activist collecting 
testimony of abuses in one child policy enforcement in preparation for 
class-action lawsuit against population control officials); ``The One-
Child Policy: Stripping Away Human Rights in the Name of the State,'' 
Laogai Research Foundation (Online), 16 June 05; Better Ten Graves Than 
One Extra Birth: China's Systemic Use of Coercion to Meet Population 
Needs (Washington, D.C.: Laogai Research Foundation, 2004); Thomas 
Scharping, Birth Control in China, 1949-2000: Population Policy and 
Demographic Development (New York: Routledge, 2002); John S. Aird, 
Slaughter of the Innocents: Coercive Birth Control in China 
(Washington, D.C.: AEI Press, 1990). In July 2005, a Hong Kong woman, 
pregnant with her third child, was visiting relatives in Shanghai. When 
local population control officials saw her with her two other children, 
they immediately attempted to take her--by force--to a local 
government-run abortion clinic. She protested that she was not from 
China to no avail. Only the physical intervention of her relatives 
prevented a forced abortion. ``PRC Tries to Force HK Woman to Abort 
Six-Month Pregnancy,'' Agence France-Presse, 12 July 05 (FBIS, 12 July 
05).
    \4\ 54 China: Human Rights Violations and Coercion in One Child 
Policy Enforcement, Hearing of the Committee on International 
Relations, U.S. House of Representatives, 14 December 04; ``Man Whose 
Wife Was Sterilized in China Wins Asylum,'' Los Angeles Times (Online), 
9 March 05.
    \5\ Steven W. Mosher, ``The Passion and Mrs. Wong,'' Global Family 
Life News, March-May 2005, 3, 9f.
    \6\ China: Human Rights Violations and Coercion in One Child Policy 
Enforcement, Hearing of the Committee on International Relations, U.S. 
House of Representatives, Testimony of John S. Aird, Former Senior 
Research Specialist on China, U.S. Bureau of the Census; ``Violence in 
Enforcing Family Planning in a Chinese City,'' Chinese Rights Defenders 
Information Bulletin (Online), 23 June 05; ``Chinese Jails for 
Violators of One-Child Policy,'' Kyodo World Service (Online), 11 July 
05; ``At a Meeting of Part-Time Members of the State Population and 
Family Planning Commission, Hua Jianmin Stresses the Need to Implement 
the Basic National Policy on Family Planning Unswervingly and Strive to 
Stabilize the Low Birth Rate,'' Xinhua, 9 July 05 (FBIS, 9 July 05); 
``China Adheres to Family Planning to Keep Low Birth Rate: Official,'' 
Xinhua (Online), 10 July 05; ``Unreasonable Hunan Officials Arbitrarily 
Apply `One-Child Policy' by Forcing Hong Kong Woman To Have Abortion; 
Hong Kong Immigration Department Successfully Rescues Victim Within 24 
Hours,'' Apple Daily (Online), 11 July 05 (FBIS, 12 July 05); ``PRC 
Tries to Force HK Woman to Abort Six-Month Pregnancy,'' Agence France-
Presse, 12 July 05 (FBIS, 12 July 05); ``Gaocheng City Abuses 
Illustrate Flaws of China's Family Planning Policy,'' Laogai Research 
Foundation (Online), 15 July 05; ``Henan Family Planning Official 
Brutalizes Local Residents,'' China Information Center (Online), 15 
July 05; ``Family Planning Cadres in Sichuan Cities Line Their Pockets 
With `Violator's' Fines,'' China Information Center (Online), 21 July 
05; ``Henan Woman Seized on the Street and Coerced to Have an 
Abortion,'' China Information Center (Online), 18 July 05.
    \7\ ``Comments of Yu Xuejun, spokesperson for NPFPC and Director 
General of the NPFPC Department of Policy and Legislation on the 
Preliminary Results of Investigating Family Planning Practices in Linyi 
City of Shandong Province,'' National Population and Family Planning 
Commission of China (Online), 19 September 05. Regarding the violence 
in Linyi, see, Philip P. Pan, ``Who Controls the Family? '' Washington 
Post (Online), 27 August 05; Hannah Beech, ``Enemies of the State? '' 
Time (Online), 12 September 05; Michael Sheridan, ``China Shamed by 
Forced Abortions,'' Times (London) (Online), 18 September 05; Philip P. 
Pan, ``China Terse About Action on Abuses of One-Child Policy,'' 
Washington Post (Online), 20 September 05.
    \8\ Philip P. Pan, ``Rural Activist Seized in Beijing,'' Washington 
Post (Online), 7 September 05; ``Blind Social Activist, Lawyers Beaten 
in China,'' Radio Free Asia (Online), 4 October 05. The case of Chen 
Guangcheng is also discussed extensively in Pan, ``Who Controls the 
Family? ''; Beech, ``Enemies of the State? ''; Pan, ``China Terse About 
Action on Abuses of One-Child Policy.''
    \9\ ``One-Child Policy Opponent Tortured,'' Human Rights in China 
(Online), 5 October 04; ``Violence Against Women,'' in Report 2005, 
Amnesty International (Online) (covering events from January-December 
2004). See also, ``China Denies Detaining Woman Who Protested 1-Child 
Policy,'' Associated Press, 10 January 05 (FBIS, 10 January 05); 
``Chinese Woman Tortured After Coerced Abortion Faces More Jail Time,'' 
LifeNews (Online), 5 January 05; PRC Anti-Abortion Protestor Released, 
Continues to Face Police Harassment,'' Agence France-Presse (Online), 
30 September 05; China: Human Rights Violations and Coercion in One 
Child Policy Enforcement, Hearing of the Committee on International 
Relations, U.S. House of Representatives, Testimony of Michael G. 
Kozak, Acting Assistant Secretary, U.S. Department of State, Bureau of 
Democracy, Human Rights and Labor.
    \10\ The Chinese government also does long-term population 
planning. It has set population targets through the mid-21st century. 
State Council Information Office, ``White Paper on China's Population 
and Development in the 21st Century'', December 2000.
    \11\ But there are other exceptions to the one-child rule: in some 
rural areas at some times two children were allowed in all cases; 
couples in which both spouses were only children were usually allowed 
two children; in some places, couples in which one spouse is an only 
child and the other a farmer were allowed two children; and members of 
minority communities have also been allowed more children--though it is 
unclear how often the government respected this latter exception. 
``China's Family Planning Policy `Misinterpreted,' '' Xinhua, 16 May 05 
(FBIS, 16 May 05); Charles Hutzler and Leslie T. Chang, ``China Weighs 
Easing Its Harsh `One Child' Rule,'' Wall Street Journal (Online), 4 
October 04; ``More Shanghai Couples Have Second Child,'' Xinhua, 15 
April 05.
    \12\ ``China to Continue Its Population Control Policy,'' Xinhua, 5 
January 05 (FBIS, 5 January 05); ``China Remains Firm in Carrying Out 
Family Planning: Official,'' Xinhua, 9 June 05 (FBIS, 9 June 05); 
Charles Hutzler and Leslie T. Chang, ``China Weighs Easing Its Harsh 
`One Child' Rule,'' Wall Street Journal (Online), 4 October 04; ``Is 
China's High-Level Leadership Taking the Lead on Research for a 
Reevaluation of the Family Planning Policy? '' [Zhongguo sangaoguan 
qiantou yanjiu jihuashengyu zhengce mianlin tiaozheng?], Xinhua 
(Online), 19 October 04; Low Birth Rate Unstable: Official,'' Xinhua 
(Online), 16 September 05. Indications that the population control 
policy aims not only to reduce population growth but also to improve 
population ``quality'' can be found in ``Family Planning Policy Saves 
China 300 mln Births,'' People's Daily, 8 September 05 (FBIS, 8 
September 05); ``China To Focus on Improving Population Qualities: 
Official,'' Xinhua (Online), 27 June 05 (FBIS, 27 June 05); ``At a 
Meeting of Part-Time Members of the State Population and Family 
Planning Commission, Hua Jianmin Stresses the Need to Implement the 
Basic National Policy on Family Planning Unswervingly and Strive to 
Stabilize the Low Birth Rate,'' Xinhua (Online), 9 July 05 (FBIS, 9 
July 05); China: Human Rights Violations and Coercion in One Child 
Policy Enforcement, Hearing of the Committee on International 
Relations, U.S. House of Representatives.
    \13\ ``Tougher Line Sought on Aborting Girl Fetuses,'' South China 
Morning Post, 28 February 05 (FBIS, 28 February 05); ``Building a Girl-
Caring Society,'' Xinhua (Online), 21 June 05; Vanessa L. Fong, Only 
Hope: Coming of Age Under China's One-Child Policy (Palo Alto, 
California: Stanford University Press, 2004); ``Sex Imbalance Could 
Threaten Progress: Experts Say Excess of Single Men May Lead to 
Instability,'' Agence France-Presse (Online), 21 July 05.
    \14\ Life tables for China published by the World Health 
Organization document a mortality pattern in which female infants have 
a much higher mortality rate than male infants. For background on this 
topic, see, Judith Banister, ``Shortage of Girls in China Today,'' 
Journal of Population Research, No. 1, 2004, 19-34.
    \15\ ``China to Outlaw Aborting Female Fetuses,'' Canadian 
Broadcasting Corporation News (Online), 7 January 05. There were also 
many provincial regulations on this. ``PRC to Amend Criminal Law to 
Curb Unbalanced Sex Ratio: Population Official,'' People's Daily, 10 
January 05 (FBIS, 10 January 05); ``Abuse of Fetus Identification Could 
Result in More Men than Women,'' Xinhua, 7 March 05 (FBIS, 7 March 05).
    \16\ ``China Moves to Tighten Up Laws Against Selective Abortion,'' 
Agence France-Presse, 7 January 05 (FBIS, 7 January 05).
    \17\ Howard W. French, ``As Girls Vanish, Chinese City Battles Tide 
of Abortions,'' New York Times (Online), 17 February 05; ``New 
Chongqing Regulation--RMB 50,000 Fine for Termination of Pregnancy 
Based on Gender After Midway Point'' [Chongqing xuanze xingbie zhongzhi 
zhongqi yishang renshen zuigao kef a wuwan yuan], Xinhua (Online), 29 
September 05.
    \18\ ``China Remains Firm in Carrying Out Family Policy: 
Official,'' Xinhua, 9 June 05 (FBIS, 9 June 05).
    \19\ The government rewards couples with monetary payments, 
remission of children's tuition fees, and the addition of points onto 
children's university entrance examination scores. ``Cash Rewards for 
Family Planners,'' China Daily, 26 October 04 (FBIS, 26 October 04); 
``Rewards Give Impetus to China's One-Child Policy,'' Xinhua, 27 
February 05 (FBIS, 27 February 05); ``China Rewards Old Rural Couples 
Observing National Family Planning Policy,'' Xinhua, 8 April 05 (FBIS, 
8 April 05); ``China Rewards Rural Couples Practicing Family Planning 
With Special Allowances,'' Xinhua, 3 June 05 (FBIS, 3 June 05); 
``Building a Girl-Caring Society,'' Xinhua.
    \20\ ``A Bitter Task Becomes A Sweet Task: The Hui Autonomous 
Region in Ningxia Implements the `Fewer Births Means Faster Fortune' 
Poverty Reduction Project'' [Kuse de shiye biancheng le tianmi de 
shiye: Ningxia Huizu zizhiqu shishi `shao sheng kuai fu' fupin 
gongcheng de shijian], Seeking Truth (Online), No. 1, 2005.
    \21\ ``China Faces Up to Aging Population,'' Xinhua (Online), 7 
January 05.
    \22\ Li Weiwei, ``At the General Meeting of the National Committee 
on Aging, Hui Liangyu Stresses the Need to Do the Work on Aging in a 
Solid Way and Promote the Building of a Harmonious Society,'' Xinhua, 
22 February 05 (FBIS, 22 February 05); Vivien Ci, ``Mainland Struggles 
to Care for the Aged,'' South China Morning Post, 2 February 05 (FBIS, 
2 February 05).
    \23\ ``Our Country Already Delegates Second Child Powers to Every 
Provincial and Municipal People's Congresses for Self-Regulation'' [Wo 
guo yijing ba sheng ertong quanli xiafang geshengshi renda zixing 
guiding], Beijing News (Online), 15 March 05.
    \24\ ``China Ranks Among Developed Countries With a Low Fertility 
Level,'' Xinhua (Online), 7 September 04 (total fertility rate remains 
below replacement level); ``Shanghai Eases Up Family Planning Policy,'' 
Xinhua, 8 September 04 (FBIS, 8 September 04); ``More Couples Have a 
Second Child,'' Xinhua, 15 April 05 (FBIS, 15 April 05); ``Home 
Alone,'' The Guardian (Online), 9 November 04; ``Sichuan Officials Sell 
`Right of Birth' for Money,'' China Information Center (Online), 21 
July 05; ``Nanjing: the `Red Document' Expressly States the Conditions 
in Which a Second Child May Be Approved'' [Nanjing `hongtou wenjian' 
mingque ke pizhun sheng ertai de qingkuang], People's Daily (Online), 3 
February 05.
    \25\ ``Beijing Sticks Tough To One-Child Policy,'' China Daily, 21 
October 04 (FBIS, 21 October 04) (Beijing couples who want a second 
child must prove that their first child has some kind of disability and 
both mother and father must be only children).
    \26\ Zhu Zhe, ``For Students, Degree Weighs More Than Wedding 
Ring,'' Xinhua, 1 September 05 (FBIS, 1 September 05); ``China Lifts 
Ban on Student Marriage,'' United Press International (Online), 11 
August 05; ``China to Lift Ban on Marriage, Childbearing for University 
Students,'' Xinhua (Online), 21 January 05. ``More Chinese Graduate 
Students Marry in Secret,'' Xinhua (Online), 12 July 05; Paul Mooney, 
``China Withdraws Ban on Marriage and Childbearing by Students,'' 
Chronicle of Higher Education, 11 February 05.

    Notes to Section III(j)--Freedom of Residence and Travel
    \1\ For a more detailed discussion of the Chinese hukou system and 
recent reforms, see ``China's Household Registration System: Sustained 
Reform Needed to Protect China's Rural Migrants,'' Topic Paper of the 
Congressional-Executive Commission on China, 7 October 05; China's 
Household Registration System, Staff Roundtable of the Congressional-
Executive Commission on China, 2 September 05; Fei-Ling Wang, 
Organizing Through Division and Exclusion (Stanford: Stanford 
University Press, 2005).
    \2\ Ibid., 177-203. Reports in the Chinese media on such reforms 
tapered off almost completely in the first half of 2005, despite 
statements by public security and NPC officials that authorities were 
in the process of considering the passage of a comprehensive national 
hukou law. He Chunzhong, ``China's Hukou Management System Contains 
Three Major Flaws, New Hukou Law To Be Passed Soon'' [Woguo huji guanli 
zhidu cun san da biduan jiang zhiding xin hujifa], China Youth Daily, 
reprinted in Sina.com (Online), 24 February 05.
    \3\ State Council Office Notice Regarding Improving Employment 
Prospects for Migrants in Urban Areas [Guowuyuan bangongting guanyu 
jinyibu zuo hao wanshan nongmin jincheng jiuye huanjing gongzuo de 
tongzhi], issued 27 December 04. A chart surveying various local, 
provincial, and national hukou reforms through the end of 2004 is 
available on the Freedom of Residence resources page of the 
Commission's Web site.
    \4\ See, e.g., State Council Notice on Approving the Public 
Security Bureau's Opinions on Promoting Reform of the Management System 
for Residence Permits in Small Towns and Cities [Guowuyuan pizhuan 
gong'an bu guanyu tuijin xiaochengzhen huji guanli zhidu gaige yijian 
de tongzhi], issued 30 March 01.
    \5\ See, e.g., Nanjing City Government Notice Approving the Public 
Security Bureau's ``Nanjing City Temporary Residence Permit 
Registration System'' [Shi zhengfu pizhuan shi gong'anju guanyu 
``Nanjing shi huji zhunru dengji zanxing banfa''], issued 19 June 04 
[hereinafter Nanjing City Government Notice], art. 3; Gansu Provincial 
Public Security Bureau, Opinions on Further Deepening of Hukou System 
Reform [Guanyu jinyibu shenhua huji guanli zhidu gaige de yijian], 
issued 30 September 03, art. 1.
    \6\ Nanjing City Government Notice, art. 9.
    \7\ Li Zhanyong, ``Hebei Releases Implementation Details on 
Residence Status Reform'' [Hebei chutai huji gaige shishi xize], 
People's Daily (Online), 26 September 03.
    \8\ The limit often set is the locally determined minimum standard 
of living (zui di shenghuo baozhang xian). Ibid.; Danyang Municipality 
Basic Requirements for Obtaining Local Hukou [Danyang shi hukou zhunru 
jiben tiaojian], Danyang Municipal Web site, 29 June 05, art. 1(4).
    \9\ Notice of the Zhejiang Provincial People's Government's Office 
Regarding the Issuance of the Provincial Public Security Bureau's 
Opinions Regarding the Deepening of Reform of the Residence Permit 
System [Zhejiang sheng renmin zhengfu bangongting zhuanfa sheng gong'an 
ting guanyu shenhua huji guanli zhidu gaige yijian de tongzhi], issued 
29 March 02, art. 2.
    \10\ Chongqing City Government Notice of Issuance of the City 
Public Security Bureau ``Opinions Related to the Speeding Up of 
Municipal Urbanization and Steps Regarding the Reform of the Hukou 
System'' [Chongqing shi renmin zhengfu bangongting zhuanfa shi gongan 
ju ``Guanyu jiakuai woshi chengzhenhua jincheng jin yibu shenhua huji 
zhidu gaige de yijian'' de tongzhi], issued 29 July 03, art. 1.
    \11\ Open Content of Official Affairs of the Jinhua City Public 
Security Documentation Center [Jinhua shiqu gong'an banzheng zhongxin 
zhengwu gongkai neirong], issued 16 August 01, arts. 5, 6(4), 8(2).
    \12\ Even China's state-run media has discussed these problems in 
depth. Fu Jing, ``Rights of Migrants Must Be Protected,'' China Daily 
(Online), 24 June 05 (noting that ``[i]n some places, discriminatory 
policies against migrants have prevented them from integrating into 
cities where they are treated like second-class citizens in terms of 
employment, social welfare, medical care and education provision for 
their children.'') Migrants face other exploitative and abusive 
practices by both public and private actors. These are surveyed in 
Human Rights in China, Institutionalized Exclusion: The Tenuous Legal 
Status of Internal Migrants in China's Major Cities, 6 November 02.
    \13\ United Nations Committee on Economic, Social, and Cultural 
Rights, Concluding Observations of the Committee on the Initial Report 
of the People's Republic of China (including Hong Kong and Macao), 13 
May 05, 3.
    \14\ State Council Notice on the Opinion of the Education and Other 
Ministries Relating to Further Work on Migrant Children's Compulsory 
Education [Guowuyuan ban'gongting zhuanfa jiaoyubu deng bumen guanyu 
jin yibu zuohao jincheng wugong jiuye nongmin zinu yiwu jiaoyu gongzuo 
yijian de tongzhi], issued 17 September 03, art. 6.
    \15\ At least one province has announced ambitious plans to expand 
local educational opportunities to migrant children of long-term 
residents, even those who lack local hukou, over the next two decades. 
Liao Yanyan, ``Long-Term Residents With Non-Local Hukou Will Receive 
Mandatory Education, Guangdong Will Take Preliminary Steps to Promote 
Free Mandatory Education'' [Fei huji changzhu renkou jiang xiang yiwu 
jiaoyu guangdong quansheng jiang chubu tuixing mianfei yiwu jiaoyu], 
Southern Metropolitan Daily (Online), 19 October 04.
    \16\ The most recent State Council circular on migrant education 
directs local authorities to ``take steps towards'' providing equal 
treatment to migrant and local children. State Council Notice on the 
Opinion of the Education and Other Ministries Relating to Further Work 
on Migrant Children's Compulsory Education [Guowuyuan bangongting 
zhuanfa jiaoyubu deng bumen guanyu jin yibu zuohao jincheng wugong 
jiuye nongmin zinu yiwu jiaoyu gongzuo yijian de tongzhi], issued 17 
September 03, art. 6. Provincial authorities have interpreted this to 
allow schools to charge migrant families ``temporary schooling fees'' 
(jiedufei). Notice of the Zhejiang Education, Pricing, and Finance 
Bureaus Regarding the Issuance of the ``Opinion of the Ministry of 
Education, National Development and Reform Commission, and the Ministry 
of Finance Regarding Implementing the `One Fee System' in Compulsory 
Education'' [Zhejiang sheng jiaoyuting zhejiang sheng wujiaju zhejiang 
sheng caizhengting zhuanfa ``Jiaoyubu guojia fazhan he gaige weiyuanhui 
caizhengbu guanyu zai quanguo yiwu jiaoyu jieduan xuexiao tuixing 
`yifeizhi' shoufei banfa de yijian'' de tongzhi], issued 12 August 04, 
art. 1(2); Zhejiang Provincial Measures on Compulsory Education Fees 
[Zhejiang sheng yiwu jiaoyu shoufei guanli banfa], issued 19 June 03, 
art.8.
    \17\ See also Human Rights in China, Shutting Out the Poorest: 
Discrimination Against the Most Disadvantaged Migrant Children in City 
Schools, 8 May 02, 14-5.
    \18\ Chloe Froissart, ``Restrictions on the Right to Education in 
China: An Investigation Into the Education of Migrant Children in 
Chengdu'' [Les Aleas du Droit a l'Education en Chine, Enquete sur la 
Scolarisation des Enfants de Travailleurs Migrants a Chengdu], 77 
Chinese Perspectives (Online) (2003); Human Rights in China, Shutting 
Out the Poorest, 25-27.
    \19\ For the chart of allowable educational fees in Beijing, see `` 
`One Fee System' Implemented in Compulsory Education,'' [Yiwu jiaoyu 
shoufei shixing ``yifeizhi''], Beijing Municipal Government Web site.
    \20\ These practices depress the numbers of migrant children who 
actually enroll in school. Statistics vary wildly on this point. 
Official Chinese media sources suggest that roughly 10 percent of 
migrant children are not in school. ``Nearly 10 Percent of Migrant 
Workers' Children Not in School,'' Xinhua, 6 November 04 (FBIS, 6 
November 04). U.S.-based NGOs cite sources suggesting the number could 
be substantially higher. Human Rights in China, Shutting Out the 
Poorest, 8-10.
    \21\ Fei-Ling Wang, Organizing Through Division and Exclusion, 192.
    \22\ Ibid., 192-93.
    \23\ Ibid., 189.
    \24\ See, e.g., ``Xinjiang Jimusaer County Hukou Reform Completely 
Wipes Out Rural-Urban Division'' [Xinjiang jimusa'er xian huji gaige 
chedi quxiao chengxiang chabie], Xinhua, reprinted on People's Daily 
(Online), 12 April 03; ``Chongqing Smashes The Dual Urban-Rural Hukou 
System, Carries Out Hukou Unification'' [Chongqing dapo chengxiang 
eryuanzhi huji jiegou, shixing hukou yiyihua], People's Daily (Online), 
8 August 03.
    \25\ Yu Jindong, ``Important Reforms in the Jiangsu Residence 
Permit System'' [Jiangsu huji zhidu zhongda gaige], China News Net 
(Online), 28 March 03.
    \26\ See, e.g., the relevant regulations for Gansu and Shandong. 
Gansu Provincial Public Security Bureau, Opinions on Further Deepening 
of Hukou System Reform; Shandong Provincial Public Security Bureau, 
Opinions on Further Deepening of Hukou System Reform [Guanyu jin yibu 
shenhua huji guanli zhidu gaige de yijian], issued 26 June 04.
    \27\ Public security officials have also undertaken reforms aimed 
at centralizing and computerizing hukou records in order to strengthen 
police monitoring. Fei-Ling Wang, Organizing Through Division and 
Exclusion, 107-12, 228 n.95.
    \28\ Congressional-Executive Commission on China, 2004 Annual 
Report, 5 October 04, 18.
    \29\ ``Hangzhou Eliminates Migrant Sweeps'' [Hangzhou quxiao wailai 
renkou qingcha xingdong], Southern Metropolitan Daily (Online), 31 
October 03.
    \30\ Zhang Jing, ``Shenyang Eliminates Temporary Residence Permits, 
Leads Nation in Proposing Reporting Mechanism for Temporary Residence'' 
[Shenyang quxiao zanzhuzheng, zai quanguo shuaixian tuichu shenbao 
zanzhuzheng jizhi], Xinhua (Online), 22 July 03.
    \31\ State Council Office Notice Regarding Improving Employment 
Prospects for Migrants in Urban Areas. The directive also instructs 
local governments to work on improving employment assistance programs, 
resolving outstanding violations of migrants' rights (such as back wage 
complaints); and regulating labor markets more tightly (by, for 
example, increasing government supervision of labor contracts).
    \32\ ``Beijing Eliminates Regulations on the Management of 
Migrants'' [Beijing feizhi wailai renyuan guanli tiaoli], Beijing News 
(Online), 26 March 03. For an English analysis of the abolished 
regulations, see Human Rights in China, Shutting Out the Poorest, 99.
    \33\ Zhong Angang, ``Legislative Focus: Migrant Rights Await Legal 
Protection'' [Lifa guanzhu: nongmin quanyi qidai falu baohu], Legal 
Daily (Online), 31 March 05; ``Hot Topic: Understanding Legal 
Protections for Migrants'' [Redian huati: Jiedu nongmingong de falu 
baohu], Legal Daily, reprinted in People's Daily (Online), 31 March 05; 
Zhao Jin, ``Jiang Deming: Pass a `Law on the Protection of Migrant 
Rights' As Quickly as Possible'' [Jiang Deming: jinzao zhiding `nongmin 
quanyi baohu fa'], China Economic Times, reprinted in People's Daily 
(Online), 11 March 03.

    Notes to Section V(a)--The Development of Civil Society
    \1\ According to Ministry of Civil Affairs (MOCA) statistics, the 
number of registered social organizations have risen from 130,000 in 
2002 (3.1 percent growth from the prior year), to 142,000 in 2003 (6.8 
percent), to 153,000 in 2004 (7.7 percent). Registered non-
governmental, non-commercial enterprises (NGNCEs) have increased from 
111,000 in 2002, to 124,000 in 2003, to 135,000 in 2004. ``Ministry of 
Civil Affairs Releases 2004 Statistical Report on the Development of 
Civil Affairs Work'' [Minzheng bu gongbu 2004 nian minzheng shiye 
fazhan tongji baogao], Xinhua (Online), 11 May 05. These statistics 
understate the actual numbers of Chinese civil society organizations, 
as many operate without official registration. Regarding the work of 
environmental NGOs, see Elizabeth Economy, The River Runs Black 
(Cornell: Cornell University Press, 2004), 130-9.
    \2\ Environmental NGOs in China: Encouraging Action and Addressing 
Public Grievances, Staff Roundtable of the Congressional-Executive 
Commission on China, 7 February 05, Written Statement submitted by 
Elizabeth Economy, C.V. Starr Senior Fellow and Director of Asia 
Studies, Council on Foreign Relations. Rural Chinese organizations 
range from formally registered rural cooperative organizations that 
seek to protect the economic rights of local farmers or provide social 
services to independent (and often underground) ``burden reduction 
committees'' that vigorously challenge local tax policies. Wang Ximing, 
``The Current State of Organizational Construction Among Chinese 
Farmers: Analytic Report of House-to-House Survey Regarding the 
Organizational Construction of Chinese Farmers'' [Zhongguo nongmin 
zuzhi jianshe de xianzhuang: zhongguo nongmin zuzhi jianshe ruhu 
diaocha wenjuan fenxi baogao], 519 China (Hainan) Research Institute of 
Reform and Development Bulletin (Online), 22 October 04; Yu Jianrong, 
``Organized Resistance of Farmers and Its Political Risks: An 
Investigation of H County in Hunan Province'' [Nongmin you zuzhi 
kangzheng ji qi zhengzhi fengxian: hunan sheng H xian diaocha], 
Strategy and Management, No. 3, 2003.
    \3\ Human Rights Watch, Restrictions on AIDS Activists in China, 
June 2005, 1.
    \4\ Ibid., 1, 3, 31-6, 40; Roundtable on HIV/AIDS, Staff Roundtable 
of the Congressional-Executive Commission on China, 9 September 02, 
Written Statement submitted by Dr. Bates Gill, Freeman Chair in China 
Studies, Center for Strategic and International Studies.
    \5\ National regulations allow for ordinary citizens to organize 
and apply to MOCA for registration of foundations (jijinhui), social 
organizations (shehui tuanti) (SOs), and NGNCEs. SOs are voluntary 
associations such as academic or professional groups, while NGNCEs are 
nongovernmental service providers such as schools, hospitals, sports 
organizations, or employment service organizations. To Serve the 
People, NGOs and the Development of Civil Society in China, Staff 
Roundtable of the Congressional-Executive Commission on China, 23 March 
03, Written Statement submitted by Qiusha Ma, Assistant Professor, East 
Asian Studies, Oberlin College, Research Associate, the Mandel Center 
for Nonprofit Organizations, Case Western Reserve University. Existing 
SO and NGNCE regulations were issued in 1998, while regulations 
governing foundations were issued in 2004. All require approval of a 
sponsor organization in order to register. Sponsors provide 
``guidance'' for the civil society organizations they supervise and 
participate in their annual review. See, e.g., Regulations on the 
Registration and Management of Social Organizations [Shehui tuanti 
dengji guanli tiaoli], issued 25 September 98, arts. 9 and 28.
    \6\ The 2004 annual MOCA review of approved national social 
organizations lists their corresponding sponsor organizations and 
illustrates the Party/government links with Chinese civil society 
organizations. ``Report on the 2004 Annual Review of National Social 
Organizations'' [2004 niandu quanguoxing shehui tuanti nianjian jieguo 
gonggao], MOCA Web site, 16 May 04.
    \7\ Yu Nan, ``Three Big Research Centers Propose Legislation on 
Social Organization Management, The Spring of Grassroots NGOs Is 
Approaching'' [San da zhiku jianyan shetuan guanli lifa, caogen NGO de 
chuntian lailin], 21st Century Business Herald (Online), 29 November 
04; Katrin Fiedler, ``New Regulations for the Management of 
Foundations,'' Amity Foundation Newsletter (Online), January-March 
2005.
    \8\ Zhao Ling and Dong Shuhua, ``New Regulations on Social 
Organizations to be Issued This Year: Civil Society Organizations to 
Receive Appropriate Encouragement'' [Xin shetuan tiaoli nian nei 
chutai: minjian zuzhi jiang huo shidu guli], Southern Weekend (Online), 
18 May 05.
    \9\ Wang Ximing, ``The Current State of Organizational Construction 
Among Chinese Farmers.''
    \10\ One survey of 22 Chinese NGOs revealed five unregistered ones 
which ``conducted their activities openly without experiencing any 
explicit control exerted by any government agencies.'' In contrast, the 
same study found that ``supervisory organizations of GONGOs [quasi NGO-
organizations directly organized by state actors] . . . not only 
supervised the operations of these [GONGOs], but indeed exerted 
financial and/or personnel control over those [GONGOs].'' Environmental 
NGOs in China: Encouraging Action and Addressing Public Grievances, 
Written Statement submitted by Jiang Ru, Ph.D. in Environmental 
Management and Planning, Stanford University.
    \11\ Shi Jiangtao, ``Tough Rules for NGOs May Impede Volunteer 
Scheme,'' South China Morning Post (Online), 7 June 05.
    \12\ Environmental NGOs in China: Encouraging Action and Addressing 
Public Grievances, Written Statement submitted by Elizabeth Economy; Ma 
Li, ``Hearing on Yuanming Garden to Convene This Morning, 73 People 
Approved to Attend'' [Yuanmingyuan tingzhenghui jinri shangwu zhaokai 
73 ren huozhun canjia], People's Daily (Online), 13 April 05.
    \13\ Guo Xiaojun, ``Possibility that NGO Registration Will Not Need 
Sponsoring Unit'' [NGO zhuce youwang wuxu zhuguan danwei], Beijing News 
(Online), 18 October 2004; ``Who is Stopping China's Wealthy From 
Becoming Philanthropists? '' [Shei zuaile zhongguo furen chengwei 
cishan jia?], 21st Century Business Herald (Online), 1 March 04.
    \14\ According to Chinese news reports, specific changes in the 
MOCA drafts under consideration by the State Council include: (1) 
reducing the amount of registered capital required; (2) eliminating 
examination procedures; and (3) removing the restriction on having more 
than one NGO of the same type (e.g., bird watching association) in the 
same administrative region. The new regulations would apply to foreign 
NGOs as well. They also require local governments to give unspecified 
policy ``assistance'' to NGOs. Zhao Ling and Dong Shuhua, ``New 
Regulations on Social Organizations to Come Out Within the Year: Civil 
Society Organizations to Receive Appropriate Encouragement.'' Many of 
these elements broadly resemble those found in the national foundation 
regulations passed in 2004. CECC, 2004 Annual Report, 73-4; Carl 
Minzner, ``New Chinese Regulations on Foundations,'' 2 International 
Journal of Civil Society Law 110 (April 2004). The fact that the 2004 
foundation regulations explicitly apply the sponsor organization 
requirement to representative offices of foreign foundations that seek 
to register in China suggests that future revisions to the national SO 
and NGNCE regulations may do so also.
    \15\ Guan Zhehui and Li Xiaopeng, `` `Zhejiang Provincial 
Regulations on Professional Farmers' Cooperatives' Issued'' [``Zhejiang 
sheng nongmin zhuanye hezuoshe tiaoli'' chutai], China Court Web site, 
12 November 04; ``Farmers' Cooperatives Receive Legal Person Status For 
the First Time'' [Nongmin hezuo zuzhi shou huo faren shenfen], Beijing 
News (Online), 10 May 05. The Zhejiang regulations require agricultural 
officials at the county level and higher to guide (zhidao), coordinate 
(xietiao), and provide services (fuwu gongzuo) to the farmers' 
associations, but do not vest them with supervisory authority and do 
not require them to serve as a sponsor organization. Zhejiang 
Provincial Regulations on Professional Farmers' Cooperatives [Zhejiang 
sheng nongmin zhuanye hezuoshe tiaoli], issued 11 November 04, art. 5. 
The regulations charge the State Administration of Industry and 
Commerce with reviewing and approving applications to establish farmers 
associations. Ibid., art. 10. However, ongoing organizational 
supervision is vested in a board selected and run by association 
members. Ibid., arts. 14-17.
    \16\ MOCA Notice Regarding the Issuance of ``Guiding Opinion 
Regarding Strengthening the Cultivation and Development and Managing 
the Registration Work of Rural Professional Economic Associations'' 
[Guanyu yifa ``guanyu jiaqiang nongcun zhuanye jingji xiehui peiyu 
fazhan he dengji guanli gongzuo de zhidao yijian'' de tongzhi], issued 
29 October 03, art. 2.
    \17\ Fan Lixiang, ``Zhejiang Raises the Question: Correcting the 
Misunderstanding about Agricultural Cooperatives'' [Zhejiang poti: wei 
nongye hezuoshe zhengshen], 21st Century Business Herald (Online), 21 
October 04.
    \18\ Vivien Cui, ``AIDS Group Told To Change Name or Close,'' South 
China Morning Post, 24 March 05 (FBIS, 24 March 05); ``Beijing AIDS 
Institute of Health Education Receives Permission to Change Name to 
`Beijing Zhiaixing Information and Counseling Center' '' [Beijing 
aizhixing jiankang jiaoyu yanjiusuo mingcheng huozhun biangeng wei 
``Beijing zhiaixing xinxi zixun zhongxin''], Open Letter from Wan 
Yanhai, 28 March 05 (on file with Commission).
    \19\ Human Rights Watch, Restrictions on AIDS Activists in China, 
17-22.
    \20\ Environmental NGOs in China: Encouraging Action and Addressing 
Public Grievances, Written Statement submitted by Elizabeth Economy; 
for comments by Liao Xiaoyi, director of Global Village Beijing, see Yu 
Nan, `` `Beijing Global Village': Growing Pains of Grassroots NGOs'' 
[``Beijing diqiu cun'': caogen NGO shengzhang zhi kun], 21st Century 
Business Herald (Online), 26 January 05.
    \21\ Yu Nan, `` `Beijing Global Village': Growing Pains of 
Grassroots NGOs.''
    \22\ Yu Renwang, ``When the `Branch' Meets the `Association': The 
Story of a Civil Society Trade Organization'' [Dang ``fenhui'' yushang 
``xiehui'': yi ge minjian hangye zuzhi de gushi], 21st Century Business 
Herald (Online), 6 April 05.
    \23\ Yu Nan, `` `Beijing Global Village': Growing Pains of 
Grassroots NGOs.''
    \24\ Chen Xiangyang, ``PRC: Journal Views NGO Challenges to China, 
Warns of Western Infiltration Through NGOs,'' China Economic Daily, 26 
May 05 (FBIS, 27 May 05).
    \25\ Xu Xinghan, ``People's Daily Commentator: Putting Civil 
Organizations to Good Use'' [Renmin ribao pinglunyuan: fahui hao 
minjian zuzhi de zuoyong], People's Daily (Online), 11 December 04.
    \26\ Qiu Xin, ``China Curbs Civil Society Groups,'' Asia Times 
(Online), 19 April 05; ``Enterprise Supervision Bureau Carries Out 
Annual Review of Social Science Research Organizations'' [Qijianke 
zuohao minban sheke jigou nianjian gongzuo], Beijing Municipal Bureau 
of Industry and Commerce (Online), 11 April 05.
    \27\ ``New NGO Founded to Rally All Chinese People Against 
Worsening Pollution,'' Xinhua, reprinted in People's Daily (Online), 24 
April 05; Bao Rong and Wang Shiling, ``China Environmental Protection 
Federation: The Birth of a Special NGO'' [Zhonghua huanbao lianhehui: 
yi ge teshu NGO de dansheng], 21st Century Business Herald (Online), 25 
April 05.
    \28\ Commission Staff Interview.

    Notes to Section V(b)--Legal Restraints on State Power
    \1\ National People's Congress Standing Committee Work Report, 9 
March 05.
    \2\ Li Weiwei, ``Theme of Legal System Publicity Day Determined: 
Developing Constitutional Spirit and Strengthening Legal Concepts'' 
[Fazhi xuanchuanri zhuti queding: hongyang xianfa jingsheng zengqiang 
fazhi guannian], Xinhua, reprinted in People's Daily (Online), 16 
November 04.
    \3\ For statements on the significance of the amendments and 
implementation measures, see, e.g. ``China's Progress on Human Rights 
in 2004,'' State Council Information Office, April 2005 (FBIS, 13 April 
05); Supreme People's Procuratorate Work Report, 9 March 05; 
``Including Human Rights in The Constitution Is a Milestone in China's 
Human Rights Cause'' [Renquan ruxian shi zhongguo renquan shiye fazhan 
de lichengpai], Xinhua, reprinted in Legal Daily (Online), 22 February 
05.
    \4\ PRC Constitution, arts. 62, 67.
    \5\ A recent example of such complaints can be found in Liao 
Weihua, ``Experts Suggest Establishing a Special Constitutional 
Committee'' [Zhuanjia jianyi she xianfa zhuanmen weiyuanhui], Beijing 
News (Online), 21 September 04.
    \6\ For the creation of the NPCSC office to review unconstitutional 
laws and regulations, see CECC, 2004 Annual Report, 66-70 (discussing 
constitutional reform).
    \7\ ``NPC Explains Constitutional Review System, Any Citizen Can 
Petition for Constitutional Review'' [Renda jie weixian shenchazhi, 
renhe gongmin ke tiqing weixian shencha], Beijing News, reprinted in 
Xinhua (Online), 2 December 04.
    \8\ ``Two Citizens Petition the NPC to Resolve Legislative 
Conflict'' [Liang renmin shangsu quanguo renda qingqiu jiejue falu 
chongtu], Procuratorate Daily (Online), 3 August 05. In May 2005, the 
China Daily published several commentaries attacking local regulations 
that prohibit panhandling. One concluded that ``there has not been an 
effective examination of such local regulations'' and that ``the only 
way to challenge such a local regulation is to have citizens or 
institutions apply to the NPC Standing Committee.'' ``Legitimacy of 
Local Rules,'' China Daily (Online), 18 May 05. For the second 
commentary, see ``Begging Bans Reveal Intolerant Society,'' China Daily 
(Online), 23 May 05.
    \9\ Commission Staff Interview.
    \10\ Li Shuming, ``Commentary: The Rule of Law Significance of `Any 
Citizen May Petition for Constitutional Examination'' [Pinglun: ``Renhe 
gongmin dou keyi tiqing weixian shencha'' de fazhi yiyi], Procuratorate 
Daily (Online), 8 December 04.
    \11\ Commission Staff Interview.
    \12\ Commission Staff Interviews. In 2001, the SPC authorized a 
court in Shandong province to rely on constitutional provisions on the 
right to education in deciding a case. However, the case involved a 
tort claim between two private parties and not a claim against the 
government or an effort to overturn a law or regulation. Shen Kui, ``Is 
it the Beginning or the End of the Era of the Run of the Constitution? 
Re-Interpreting China's First Constitutional Case,'' 12 Pacific Rim Law 
& Policy Journal 200, 209-10 (January 2003).
    \13\ Commission Staff Interview. See also, Liao Weihua, ``Experts 
Propose Establishment of a Constitutional Litigation System'' [Zhuanjia 
changyi jianli xianfa susong zhidu], Beijing News (Online), 15 January 
05.
    \14\ Law in Political Transition: Lessons From East Asia and The 
Road Ahead for China, Hearing of the Congressional-Executive Commission 
on China, 26 July 05, Written Statement submitted by Jerome A. Cohen, 
Professor, New York University School of Law.
    \15\ Chen Jiren, ``Chinese Lawyers Wave the Flag of the 
Constitution and Human Rights,'' Law and Life, Vol. 275, December 2004 
(translation on file with Commission). This article ties the creation 
of the ACLA committee to a series of rule of law developments that 
encouraged ACLA to push more aggressively for the protection of 
constitutional rights:
    The years 2002, 2003, and 2004 have had great significance in 
China's rule of law process. The SARS epidemic triggered a nationwide 
discussion on government transparency and citizens' right to 
information; the Sun Zhigang case brought out attention to citizens' 
rights to petition and government review of unconstitutional action; 
the case of a couple being prosecuted for watching pornography ignited 
a fight over where we should draw the line between private rights and 
public rights; and the Hepatitis-B virus carriers' labor rights case 
made a huge national impact. Those different types of cases gave 
Chinese lawyers opportunities to get involved in constitutional and 
human rights issues, and they managed to get some significant work 
done. The time was ripe for the establishment of the Constitution and 
Human Rights Committee of ACLA.
    \16\ ``Henan Natives Battle Against Hometown Notoriety,'' China 
Daily (Online), 25 May 05 (FBIS, 25 May 05); Raymond Zhou, ``Henan 
Stigma Highlights Regional Bias,'' China Daily (Online), 16 June 05 
(FBIS, 16 June 05).
    \17\ In June 2005, the writer Zhang Lin pleaded innocent to 
criminal subversion charges stemming from Internet essays he had 
posted, arguing that the charges violated his constitutionally 
protected freedom of speech. ``An Interview With Zhang Lin's Wife Fang 
Cao and Defense Lawyer Mo Shaoping'' [Caifang zhanglin qi fang cao yu 
bianhu lushi Mo Shaoping], Dajiyuan (Online), 5 April 05; ``Airing 
Views Not a Crime, Says Lawyer for Activist,'' Agence France-Presse, 
reprinted in South China Morning Post (Online), 22 June 05. Also in 
June 2005, constitutional provisions on gender equality were reportedly 
raised in a discrimination lawsuit in Chengdu. Huang Zhiling, ``Women 
Win Sexual Discrimination Case,'' China Daily, 20 June 05 (FBIS, 20 
June 05).
    \18\ Commission Staff Interview. Chen Jiren, ``Chinese Lawyers Wave 
the Flag of the Constitution and Human Rights.'' According to these 
sources, there are efforts underway to research or draft legislation on 
freedom of residence, anti-discrimination, the freedom to strike, 
freedom of the press, and other issues. A lawyer in the Henan 
discrimination case expressed ``hope the case would give rise to the 
promulgation of an anti-discrimination law . . .'' Kristine Kwok, 
``Shenzhen Police Sued for Prejudice,'' South China Morning Post, 3 May 
05 (FBIS, 3 May 05).
    \19\ Various sources emphasize that the subject of constitutional 
enforcement is a sensitive one in China. See, e.g., Li Shuming, 
``Commentary: The Rule of Law Significance of `Any Citizen May Petition 
for Constitutional Examination''; Chen Jiren, ``Chinese Lawyers Wave 
the Flag of the Constitution and Human Rights''; Philip P. Pan, ``Hu 
Tightens Party's Grip on Power; Chinese Leader Seen as Limiting 
Freedoms,'' Washington Post (Online), 25 April 05.
    \20\ ``NPC Explains Constitutional Review System, Any Citizen Can 
Petition for Constitutional Review,'' Beijing News; ``My Country 
Implements the Constitution by NPC Supervision, Constitution Still 
Cannot Be The Basis of Litigation'' [Wo guo you renda jiandu xianfa 
shishi, xianfa reng buneng chengwei susong genju], People's Daily 
(Online), 1 December 04.
    \21\ For reports on conferences that took place over the past year, 
see Liao Weihua, ``Expert Suggests Establishing a Special 
Constitutional Committee''; Liu Hui, ``Constitutional Research 
Association 2004 Annual Meeting Calls for Raising the Status of 
Constitutional Study'' [Xianfaxue yanjiuhui 2004 nian nianhui huyu 
tigao xianfaxue diwei], Procuratorate Daily (Online) 25 October 04; 
``China Law Center Holds Conference in China on Constitutional 
Review,'' Yale Law School Web site, 17 March 05; Liao Weihua, ``Experts 
Propose Establishment of a Constitutional Litigation System''; Joseph 
Kahn, ``China Calls Off Rights Conference,'' New York Times (Online), 
18 May 04.
    \22\ Human Rights in China Press Release, ``Dissidents Thwarted in 
Opening Human Rights Consultancy in Beijing,'' 22 April 05.
    \23\ Commission Staff Interview; see also Liao Weihua, ``Experts 
Suggest Establishing a Special Constitutional Committee.''
    \24\ PRC Administrative Litigation Law, enacted 4 April 89, arts. 
2, 11.
    \25\ PRC State Compensation Law, enacted 12 May 94, art. 2. The law 
provides citizens and entities with the right to obtain compensation in 
a limited number of situations in which they are harmed by the illegal 
acts of government officials. Under certain provisions, citizens have 
the right to seek compensation from public security, procuratorial, 
judicial, and prison management agencies for a range of illegal acts 
that take place in the course of criminal investigations, prosecutions, 
and sentencing.
    \26\ Number of first instance administrative litigation cases 
completed by Chinese courts, by year: 1999 (98,759); 2000 (86,674); 
2001 (95,984); 2002 (84,942); 2003 (88,050); 2004 (92,192). ``Situation 
of Adjudication Work and Building of Cadre of the People's Courts, 
1998-2002'' [1998-2002 nian renmin fayuan shenpan gongzuo he duiwu 
jianshe qingkuang], China Court Net (Online), 12 March 03; 
``Statistical Table on the Situation of First Instance Administrative 
Cases Tried By Courts Nationwide in 2003'' [2003 nian quanguo fayuan 
shenli xingzheng yishen anjian qingkuang tongjibiao], China Court Net 
(Online), 20 April 05; Supreme People's Court 2004 Work Report, 9 March 
05. The SPC reported that courts completed 114,896 administrative 
litigation cases in 2003. However, the SPC reported that courts 
completed 92,192 first instance cases in 2004, and that this was a 4.7 
percent increase over the prior year. The only logical explanation for 
the discrepancy is that the SPC combined first and second instance 
cases to arrive at the 114,896 number reported for 2003.
    \27\ Number of state compensation cases completed by Chinese 
courts, by year: 1999 (2,113); 2000 (2,400); 2001 (2,705); 2002 
(2,642); 2003 (3,124); 2004 (3,134). ``Situation of Adjudication Work 
and Building of Cadre of the People's Courts, 1998-2002,'' China Court 
Net; Supreme People's Court 2003 Work Report, 10 March 04; SPC 2004 
Work Report, 9 March 05. These court statistics do not include all 
state compensation cases, as some cases are handled directly by the 
``defendant'' agency and not appealed to people's courts.
    \28\ See Section II--Introduction and Section V(e)--Access to 
Justice, for the growing number of public protests and citizen 
petitions.
    \29\ Ling Hu, ``Gov't Administration Should Be in Line With Law,'' 
China Daily (Online), 16 November 04; Li Fei, ``Official Documents Must 
Come Under Scrutiny,'' China Daily, 4 June 05 (FBIS, 4 June 05); Wang 
Songmiao, ``Commentary: State Compensation: Why Is it `Pleasant to the 
Ear But Not Use' '' [Pinglun: Guojia peichang: weishenme ``zhongting bu 
zhongyong''], Procuratorate Daily (Online), 5 January 05. The law 
applies only to a range of ``specific administrative acts'' that target 
a specific person or entity, and not to government regulations and 
policies that are generally binding. However, the scope of the law has 
gradually been expanded under SPC Interpretations.
    \30\ See, e.g., Zheng Lifei, ``Officials Forced to Appear in 
Court,'' China Daily, 18 July 03 (FBIS, 18 July 03); ``Lack of 
Confidence Is the Main Reason for the Decline in Administrative 
Lawsuits'' [Quefa xinxin shi xingzheng susongan shao zhuyin], China 
Youth Daily, reprinted in Xinhua (Online), 17 October 03; Irene Wang, 
``Beijing Citizens Turn to Law,'' South China Morning Post, 6 January 
04 (FBIS, 6 January 04); Fan Fu, ``20 Years of Administrative 
Adjudication: Not Suing on Pain of Death A Thing of the Past'' 
[Xingzheng shenpan 20 nian: chusi bu gao guan cheng wangshi], China 
Court Net, 23 February 04; ``Citizens Suing Officials, Defendants Seat 
Is Empty'' [Min gao guan, bei gao xi shan `kong dang dang'], Shenyang 
Evening News, reprinted in People's Daily (Online), 26 February 04; 
Xiao Yang, ``Placing Parameters on Administrative Justice,'' China 
Daily, 1 April 04 (FBIS, 1 April 04); Guo Zhichun, ``What the Large 
Contrast in Success Rates of Citizens Suing Officials Explains'' [Min 
gao guan shengsulu de juda fancha shuoming le shenme], China Youth 
Online, 18 November 04; Wang Songmiao, ``Commentary: State 
Compensation: Why Is it `Pleasant to the Ear But Not Use.' ''
    \31\ Guo Zhichun, ``What the Large Contrast in Success Rates of 
Citizens Suing Officials Explains.'' SPC officials cite a 30 percent 
overall plaintiff success rate from 1989 to 2003. ``Thirty Percent of 
Citizen Plaintiffs Win Lawsuits Against Government Departments,'' 
Xinhua, 1 April 04 (FBIS, 1 April 04).
    \32\ ``Including Human Rights in The Constitution Is a Milestone in 
China's Human Rights Cause,'' Xinhua.
    \33\ Xu Lai, ``SPC Demands: Resolutely Enforce Effective State 
Compensation Judgments,'' China Lawyer Net, 14 November 03 (citing SPC 
Vice President as acknowledging that the enforcement rate dips as low 
as 10 percent in some locales); Wang Songmiao, ``Commentary: State 
Compensation: Why Is it `Pleasant to the Ear But No Use' ''; see also 
``SPC: Administrative Trials Must Vigorously Grasp the Execution of 
Effective Judgments and Decisions'' [Zuigaofa: xingzhen shenpan yao 
henzhua shengxiao caipan yu panjue de zhixing], Xinhua (Online), 24 
January 04.
    \34\ For discussion of possible amendments, see Yang Yuxin, 
``Bright Points and Blind Areas in the Major Amendment Draft of the 
Administration Litigation Law'' [Xingzheng susongfa `da xiugao' 
jingdian yu mangqu], Legal Daily (Online), 26 May 05; Qin Ping, `` 
`Major Amendment' or `Minor Adjustment' to the State Compensation Law'' 
[Guojian peichangfa shi ``daxiu'' haishi ``xiaobu''], Legal Daily 
(Online), 29 July 05.
    \35\ PRC Administrative Licensing Law, adopted 1 August 03. For 
statements in China's official media on the purpose of the law, see, 
e.g., Xiao Jiao, ``Law Defines G'vt Licensing Role,'' China Daily, 28 
August 03 (FBIS, 28 August 03); ``Licensing Law--Driving Force of 
China's Administrative Reform,'' Xinhua, 6 February 04 (FBIS, 6 
February 04); ``Concept of Human Rights Went Deep in Legislation and 
Government Power Was Controlled in 2004,'' People's Daily, 23 December 
04 (FBIS, 23 December 04); Shen Lutao, Zou Shengwen, and Zhao Ruizhen, 
``2004: Witness Steps in China's Democratic Legal System'' [2004: 
jianzheng zhongguo minzhu fazhi de jiaobu], Xinhua, reprinted in 
People's Daily (Online), 28 February 05.
    \36\ ``Concept of Human Rights Went Deep in Legislation and 
Government Power Was Controlled in 2004,'' People's Daily.
    \37\ ``Five Major Flashpoints in Government Work,'' People's Daily, 
31 March 05 (FBIS, 31 March 05).
    \38\ PRC Administrative Licensing Law, enacted 1 August 03, arts. 
70-81. Almost all enforcement provisions focus on top-down supervision 
and rectification, not on bottom-up citizen enforcement. The emphasis 
on top-down enforcement is evident in the Circular of the State Council 
on implementation of the Licensing Law. State Council Notice on 
Implementing the Administrative Licensing Law [Guowuyuan guanyu guanche 
shishi xingzheng xukefa de tongzhi], issued 9 September 03. The one 
provision that facilitates direct citizen enforcement is Article 71 of 
the Licensing Law. In a recent survey of 1,166 enterprises in Beijing 
municipality, 85 percent expressed dissatisfaction with their ability 
to obtain compensation for violations of the Licensing Law. Li Li, 
``How Far We Have Gone Towards Rule of Law Government'' [Women xiang 
fazhi zhengfu maijin le duoshao], Legal Daily (Online), 22 March 05.
    \39\ The APA, or xingzheng chengxufa is sometimes confused with the 
Administrative Litigation Law because some sources also translate the 
Administrative Litigation Law (xingzheng susongfa) as ``Administrative 
Procedure Law.''
    \40\ Cui Li, Yuan Chunlin, ``Procedural Blind Spots Lead to 
`Citizens Suing Officials'--NPCSC Proposes Formulating an 
Administrative Procedure Act'' [Chengxu mangdian daozhi `min gao 
guan'--daibiao weiuan jianyi zhiding xingzheng xukefa], China Youth 
Online, 14 March 05.
    \41\ Commission Staff Correspondence; ``Final Decision on 05 
Legislative Plan'' [05 nian lifa jihua gaoding], China Youth Online, 3 
March 05.
    \42\ For example, in April 2004, the State Council issued a plan, 
entitled ``Implementation Program for Comprehensively Promoting 
Administration According to Law,'' to build the rule of law over a ten-
year period. ``Wen Jiabao Emphasizes Comprehensively Promoting 
Administration According to Law and Striving to Build a Government With 
the Rule of Law at a National Teleconference on Administration 
According to Law,'' Xinhua, 29 June 04 (FBIS, 29 June 04).

    Notes to Section V(c)--China's Judicial System
    \1\ See Section III(e)--Freedom of Expression; Section V(a)--The 
Development of Civil Society; Section V(e)--Access to Justice. Similar 
use of top-down management techniques is evident in the judiciary as 
well. Cheng Jie, ``Supreme People's Court Launches Roving Work System: 
Ten Inspection Teams Set Out to Monitor Five Issues'' [Zuigaofa qidong 
xunshi gongzuozhi: shi xunshi zu chudong jiandu wu fangmian], Beijing 
Youth Daily, reprinted in Xinhua (Online), 11 October 04.
    \2\ Other reform goals include the strengthening of basic level 
people's tribunals, construction of a juvenile justice system, and 
improved enforcement of court decisions. Supreme People's Court Work 
Report, 9 March 05.
    \3\ According to Chinese media reports, reforms under consideration 
include: (1) requiring adjudication committees to use experienced 
judges, rather than court administrators lacking legal expertise; (2) 
requiring adjudication committees to base their review of trial 
decisions on written case materials or oral hearings attended by the 
parties, rather than oral reports of the trial judge; (3) requiring 
adjudication committees to issue their case decisions publicly, 
providing the names of the members making the decision and their 
reasons for doing so; and (4) limiting the scope of review of 
adjudication committees to legal issues alone, leaving questions of 
fact to trial judges. Dai Dunfeng, ``The Debate Over Whether to Keep or 
Abolish Adjudication Committees'' [Shenweihui cunfei zhi bian], 
Southern Weekend (Online), 3 February 05; Chen Huan, ``The Supreme 
People's Court Sets the Tone for Adjudication Committee Reforms'' 
[Zuigaofa ding diao shenweihui gaige], 21st Century Business Herald 
(Online), 16 March 05.
    \4\ Under Chinese law, retrials may be initiated either by the 
parties to the case or a court of a higher level than the court in 
which the case was last tried. For example, according to Article 179 of 
the Civil Procedure Law, a court should grant a retrial requested by a 
party to the case if: (1) new evidence becomes available which requires 
the original decision or ruling to be overturned; (2) the main evidence 
used to determine the facts in the original decision or ruling is 
insufficient; (3) there is an error in the legal usage of the original 
decision or ruling; (4) the court violated procedure, influencing the 
correctness of the decision or ruling; or (5) lower court judges 
received bribes or otherwise broke the law. The first, second, and 
third requirements offer parties and courts significant leeway to 
reopen closed cases.
    \5\ Chinese judges themselves note these problems. For the 
extensive critical analysis by one Jiangxi county judge, see Zhou 
Taoyu, ``A Brief Discussion on Perfecting the Civil Retrial System'' 
[Qianyi minshi zaishen zhidu de wanshan], China Commercial Law Net, 
reprinted in Legal Daily (Online), 20 October 04.
    \6\ Tian Yu, ``2005 Court Reform: People's Assessors Begin Work on 
`May First' '' [2005 nian fayuan gaige: renmin peishenyuan `wuyi' 
shanggang], Xinhua (Online), 14 February 05.
    \7\ Ibid.; Decision of the Standing Committee of the National 
People's Congress Regarding the Improvement of the System of People's 
Assessors [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu 
wanshan renmin peishenyuan zhidu de jueding], issued 1 May 05, art. 1.
    \8\ Decision of the Standing Committee of the National People's 
Congress Regarding the Administration of Expert Testimony [Quanguo 
renmin daibiao dahui changwu weiyuanhui guanyu sifa jianding guanli 
wenti de jueding], issued 1 October 05, art. 7.
    \9\ Tan Lin, ``Courts and Judicial Departments May Not Establish 
Forensic Centers: An Interpretation of the Decision on the 
Administration of Expert Testimony'' [Fayuan he sifa bumen bu de she 
jianding jigou: jiedu sifa jianding guanli jueding], Southern 
Metropolitan Daily (Online), 9 March 05.
    \10\ Wang Ying, ``Reforming the System of Guarantees for Judicial 
Fees: Establishing the Foundation for Judicial Fairness'' [Gaige sifa 
jingfei baozhang jizhi: dianding sifa gongzheng jichu], 21st Century 
Business Herald (Online), 16 March 05.
    \11\ In 2004 and 2005, the Ministry of Justice launched a campaign 
aimed at strengthening local justice bureaus (sifasuo). Zhang Qingshui, 
``The Construction of 45 Thousand Basic Level Judicial Bureaus to be 
Completed Nationwide Before the End of Next Year'' [Quanguo jiang zai 
mingnian di qian wancheng 4.5 wan ge jiceng sifasuo jianshe], Legal 
Daily (Online), 16 May 05. These efforts parallel Party-led propaganda 
campaigns to study the example of Cao Fagui, a people's mediator who 
was killed while mediating a civil dispute, that stress the importance 
of judicial bureaus as the ``first line of defense'' in protecting 
social stability. Zhang Qingshui, ``Meeting to Report on the Advanced 
Accomplishments of Cao Fagui, Model People's Mediator, to Convene in 
Beijing'' [Mofang renmin tiaojieyuan Cao Fagui xianjin shiji baogao hui 
zai jing juxing], Ministry of Justice Web site, 3 September 04.
    \12\ Liao Weihua, ``Possibility that the Design of the Courts will 
be Separate from Administrative Districts'' [Fayuan shezhi youwang yu 
xingzheng qu hua fenli], Beijing News (Online), 29 November 04.
    \13\ Tian Yu, ``Supreme People's Court: Court Reform Cannot Be 
Separated From China's Reality'' [Zuigao fayuan: renmin fayuan gaige 
buneng tuoli zhongguo xianshi], Xinhua, reprinted in People's Daily 
(Online), 7 December 04; Zong Bian, ``Head of SPC Research Department 
Discusses Court Reform'' [Zuigao renmin fayuan yanjiushi fuzeren tan 
renmin fayuan gaige wenti], China Court Net (Online), 8 December 04.
    \14\ ``Patience for Judicial Reform,'' China Daily (Online), 13 
December 04.
    \15\ Both the SPC's response to the academic proposal and 
accompanying media commentary heavily criticized the proposal to remove 
the word ``people's'' from the official title of Chinese courts, i.e. 
to shift the title from ``Supreme People's Court'' (zuigao renmin 
fayuan) to ``Supreme Court'' (zuigao fayuan), suggesting that judicial 
authorities remain concerned with creating impressions that they seek 
to challenge traditional political norms.
    \16\ Tian Yu, ``Higher Educational Level Does not Equal Increased 
Ability: Diploma Cannot Be the Only Goal of Training of Judges'' 
[Wenping shangqu bu deng yu shuiping tigao: faguan peixun buneng zhi 
benzhe wenping qu], Xinhua (Online), 11 March 04. Tian Yu and Zhang 
Xiaojing, ``Supreme People's Court: Training the Nearly 150 Thousand 
Basic Level Judges in Three Years'' [Zuigao fayuan: 3 nian nei ba jin 
15 wan jiceng faguan peixun yibian], Xinhua (Online), 1 July 04.
    \17\ Supreme People's Court Notice Regarding the Promulgation of 
``Forms for Criminal Judgments by People's Courts'' [Zuigao renmin 
fayuan yinfa ``fayuan xingshi susong wenjian yangshi''], issued 30 
April 1999; Supreme People's Court Measures on the Management of 
Publication of Judgment Documents [Zuigao renmin fayuan panjue wenshu 
gongbu guanli banfa], issued 15 June 2000. For example, the Kunming 
Intermediate People's Court has published certain civil case decisions 
online since February 4, 2005. Yu Jingmeng, ``Kunming Intermediate 
Court: Publishing Decisions on the Internet'' [Kunming zhongyuan: 
wangshang gongbu panjueshu], China Youth Daily (Online), 4 February 05. 
The Zhengzhou Intermediate People's Court began to require legal 
reasoning for criminal sentences in November 2004. Liu Hongjian, Zhao 
Yongchun, and An Shiyong, ``No Longer Formulaic but Clear Legal 
Language--Zhengzhou Intermediate Court Experiments with Publishing 
Reasoning for Criminal Sentences'' [Buzai yong geshi yuyuan yibi daiguo 
ershi yong fayu fayuan qingxi daolai--Zhengzhou zhongyuan shixing 
liangxing liyou zhanshi zhidu], Fuzhou Daily (Online), 9 November 04.
    \18\ In Shaanxi province, rural basic level court judges earn 
between 500 to 800 yuan per month. Urban judges in Xi'an or Guangdong 
earn several thousand yuan per month. Experienced judges and recent law 
graduates are commonly ``raided'' by courts in more developed coastal 
areas. Over 65 percent of basic-level Shaanxi courts had no new 
personnel pass the national judicial exam from 1999 to 2003. As one 
vice president of a Yan'an court noted, 61 percent of the judges on his 
court were 40 years or older, and within 5 to 10 years, approximately 
60 percent of the judges on his court would retire or leave. However, 
since 1999, his court has had no new judges join. These trends have 
increased the workload of rural basic people's courts. Rural court 
authorities strongly advocate reducing the required criteria for judges 
in rural areas, perhaps allowing graduates with only a vocational 
school (dazhuan) degree to serve or allowing individuals with lower 
scores on the national judicial exam to serve. Du Meng, ``Difficult to 
Enter, Difficult to Stay, Poor Treatment, Old Age: The Crisis of the 
Gap Among Shaanxi Judges Becomes Prominent'' [Jin ren nan liu ren nan 
daiyu di nianling da: shanxi faguan duanceng weiji aoxian], Legal Daily 
(Online), 26 April 05.
    \19\ CECC, 2003 Annual Report, 65-6.
    \20\ Ibid. Local courts often report to Party authorities seeking 
their assistance in resolving outstanding financial and personnel 
issues, reducing judicial independence by making court officials 
dependent on Party leaders for career and institutional development. 
Ren Hongqi and Wang Yuxin, ``Xixia County Party Committee Solves Three 
Large Problems for the Courts in Three Years'' [Xixia xian wei san nian 
wei fayuan jiejue san jian da shi], Beijing News (Online), 3 September 
04.
    \21\ CECC, 2004 Annual Report, 81 and nn.781-82.
    \22\ See generally Benjamin Liebman, ``Watchdog or Demagogue? The 
Media in the Chinese Legal System,'' 105 Colum. L. Rev. 1 (2005).
    \23\ CECC, 2004 Annual Report, 79.
    \24\ The SPC has attempted to address some of these problems 
through limiting judicial actions which may be disciplined under 
responsibility systems. Ibid., 78 and n.744; Ni Shouming, ``Based On 
`No Mistakes and Rapid Development': Xintai Courts Implement Diligent 
and Honest Self-Discipline Foundation'' [Lizu yu ``bu chu shi kuai 
fazhan'': Xintai fayuan shixing qin jian zilu jijin zhidu], China Court 
Network (Online), 5 October 04.
    \25\ CECC, 2004 Annual Report, 79-82.
    \26\ Wei Wenbiao, ``Request for Advice from `Higher Authorities' 
Same as Changing Case Decision' '' [Pan an qingshi ``shangji'' dang 
gai], Yanzhao Metropolis Daily reprinted in Guangming Daily (Online), 
24 January 05. Chinese judicial authorities at both the central and 
local level have attempted to limit the use of internal advisory 
requests (qingshi), but reforms often prove difficult to enforce in 
light of the incentives created by responsibility systems. For further 
discussion, see CECC, 2004 Annual Report, 78-81.

    Notes to Section V(d)--Democratic Governance and Legislative Reform
    \1\ Kevin O'Brien and Lianjiang Li, ``Accommodating `Democracy' in 
a One-Party State: Introducing Village Elections in China'' in 
Elections and Democracy in Greater China, eds. Larry Diamond and Ramon 
H. Myers (New York: Oxford University Press, 2001), 104-6, 109-10, 119-
20, 124-5.
    \2\ Shi Weimin, ``Open and Direct Elections--Research on the System 
of Township LPC Elections'' [Gongxuan yu zhixuan--xiangzhen renda 
xuanju zhidu yanjiu], (Beijing: China Social Science Publishing Press, 
2000), 301-2.
    \3\ John Pomfret, ``Taking on the Party in Rural China: Reformer 
Risks Livelihood for Direct Elections,'' Washington Post (Online), 27 
September 03.
    \4\ Directly elected village committees, for example, remain 
heavily controlled by Party organizations. One Fujian survey revealed 
that 66 percent of village committee heads are party members, while 55 
percent of village committee members are. Wu Miao, ``A Quantitative 
Analysis of the Quality of Village Committee Elections'' [Cunweihui 
xuanju zhiliang de lianghua fenxi], in Silent Revolution [Wusheng de 
geming], ed. Yawei Liu (Xi'an: Northwest University Press, 2002), 114-
5.
    \5\ Shi Yonghong, ``Some Jiangsu Bureaus Heavily Engage in 
`Advertising Their Accomplishments' '' [Jiangsu bufen danwei da da 
``zhengji guanggao''], Beijing News (Online), 15 December 04.
    \6\ CCP Central Committee Decision Regarding Strengthening the 
Party's Construction and Ability to Rule [Zhonggong zhongyang guanyu 
jiaqiang dang de zhizheng nengli jianshe de jueding], issued 19 
September 04.
    \7\ For a different translation of the above quote which makes the 
point in a slightly different fashion, see China's State Control 
Mechanisms and Methods, Hearing of the U.S.-China Economic and Security 
Review Commission, 14 April 05, Written Statement submitted by Richard 
Baum, Director of the UCLA Center for Chinese Studies.
    \8\ Village Elections in China, Staff Roundtable of the 
Congressional-Executive Commission on China, 8 July 02, Written 
Statement submitted by Yawei Liu, Associate Director, The Carter 
Center's China Village Elections Project; International Republican 
Institute, Village Elections in China: Progress, Problems and 
Prospects, January 2001.
    \9\ Li Lianjiang, ``The Empowering Effect of Village Elections in 
China,'' 43 Asian Survey 648 (2003); ``Elections and Popular Resistance 
in Rural China,'' 16 China Information 89 (2002).
    \10\ Xiang Jiquan, ``The Practical Basis and Effects of China's 
Village Autonomy'' [Zhongguo cunmin zizhi de shijian jichu he 
chengxiao], in Silent Revolution, 312-3.
    \11\ In addition to the examples discussed in the text, continued 
reliance of village officials on higher-level discretionary funding, 
mixed with heightened village autonomy, often leads to greater 
financial mismanagement. Lily Tsai, ``The Dangers of Decentralization: 
Fiscal Mismanagement and Informal Institutions in Rural China,'' 3 
April 05, 1 (draft manuscript on file with the Commission).
    \12\ Edward Cody, ``An Unusual Sort of Democracy: Allegations of 
Party Vote-Buying Surround Village Election in China,'' Washington Post 
(Online), 20 June 05; John Ruwitch, ``People Clash With Party in China 
Village Poll,'' Reuters (Online), 7 June 05.
    \13\ Chairman of the Taishi Village Impeachment Committee Has 
Resigned,'' [Taishi cun bamian weiyuanhui zhuren cizhi], Radio Free 
Asia, 20 September 05.
    \14\ See, e.g., Wang Haiyan, ``Her Election and His Defeat'' [Ta de 
dangxuan yu ta de luoxuan], Southern Metropolitan Daily (Online), 17 
December 03; Robert L. Moore, ``Don't Count Out China's Communists, 
Despite Village Elections, Party Maintains Power,'' Orlando Sentinel 
(Online), 27 June 05.
    \15\ Village and residents committees (VCs and RCs) are the lowest 
level of governance in Chinese rural and urban areas, underneath 
township (xiang/zhen) or street committees (jiedaochu). VCs and RCs 
serve as tools of top-down social control. They keep tabs on local 
residents, provide information to local police, and monitor compliance 
with government policies such as birth control and taxation 
requirements. However, VCs and RCs also operate as community 
institutions addressing local needs. They provide basic social 
services, mediate civil disputes, and offer a forum for residents to 
address local problems. Anne Thurston, United State Institute for 
Peace, ``Muddling Toward Democracy, Political Change in Grassroots 
China,'' August 98, 18; Allan Choate, The Asia Foundation, ``Local 
Governance in China, Part II, An Assessment of Urban Residents 
Committees and Municipal Community Development,'' November 1998, 8-9, 
16-25. Chinese authorities began to experiment with VC and RC elections 
as a means to address governance challenges posed by social and 
economic changes in the 1980s and 1990s. See O'Brien and Li, 
``Accommodating `Democracy' in a One-Party State,'' 104-6, 109-10; Li 
Fan, ``The Launch of Reforms for Direct Elections of Chinese Urban 
Community Residents' Committees'' [Zhongguo chengshi shequ juweihui 
zhijie xuanju gaige de qidong: 1998-2003] in Electoral Reform of Urban 
Community in China [Zhongguo chengshi shequ zhijie xuanju], ed. Li Fan, 
(Xi'an: Northwest University Press, 2003), 7-8.
    \16\ PRC Organic Law on Village Committees (Trial), enacted 24 
November 87, art. 9
    \17\ O'Brien and Li, ``Accommodating `Democracy' in a One-Party 
State,'' 111-20.
    \18\ PRC Organic Law on Village Committees, enacted 4 November 98, 
art. 11; Village Democracy in China, Staff Roundtable of Congressional-
Executive Commission on China, Written Statement of Anne Thurston, 
Associate Professor of China Studies, School of Advanced International 
Studies; O'Brien and Li, ``Accommodating `Democracy' in a One-Party 
State,'' 120-2.
    \19\ Li Fan, ``The Launch of Reforms for Direct Elections of 
Chinese Urban Community Residents' Committees,'' 10-1.
    \20\ Ibid., 12, 16-21; Fu Jianfeng, ``Direct Elections for Urban 
Residents Committees: Ningbo Style'' [Chengshi shequ zhixuan de ningbo 
moshi], Southern Metropolitan Daily (Online), 5 December 03.
    \21\ Li Fan, ``The Launch of Reforms for Direct Elections of 
Chinese Urban Community Residents' Committees,'' 13.
    \22\ County election leadership groups supervise village election 
work. They are comprised of county-level party, LPC, and government 
officials. MOCA officials are participants, but not heads, of these 
groups. Shanxi Provincial Civil Affairs Bureau Notice Regarding the 
Issuance of the ``Shanxi Provincial Village Committee Election Rules'' 
(Trial) [Shanxi sheng minzhengting guanyu yinfa ``shanxisheng cunmin 
weiyuanhui xuanju guicheng (shixing)'' de tongzhi], issued 10 October 
99, chapter 1, art. 2(2). 2005 Shanxi provincial regulations state that 
MOCA officials should ``guide'' (zhidao) the election process, but that 
local Party organizations should play the ``core leadership role'' 
(lingdao hexin zuoyong). Shanxi Provincial Village Election Rules 
(Shanxi zheng cunmin weiyuanhui xuanju banfa], issued 29 July 05, arts. 
6, 8.
    \23\ Shanxi rules provide that outgoing village committee heads are 
generally responsible for nominating the heads of village election 
committees. If the former head is unable to serve, the township 
government is responsible for selecting the person who will head the 
nomination process for village election committee heads. The rules also 
provide that the head of the village election committee should be the 
village party secretary or other party member with a high degree of 
local respect. Ibid., chap. 1, art. 2(3).
    \24\ Sun Long and Tong Zhihui, ``Procedural Guidance and the 
Regularization of Village Committee Elections'' [Chengxu yindao yu 
cunweihui xuanju de guifanhua], in Silent Revolution, 75. Another 
Chinese scholar notes, ``[T]here is almost an unwritten rule that not 
only is the head of the election committee the village party secretary, 
but village party members serve as a matter of course as members of the 
election commission. . . .'' Wu Miao, ``A Quantitative Analysis of the 
Quality of Village Committee Elections,'' 121.
    \25\ Wu Miao, ``A Quantitative Analysis of the Quality of Village 
Committee Elections,'' 121. As one Chinese academic noted, ``Experience 
reveals that pursuing democratic supervision . . . without democratic 
[VC and RC] elections results in a number of problems. Under this 
system, the ``democracy'' experienced by residents is an incomplete, 
passive democracy . . . . While it may appear on the surface that there 
are reforms, the active participation of residents can't be achieved. . 
. .'' largely because residents can sense the uselessness of elections. 
Li Fan, ``The Launch of Reforms for Direct Elections of Chinese Urban 
Community Residents' Committees,'' 37.
    \26\ Some local municipal regulations permit migrants lacking local 
hukou to register to vote in RC elections. Beijing Municipal Residence 
Committee Election Measures [Beijing shi jumin weiyuanhui xuanju 
banfa], issued 26 April 00, art. 12. Some draft amendments to national 
laws governing RC elections would extend voting rights to individuals 
lacking a local hukou, but possessing a fixed place of abode in 
municipal areas. Others would limit the franchise based on hukou 
identification alone. Lai Haoning, ``Outsiders Should Receive The Right 
to Participate in Residents Committees Elections'' [Wailai ren ying huo 
juweihui canxuan zige], Beijing News (Online), 18 December 04. Foreign 
observers have noted resistance of local residents to enfranchising 
migrants and allowing them to participate in decisions regarding the 
allocation of revenues generated by collectively owned land. 
International Republican Institute, Election Observation Report--Fujian 
Province, May 2003, 14-5.
    \27\ See, e.g., Zhejiang Provincial Village Committee Election 
Measures [Zhejiang sheng cunmin weiyuanhui xuanju banfa], issued 22 
October 99, amended 17 September 04, art. 22 (charging the village 
electoral commission with organizing campaign speeches, and requiring 
candidates wishing to make public speeches to request permission of the 
electoral commission). Observers have recommended allowing more 
campaigning for VC and RC elections. International Republican 
Institute, Election Observation Report--Fujian Province, 3.
    \28\ MOCA Notice Regarding Carrying Out the Work of 2005 Village 
Committee Elections [Minzheng bu guanyu zuohao 2005 nian cunweihui 
huanjie xuanju gongzou de tongzhi], issued 18 January 05, art. 3; 
Zhejiang Provincial Village Committee Election Measures, art. 23-4.
    \29\ Liu Weitao, ``China's Village Committees Will Generally Hold 
Direct Elections This Year, MOCA Officials Explain'' [Woguo cunweihui 
jinnian pupian shixing zhixuan minzhengbu jiedu], People's Daily 
(Online), reprinted on the Ministry of Justice Web site (Online), 31 
January 05.
    \30\ See, e.g., Wang Yijun, ``Overloaded With Responsibilities, 
Unclear Powers, Organic Law of Residents Committees Will Be Amended'' 
[Zhineng chaozai zhiquan youxian, chengshi juweihui zuzhifa xiuding], 
Ministry of Justice Web site (Online), 28 January 05.
    \31\ Linda Jakobsen, ``Local Governance: Village and Township 
Direct Elections,'' in Governance in China, ed. Jude Howell (Lanham: 
Rowman and Littlefield, 2004), 108-10. Other localities have 
experimented with forms of electoral participation in the selection of 
township officials, although the extent of citizen participation in 
these has been carefully controlled. Ibid., 110-3.
    \32\ ``Transcript of MOCA Basic-Level Governance and Community 
Development Bureau Chief Zhang Chengfu Online Discussion With 
Citizens'' [Minzheng bu jiceng zhengquan he shequ jianshe si sizhang 
Zhang Chengfu yu wangyou zai xian jiaoliu shilu], Ministry of Civil 
Affairs (Online), 14 January 2005.
    \33\ Notice of the Shenzhen Municipal Party Committee and Shenzhen 
Municipal People's Government Regarding the Issuance of ``2005-2010 
Plan for Shenzhen Municipal Community Construction'' [Zhonggong 
shenzhen shiwei, shenzhen renmin zhengfu guanyu yinfa ``Shenzhen shi 
shequ jianshe faguihua gangyao 2005-2010 nian'' de tongzhi], Shenzhen 
Municipal Government (Online), issued 18 February 05, art. 4(3)(1).
    \34\ Wu Miao, ``A Quantitative Analysis of the Quality of Village 
Committee Elections,'' 103-4.
    \35\ Liu Weitao, ``MOCA: Election Activities Which Have Not Been 
Expressly Prohibited By Law Do Not Necessarily Constitute Electoral 
Corruption'' [Minzheng bu: falu wei mingque jinzhi de xingwei bushu 
huixuan], People's Daily (Online) 26 January 05.
    \36\ Young Nam Cho, ``Symbiotic Neighbor or Extra-Court Judge? '' 
176 China Quarterly 1068, 1070-73 (2003). This expanded activism is 
sometimes a mixed blessing. LPCs often use their power of review to 
interfere in the decisions of the institutionally weaker courts (via 
the process of individual case supervision), rather than challenge 
those of politically more powerful local governments. Ibid.; see also 
CECC, 2004 Annual Report, 81.
    \37\ Young Nam Cho, ``From `Rubber Stamps' to `Iron Stamps': The 
Emergence of Chinese Local People's Congresses as Supervisory 
Powerhouses,'' 171 China Quarterly 724, 731-37 (2002).
    \38\ Hearings are expressly authorized under article 34 of the PRC 
Legislation Law, enacted 15 March 00. According to statistics provided 
by one Chinese scholar, from 2000 to 2004, 24 provincial LPCs held 38 
hearings regarding legislation. Cai Dingjian, ``The Current State of 
Legislative Hearings and Proposals For Improvement'' [Lifa tingzheng de 
xianzhuang ji gaijin yijian], Legal Daily (Online), 4 May 05. On 
September 27, 2005, the National People's Congress (NPC) held its first 
public legislative hearing on a draft amendment to raise the minimum 
taxable income. Authorities chose 20 participants (including both 
academics and migrant workers) from nearly 5,000 applicants. Cary 
Huang, ``A Small Step Toward Transparent Lawmaking.'' South China 
Morning Post (Online), 28 September 05.
    \39\ Young Nam Cho, ``From `Rubber Stamps' to `Iron Stamps,' '' 
735-9.
    \40\ Ibid. Prior to 2004, township elections were on a three-year 
cycle, while county elections operated on a five-year cycle. Zhao Lei 
and Meng Nuo, ``NPC Standing Committee Passes Amendments to Election 
and Organic Laws'' [Quanguo renda changweihui tongguo xuanjufa he 
defang zuzhifa xiuzheng'an], Xinhua, reprinted in Red Net (Online), 27 
October 04.
    \41\ Standing committees conduct LPC work when the LPC is not in 
plenary session. Presidiums control the operating of the LPC when it is 
in plenary session. Shi Weimin, ``Open and Direct Elections,'' 303. LPC 
standing committees also meet relatively infrequently, in bimonthly 
sessions of only one or two days each. Young Nam Cho, ``From `Rubber 
Stamps' to `Iron Stamps,' '' 735-9.
    \42\ Shi Weimin, ``Open and Direct Elections,'' 303.
    \43\ PRC Election Law for the National People's Congress and Local 
People's Congresses, enacted 1 July 79, amended 10 December 82, amended 
2 December 86, amended 28 February 95, amended 27 October 04, art. 12.
    \44\ As one Chinese scholar has pointed out, local requirements 
that migrants must return to their place of hukou registration to 
obtain voter registration authorization often deters migrants from 
voting in local elections. Shi Weimin, ``Open and Direct Elections,'' 
154. This is exacerbated by relatively short deadlines for voter 
registration. For one recent local initiative to protect migrant voting 
rights, see Amendment to the Implementing Regulations for Beijing City 
District, County, Township, National Minority Township, and Town LPC 
Elections [Beijing shi qu, xian, xiang, minzuxiang, zhen renmin daibiao 
dahui daibiao xuanju shishi xize de xiuzheng'an], issued 5 September 
03. Note that at least one recent set of provincial regulations has 
taken a particularly liberal stance, allowing migrant voters to 
register to vote in their place of residence upon merely presenting 
their identity card. Decision of the Anhui Provincial LPC Standing 
Committee on amending the ``Anhui Provincial LPC Election Implementing 
Regulations'' [Anhui sheng renmin daibiao dahui changwu weiyuanhui 
guanyu xiugai ``Anhui sheng geji renmin daibiao dahui xuanju xize'' de 
jueding], issued 21 April 05, art. 25.
    \45\ Specific changes included: (1) charging LPC standing 
committees with the responsibility for supervising LPC elections at the 
county level and higher (previous law had made local governments 
responsible for supervising such LPC elections, and this change made 
LPCs somewhat more independent of local government influence); (2) 
allowing more open nominations, from groups of individuals rather than 
simply parties and mass organizations; (3) expressly permitting the use 
of primary elections (yuxuan) as a means to narrow the candidate list; 
and (4) allowing a degree of freedom for ``parties, organizations, and 
voters'' to engage in campaigning. PRC Election Law for the National 
People's Congress and Local People's Congresses, arts. 7, 26, 28, 30.
    \46\ See generally Andrew Nathan, Chinese Democracy (Berkeley: 
University of California Press, 1985), 193-223. Specific legal changes 
made in the 1980s to reduce the competitive nature of LPC elections 
included (1) removing language permitting the use of primaries (yuxuan) 
to narrow the candidate list, and (2) removing language allowing 
independent campaign activities. PRC Election Law for the National 
People's Congress and Local People's Congresses, as amended 2 December 
86, arts. 28 and 30; see also Shi Weimin, ``Open and Direct 
Elections,'' 42-9.
    \47\ PRC Election Law for the National People's Congress and Local 
People's Congresses, art. 29.
    \48\ Shi Weimin, ``Open and Direct Elections,'' 311-7. Election 
laws restrict the number of total candidates who may appear on the 
ballot, frequently leading to the elimination of independent 
candidates. Chinese observers have noted numerous methods by which 
independent LPC candidates are effectively blocked from competing in 
LPC elections. These include: 1) limiting the number of independent 
candidates; 2) imposing short time limitations for nominations (such as 
a single day); and 3) simply disallowing independently nominated 
candidates from being placed on the ballot. Ibid., 316.
    \49\ PRC Election Law for the National People's Congress and Local 
People's Congresses, art. 31. Even preliminary candidate lists need be 
released only 15 days prior to elections.
    \50\ Shi Weimin, ``Open and Direct Elections,'' 460-1.
    \51\ Relevant Decisions of the NPC Standing Committee Regarding 
Direct LPC Elections at the County Level and Lower [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu xianji yixia renmin daibiao 
dahui daibiao zhijie xuanju de ruogan guiding], issued 5 March 83, art. 
2.
    \52\ Ibid., art. 1. Chinese authorities have strengthened county 
control over township elections since the original 1983 regulations. 
The original regulations merely charged county election committees with 
the responsibility of ``supervising'' (zhidao) the work of township-
level election committees. Ibid., art. 2. 1986 amendments to the NPC 
and LPC electoral law changed this relationship, charging county 
election committees with the responsibility of formally directing the 
work (lingdao) of local LPC elections, and provincial LPC standing 
committees with that of supervising (zhidao) township and county LPC 
elections. PRC Election Law for the National People's Congress and 
Local People's Congresses, as amended 2 December 86, art. 7. County-
level election leadership groups are the instrument by which county 
governments carry out this direction, as well as the tool by which 
county Party organizations organize and monitor lower-level LPC 
elections. Shi Weimin, Open and Direct Elections, 108-12.
    \53\ One late 1990s study of rural LPC elections found that in 
nearly every single county surveyed, the local election committee was 
headed by the corresponding party head. Over half of the members of the 
election committees were elected to LPC seats. Ibid., 112-7.
    \54\ Certain Regulations of the NPC Standing Committee on Direct 
Election of Representative to County and Lesser Level People's 
Congresses [Quanguo remin daibiao dahui changwu weiyuanhui guanyu 
xianji yixia remin daibiao dahui daibiao zhijie xuanju de ruogan 
guiding], issued 5 March 83, sect. 2(4).
    \55\ Shi Weimin, ``Open and Direct Elections,'' 108-123, 311-7.
    \56\ [NPC] Statement Regarding the Draft Amendment to the PRC NPC 
and LPC Election Law, [Guanyu zhonghua renmin gongheguo quanguo renmin 
daibiao dahui he difang geji renmin daibiao dahui xuanju fa xiuzheng an 
`caoan' de shuoming], issued 23 August 04, reprinted on People's Daily 
(Online), 23 August 04.
    \57\ ``. . . [T]hese `elections' are better viewed as 
`designations' [by higher level officials]. Carrying out `dictatorship' 
under the cover of `democracy' is easy to be uncovered by delegates, 
and is what LPC delegates are most dissatisfied with.'' Shi Weimin, 
Open and Direct Elections, 317.
    \58\ Qin Wen, ``Xu Zhiyong: `Please Believe That Our Electoral 
Rights Are Real' '' [Xu Zhiyong: ``Qing xiangxin women de xuanju quan 
shi zhenshi de''], Southern Metropolitan Daily (Online), 16 December 
03. This followed the appearance of articles in the official press 
encouraging the participation of independent candidates in LPC 
elections, as well as similar experiments in Shenzhen. Zhao Ling, Wu 
Chen, and Guang Xunan, ``December 19, Beijing Elections'' [12 yue 19 
ri, Beijing xuanju], Southern Weekend (Online), 11 December 03.
    \59\ Ibid. One candidate received significant media attention as a 
result of his creation of a ``campaign headquarters,'' staffed in part 
by students, to assist his election efforts. Lin Chufang, ``Quiet 
Appearance of Individual Campaign Headquarters'' [Geren xuanju shiwu 
bangongshi qiaoran xianshen], Southern Weekend (Online), 30 October 03.
    \60\ Qin Wen, ``Xu Zhiyong: `Please Believe That Our Electoral 
Rights Are Real.' ''
    \61\ In the case of one independent candidate, these included 
formal official approvals for the placement of posters, a bar on 
campaign contributions, and limits on the ability of campaign 
volunteers and staff to assist the candidates. Lin Chufang, ``Quiet 
Appearance of Individual Campaign Headquarters.'' Election authorities 
also refused to allow him to independently organize events to meet 
voters. Local election officials required him to submit written 
requests in advance regarding such meetings, and barred the media from 
attending. For an insider's look at his campaign, see the summary 
written by one of his student staff participants, Zhu Sihao, ``An 
Initial Exploration in the System of Voter Small Groups'' [Xuanmin 
xiaozu zhidu chutan], Heavenly Teahouse, reprinted in China Elections 
(Online), 5 May 04.
    \62\ Numerous tactics are detailed in Zhu Sihao, ``An Initial 
Exploration in the System of Voter Small Groups.'' For example, the LPC 
election law requires that independent candidates receive the 
nomination of 10 voters to be placed on the final ballot. The local 
election commission interpreted this to mean that 10 voters in a 
particular voter ``small group'' (out of the 153 in his district) 
select independent candidates through filling out a form on the spot. 
Combined with the tight restrictions on campaigning and the control of 
the voter ``small groups'' by their heads, this limited the ability of 
one such candidate to mobilize support in different areas of the 
district to meet the nomination requirement.
    \63\ PRC Electoral Law for the National People's Congress and Local 
People's Congresses.
    \64\ Ibid., art. 31.
    \65\ Ibid., art. 33. In contrast, prior law had only instructed an 
electoral commission to determine a final candidate list and introduce 
candidates to the voters, leaving it unclear as to whether electoral 
commissions could organize primary elections or general meet-the-
candidate events. Ibid., arts. 31 and 33. Although many local 
authorities commonly rely on ``selection'' and ``discussion'' by Party 
or township officials to determine LPC candidates, Chinese scholars 
noted that some localities increasingly used open primaries during the 
1990s to determine final candidate lists. Shi Weimin, ``Open and Direct 
Elections,'' 454-5.
    \66\ Commission Staff Interview.
    \67\ Shi Weimin, ``Open and Direct Elections,'' 69-70.
    \68\ PRC Electoral Law for the National People's Congress and Local 
People's Congresses, art. 29. More meaningful reform might involve 
eliminating the discretionary power of electoral commissions entirely, 
by making the use of primaries mandatory, rather than permissive, in 
determining the final slate of candidates. This step would appear to be 
a logical extension of the NPC legal affairs bureau's own suggestion 
that the introduction of primaries (yuxuan) in the 2004 amendments is a 
necessary step towards controlling the problems of ``behind-the-scenes 
manipulation of elections'' (anxiang congzuo) raised by existing 
electoral procedures. ``NPC to Take Up Election Law Amendment Draft'' 
[Quanguo renda shenyi xuanjufa xiuzhengan], Chinanews (Online), 23 
August 04.
    \69\ Beijing Party Organization Bureau Notice Regarding Opinions on 
the Implementation of Electoral Work Procedure and Related Items in 
Beijing Basic-Level Party Committees [Guanyu jingqu jiceng danwei 
dangwei huanjie xuanju gongzuo chengxu ji youguan shixiang de shishi 
yijian de tongzhi], issued 9 April 04, arts. 2-7; ``Township (Town) 
Party Committee Electoral Work Procedure'' [Xiang (zhen) dangwei 
huanjie xuanju gongzuo chengxu], Yuanjiang County Party Organization 
Bureau (Online), art. 8; Shi Weimin, ``Open and Direct Elections,'' 22.
    \70\ Li Lianjiang, ``The Two-Ballot System in Shanxi Province: 
Subjecting Village Party Secretaries to a Popular Vote,'' 42 China 
Journal 103 (1999).
    \71\ Ibid. This system allows ordinary villagers to weed out 
candidates they particularly dislike or distrust, but allows Party 
members to decide the ultimate winner.
    \72\ He Zhongping, ``The Case of Huazhuang, Sichuan: Directly 
Elected Village Party Secretaries Must `Pass Three Tests' '' [Sichuan 
huazhuang ge'an: zhixuan cunzhishu ``guo san guan''], 21st Century 
Business Daily (Online), 1 September 04.
    \73\ Guo Xiaojun, ``Open Competition for the Director Position, 
Organizational Nominations are the Majority'' [Gongkai jingzheng 
zhengju zuzhi tuijian zui duo], Beijing News (Online), 31 May 05; Wang 
Ying, ``Lanzhou Experiment of `Citizens Evaluating Officials' '' 
[Lanzhou ``minping guan'' shiyan], 21st Century Business Herald 
(Online), 26 January 05.
    \74\ Fan Lixiang, ``Jiangsu's Direct Broadcast of Official 
Selections: The Latent Pressure of Public Nomination/Public Selection'' 
[Jiangsu zhibo xuanguan: gongtui gongxuan zhengfaqian guize], 21st 
Century Business Herald (Online), 29 September 04. The selection 
process for the deputy chief position relied on progressive elimination 
of candidates in multiple stages process, including open nominations, 
graded public speeches, Party background evaluations, and internal 
voting on candidates. Public speeches of the candidates were broadcast 
live and evaluated by selected graders, as well as a designated 
audience of 150 officials and citizens. Audience evaluation of the 
candidates comprised 20 percent of the candidate's grade for that 
event. Ibid.
    \75\ Zhang Tao, ``Public Nomination/Public Election: A Technical 
Adjustment Within the System'' [Gongtui gongxuan: tizhi nei de jishu 
xing tiaozheng], Southern Metropolitan Daily (Online), 10 December 03.

    Notes to Section V(e)--Access to Justice
    \1\ For more comprehensive treatment of the xinfang system, see 
Laura Luehrmann, ``Facing Citizen Complaints in China 1951-1996,'' 43 
Asian Survey, 845, 847 (2003); Carl Minzner, ``Xinfang: An Alternative 
to the Formal Chinese Legal System,'' 42 Stanford Journal of 
International Law (forthcoming publication 2006); Wang Bixue, ``114,000 
Lawyers, But Distributed Unevenly, 206 Counties Have Not a Single 
Lawyer'' [11.4 Wan lushi dan fenbu bu junheng woguo 206 xian wu lushi], 
People's Daily (Online), 8 June 05.
    \2\ Yasheng Huang, ``Administrative Monitoring in China,'' 143 
China Quarterly 828, 848 (1995); Kevin O'Brien, ``Neither Transgressive 
Nor Contained: Boundary-Spanning Contention in China,'' 8 Mobilization: 
An International Journal 51, 60 (2003).
    \3\ For an example of petitioning activity, see ``Retired Hangzhou 
Teacher Wears White Coat, Promotes the Constitution, and Is Detained 10 
Days'' [Hangzhou tuiyi jiaoshi shenchuan baidapao xuanchuan xianfa bei 
juliu 10 tian], Boxun (Online), 25 January 04.
    \4\ Kevin J. O'Brien and Lianjiang Li, ``The Politics of Lodging 
Complaints in Rural China,'' 143 China Quarterly 756, 758 (1995).
    \5\ See Section V(a)--The Development of Civil Society.
    \6\ See Section V(d)--Democratic Governance and Legislative Reform.
    \7\ See Section V(c)--China's Judicial System; CECC, 2004 Annual 
Report, 81.
    \8\ ``National Xinfang Bureau Chief: 80 Percent of Petitioners Are 
Correct'' [Guojia xinfang juzhang: 80% de shangfang you daoli], 
Bimonthly Discussion, reprinted in China.org.cn (Online), 20 November 
03.
    \9\ ``Petitions'' here is used as a shorthand for all xinfang 
items, both letters and visits. Chinese statistics on court cases vary 
depending on what is counted as a ``case.'' The 2005 Supreme People's 
Court Work Report lists the Chinese court system as handling 7,873,745 
total cases, including roughly two million ``executed'' (zhixing) 
cases. 2005 Supreme People's Court Work Report, 9 March 05. In 
contrast, the 2004 SPC Work Report lists only 5,687,905 cases, 
apparently excluding the two million executed cases. 2004 SPC Work 
Report, 10 March 04. The text uses the six million figure to keep 
consistency with the Commission's prior annual report, as well as with 
the SPC's own prior statistics.
    \10\ 2005 SPC Work Report, 9 March 05.
    \11\ See Carl Minzner, ``Xinfang: An Alternative to the Formal 
Legal System.'' For information on the interplay of citizen petitioning 
efforts with the administrative legal structure, see generally Kevin 
O'Brien, ``Suing the Administrative State: Administrative Litigation in 
Rural China,'' 51 China Journal 76 (2004).
    \12\ According to one Chinese academic survey of 632 petitioners in 
Beijing, approximately two-thirds, or 401 had previously attempted to 
file suit in local courts. 42.9 percent of these were rejected and 54.9 
percent indicated that they disagreed with the legal decision of the 
court. Zhao Ling, ``China's First Report on Xinfang Work Receives High-
Level Attention'' [Guonei shoufen xinfang baogao huo gaoceng zhongshi], 
Southern Weekend (Online), 4 November 04.
    \13\ Lang Pingping, ``Reform of the Xinfang System Must Be 
Coordinated With Judicial Reform'' [Xinfang zhidu de gaige bixu gen 
sifa zhidu de gaige xiang xietiao], China Youth Daily (Online), 30 
November 04. As scholars have noted, under 2 percent of rural Chinese 
grievances ``involve a lawyer, a court, or any office of the judicial 
system.'' CECC, 2004 Annual Report, 72 (citing Ethan Michelson, 
``Causes and Consequences of Grievances in Rural China,'' (draft 
manuscript on file with the Commission)). U.S. studies have found that 
approximately 10 percent of American grievances involve lawyers. Survey 
data suggest that 10 percent of Beijing ``disputes'' end up in court. 
Ibid.
    \14\ Zhao Ling, ``China's First Report on Xinfang Work Receives 
High-Level Attention''; Li Hui, ``The Dispute Regarding Yu Jianrong's 
Proposal For the Elimination of Xinfang Bureaus: Does It Assist Xinfang 
Reform?'' [Yu Jianrong xinfang ban chexiao shifou you li xinfang zhidu 
gaige yin zhengyi], People of the Times Weekly, reprinted in Sina.com 
(Online), 17 November 04.
    \15\ Zhao Ling, ``China's First Report on Xinfang Work Receives 
High-Level Attention.''
    \16\ Hannah Beech, ``Nothing Left to Lose,'' Time Asia (Online), 23 
February 04; Carl Minzner, ``Xinfang: An Alternative to the Formal 
Legal System.''
    \17\ For more comprehensive discussion, see Carl Minzner, 
``Xinfang: An Alternative to the Formal Legal System.''
    \18\ These systems also punish officials for a wide range of 
administrative behavior, including falsification of xinfang reports to 
higher officials, failure to execute directives, or abuse of 
petitioners. See, e.g., Qingdao Notice on Implementing Leadership 
Responsibility System in Xinfang Work [Guanyu shixing xinfang gongzuo 
lingdao zeren zhuijiu zhi de jueding], issued May 19, 2003, art. 8(5, 
6).
    \19\ For a more comprehensive discussion, see Carl Minzner, 
``Xinfang: An Alternative to the Formal Legal System.''
    \20\ Anhui Provincial Party Office and Provincial Government Notice 
Regarding the Implementation Details of the Xinfang Responsibility 
System for Leaders [Zhonggong anhui sheng bangongting, anhui sheng 
renmin zhengfu bangongting guanyu yinfa Anhui sheng xinfang gongzuo 
lingdao zeren zhuijiu zhi shishi xize de tongzhi], issued September 2, 
2003, art. 4(3).
    \21\ Ibid., art. 6(2).
    \22\ Sara Davis, ``China's Angry Petitioners,'' Asian Wall Street 
Journal (Online), 25 August 05; Massive Crackdown on Petitioners in 
Beijing, Human Rights in China (Online), 8 September 04; CECC, 2004 
Annual Report, 75.
    \23\ Thomas Bernstein, Center for the Study of Democracy, Unrest in 
Rural China: A 2003 Assessment (2004), 11-2 (noting one example of a 
countywide petitioning organization with leadership skilled in covert 
operational tactics); Access to Justice, Staff Roundtable of the 
Congressional-Executive Commission on China, 12 July 04, Written 
Statement submitted by Professor Kevin O'Brien, Professor at the 
University of California, Berkeley.
    \24\ ``National Xinfang Bureau Chief: 80 Percent of Petitioners Are 
Correct,'' Bimonthly Discussion.
    \25\ 2005 SPC Work Report, 9 March 05. In contrast, previous SPC 
Work Reports indicate that the number of formal appeals handled by the 
SPC appears to have decreased, from 3,567 in 2003 to 2923 in 2004. 
Ibid; 2004 SPC Work Report.
    \26\ Zhao Ling, ``China's First Report on Xinfang Work Receives 
High-Level Attention.''
    \27\ Xiao Tangbiao, ``The Situation of Political Stability in 20 
Mainland Villages--A Look at Peasant Movements'' [Ershi yu lai dalu 
nongcun de zhengzhi wending zhuangkuang--yi nongmin xingdong de bianhua 
wei shijiao], 21st Century, 51-60 (2003).
    \28\ Zhao Ling, ``China's First Report on Xinfang Work Receives 
High-level Attention.'' Mass petitions to county level and higher Party 
and government organs increased by a multiple of 2.8 and 2.6 
respectively from 1995-2000, with a further 7.2 and 11.7 percent 
increase from 2000 to 2001. Xiao Tangbiao, ``The Situation of Political 
Stability in 20 Mainland Villages--A Look at Peasant Movements.'' 
Provincial authorities have noted steep increases in petitioning 
activity as well. Henan provincial xinfang authorities noted a 28.3 
percent increase in xinfang cases in 2004 over 2003, and a 35 percent 
increase in the number of collective petitioners traveling to Beijing. 
Liu Binglu, ``3,000 PSB Heads `Seize' Pending Petitions'' [San qian 
gong'an buzhang `jina' xinfang chen'an], Beijing News (Online), 25 May 
05.
    \29\ Chinese government authorities rejected divergent calls to 
either strengthen or weaken xinfang institutions, choosing instead to 
follow a ``third path'' of attempting to regularize the system. Zhao 
Ling, ``Amendments to Xinfang Regulations Seek to Take a `Third Path' 
'' [Xinfang tiaoli xiugai yu zou ``di san tiao lu''], Southern Weekend 
(Online), 13 January 05.
    \30\ Xinfang Regulations [Xinfang Tiaoli], issued 17 January 05 
[hereinafter 2005 Xinfang Regulations], art. 32.
    \31\ Ibid., art. 14.
    \32\ Ibid., arts. 31, 34-5. The amended 2005 regulations eliminate 
reference to the (now abolished) administrative system of custody and 
repatriation as a punitive measure for petitioner infractions. Compare 
ibid., art. 47, with Xinfang Regulations [Xinfang Tiaoli], issued 
October 28, 1995 [hereinafter 1995 Xinfang Regulations], art. 22.
    \33\ 2005 Xinfang Regulations, art. 13.
    \34\ Ibid., art. 11-2.
    \35\ The 1995 regulations merely required governments at the county 
level and higher to either establish xinfang bureaus (jigou) or 
designate personnel to handle xinfang issues. 1995 Xinfang Regulations, 
art. 6. In contrast, the 2005 regulations mandate the establishment of 
formal xinfang bureaus for county level and higher governments. 
Additionally, the amended regulations require that township governments 
either establish formal xinfang bureaus or designate personnel to 
handle xinfang issues. 2005 Xinfang Regulations, art. 6. While xinfang 
responsibility systems are commonly used in various levels of Chinese 
government, the 2005 national amendments mark the first time they have 
been formally included in any of the comprehensive provincial or 
national xinfang regulations. The 2005 regulations also charge xinfang 
bureaus with reporting (along with other statistics) the rate at which 
various bureaus adopt the proposals submitted by xinfang bureaus for 
corrective action and policy, this also likely represents an effort to 
add more teeth to the oversight function of xinfang bureaus. Ibid., 
art. 39 (2), (3).
    \36\ Ibid., art. 10.
    \37\ In contrast with prior regulations, the 2005 regulations 
charge government xinfang bureaus with the responsibility for raising 
proposals of corrective action, policy changes, and administrative 
punishments with the appropriate bureaus. Ibid., art. 36-8.
    \38\ Ibid., art. 39.

    Notes to Section V(f)--Commercial Rule of Law and the Impact of the 
WTO
    \1\ Suan Yuanzhong, ``The Research Committee on WTO Organizational 
Law has a Significant Role to Play'' [Shimao zuzhifa yanjiuhui renzhong 
daoyuan], Legal Daily (Online), 8 January 04.
    \2\ 2002 Supreme People's Court Work Report, 11 March 02, sect. 
2(4).
    \3\ American Chambers of Commerce, PRC and Shanghai, 2004 White 
Paper, September 2004, 4 (``From the perspective of the American 
business community on the ground, China's performance on WTO remains a 
cornerstone in laying the foundation for business success.'').
    \4\ Foreign-invested enterprises have enjoyed more and faster 
access to the Chinese market. ``By the end of 2003, China had approved 
almost 400,000 foreign-invested enterprises (FIEs) with a contractual 
value of over $750 billion from 180 countries, including FIEs from 400 
of the world's 500 largest multinational enterprises.'' James M. 
Zimmerman, China Law Deskbook, A Legal Guide for Foreign-Invested 
Enterprises (Chicago: American Bar Association, 2004), 1-2. In August, 
the Ministry of Commerce also reduced the time within which approvals 
for foreign-invested enterprises to one month for provincial level 
authorities and three months for national authorities. MOFCOM Time 
Limits for Approving FIE Projects [Waishang touzi shangye lingyu 
xiangmu shenpi shixian], issued 16 August 05.
    \5\ American Chambers of Commerce, PRC and Shanghai, 2004 White 
Paper, 10.
    \6\ Ibid., 10 (noting that WTO-compliant legal changes and a more 
open investment structure are the primary reasons for additional 
optimism by U.S. companies operating in China).
    \7\ Yang Ruichun, ``The Three Year Anniversary of China's WTO 
Accession: An Interview with Long Yongtu'' [Zhongguo jiaru WTO 
sanzhounian zhichu Long Yongtu yu jizhe jiqing duihua], Southern 
Weekend (Online), 11 November 04.
    \8\ Ibid.; Wan Xuezhong and Chen Jingjing, ``WTO Entry Advances 
Formation of Rule of Law Concept'' [Rushi cujinle fazhi liniande 
xingcheng], Legal Daily (Online), 4 January 05.
    \9\ `` `City Resident Treatment' Late to Arrive'' [Chidao de 
``shimin daiyu''], Red Net (Online) 17 February 04; ``Experts Propose 
Registered Migrants Should Enjoy Same Benefits as Local Hukou Holders'' 
[Zhuanjia jianyi Beijing liudong renkou beian dengji xiangshou shimin 
daiyu], Beijing News (Online), 29 May 05.
    \10\ ``Urban resident treatment'' is a term taken from the WTO 
context that is used for rhetorical force to push local governments to 
change their policies with regard to migrants. Ge Yanfeng, Wang Xu, 
Tian Kai, ``The Impact of WTO Accession on China's Society and 
Government Policy Choices-Completely Strengthens the Protection of 
Disadvantaged Communities'' [Rushi dui zhongguo shehuide yinxiang ji 
zhengfu zhengce xuanze-quanmian jiaqiang dui ruoshi quntide baohu], 
State Council Development Research Center (Online), 16 May 02; 
``Xiamen's People's Congress Twelfth Session First Government Work 
Report'' [Xiamenshi dishier jie remin daibiao dahui diyi ci huiyi 
zhengfu gongzuo baogao], Xiamen People's Government (Online), 3 
December 02.
    \11\ Office of the U.S. Trade Representative, 2005 National Trade 
Estimate Report on Foreign Trade Barriers, 30 March 05, 79.
    \12\ Ibid., 112.
    \13\ Cheng Dawei, ``Post-Transition Period Will Test Our Wisdom,'' 
Economic Daily, 8 December 04 (FBIS, 10 December 04). The author 
repeatedly describes interaction with foreign competition as a threat 
to Chinese enterprises.
    \14\ See Discussion of Wireless Local Area Network Architecture and 
Privacy Infrastructure (WAPI) in CECC, 2004 Annual Report, 87.
    \15\ Office of the U.S. Trade Representative, USTR 2003 Report to 
Congress on China's WTO Compliance, 11 December 03, 32; Office of the 
U.S. Trade Representative, USTR 2004 Report to Congress on China's WTO 
Compliance, 11 December 04, 37.
    \16\ PRC Steel Industry Development Policy [Gangtie chanye fazhan 
zhengce], issued 20 July 05. The steel policy seeks to increase the 
domestic steel industry's capacity to compete globally. Ibid., art. 1. 
To accomplish this goal, the policy encourages domestic enterprises to 
``use domestic facilities and technology'' while importing only 
``equipment and technology that cannot be made domestically or for 
which domestic supply is unable to satisfy the requirements.'' Ibid., 
art. 18. The policy prohibits foreign control over domestic steel 
enterprises and restricts foreign investment in the steel industry. 
Ibid., art. 23. Foreign companies wishing to invest in the domestic 
steel industry must have produced either 10 million tons of steel or 1 
million tons of high-alloy specialty steel during the previous year. 
Ibid. If the foreign company can fulfill these requirements it may 
invest in existing Chinese steel facilities, but may not create new 
ones. ``Steel Industry's New Plan Released--Steel Factories Access 
Closed Down'' [Gangtie chanye xinzheng chutai--gangchang zhunru damen 
guanbi], Caijing (Online), 16 July 05.
    \17\ Office of the USTR, 2004 Report to Congress on China's WTO 
Compliance, 63.
    \18\ E.g., Office of the U.S. Trade Representative, Results of 
Special 301 Out-of-Cycle Review on China, 29 April 05.
    \19\ Intellectual Property Protection as Economic Policy: Will 
China Ever Enforce its IP Laws?, Staff Roundtable of the Congressional-
Executive on China, 16 May 05, Written Statement submitted by Eric H. 
Smith, President, International Intellectual Property Alliance.
    \20\ Intellectual Property Protection as Economic Policy: Will 
China Ever Enforce its IP Laws?, Written Statements submitted by Eric 
H. Smith and Daniel C.K. Chow, Robert J. Nordstrom Designated Professor 
of Law, Ohio State University Michael E. Mortiz College of Law.
    \21\ At the April 2004 meeting Wu Yi committed to specific actions 
and generally to ``[s]ignficantly reduce IPR infringement levels'' 
through methods including increasing penalties, conducting a nationwide 
enforcement campaign against IPR violations, and extending the ban on 
government use of illegal software to the local government level. ``The 
U.S.-China JCCT: Outcomes,'' Department of Commerce Office of the China 
Economic Area (Online), April 2004. At the July 2005 meetings she made 
additional specific commitments including cracking down on the export 
of pirated products, increasing police cooperation on IP between China 
and the United States, and ensuring that the state-owned sector uses 
only legal software. ``The U.S.-China Joint Commission on Commerce and 
Trade (JCCT) Outcomes on Major U.S. Trade Concerns,'' U.S. Department 
of Commerce and Office of the U.S. Trade Representative (Online), 11 
July 05.
    \22\ ``Recent Developments in China's IPR Protection'' [Zhongguo 
zhishi chanquan baohude xinjinzhan], White Paper of China's State 
Council Information Office, 21 April 05 (citing statistics on the 
levels of enforcement activity and results in the form of money spent, 
activities conducted, and materials seized or destroyed).
    \23\ Both the American Chambers of Commerce in China and USTR 
reported in fall 2004 that the overall situation of IPR infringement is 
worsening. American Chambers of Commerce, PRC and Shanghai, 2004 White 
Paper, 28; Office of the USTR, 2004 Report to Congress on China's WTO 
Compliance, 63.
    \24\ One witness testified that the way to stop infringement is to 
use criminal enforcement mechanisms to go after pirates themselves, 
while another witness pointed out that one city, Yiwu, Zhejiang 
Province, contains vast markets for counterfeit product and that the 
production of counterfeit products there supported the local economy. 
Intellectual Property Protection as Economic Policy: Will China Ever 
Enforce its IP Laws?, Testimony of Eric H. Smith and Daniel C.K. Chow. 
China's State Council released a White Paper trumpeting the efforts 
China has made to protect intellectual property filled with statistics 
on the amount of enforcement that has occurred in recent years. There 
is no discussion in the document, however, of the effectiveness of 
these enforcement measures. ``Recent Developments in China's IPR 
Protection,'' White Paper of China's State Council Information Office. 
TRIPs provides that criminal penalties ``available shall include 
imprisonment and/or monetary fines sufficient to provide a deterrent, 
consistently with the level of penalties applied for crimes of a 
corresponding gravity.'' WTO Agreement on Trade-Related Aspects of 
Intellectual Property Rights, art. 61 [hereinafter TRIPs Agreement].
    \25\ ``We have the examples of Korea, Taiwan, and other countries 
in the Asian region that have driven down piracy rates from, in the 
mid-1980s, 100 percent piracy in Taiwan and Korea, to--believe me--
piracy rates at the latter part of the 1990s that were down to 15 
percent. How did they do it? Very simple. They put pirates in jail. If 
it was not a jailable offense, they fined them at levels that were 
deterrent. Until China makes the political commitment to do that, it is 
not going to be able to deal with this problem.'' Intellectual Property 
Protection as Economic Policy: Will China Ever Enforce its IP Laws?, 
Testimony of Eric H. Smith.
    \26\ ``The HKSAR effectively deployed a new legal weapon that its 
neighbors should emulate: tough licensing regulations on optical media 
production and equipment import and export chased many pirate plants 
elsewhere, and scores of pirate facilities were taken down.'' 
International Intellectual Property Alliance, 1999 Special 301 
Recommendations (Online), 15 February 1999.
    \27\ TRIPs Agreement, art. 61.
    \28\ PRC Criminal Law, enacted 1 July 79, amended 1 October 97, 14 
March 97, 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
arts. 213-20. The American Chambers of Commerce in China discuss the 
deficiencies in the criminal law. American Chambers of Commerce, PRC 
and Shanghai, 2005 White Paper, September 2005, 48 n.1 (``The most 
glaring deficiency in the current IPR regime is the one key law not 
revised when China joined the WTO--its criminal code. This should be 
revised to provide stronger protection, enhanced penalties and further 
clarification of standards.'').
    \29\ Office of the USTR, Results of Special 301 Out-of-Cycle Review 
on China, 4. Another aspect of this is evidentiary: in cases where the 
amount of goods seized does not exceed the threshold measured by the 
value of the infringing goods, records of additional sales may be used. 
Unfortunately, these records usually do not exist or are not seized 
with the infringing materials.
    \30\ At the WTO, China specifically stated that it would share a 
draft of any measure that would revise or replace the previous SPC 
interpretation on transfers of IP cases from administrative to criminal 
enforcement with other WTO members. Minutes of the Meeting of 18 
November 2003, WTO TRIPs Council, 4 February 04, para. 30 (the 
Representative of China stated that ``[a]s a major arm in IP 
enforcement, the judiciary departments in China were also subjected to 
the principle of transparency, which was evidenced by the public 
soliciting of comments for judicial interpretations. The Supreme 
People's Court would further broaden the scope of commenting in the 
course of interpretation.''); Minutes of Meeting of 1-2 December 2004, 
WTO TRIPs Council, 11 January 05, para. 276 (``Last year at the TRIPS 
Council, China had pledged to increase transparency by making judicial 
interpretations on IPR matters available for public comment.''). In 
addition, it would have been helpful to publish a draft because issuing 
a new interpretation with lowered thresholds was a commitment China 
made at the 2004 plenary session of the JCCT, ``The U.S.-China JCCT: 
Outcomes,'' Department of Commerce Office of the China Economic Area 
(Online), and the reception by U.S. trade officials might have been 
less negative if they had provided comments on a draft interpretation 
and had those comments favorably considered. Office of the USTR, 
Results of Special 301 Out-of-Cycle Review on China, 4.
    \31\ Office of the USTR, Results of Special 301 Out-of-Cycle Review 
on China, 4.
    \32\ Supreme People's Court and Supreme People's Procuratorate 
Interpretation Concerning Certain Questions of Using the Criminal Law 
to Handle Violations of Intellectual Property Rights [Zuigao renmin 
fayuan, zuigao renmin jianchayuan guanyu banli qinfan zhishichanquan 
xingshi anjian juti yingyong falu ruogan wentide jieshi], issued 8 
December 04. Most enforcement in China occurs within an administrative 
system operated by the local administrations of industry and commerce. 
Analysts generally believe that the weak nature of such administrative 
enforcement has resulted in China's currently high levels of piracy and 
counterfeiting. The Interpretation also broadened the circumstances 
that precipitate a transfer to criminal enforcement such as mandating 
criminal liability for accomplices, a situation that did not 
precipitate a transfer under the previous interpretation. On the 
negative side, however, the interpretation eliminated automatic 
transfer to criminal enforcement for repeat offenders and in cases 
involving well-known trademarks. Office of the USTR, Results of Special 
301 Out-of-Cycle Review on China, 4.
    \33\ American Chambers of Commerce, PRC and Shanghai, 2005 White 
Paper, 46 (``SIPO relied on new guidelines issued after the patent had 
been granted, and then did not allow the patentee the opportunity to 
meet the revised data provision standard of those guidelines.''); 
``Viagra Patent Case Opens, Pfizer's Market Domination the Main Issue'' 
[Weige zhuanliquan an kaishen huirui duba shichang dalue]'' Xinhua 
(Online), 31 March 05.
    \34\ ``Pfizer Appeals China's Revocation of Viagra Patent,'' 
Bloomberg (Online), 28 September 04. China's State Food and Drug 
Administration also loosened the designation of the pharmaceutical 
product as a controlled substance, allowing it to be dispensed in 
pharmacies, following the Board's finding invalidating the patent. This 
loosening of control benefits the U.S. company as long as the appeal is 
active but is limited in effect by the rampant piracy in the market. 
Elaine Kurtenbach, ``Pfizer Appeals Chinese Government Decision Against 
Patent for Viagra,'' Associated Press (Online), 28 September 04.
    \35\ ``The role of counterfeiting in Yiwu, it is no exaggeration to 
say, supports the entire local economy and legitimate businesses, such 
as restaurants, nightclubs, warehouses, transportation companies, and 
hotels. All of them have grown up and they support the trade in 
counterfeit goods. If you shut down the trade in counterfeit goods in 
Yiwu, you will probably shut down the local economy. Because the 
government has invested in these wholesale markets, they are heavily 
defended at the local level.'' Intellectual Property Protection as 
Economic Policy: Will China Ever Enforce its IP Laws?, Testimony of 
Daniel C.K. Chow.
    \36\ ``Government Enforces Ban on Falun Gong Publications,'' 
Xinhua, 23 July 99 (FBIS 23 July 1999).
    \37\ ```Truth' of `Folk Cult' Falun Gong,'' Southern Weekend, 13 
March 98 (FBIS, 13 March 98).
    \38\ Chinese officials had barred the importation of U.S. poultry 
products following the discovery of one case of low-pathogenic avian 
flu in a bird in Delaware in February 2004. U.S. Department of 
Agriculture Foreign Agricultural Service, China Poultry and Products 
Semi-Annual 2005 Global Agricultural Information Network Report, 1 
February 05, 3.
    \39\ ```Measured Progress' at JCCT Meeting,'' Washington Trade 
Daily (Online), 12 July 05 (``The agriculture secretary also announced 
the approval by China of NK603, a variety of Round Up Ready corn--
bringing the total Chinese biotech approvals to eight varieties of 
corn, two of cotton, seven of canola and one variety of soybeans.'').
    \40\ ``U.S., China Agree to Food Safety Understanding at JCCT 
Meetings,'' Inside U.S.-China Trade (Online), 13 July 05.
    \41\ U.S. Department of Agriculture Economic Research Service, 
China's Agricultural Imports Boomed During 2003-04, May 05, 2.
    \42\ In late 2004, U.S. and Chinese officials reached an agreement 
in principle to restart imports of certain low-risk bovine products 
from the U.S. but these primarily constitute non-edible products that 
either contain no bovine products (cattle feed), reproductive materials 
(bull semen and embryos), and bovine products that have no proteins 
(non-protein beef tallow). ``U.S., China Reach Deals to Resume Trade in 
Beef Products, Feed,'' Inside U.S.-China Trade (Online), 2 December 04. 
Importation of some of those products resumed in July 2005. General 
Administration of Quality Supervision, Inspection, and Quarantine 
Announcement No. 97 [2005 nian di 97 hao], issued 11 July 05.
    \43\ China banned imports of U.S. beef following the discovery in 
December 2003 of a single cow in the U.S. herd with Bovine Spongiform 
Encephalopathy (BSE), commonly known as mad cow. ``USDA BSE Update,'' 
U.S. Department of Agriculture (Online), 25 December 03. The U.S. 
Department of Agriculture has implemented a system, in place since June 
2004, that has dramatically increased the number of U.S. cows tested 
for BSE and the current surveillance program complies with 
international standards maintained by the World Organisation for Animal 
Health (commonly known as OIE) for certification that beef is safe. 
``Statement by Agriculture Secretary Mike Johanns Regarding the OIE's 
Adoption of Changes to the International Animal Health Code Chapter on 
BSE,'' U.S. Department of Agriculture (Online), 26 May 05.
    \44\ These two bans ended in late 2004, except for cherries from 
California. Office of the USTR, 2005 National Trade Estimate Report on 
Foreign Trade Barriers, 90-1.
    \45\ The maximum residual level has not been enforced yet. Ibid., 
91. WTO Members may avoid a claim that their phytosanitary measure 
lacks a scientific basis if they rely on an international standard. WTO 
Agreement on the Application of Sanitary and Phytosanitary Measures, 
arts. 3.1, 3.3.
    \46\ Rebates of VAT paid upon export exist for many products but 
this year the rebate appears to provide a subtle means to effect a 
specific transfer payment to corn producers. By calculating the rebate 
from a fixed base price instead of the contract price for corn, Chinese 
authorities can raise the rebate in spite of market conditions. For 
2005, even though the market price has dropped following a large 2004 
harvest, the fixed base price has increased from 860 RMB/ton to 1100 
RMB/ton. This artificially raises the value of the VAT export rebate 
from 112 RMB/ton to 143 RMB/ton, regardless of contract price. U.S. 
Department of Agriculture Global Agricultural Information Network 
(GAIN) Report, People's Republic of China Grain and Feed Corn Trade 
Update 2005, 21 March 05, 3. This is while corn exports from China have 
been increasing. In early 2005, the U.S. Foreign Agricultural Service 
raised by one-third its estimate of the value of corn exports from 
China, all regulated by the Chinese government. In February 2005, the 
Chinese government issued a 3 million metric ton (mmt) corn export 
quota, compared to a 1.4 mmt export quota issued for the first half of 
2004. China's trade in corn is primarily with countries in the Asia-
Pacific region and, except for some small quantities in border areas, 
is all outbound. These subsidies could affect U.S. corn exports by 
undercutting the price for corn in existing U.S. overseas markets, but 
since China's corn exports are still small compared to those of the 
United States, this effect is probably not occurring yet. China does 
not import corn from the United States. U.S. Department of Agriculture 
Global Agricultural Information Network (GAIN) Report, People's 
Republic of China Grain and Feed Corn Trade Update 2005, 21 March 05, 
2-3.
    \47\ Office of the USTR, 2005 National Trade Estimate of Foreign 
Trade Barriers, 94; Working Party Report on the Accession on the 
People's Republic of China to the WTO, 10 November 01, para. 234. The 
WTO Agreement on Agriculture allowed its original exporting members to 
eliminate impermissible export subsidies over a period of years. 
``Agriculture: Fairer Markets for Farmers,'' World Trade Organization 
(Online). Because finding a subsidy requires an investigation and 
interpretation of the relevant rules, discussions on these issues are 
always ongoing, often with no resolution for years. Office of the USTR, 
2004 Report to Congress on China's WTO Compliance, 58.
    \48\ Working Party Report on the Accession of the People's Republic 
of China to the WTO, 10 November 01, para. 234. Once eliminated, China 
may not introduce any new export subsidies. WTO Agreement on 
Agriculture, art. 9.
    \49\ Notification of the People's Republic of China, WTO Committee 
on Agriculture, 7 September 04; and Notification of the People's 
Republic of China, WTO Committee on Agriculture, 5 April 05.
    \50\ The U.S. government has reported on the Chinese government's 
changing approach to the agricultural sector, from a source of tax 
revenue in both food and cash terms to an eventual participant in 
export-led growth. Recent changes have seen ineffective attempts to 
provide structural support. In 2004, the Chinese government began to 
attempt to make transfers that would directly benefit farmers. United 
States Department of Agriculture Economic Research Service Electronic 
Outlook Report, China's New Farm Subsidies, 28 February 05, 2.
    \51\ The Ministry of Commerce announced the creation of a mechanism 
to address inconsistent application of law in 2002 but it is not clear 
whether agricultural agencies have instituted similar mechanisms nor 
the current status of the MOFCOM office. Office of the USTR, 2004 
Report to Congress on China's WTO Compliance, 83.
    \52\ China and the WTO: Assessing and Enforcing Compliance, Hearing 
of the U.S.-China Economic and Security Review Commission, Statement 
submitted by Gary C. Martin, President and Chief Executive Office, 
North American Export Grain Association, 3-4 February 05, 353 
(asserting that the requirements of AQSIQ's document No. 73 have given 
inspection and quarantine officials the ability to cause these problems 
for U.S. grain shipments).
    \43\ Ibid., 358.
    \54\ Protocol of Accession of the People's Republic of China to the 
WTO, Part I.2(C)2.
    \55\ U.S. Chamber of Commerce, China's WTO Implementation: A Three-
Year Assessment, September 04, 10; Office of the USTR, 2004 Report to 
Congress on China's WTO Compliance, 82; American Chambers of Commerce, 
PRC and Shanghai, 2004 White Paper, 28.
    \56\ For example, drafts of the Anti-Monopoly Law, under 
consideration for almost a decade, have been widely circulated among 
foreign and domestic experts.
    \57\ Protocol on the Accession of the People's Republic of China to 
the WTO, I.2(C)2.
    \58\ The Law has been through over twenty drafts. The drafting 
group, which was at the State Economic and Trade Commission (SETC) and 
moved to the Ministry of Commerce in 2003 when some of SETC's functions 
were absorbed by the Ministry of Commerce, submitted a final draft to 
the State Council's Legal Affairs Office for consideration. Two 
sections of the American Bar Association provided comments to the 
drafting group in 2003 while the draft was still at the Ministry of 
Commerce. American Bar Association (Online), Joint Submission of the 
American Bar Association's Sections of Antitrust Law and International 
Law and Practice on the Proposed Anti-Monopoly Law of the People's 
Republic of China, 15 July 03. Three Sections of the ABA provided 
additional comments to a subsequent draft this year after the State 
Council returned the draft to MOFCOM for further redrafting. American 
Bar Association (Online), Joint Submission of the American Bar 
Association's Sections of Antitrust Law, Intellectual Property Law and 
International Law on the Proposed Anti-Monopoly Law of the People's 
Republic of China, 19 May 05. While the comments are publicly 
available, as indicated in these citations, the State Council provides 
the drafts themselves on the condition that they not be shared outside 
the group responsible for drafting the comments.
    \59\ Office of the USTR, Results of Special 301 Out-of-Cycle Review 
on China, 4.
    \60\ The first publication of the Interpretation was on December 
22, 2004, the day it became effective, even though the document itself 
is dated December 8, 2004. If the Chinese authorities had sought 
comments on the draft before promulgating the final Interpretation, 
they could have answered certain complaints about the infringement 
valuation methodology and the high threshold of infringement required 
to transfer cases from administrative to criminal enforcement.
    \61\ Office of the USTR, 2004 Report to Congress on China's WTO 
Compliance, 81.
    \62\ Ibid., 82.
    \63\ State Council, CPC Central Committee Opinion on Advancing the 
Improvement of Government Openness [Guanyu jinyibu tuixing zhengwu 
gongkai de yijian], issued 24 March 05.
    \64\ Ibid. sect. 2 (``It is required that all individual items 
regarding administrative management and public service should be 
accurately published, except for those related to state secrets and 
commercial secrets or personally identifiable information received 
lawfully, strictly in accordance with laws, regulations, and related 
policy rules.'').
    \65\ Protocol of Accession of the People's Republic of China to the 
WTO, Part I.2(D) (``Such tribunals shall be impartial and independent 
of the agency entrusted with administrative enforcement and shall not 
have any substantial interest in the outcome of the matter.'').
    \66\ Veron, Mei-Ying Hung, ``China's WTO Commitment on Independent 
Judicial Review: Impact on Legal and Political Reform,'' 52 Am. J. 
Comp. L. 77, 79-80.
    \67\ Ibid., 81-2.
    \68\ Ministry of Commerce Measures for the Administration of 
Foreign Investment in the Commercial Sector [Waishang touzi shangye 
qiye guanli banfa], issued 16 April 04.
    \69\ American Chambers of Commerce, PRC and Shanghai, 2004 White 
Paper, 164.
    \70\ Ibid., 162.
    \71\ Ibid., 166 (noting that trade and distribution rights face 
many barriers protecting local and regional markets); World Bank, China 
and the WTO: Accession, Policy Reform, and Poverty Reduction 
Strategies, 7 September 04, 147-8 (This local protectionism is 
``evident at the departmental and district levels . . .'' through ``. . 
. policies and regulations [that] are often designed according to the 
self-interest of the department or district involved. . . . Local 
governments do not have identical rules and regulations, and they 
always want to protect their local companies.'').
    \72\ ``The U.S.-China Joint Commission on Commerce and Trade (JCCT) 
Outcomes on Major U.S. Trade Concerns,'' U.S. Department of Commerce 
and Office of the USTR.
    \73\ Ibid.
    \74\ Regulations on the Administration of Direct Selling [Zhixiao 
guanli tiaoli], issued 23 August 05; Regulations Prohibiting Pyramid 
Selling [Jinzhi chuanxiao tiaoli], issued 23 August 05. Neither of 
these measures were published until September 3, 2005.
    \75\ PRC Government Procurement Law, enacted 29 June 02, art. 10.
    \76\ ``The U.S.-China Joint Commission on Commerce and Trade (JCCT) 
Outcomes on Major U.S. Trade Concerns,'' U.S. Department of Commerce 
and Office of the USTR.
    \77\ Ibid.
    \78\ Those measures define domestic software and then require 
government agencies to purchase domestic software and software-related 
services. Measures for the Implementation of Software Government 
Procurement (Version Seeking Comments) [Ruanjian zhengfu caigou shishi 
banfa (zhengqiu yijiangao)], issued 18 April 05, art. 2 (``These 
measures refer to domestic software including domestic software 
products and domestic software services. Domestic software products 
take final form in the PRC, their copyright belongs to a PRC natural or 
legal person or other organization, and domestic development cost are 
not less than 50 percent of the total development cost of the software 
product. Domestic software services are computer information systems 
integration, information systems engineering inspection as well as 
other related specialized technology services furnished by a PRC 
natural or legal person or other organization, and of which the part of 
the software services that are foreign-supplied services do not exceed 
30 percent of the service program's cost.'').
    \79\ ``Industry Says China Software Rule Threatens $100 Million in 
Exports,'' Inside U.S.-China Trade (Online), 20 January 05; U.S.-China 
Economic Relations, Hearing of the Committee on Finance, United States 
Senate, 23 June 05, Opening Statement of Chairman Grassley, 2. Chinese 
press reports on software procurement stress the importance of using 
such rules to take markets away from foreign suppliers. ``Chinese 
Domestic Software Breaks Microsoft Monopoly, Gets the Upper Hand in 
Government Procurement'' [Guochan ruanjian dapo weiruan longduan, 
zhengfu caigou shuliang zhan youshe], Xinhua (Online), 28 March 05.
    \80\ PRC Auto Industry Development Policy [Qiche chanye fazhan 
zhengce], issued 21 May 04.
    \81\ Ibid., art. 13.
    \82\ Ibid., art. 4.
    \83\ Management Measures for Imports of Auto Parts Having the 
Characteristics of a Complete Automobile [Guocheng zhengche tezhengde 
qiche lingbujian jinkou guanli banfa], issued 28 February 05, art. 21.
    \84\ The Auto Industry Development Policy seeks the development of 
a strong export industry but also specifically proscribes misuse of 
foreign intellectual property. PRC Auto Industry Development Policy, 
arts. 4 and 20.
    \85\ ``GM Charges Chery for Alleged Mini Car Piracy,'' China Daily 
(Online), 18 December 04. The SPC transferred the case to the Beijing 
No. 1 People's Court in 2005. ``GM Daewoo Files Suit Against Chery,'' 
China Daily (Online), 9 May 05.
    \86\ Although Chery was converted into a privately-owned enterprise 
after it ended its affiliation with the Shanghai Automotive Industry 
Corporation Group in 2003, it nevertheless received tens of millions of 
dollars for research and development from Ministry of Science and 
Technology in 2004. Su Yang, ```Give Advice' to Chery'' [``Zhizhao'' 
Qirui], Business Financial Global (Online), 1 May 05.
    \87\ ``GM Daewoo Files Suit Against Chery,'' China Daily (Online), 
9 May 05.
    \88\ ``GM Sues Chery's QQ for Unfair Competition: Plagiarizing the 
Spark'' [Tongyong dayu qisu qirui QQ buzheng jingzheng: chaoxi 
xuefolan], China Youth Daily (Online), 17 December 04.
    \89\ Jim Mateja, ``Why is GM Chery-picking a fight with 
Bricklin?,'' Chicago Tribune (Online), 18 May 05; ``PRC Car Maker Vows 
To Go Ahead With Overseas Expansion Despite Piracy Allegations,'' China 
Daily, 23 May 05 (FBIS 23 May 05) (noting that GM has not confirmed 
that it will take this action).
    \90\ Ministry of Commerce Auto Trade Policy [Shangwubu qiche maoyi 
zhengce], issued 10 August 05.
    \91\ Ibid., art. 45.
    \92\ Ibid., art. 37.
    \93\ ``MOFCOM Market Development Department Officials Decipher the 
`Auto Trade Policy''' [Shangwubu shichang jianshesi fuzeren jiedu 
``qiche maoyi zhengce''], Xinhua (Online), 23 August 05.

    Notes to Section VI--Tibet
    \1\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development with Chinese 
Characteristics (Washington D.C.: self-published CD-ROM, 1997), Table 
7. The 13 autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR) as well as 10 Tibetan autonomous prefectures 
and two Tibetan autonomous counties located in Qinghai, Gansu, Sichuan, 
and Yunnan Provinces. The 13 areas are contiguous and total 2.24 
million square kilometers (865,000 square miles).
    \2\ Bureau of East Asian and Pacific Affairs, U.S. Department of 
State, Report on Tibet Negotiations, April 2005. The Report is mandated 
by Section 611 of the Foreign Relations Authorization Act, 2003, and 
was sent to the Congress in April 2005.
    \3\ Ibid.
    \4\ Ibid. ``Encouraging substantive dialogue between Beijing and 
the Dalai Lama is an important objective of this Administration. The 
United States encourages China and the Dalai Lama to hold direct and 
substantive discussions aimed at resolution of differences at an early 
date, without preconditions. The Administration believes that dialogue 
between China and the Dalai Lama or his representatives will alleviate 
tensions in Tibetan areas and contribute to the overall stability of 
China.''
    \5\ Laurence Brahm, ``Conciliatory Dalai Lama Expounds on Winds of 
Change,'' South China Morning Post (Online), 14 March 05.
    \6\ U.S. State Department, Report on Tibet Negotiations.
    \7\ In addition to serving as the Dalai Lama's Special Envoy, Lodi 
Gyari is the Executive Chairman of the International Campaign for Tibet 
(ICT). According to the ICT mission statement, ICT ``promotes self-
determination for the Tibetan people through negotiations between the 
Chinese government and the Dalai Lama.'' The ICT Web site describes 
Tibet as an ``occupied country'' of 2.5 million square kilometers 
(965,000 square miles) with Lhasa as its capital.
    \8\ ``Statement by Special Envoy Kasur Lodi Gyari, Head of the 
Delegation to China,'' Tibetan Government-in-Exile (Online), 13 October 
04. The envoys met Liu Yandong, Vice Chairperson of the Chinese 
People's Political Consultative Committee and head of the United Front 
Work Department of the Chinese Communist Party (UFWD); Zhu Weiqun, the 
deputy head of the UFWD; Chang Rongjung, UFWD Secretary General; and 
other officials in Beijing. The delegation visited Lhasa, Tashi Lhunpo 
Monastery, and Samye Monastery in the TAR, and several counties in 
Ganzi Tibetan Autonomous Prefecture (TAP), including Xinlong, Lodi 
Gyari's birthplace.
    \9\ Ibid.
    \10\ ``Dalai Lama's Envoys Meet Chinese Officials in Switzerland 
for Fourth Round of Talks,'' Tibetan Government-in-Exile (Online), 1 
July 05. The envoys met with Zhu Weiqun and Sithar of the UFWD. (Zhu is 
also a ``senior official'' of the State Council Information Office 
according to ``Economy Grows in Minority Regions,'' China Daily 
(Online), 31 May 05.)
    \11\ ``Statement by Special Envoy of His Holiness the Dalai Lama 
Kasur Lodi Gyari, Head of the Tibetan Delegation for the Fourth Round 
of Meetings with the Chinese Leadership,'' Tibetan Government-in-Exile 
(Online), 7 July 05.
    \12\ The Tibetan government-in-exile's representation of Tibet 
exceeds the total area of Chinese-designated Tibetan autonomy by about 
100,000 square miles. Aside from pockets of long-term Tibetan 
settlement in Qinghai province, most of that area is made up of 
autonomous prefectures or counties allocated to other ethnic groups in 
Qinghai, Gansu, Sichuan, and Yunnan provinces. The area includes 
substantial Han Chinese populations, some established for centuries.
    \13\ ``Spokesman: Differences on Tibet's Definition Persist Between 
China, Dalai Lama,'' Associated Press (Online), 8 July 05.
    \14\ Surojit Mahalanobis, ``Options in Exile,'' Times of India 
(Online), 6 June 03. For example, during this interview in June 2003, 
Samdhong Rinpoche said, ``In Hong Kong, the Chinese have agreed to a 
one-country-two-systems policy. The Dalai Lama is negotiating such a 
status for Tibet.'' He said that ``genuine autonomy'' means, ``A little 
more than what Hong Kong enjoys.''
    \15\ ``The Statement of the Kashag on the 46th Anniversary of the 
Tibetan People's Uprising Day,'' Tibetan Government-in-Exile (Online), 
10 March 05. ``After the return of the third visit of His Holiness's 
envoys last year, and carefully studying the minutes of their 
discussions, we have decided to put more efforts towards negotiations. 
. . . [T]he entirety of the Tibetan population having legitimate rights 
within the constitutional framework of the People's Republic of China 
to enjoy genuine national regional autonomy is the legitimate 
requirement of the Tibetan people. Therefore, the need of such an 
autonomy, equally and uniformly practiced amidst all the Tibetan 
people, has already been emphasized; not just once but many times. We 
would like to once again state that this basic principle can not be 
changed at all.''
    \16\ ``We Have To Accept Ground Realities,'' Outlook India 
(Online), 19 March 05.
    \17\ ``Dalai Lama More and More Unpopular Among Tibetans, Says 
Chairman,'' Xinhua, 31 May 05 (FBIS, 31 May 05). Chairman of the TAR 
government Jampa Phuntsog (Xiangba Pingcuo) said, ``Dalai Lama had 
before put forward a series of ideas puffing [as received] high degree 
autonomy in Tibet or establishing a `big Tibetan area' that involves 
four more Chinese provinces of Sichuan, Yunnan, Qinghai and Gansu. 
However, according to the Chinese history, there was only one `big 
Tibetan area' about one thousand years ago in southwest China but no 
more reappeared thereafter. As far as today's Tibet is concerned, such 
an area is absolutely nothing but impossible.''
    \18\ Aloke Tikku, ``Dalai Envoys Plan China Talks,'' The Telegraph, 
Calcutta (Online), 9 March 05. Samdhong Rinpoche referred to the ``non-
negotiable'' demand for autonomy for all Tibetans and said, ``The 
Chinese thought we were seeking consolidation of Tibetan areas and 
eventually independence. Whether the Tibetans then wanted to be 
governed as one administrative entity or separately is something that 
can be looked at later.''
    \19\ ``Dalai Lama More and More Unpopular Among Tibetans, Says 
Chairman,'' Xinhua. Chairman of the TAR government Jampa Phuntsog said, 
``What Dalai and some Western forces really want is nothing but 
splitting Tibet from China. Whatever the names he invents for Tibetan 
independence, his nature will remain the same.''
    \20\ ``PRC FM Spokesman: US Must Not Use Tibet To Interfere in 
China's Internal Affairs,'' Xinhua, 24 April 05 (FBIS, 24 April 05).
    \21\ ``Transcript: Presidents Clinton, Jiang Debate Rights, 
Tiananmen,'' U.S. Department of State (Online), 27 June 98. During the 
televised debate President Clinton said, ``I reaffirmed our 
longstanding one-China policy to President Jiang and urged the pursuit 
of cross-strait discussions recently resumed as the best path to a 
peaceful resolution. In a similar vein, I urged President Jiang to 
assume a dialogue with the Dalai Lama in return for the recognition 
that Tibet is a part of China and in recognition of the unique cultural 
and religious heritage of that region.'' President Jiang responded, 
saying, ``Just now President Clinton also mentioned the Tibetan issue 
and the dialogue with the Dalai Lama. Actually, as long as the Dalai 
Lama can publicly make the statement and a commitment that Tibet is an 
inalienable part of China and he must also recognize Taiwan as a 
province of China, then the door to dialogue and negotiation is open.''
    \22\ ``TSGs and the Struggle of the Tibetan People,'' Department of 
Information and International Relations, Tibetan Government-in-Exile 
(Online), May 2000; Speech by Secretary Kesang Y. Takla to the Third 
International Conference of Tibet Support Groups, Berlin, 11-14 May 00. 
``First of all I believe that it is the responsibility of His Holiness 
to speak for the Tibetan people, for the status of Tibet, which he has 
always consistently done, and it is entirely for the people of Taiwan 
to speak their voice.''
    \23\ PRC Law on Regional Ethnic Autonomy, adopted 31 May 84, 
amended 28 February 01, preamble: ``The implementation of regional 
autonomy of minority nationalities embodies the spirit of the state 
fully respecting and protecting the right of every minority nationality 
to manage their own internal affairs as well as the principle of the 
state adhering to the principle of equality, unity, and common 
prosperity for all nationalities.''
    \24\ Ibid., art. 7: ``Organs of national autonomous areas should 
place the overall interests of the state in the first place and 
actively fulfill all tasks handed down by higher-level state organs.''
    \25\ Theodore C. Sorenson and David L. Phillips, Legal Standards 
and Autonomy Options for Minorities in China: The Tibetan Case 
(Cambridge, Mass.: Harvard University, Belfer Center for Science and 
International Affairs, 2004), 45.
    \26\ China's Regional Ethnic Autonomy Law: Does it Protect Minority 
Rights?, Staff Roundtable of the Congressional-Executive Commission on 
China, 11 April 05, Written Statement submitted by David L. Phillips, 
Senior Fellow, Council on Foreign Relations.
    \27\ Theodore C. Sorenson and David L. Phillips, Legal Standards 
and Autonomy Options for Minorities in China: The Tibetan Case, 78.
    \28\ Ibid., 78.
    \29\ Tashi Rabgey and Tseten Wangchuk Sharlho, Sino-Tibetan 
Dialogue in the Post-Mao Era: Lessons and Prospects (Washington: East-
West Center, 2004), ix.
    \30\ Ibid.
    \31\ In May 2002, a Commission staff delegation visited the Central 
Nationalities University and the Chinese Center for Tibetan Studies in 
Beijing, the Southwest Minority Nationalities University and the 
Sichuan University Center for Tibetan Studies (Chengdu, Sichuan 
province), and the Tibet Academy of Social Sciences (Lhasa, TAR). In 
September 2003, a Commission staff delegation met with staff of the 
Qinghai Province Ethnic Minority Institute (Xining, Qinghai province), 
and visited the Huangnan TAP Teacher Training College and the Tongren 
Tibetan Language Middle School (Tongren, Qinghai province). In April 
2004, a Commission staff delegation visited the Chinese Center for 
Tibetan Studies in Beijing, the Northwest Nationalities University 
(Lanzhou, Gansu province), and the Gannan TAP Teacher Training School 
(Hezuo, Gansu province). Commission staff impressions were based on 
meetings with administrators, faculty, and students, visits to campus 
facilities, statistics on graduation, and private meetings with experts 
that corroborated Commission impressions.
    \32\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003). Table 2-3, based on persons aged 15 
and over, shows that the Dongxiang, Salar, Baoan, Monba, and Lhoba 
nationalities have higher rates of illiteracy than Tibetans. Table 2-3 
provides rates of illiteracy for Mongols and Uighurs of 8.40 and 9.22 
percent, respectively.
    \33\ Tabulation on Nationalities of 2000 Population Census of 
China. Data provided in Table 2-3 show that 9.08 percent of China's 
population aged 15 and over is illiterate; 47.55 percent of Tibetans 
aged 15 and over are illiterate.Tabulation on the 2000 Population 
Census of the People's Republic of China (Beijing: China Statistics 
Press, August 2002). Data provided in Table 1-8 show that 89,629,436 of 
1,156,700,293 persons aged six and over in China have had no schooling.
    \34\ Tabulation on the 2000 Population Census of the People's 
Republic of China. Table 1-9 provides provincial rates of illiteracy 
based on the illiterate population aged 15 and over.
    \35\ Ibid. Data provided in Table 2-2 show that the highest level 
of education attained by 35.2 percent of Tibetans aged 6 and over is 
primary school.Ibid. Data provided in Table 1-8 show that the highest 
level of education attained by 38.2 percent of China's population aged 
6 and over is primary school.
    \36\ Ibid. Table 2-2 shows that of 1,061,196,336 Han aged six and 
over, 93,677,240 (8.83 percent) reached senior middle school and 
13,323,659 (1.26 percent) reached university. Of 4,791,241 Tibetans 
aged six and over, 81,366 (1.70 percent) reached senior middle school 
and 18,315 (0.38 percent) reached university.
    \37\ Tabulation on Nationalities of 2000 Population Census of 
China. Table 2-1a shows that 8,845 of 137,545 TAR Tibetans aged six and 
over, and classified as ``city'' residents, reached senior middle 
school as their highest level of educational attainment; Table 2-1b 
shows that 5,400 of 211,990 TAR Tibetans aged six and over, and 
classified as ``town'' residents, reached senior middle school; Table 
2-1c shows that 5,999 of 1,808,859 TAR Tibetans aged six and over, and 
classified as ``rural'' residents, reached senior middle school.
    \38\ Ibid. Table 1-2 shows 2,427,168 Tibetans in the TAR. Table 1-
2c shows that 2,058,011 of them are classified as ``rural.''
    \39\ Ibid. Table 1-2 shows the total Tibetan population as 
5,416,021. Table 1-2a shows the ``city'' population of Tibetans as 
221,355. Table 1-2b shows the ``town'' population of Tibetans as 
473,467. Table 1-2c shows the ``rural'' population of Tibetans as 
4,721,199.
    \40\ ``Dalai Lama More and More Unpopular Among Tibetans, Says 
Chairman,'' Xinhua.
    \41\ Wei Wu, ``Tibet at Best Period of Development, Stability,'' 
Xinhua (Online), 2 June 05. Chairman of the TAR Jampa Phuntsog said 
that TAR GDP grew by more than 10 percent for 10 consecutive years and 
reached 12.2 percent in 2004 (21.154 billion yuan). Per capita GDP was 
7,772 yuan, ranking 23rd among 31 provinces, autonomous regions, and 
municipalities. The annual per-capita net income of Tibetan farmers and 
herdsmen was 1,861 yuan. The disposable income of the urban Tibetans 
was 8,200 yuan.
    \42\ Wei Wu, ``Tibet at Best Period of Development, Stability.'' 
Chairman of the TAR Jampa Phuntsog said in an interview, ``The central 
government has poured an annual average of more than 10 billion yuan 
[U.S.$1.2 billion] into Tibet in the past years to start big projects 
and update local infrastructure. Together with investment from other 
channels including civil investment, there is more than 16 billion yuan 
[U.S. $1.93 billion] of investment poured into Tibet annually.'' These 
figures compare to a 21.154 billion yuan GDP in the TAR in 2004.
    \43\ Tibet Information Network (Online), ``High TAR Wages Benefit 
the Privileged,'' 10 February 05. ``Given the predominance of the state 
sector in `staff and worker' employment in the TAR, it is worthwhile to 
look at the specific state-sector wages more closely. Again, average 
money wages of state-sector staff and workers in the TAR were the 
highest in the PRC in 2002, but fell to third place in 2003, just 
behind Beijing and Shanghai. Average state-sector wages in 2003 were 
27,611 yuan in the TAR, compared to 28,406 for Shanghai, and 28,464 
yuan for Beijing.''
    \44\ ``Tibetans Lose Ground in Public Sector Employment in the 
TAR,'' Tibet Information Network (Online), 20 January 05. ``These 
reductions in employment have come at a time when the state-sector has 
been one of the most important and most dynamic sources of growth in 
the TAR. GDP growth rates have been the highest in Western China in 
2002 and 2003, largely fuelled by expansions in state-subsidized 
investment and administrative spending on the state-sector itself. A 
stronger involvement in state-sector employment therefore bears a high 
potential for increasing Tibetan employment. Instead, Tibetan 
employment in the state-sector has been falling, along with state-
sector employment in general. Paradoxically, employment, especially 
Tibetan employment, has been shrinking in precisely the parts of the 
economy that have been growing fastest.''
    \45\ Ibid.
    \46\ ``Qinghai-Tibet Railway to Start Trial Operation in 15 
Months,'' People's Daily (Online), 12 April 05. The 2001 estimated 
budget for construction of the 1,142 kilometer section (710 miles) was 
26.2 billion yuan. Expenditure for 2004 was 6.8 billion yuan, according 
to Vice Minister of Railways Sun Yongfu, and the 2005 allocation is 5.5 
billion yuan. With two-thirds of the work on ``key projects'' 
completed, the cost has been 19.8 billion yuan. (In an interview with 
Commission staff, a Chinese official stated that the cost of the 
railroad is estimated at 30 billion yuan.)
    \47\ ``While Inspecting Qinghai, Wen Jiabao Points Out That It Is 
Necessary To Give Play to the Pioneering Spirit of Hard Struggle in 
Pushing Forward the Grand Strategy of Large-Scale Development of 
China's Western Region,'' Xinhua, 2 May 05 (FBIS, 3 May 05).
    \48\ ``Tibetans Appeal Compensation Over Loss of Homes, Land,'' 
Radio Free Asia (Online), 9 May 05. Tibetans petitioned authorities at 
township, county, and regional level about the reduced compensation, 
but received no help. A local Party official who ``tried to speak out 
on behalf of his community'' was removed from his post. (In interviews 
with Commission staff, private sources reported incidents similar to 
the RFA account. In some cases, authorities warned dissatisfied 
Tibetans to keep silent or face further losses.)
    \49\ Li Dezhu, Minister of State Ethnic Affairs Commission, 
``Large-Scale Development of Western China and China's Nationality 
Problem,'' Seeking Truth, 1 June 00 (FBIS, 15 June 00). ``It is 
conceivable that a phenomenon of `the peacock flying west' will appear 
in keeping with the execution of large-scale western development. Two 
way population flow is an inevitable trend of economic development, 
will promote cultural exchange, and will help to raise the cultural 
level of the western regions.''
    \50\ Provisions of the State Council for Implementing the Law on 
Regional Ethnic Autonomy of the People's Republic of China, issued 26 
May 05, art. 29. ``The state shall encourage and support professionals 
of all levels and types to work or start their businesses in national 
autonomous areas. Local people's governments shall provide them with 
preferential and convenient working and living conditions. Appropriate 
consideration in terms of employment and schooling shall be given to 
the families and children of the professionals of Han nationality and 
other nationalities who go to work in national autonomous areas in 
remote areas and frigid zones where conditions are relatively harsh.''
    \51\ ``No Immigration of Other Ethnic Groups: Tibetan Official,'' 
Xinhua (Online), 26 September 03. Jampa Phuntsog, TAR Deputy Party 
Secretary, said ``there has been no immigration of other ethnic groups 
into Tibet.'' ``Ethnic Tibetans Remain Majority in Tibet: Tibetan 
Chairman,'' People's Daily (Online), 5 September 02. Legchog, then TAR 
Deputy Party Secretary, said that it was an ``absurdity'' to suggest 
that Chinese population could overtake Tibetans. Yixi Jiacuo, ``Raidi 
Meets Hong Kong Journalists, Gives Interview,'' Tibet Daily, 7 August 
01 (FBIS, 7 August 01). Ragdi (Raidi), then TAR Executive Deputy Party 
Secretary, said ``[S]ome people say that with immigration, the Tibetan 
population is greatly reduced and Tibetan culture will be extinguished. 
There is absolutely no basis for such talk.''
    \52\ One of the most common concerns expressed by Tibetans speaking 
privately is that the Han population has increased steadily and 
significantly since the 1980s, especially in towns and cities. 
Commission staff have heard similar comments from foreign experts who 
have visited Tibetan areas over a period of years.
    \53\ Tabulation on China's Nationality: Data of 1990 Population 
Census (Beijing: China Statistical Press, 1993); Tabulation on 
Nationalities of 2000 Population Census of China. According to census 
data, Han population decreased in 10 areas of Tibetan autonomy (listed 
in order of size of decrease): Guoluo prefecture (Qinghai), -25.0 
percent; Hainan prefecture (Qinghai), -22.7 percent; Haibei prefecture 
(Qinghai), -20.2 percent; Huangnan prefecture (Qinghai), -19.2 percent; 
Yushu prefecture (Qinghai), -16.9 percent; Muli county (Sichuan), -16.1 
percent; Aba prefecture (Sichuan), -14.3 percent; Haixi prefecture 
(Qinghai), -9.0 percent; Ganzi prefecture (Sichuan), -7.9 percent; 
Tianzhu county (Gansu), -0.9 percent.
    \54\ Compare Tabulation on China's Nationality: Data of 1990 
Population Census with Tabulation on Nationalities of 2000 Population 
Census of China. Han population increased in three areas of Tibetan 
autonomy (listed in order of size of increase): TAR, +96.2 percent; 
Diqing prefecture (Yunnan), +13.9 percent; Gannan prefecture (Gansu), 
+2.0 percent.
    \55\ Tabulation on Nationalities of 2000 Population Census of 
China. The total Han population in the 13 Tibetan autonomous areas fell 
from 1.52 million in 1990 to 1.47 million in 2000.
    \56\ ``Measures for Fifth National Population Census,'' National 
Bureau of Statistics of China (Online), 23 April 02. Chapter 2, Article 
7, provides the following instructions:
    The following persons should be enumerated in their own townships, 
towns and street communities:
    (1) those who reside in the townships, towns and street communities 
and have had their permanent household registered there.
    (2) those who have resided in the townships, towns and street 
communities for more than half a year but the places of their permanent 
household registration are elsewhere.
    (3) those who have resided in the townships, towns and street 
communities for less than half a year but have been away from the place 
of their permanent household registration for more than half a year.
    (4) those who live in the townships, towns and street communities 
during the population census but the places of their household 
registration have not yet settled.
    \57\ Census day was July 1 in 1990, and November 1 in 2000. The 
population of transient Han workers and vendors in Tibetan areas peaks 
during summer and is declining by November, undermining the reliability 
of direct comparison of 1990 and 2000 data. The shift of census day 
from July to November, however, may not be an adequate explanation for 
significant declines in Han population.
    \58\ Tibet Information Network, TIN Testimonies--Writing in Today's 
Tibet, 19 April 05. (TIN interview with a young Tibetan writer from 
Qinghai province.) ``[I]n my own case, restrictions on what one can 
write about actually enthuses me to write even more. I was able to 
write political things. I was able to conceal political matter in my 
writing. They were not written openly. Generally I write the things 
that I know and that I feel. The things one is not allowed to write 
about, one has to write in a hidden way. For example, `cuckoo' and 
`elder brother' is written to represent the Dalai Lama and this could 
be explained or interpreted as having a different meaning if one is 
asked.'' TIN summarized: ``While open criticism of the system, 
expressions of faith in the Dalai Lama and aspirations to greater 
freedom are off limits, demanding extensive self-censorship, 
descriptions of the Tibetan landscape, the celebration of Tibetan 
cultural icons, and even the use of the Tibetan language itself, are 
perceived as expressions of allegiance to one's `nationality'.''
    \59\ Human Rights in China (Online), ``Tibetan Writer Persecuted 
for Praising Dalai Lama,'' 27 October 04.
    \60\ Ibid. HRIC sources reported that Tibet Journal was banned by 
the UFWD and the Guangdong Provincial Publishing Bureau.
    \61\ Ibid.
    \62\ ``Five Tibetan Monks Jailed in Western China,'' Radio Free 
Asia (Online), 13 February 05. The monks are Abbot Tashi Gyaltsen, 
Tsultrim Phelgyal, Tsesum Samten, Jamphel Gyatso, and Lobsang Dargyal, 
of Dragkar Traldzong Monastery in Xinghai county. They are reportedly 
serving their sentences at a brick factory near Xining.
    \63\ ``The Execution of Lobsang Dondrub and the Case Against Tenzin 
Deleg: The Law, the Courts, and the Debate on Legality,'' Topic Paper 
of the Congressional-Executive Commission on China, February 2003.
    \64\ Official sentencing document: Lhasa Municipal Intermediate 
People's Court, Criminal Court Judgment, No. 52 (2000). ``Defendant 
Jinmei Danzeng Nima is guilty of the crime of attempting to split the 
country. He is sentenced to life in prison and shall be deprived of 
political rights for his lifetime (prison term starting on the day this 
judgment goes into effect).'' (Jigme Tenzin Nyima's Buddhist name is 
Bangri Tsamtrul Rinpoche.)
    \65\ Ibid. Jigme Tenzin Nyima said in his own defense, ``Without 
any evidence, I will absolutely deny having committed any crime 
adjudicated.'' His defense counsel told the court, ``Therefore, the 
facts do not clearly show that defendant Jigme Tenzin Nyima committed 
the crime of trying to split up the country as changed and the evidence 
is not sufficient.''
    \66\ ``New Details on Cases of Tibetan Political Imprisonment,'' 
Tibet Information Network (Online), 9 July 04. According to information 
based on official Chinese sources, Nyima Choedron received a sentence 
reduction of one year six months in 2002, and one year in 2003.
    \67\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Opinions adopted by the Working Group on Arbitrary 
Detention, Opinion No. 13/2003, 26 November 03, 71.
    \68\ Ibid., 74.
    ``The Working Group emphasized, in the report on its visit to China 
(E/CN.4/1998/44/Add.2, para. 43) that `unless the application of these 
crimes is restricted to clearly defined areas and in clearly defined 
circumstances, there is a serious risk of misuse'. That appears to be 
the case in the present instance, inasmuch as the Government, in its 
reply, does not specify the nature of the activities of which the men 
were accused other than founding a peaceful association and 
distributing leaflets and mentions no evidence in support of the 
charges, or if they used violence in their activities.''
    \69\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Decisions adopted by the Working Group on 
Arbitrary Detention, Decision No. 65/1993, 5 October 94.
    \70\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Report of the Working Group on Arbitrary 
Detention: Addendum, Mission to China, 29 December 04, 22.
    \71\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Opinions Adopted by the Working Group on Arbitrary 
Detention, Opinion No. 8/2000, 9 November 00, 70.
    \72\ Steven D. Marshall, In the Interests of the State: Hostile 
Elements III--Political Imprisonment in Tibet 1987-2001 (London: Tibet 
Information Network, 2002), 3. There were nearly 700 known or likely 
Tibetan political prisoners by the end of 1995.
    \73\ Based on data available in the CECC Political Prisoner 
Database for 121 records in June 2005, 85 Tibetan political prisoners 
were known or believed to be serving prison terms, nine were serving 
sentences of re-education through labor, and 27 were awaiting 
sentencing or release, or were of uncertain status.
    \74\ The CECC issued its first Annual Report in 2002.
    \75\ Based on CECC Political Prisoner Database residence data 
current in June 2005 for Tibetan political prisoners, and official 
Chinese data on Tibetan population from the 2000 census:
    (1) Lhasa prefecture had a rate of 80 Tibetan political prisoners 
per million Tibetans (31 political prisoners resided in Lhasa 
prefecture before detention; Lhasa prefecture had a Tibetan population 
of 387,124 in 2000);
    (2) Ganzi prefecture, in Sichuan province, had a rate of 37 Tibetan 
political prisoners per million Tibetans (26 political prisoners 
resided in Ganzi prefecture before detention; Ganzi prefecture had a 
Tibetan population of 703,168 Tibetans in 2000);
    (3) Changdu prefecture, in the eastern TAR, had a rate of 28.4 
Tibetan political prisoners per million Tibetans (16 political 
prisoners resided in Changdu prefecture before detention; Changdu 
prefecture had a Tibetan population of 563,831 Tibetans in 2000);
    (4) Aba prefecture, in Sichuan Province, had a rate of 26.4 Tibetan 
political prisoners per million Tibetans (12 political prisoners 
resided in Aba prefecture before detention; Aba prefecture had a 
Tibetan population of 455,238 Tibetans in 2000).

    Notes to Section VII--North Korean Refugees in China
    \1\ James Seymour, ``China: Background Paper on the Situation of 
North Koreans in China,'' commissioned by United Nations High 
Commissioner for Refugees, Protection Information Section, January 
2005, 17; Edward Cody, ``N. Koreans Fleeing Hard Lives Discover New 
Misery in China,'' Washington Post (Online), 7 March 05.
    \2\ Shin Joo Hyun, ``Underground Burrow, a Refuge of North Korean 
Defectors--7 Years of Living Like Moles,'' The Daily NK, 3 June 05 
(FBIS, 3 June 05); ``North Koreans Spent Years in Chinese Mountain 
Dugouts,'' Radio Free Asia (Online), 14 July 05.
    \3\ Incite Productions, ``Seoul Train,'' documentary produced by 
Jim Butterworth and Lisa Sleeth, November 2004; The Plight of North 
Korean Migrants in China: A Current Assessment, Staff Roundtable of the 
Congressional-Executive Commission on China, 18 April 04, Testimony of 
Joel Charny, Vice President for Policy, Refugees International.
    \4\ James Seymour, ``China: Background Paper on the Situation of 
North Koreans in China,'' 18.
    \5\ ``Hunger Strike Spreading Among Detained North Korean Refugees: 
Reports Indicate New Spirit of Protest,'' Life Funds for North Korean 
Refugees Web site, 25 March 04.
    \6\ Article III(5) United Nations (United Nations High Commissioner 
for Refugees) and China, Agreement on the Upgrading of the UNHCR 
Mission in the People's Republic of China to UNHCR Office in the 
People's Republic of China, UNTS Vol. 1898/1899, I-3237, 11 December 
95, 61-71.
    \7\ Bureau of Population, Refugees, and Migration, U.S. Department 
of State, ``The Status of North Korean Asylum Seekers and the U.S. 
Government Policy Towards Them,'' 11 March 05.
    \8\ Reiterated by a Foreign Ministry spokesman in June: ``Illegal 
DPRK immigrants not refugees: Chinese FM Spokesman,'' Xinhua (Online), 
29 June 05.
    \9\ Democratic People's Republic of Korea Ministry of State 
Security and the People's Republic of China Ministry of Public 
Security, Mutual Cooperation Protocol for the Work of Maintaining 
National Security and Social Order in the Border Areas, 1961.
    \10\ James Seymour, ``China: Background Paper on the Situation of 
North Koreans in China,'' 10; Joel R. Charny, ``Acts of Betrayal: The 
Challenge of Protecting North Koreans in China,'' Refugees 
International, April 2005.
    \11\ ``Interview with High Commissioner Ruud Lubbers,'' Asahi 
Shimbun, 4 August 03.
    \12\ James Seymour, ``China: Background Paper on the Situation of 
North Koreans in China,'' 10.
    \13\ Figure cited in Joel R. Charny, ``Acts of Betrayal: The 
Challenge of Protecting North Koreans in China,'' 5. International 
Refugees notes these figures are ``problematic'' given the lack of 
publicly available data and the fact that many North Koreans in China 
move back and forth across the border seeking temporary employment 
rather than political asylum.
    \14\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2004, China, 
including Tibet, Hong Kong, and Macau, 28 February 05.
    \15\ ``Beijing Turns Blind Eye to N. Korean Kidnappings,'' Chosun 
(Online), 19 January 05.
    \16\ U.S. Department of State, ``The Status of North Korean Asylum 
Seekers and the U.S. Government Policy Towards Them.'' North Korea has 
recently begun to distinguish between returned migrants who sought 
political refugee status in China and those who simply crossed the 
border in search of food or jobs. Treatment of the latter has 
reportedly improved in recent years, though anyone illegally crossing 
the border is still subject to two years of ``labor correction.''
    \17\ Joel Charny, remarks at Refugees International and the Center 
for Strategic and International Studies Briefing, 12 May 05.
    \18\ Convention Relating to the Status of Refugees, 28 July 51 by 
the United Nations Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33.
    \19\ K. Platt, ``N Korea Gets China's Cooperation on Refugee 
Returns,'' Christian Science Monitor (Online), 9 June 00.
    \20\ Joel R. Charny, ``Acts of Betrayal: The Challenge of 
Protecting North Koreans in China.''
    \21\ Joel Charny, remarks at Refugees International and the Center 
for Strategic and International Studies Briefing.
    \22\ ``8 Suspected N. Korean Asylum Seekers Enter Japanese School 
in Beijing,'' Voice of America (Online), 9 March 05. These incidents 
occur on a regular basis. On October 15, 2004, 20 North Koreans entered 
the South Korean consulate, just days after 44 people disguised as 
Chinese construction workers climbed homemade ladders and vaulted into 
the Canadian Embassy in Beijing. North Koreans rushed into a South 
Korean International School in Beijing on October 22 and again on 
December 15, leading Chinese authorities to temporarily close the 
school on December 17. James Seymour, ``China: Background Paper on the 
Situation of North Koreans in China,'' 22; ``ROK Daily: School 
Interruption at Korean School in Beijing, China,'' Tong-a Ilbo, 17 
December 04 (FBIS, 17 December 04).
    \23\ ``8 Suspected N. Korean Asylum Seekers Enter Japanese School 
in Beijing,'' Voice of America (Online).
    \24\ James Seymour, ``China: Background Paper on the Situation of 
North Koreans in China,'' 14. Appendix F, ``Parliamentary Delegation to 
North Korea (DPRK)'' Co-funded by Jubilee Campaign and CSW, 13-18 
September 2003.
    \25\ The United Nations Working Group on Arbitrary Detention ruled 
Choi's deprivation of liberty as arbitrary. UNWGAD, Opinion No. 20/2005 
(People's Republic of China), 11 June 2004.
    \26\ ``Minister Held in Chinese Prison,'' North Korean Refugees Web 
site.

    Notes to Section VIII--Developments in Hong Kong During 2005
    \1\ United States-Hong Kong Policy Act of 1992, Public Law No. 102-
383, as enacted 4 April 90. The Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China, enacted 4 
April 90; Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted 19 December 84.
    \2\ The Basic Law of the Hong Kong Special Administrative Region of 
the PRC, arts. 45 and 68.
    \3\ The chief executive (CE) is the head of the Hong Kong Special 
Administrative Region (HKSAR) and is accountable to both the Central 
People's Government of the PRC and the HKSAR. Basic Law of the Hong 
Kong Special Administrative Region of the People's Republic of China, 
enacted 4 April 90, art. 43.
    \4\ Article 46 of the Basic Law states that the term of office of 
the CE shall be five years.
    \5\ In 1999, the NCPSC issued an interpretation overturning a 
decision by the Hong Kong courts that would have allowed mainlanders 
with a Hong Kong parent to claim residency. In April 2004, the NCPSC 
interpreted the Basic Law to strike down a proposal allowing universal 
suffrage in the elections for the CE in 2007 and Legislative Council in 
2008, despite widespread public approval in Hong Kong. See CECC, 2004 
Annual Report, 104-6.
    \6\ Tung stepped down from office amidst growing public discontent 
with his governance. In December, Hu Jintao urged Tung in a videotaped 
meeting to ``summarize [his] experience and identify inadequacies,'' 
which was widely interpreted as a public expression of Beijing's 
dissatisfaction with Tung's performance. In February, Tung was 
appointed a vice chairman of the Chinese People's Political 
Consultative Conference, setting the stage for his formal resignation 
as CE on March 10. For a detailed account of Tung's resignation 
process, see Frank Ching, ``From Tung to Tsang: Hong Kong's Leadership 
Shuffle,'' Jamestown Foundation China Brief, 21 June 05, 4.
    \7\ A majority of the Hong Kong legal community, including the Hong 
Kong Bar Association and Legal Society, supports the viewpoint that the 
Basic Law only permits a five-year CE term length. Bureau of East Asian 
and Pacific Affairs, U.S. Department of State, U.S.-Hong Kong Policy 
Act Report (Online), 1 April 05. According to Hong Kong political 
analysts, Beijing favored a two-year term because it still did not 
fully trust Donald Tsang, the front-runner in the July CE election who 
served as a civil servant under British rule, and therefore wanted a 
shorter term length as a probationary period. Helen Luk, ``Next Hong 
Kong Leader to Serve Five Years,'' Associated Press, 27 April 05.
    \8\ On April 4, Carl Ching, president of the Grassroots Democratic 
Society, applied for the Hong Kong High Court to review the legality of 
a two-year CE term under the Basic Law. Albert Wong, ``Grassroots 
Leader Files Judicial Challenge to Chief Executive Tenure,'' The 
Standard, 5 April 05 (FBIS, 5 April 05). In a joint letter to the Hong 
Kong government, a coalition of pro-democracy legislators called on the 
government to refrain from seeking an interpretation from the NPCSC. 
They pointed out that the Basic Law contains no provision that allows 
the government to make such a request. Dennis Eng, et al., ``Hong Kong 
`Activist' Seeks Judicial Review of Chief Executive Tenure,'' South 
China Morning Post, 5 April 05 (FBIS, 5 April 05). Despite the 
objections of the pro-democracy camp, Donald Tsang, the acting CE at 
the time, submitted a report on April 6 to the State Council, proposing 
that the State Council request that the NPCSC issue an interpretation 
to resolve the issue. Chris Hogg, ``China to Settle New Hong Kong Chief 
Executive Row,'' BBC News (Online), 6 April 05.
    \9\ A draft interpretation was examined at the 15th session of the 
10th NPCSC (April 24-27). ``NPC Standing Committee Starts to Examine 
Draft Interpretation of HKSAR Basic Law,'' Xinhua, 25 April 05 (FBIS, 
25 April 05). On April 27, the NPCSC formally endorsed the draft 
interpretation. ``Hong Kong Chief Secretary Welcomes Basic Law 
Interpretation,'' RTHK Radio 3, 17 April 05 (FBIS, 27 April 05). For 
the full text of the interpretation, see ``Comparisons-Explanations on 
NPC Draft Interpretation of Hong Kong Basic Law,'' Xinhua, 27 April 05 
(FBIS, 27 April 05). For a detailed analysis of the legal and political 
dimensions of the interpretation, see National Democratic Institute for 
International Affairs, ``The Promise of Democratization in Hong Kong: 
The 2005 Chief Executive Election,'' NDI Hong Kong Report #10, 21 June 
05.
    \10\ Central authorities repeated the consultative exercises it 
adopted during its 2003 interpretation regarding universal suffrage. 
These consultative exercises included meetings with Hong Kong's legal 
sector and local deputies to the NPC, Chinese People's Political 
Consultative Conference and Election Committee. ``Beijing Ruling Likely 
to Trigger `Massive Street Protests' in Hong Kong,'' The Standard, 8 
April 05 (FBIS, 8 April 05).
    \11\ ``Beijing Invites Pro-Democracy Legislators to Air Views on 
Basic Law,'' South China Morning Post, 15 April 05 (FBIS, 15 April 05).
    \12\ Cannix Yau, ``Martin Lee, `Longhair' Not Included in Invite to 
Discuss Basic Law,'' The Standard (Online), 15 April 05 (FBIS, 15 April 
05).
    \13\ A Hong Kong trial court convicted the demonstrators of 
obstructing a public place, willful obstruction of police, and (in the 
case of one demonstrator) assault. In 2003, a lower appeals court 
overturned the public obstruction convictions but upheld the willful 
obstruction and assault convictions. The CFA case upheld the appeals 
court's overturning of the public obstruction conviction and overturned 
the remaining convictions.
    \14\ In the Court of Final Appeal of the Hong Kong Special 
Administrative Region, Final Appeal No. 19 of 2004 (Criminal) (On 
Appeal from HCMA No. 949 of 2002) FACC No. 19 of 2004.
    \15\ Benjamin Wong, ``Police Welcome Falun Gong Ruling,'' South 
China Morning Post (Online), 7 May 05.
    \16\ ``A Balance Between Protesters' Rights and Public Interest 
Needed,'' China Daily (Online), 7 May 05.
    \17\ Ibid.

                                 <all>

</pre></body></html>
